<html>
<title> - PROPOSED FISCAL YEAR 2008 BUDGET REQUEST FOR THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 110-57]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-57
 
  PROPOSED FISCAL YEAR 2008 BUDGET REQUEST FOR THE DEPARTMENT OF THE 
                                INTERIOR

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   TO

 REVIEW THE PRESIDENT'S FISCAL YEAR 2008 BUDGET FOR THE DEPARTMENT OF 
                              THE INTERIOR

                               __________

                           FEBRUARY 15, 2007


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-960                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

DANIEL K. AKAKA, Hawaii              PETE V. DOMENICI, New Mexico
BYRON L. DORGAN, North Dakota        LARRY E. CRAIG, Idaho
RON WYDEN, Oregon                    CRAIG THOMAS, Wyoming
TIM JOHNSON, South Dakota            LISA MURKOWSKI, Alaska
MARY L. LANDRIEU, Louisiana          RICHARD BURR, North Carolina
MARIA CANTWELL, Washington           JIM DeMINT, South Carolina
KEN SALAZAR, Colorado                BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JEFF SESSIONS, Alabama
BLANCHE L. LINCOLN, Arkansas         GORDON H. SMITH, Oregon
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
JON TESTER, Montana                  MEL MARTINEZ, Florida

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
              Frank Macchiarola, Republican Staff Director
             Judith K. Pensabene, Republican Chief Counsel
                      David Brooks, Senior Counsel
         Elizabeth Abrams, Republican Professional Staff Member


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     7
Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     5
Kempthorne, Hon. Dirk, Secretary of the Interior, Department of 
  the Interior; accompanied by Lynn Scarlett, Deputy Secretary; 
  Pamela K. Haze, Director of Budget; and R. Thomas Weimer, 
  Assistant Secretary for Policy, Management and Budget..........    10
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     9
Salazar, Hon. Ken, U.S. Senator from Colorado....................     8

                                APPENDIX

Responses to additional questions................................    35


  PROPOSED FISCAL YEAR 2008 BUDGET REQUEST FOR THE DEPARTMENT OF THE 
                                INTERIOR

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2007

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Good morning. Why don't we go ahead, and let 
me start by welcoming Secretary Kempthorne. I very much 
appreciate him being here. He's always welcome at this 
committee, as he I'm sure knows.
    Let me just take a few minutes to highlight some of my 
initial thoughts about the budget proposal that we've received, 
and then defer to Senator Domenici to make any comments that he 
has, and then call on the Secretary to give us his testimony. I 
should alert people. I did mention to Secretary Kempthorne that 
we've got two votes scheduled at 10:30, and so after probably 
the second bell that they ring for that first vote, we'll go 
into adjournment for about 20 minutes and then come back and 
continue with questions, assuming people still have questions 
at that time.
    I think clearly the administration's, the department's 
budget is an improvement over the funding that was provided in 
the continuing resolution that we just passed yesterday, and 
for that I'm certainly grateful. I do think it's important to 
note that this proposal is below the amount that was 
appropriated for fiscal year 2006, and there are several 
important programs that in my view it fails to adequately fund.
    On the positive side, I very much appreciate the extra 
money the administration is proposing to add to the operations 
of our national parks. I'm concerned that some of the increase 
comes at the expense of other important programs like the Land 
and Water funding or park construction. The historic funding 
level proposed for park operations is significant, and I 
commend Secretary Kempthorne for that.
    The National Park Service budget includes your proposal for 
the National Parks Centennial Initiative, and I'm sure you will 
describe that. As I have understood it, it's a very ambitious, 
potentially $3 billion proposal. The administration is 
recommending an additional $100 million be appropriated 
annually for 10 years for national park operations, and for the 
upcoming year. And the initiative, $3 billion, is made up also 
from $1 billion in private philanthropy and another $1 billion 
in direct spending, as I read the proposal.
    I appreciate and support the effort to secure this new park 
funding. We need to hear more details both about how the Park 
Service intends to raise that private money, substantially more 
as I understand it than the Park Service has historically 
received for this type of work. And also, of course, I have 
some concern about whether there is any intended way to pay for 
the $1 billion in mandatory funding.
    We had quite a debate here in this committee and in the 
Congress when we tried to include mandatory park funding as 
part of the CARA legislation a few years ago. We ran into 
significant opposition, particularly from the Appropriations 
Committee members, about the idea of doing that as mandatory 
funding.
    On BLM issues: the proposal would allow the Bureau of Land 
Management to sell public lands, and this is a proposal that 
has been made now for several years in a row; sell public lands 
and use those proceeds for operational expenses and for 
retiring our Federal debt. I have always opposed the idea that 
that was the way to deal with our deficit or the way to deal 
with our ongoing operational funding needs, and that's still my 
view.
    On the Land and Water Conservation Fund: I'm disappointed 
that the budget continues the proposal to provide very little 
funding for the Land and Water Conservation Fund. This year's 
budget justification for the National Park Service has the 
following sentence in it, which I strongly agree with. It says, 
``Over the past 40 years, the Land and Water Conservation Fund 
has been the most tangible and successful national 
demonstration of these fundamental American values, caring for 
our shared resources and providing recreation opportunities for 
physical activity and spiritual renewal.''
    But while that statement is in the written justification 
for the budget, the budget itself proposes to zero out State 
funding for the Land and Water Conservation Fund and to provide 
only $59 million for Federal land acquisition, which is 7 
percent of the authorized level. That would be, if we actually 
enact that, the lowest funding level in the history of the Land 
and Water Conservation Fund. I know there is strong bipartisan 
support for both the Federal and the State portions of the Land 
and Water Conservation Fund programs, and obviously we will 
work to try to do better than the administration is proposing 
there.
    On PILT: again the proposal this year would cut that PILT 
funding by $46 million below the 2006 funding level, and 
obviously leave it far below the authorized $350 million level.
    On royalties: this is an issue we've already had a couple 
of hearings on, oil and gas and other mineral royalties. That's 
an issue that I hope, Mr. Secretary, and I am confident that 
you and your department will work with us to find a solution 
for that. I think it's essential that we find a way to make the 
Treasury whole, so that the errors that were made by the 
department in earlier drafting of leases back in 1998 and 1999 
not be at the expense of the taxpayer, ultimately.
    On water issues: again, the budget in my view does not 
reflect the very great importance that water has to our 
communities throughout the West. Water programs continue to be 
singled out for significant cuts that I think are ill-advised, 
and I can go into more detail about that and probably will in 
the questions.
    Those are some initial observations on the budget. I look 
forward to a chance to hear more detail about the budget, and I 
defer to Senator Domenici for any comments he has.
    [The prepared statement of Senator Bingaman follows:]

 Prepared Statement of Hon. Jeff Bingaman, U.S. Senator From New Mexico

    Good morning and welcome, Secretary Kempthorne. I would like to 
take a few minutes to highlight some of my observations and concerns on 
the Administration's FY 2008 budget proposal, both with respect to new 
legislative initiatives and the funding levels proposed for key 
departmental programs. While the Department's budget in general is an 
improvement over the funding provided in the continuing resolution, I 
think it's important to note that this proposal is actually below the 
amount appropriated in FY 2006, and in my view fails to adequately fund 
several important programs, which I'll go into in a moment.
    On a positive note, I appreciate the extra money the Administration 
is proposing to add to national park operations. While I am concerned 
that some of the increase is at the expense of other important 
programs, like land and water funding or park construction, the 
historic funding level proposed for park operations is significant and 
I commend you for that.

                  NATIONAL PARKS CENTENNIAL CHALLENGE

    The National Park Service budget includes your proposed National 
Parks Centennial Initiative, which is a very ambitious, potentially $3 
billion proposal. As I understand the initiative, the Administration is 
recommending that an additional $100 million be appropriated annually 
for ten years for national park operations, and for the upcoming year, 
that additional money is included in your increased park operations 
budget. The initiative will also include a proposal to raise another $1 
billion over the same ten year period through private philanthropy. 
That funding would be matched by an additional $1 billion in direct 
spending, so that for every dollar raised, another dollar of federal 
money would be made available, but without the need for a new 
appropriation.
    While I certainly appreciate and support your efforts to secure new 
park funding, we have not yet heard many of the specific details. For 
example, I understand that presently, the National Park Foundation--the 
Park Service's primary fundraising partner--rarely raises more than $20 
million in cash donations in a single year, and the total of all 
private cash contributions the Park Service receives is around $40 
million. I would like to better understand how you realistically expect 
to raise the $100 million each year above and beyond current donations.
    Second, we have not yet seen how the Administration intends to pay 
for the proposed $1 billion in mandatory funding. Several years ago I 
tried to include a mandatory park funding proposal as part of the CARA 
legislation, and we ran into significant opposition, especially from 
the Appropriations Committee, in large part because of the mandatory 
spending, so I think that aspect of the initiative will be closely 
followed.
    Nonetheless, I support the intent of the initiative, and I look 
forward to working with you as this concept is developed.
    With that positive review out of the way, let me briefly highlight 
a few areas of real concern to me.

                             BLM LAND SALES

    I am troubled that the Administration will again propose 
legislation to allow the Bureau of Land Management to sell public land 
and to use some of the proceeds from those sales for operational 
expenses, with the majority of funds deposited into the Treasury for 
debt retirement. When this proposal was submitted last year, it was 
soundly rejected on both sides of the Capitol, by both parties. Frankly 
I don't think it will be received any better this year.
    Selling public land for deficit reduction or agency operational 
funding needs is, in my view, an extremely short-sighted policy, and 
one that I will oppose.

                                  LWCF

    I am also disappointed that this budget continues the 
Administration's practice of providing very little funding for the Land 
and Water Conservation Fund. This year's budget justification for the 
National Park Service, includes the following statement: ``Over the 
past forty years, the Land and Water Conservation Fund has been the 
most tangible and successful national demonstration of these 
fundamental American values: caring for our shared resources and 
providing recreation opportunities for physical activity and spiritual 
renewal.'' I find it ironic that this statement--which I believe 
accurately states the success of the program--is followed by a proposal 
to zero out the State portion of the LWCF and only provide $59 million 
for federal land acquisition, which represents less than 7 percent of 
the full authorization, which would be the lowest funding level in the 
history of the LWCF.
    I know there is strong bipartisan support for both the Federal and 
State Land and Water Conservation Fund programs and I will work to see 
if funding for both the Federal and State LWCF programs can be 
significantly increased.

                                  PILT

    The Administration is again proposing to cut funding for the 
Payment in Lieu of Taxes, or PILT program. The proposed cut this year 
is over $46 million below the 2006 funding level, and far below the 
authorized level of about $350 million. I understand that this has 
become an annual budget game--the Administration proposes to cut 
funding and the Congress adds it back in--but it's too bad the 
Administration is not trying to help.

                        ROYALTIES AND OVERSIGHT

    There are many issues at the Department relating to the production 
of oil and gas and other minerals that warrant our attention, and we 
will do our best to provide adequate oversight. One priority involves 
royalties. The Committee has already conducted hearings on problems 
relating to royalty management and I am pleased that we have had an 
opportunity to talk about this.
    I know that you will work with us in trying to solve the difficult 
issues relating to the 1998 and 1999 OCS leases that omitted price 
thresholds, resulting in billions of dollars of royalty-free 
production. I also have ongoing concerns regarding the compliance 
review and auditing process and hope that we will see improvements 
there.
    Other key issues include ensuring that there are adequate resources 
to administer all the multiple uses of our public lands. Also, I have 
had a longstanding interest making certain that the onshore oil and gas 
leasing program places adequate emphasis on inspection, enforcement, 
and monitoring.

                              WATER ISSUES

    In my view, the Department's budget for water programs within the 
Bureau of Reclamation and the USGS is inconsistent with the importance 
of water to communities across the West. Water programs continue to be 
singled out for significant cuts which I find ill-advised, particularly 
given that Federal law and policies impact water management in most 
every State.
    The Bureau of Reclamation's budget, at $966 million, is over 6 
percent below the FY '06 funding levels. The proposed decrease comes in 
the face of a growing backlog of rural water, water recycling, water 
conservation, and river restoration projects that many communities are 
depending on to help meet future water demands, while at the same time 
reducing conflicts over water. Congress has worked with the 
Administration in a number of these areas, such as the recently enacted 
Rural Water Supply Act, with a goal of tightening up the criteria and 
cost-shares for water-related projects. I expected that the 
Administration would try to meet us half-way by offering some level of 
support for funding these critical items and addressing the existing 
backlog. Reclamation's budget falls short of that expectation.
    Just as important as infrastructure and improved water management, 
is an increased understanding of our water resources. The USGS water 
science budget fares slightly better than Reclamation's--with a 
proposed decrease of only 1 percent below the FY '06 funding level. 
This still raises concerns as the water-related challenges facing us 
are enormous. Drought, climate change, population increases, 
groundwater mining, water quality issues, and public demand for healthy 
rivers are putting water managers to the test across the United States. 
In an era of intense competition for limited water supplies there is a 
strong need for more refined water management strategies. This requires 
a comprehensive understanding of our hydrologic systems. Federal 
leadership, in partnership with State and local water managers, is 
critical to this effort.
    Those are my initial observations on this budget. I look forward to 
discussing these issues in greater detail after we hear from Senator 
Domenici and then Secretary Kempthorne.
    Thank you.

   STATEMENT OF HON. PETE V. DOMENICI, U.S. SENATOR FROM NEW 
                             MEXICO

    Senator Domenici. Thank you very much, Mr. Chairman, and 
welcome, Mr. Secretary. I hope you are--not that I am assuming 
you did not enjoy the job from the beginning--but I hope the 
office is beginning to settle in and that you're enjoying it 
more every day. It's a marvelous department. It had a lot of 
problems, and you're going to be charged with trying to fix 
some of them, and there are many of them there to use your 
skills and effort on.
    So I thank you for coming, and Mr. Chairman, I'm glad you 
were able to get the Secretary here. The budget document is of 
utmost importance because it really essentially tells him and 
us where that department is going.
    Let me begin by saying that we are confronted today by a 
critical need to reduce the dependence on foreign energy 
sources. As we seek solutions in science and technology to move 
us away from fossil fuels, we must acknowledge that our energy 
security still rests on the vitality of domestic oil and gas 
supplies in the near term and clearly on what we must import to 
meet our needs.
    In December we took a very important step to enhance our 
energy security with the enactment of the Gulf of Mexico 
Security Act of 2006. This law opened 8.3 million acres in 
Lease Sale 181 and the area south of 181 of the Gulf of Mexico 
for oil and gas leasing. I note that you have been taking the 
importance of that leasehold seriously, and the fact that we in 
the Congress changed the law so we could get on with using more 
of that Outer Continental Shelf. Twenty-five years it was 
frozen. And you are now busy out there trying to get the job 
done, and we thank you for that.
    The implementation of the law holds the potential to bring 
an estimated 1.26 billion barrels of oil and 5.8 trillion cubic 
feet of natural gas to market over the next several years, and 
it also sets an example for perhaps expanding into other areas 
where we have not heretofore permitted drilling. There is 
enough energy on the leasehold that I have described to heat 
and cool approximately 6 million homes for 15 years. That's a 
pretty good find, and something we ought to get on with 
developing as soon as possible.
    It has been 2 months since the Gulf of Mexico Energy 
Security Act was signed into law. The law provided that the 
administration will begin leasing in the newly opened 181 area 
within a year of enactment. I was disappointed by MMS's 
announcement yesterday that they expect to begin leasing in 
March 2008. I had expected you would be able to meet the 1-year 
requirement set forth in the law.
    However, I understand the importance of and share your 
interest in completing all the necessary environmental work, 
and I understand you are moving right along but you will be 3 
months late. I hope you don't have to miss any more time, and I 
would hope that if you anticipate that, that you would let the 
committee know, because we are talking to constituents and to 
our own people about what that does, and we don't want to be 
put in a position where we've been telling a tale that isn't 
so.
    Another topic, and I'm looking forward to it with great 
anticipation, is taking advantage of reserves that we have that 
come through shale oil. I think the department has done a 
wonderful job since the adoption of the Energy Policy Act. 
Section 369 directs you to enter into and undertake several 
actions in order to promote the development of this 
unconventional resource.
    I hope you are aware of it, Mr. Secretary, and I hope you 
put it on the front burner, not the back burner. The potential 
is truly there, and when a company like Shell Oil invests large 
amounts of money to demonstrate that they can make this work, 
that's the best news we could have. When they put so much money 
into its development, that indicates far more than us doing a 
research project. They are right on the edge of making this a 
reality, and I hope you have assigned some people to stay in 
touch with Shell Oil so that we will all know what's happening.
    We felt that section 365 was necessary to give you the 
resources to expedite oil and gas permitting. This section 
authorizes the establishment of pilot offices for expediting 
the application for permit to drill on this property.
    We created that section and were quite sure that we had 
done something exciting. That was to establish pilot projects, 
pilot centers, where all of the permitting would be done on one 
site. Now, Mr. Secretary, that is working. All you have to do 
is go ask the BLM.
    Now, you are recommending that that section be repealed 
because you want the permittees to pay more money for the 
permits, so that we won't have to pay for the permitting 
activities out of the general fund like we do on every other 
permitting activity. I'm not going to support the repeal. I 
think we ought to get on with using it and paying for it. So I 
don't think you have a chance of getting a repeal, and I don't 
think you should push for it. I think you should put it in your 
budget and make sure you find the money to pay for it, because 
it will work.
    I ask that the remainder of my statement be made a part of 
the record, other than to remind you that you have committed to 
work with us on three water settlements in New Mexico, and so 
far you're doing a good job. Your people are working at it. We 
haven't found solutions but we're working at it.
    Thank you. Thank you, Mr. Chairman.
    [The prepared statements of Senators Domenici, Akaka, 
Salazar, and Menendez follow:]

    Prepared Statement of Hon. Pete V. Domenici, U.S. Senator From 
                               New Mexico

    Thank you, Chairman Bingaman. Good morning, Mr. Secretary. I want 
to thank you for coming to testify on the Department of the Interior's 
Budget Request for FY2008. It is your first opportunity to testify 
before this Committee on an Interior budget, and it's great to have you 
here.
    Let me begin by saying that we are confronted today by a critical 
need to reduce this nation's dependence on foreign energy sources. As 
we seek solutions in science and technology to move us away from fossil 
fuels, we must acknowledge that our energy security still rests on the 
vitality of domestic oil and gas supplies in the near term.
    In December, we took a very important step to enhance our energy 
security with the enactment of the Gulf of Mexico Energy Security Act 
of 2006. This law opened 8.3 million acres in Lease Sale 181 and the 
area south of 181 of the Gulf of Mexico for oil and gas leasing.
    The implementation of this law holds the potential to bring an 
estimated 1.26 billion barrels of oil and 5.8 trillion cubic feet of 
natural gas to market over the next several years. This is enough 
energy production to heat and cool approximately six million homes for 
15 years.
    Mr. Secretary, it has been two months since the Gulf of Mexico 
Energy Security Act was signed into law. The law provides that the 
Administration will begin leasing in the newly-opened 181 area within 
one year of enactment. I was disappointed by MMS' announcement 
yesterday that they expect to begin leasing in March 2008. I had 
expected you would be able to meet the one-year requirement set forth 
in the law. However, I understand the importance of and share your 
interest in completing all necessary environmental work. I am pleased 
you are moving forward and I hope you will keep me apprised of your 
progress as you move toward the goal of beginning the leasing process. 
I am confident that you share my interest in getting this domestic 
energy on-line as soon as possible.
    On another topic, as you know, I am looking forward with great 
anticipation to this country taking advantage of its tremendous oil 
reserves from oil shale. The Department of Energy estimates that 
technically recoverable oil shale in the United States is roughly 
equivalent to three times Saudi Arabia's oil reserves. Section 369 of 
EPAct directs the Secretary of the Interior to undertake several 
actions in order to promote the development of unconventional resources 
such as oil shale. I am very pleased that you included $4.4 million for 
ongoing oil shale activities. This is an increase of $1 million from 
the FY2007 request. I am looking forward to working with you to 
continue to spur development of this resource.
    Next, I want to note that while I recognize many areas in your 
request to implement provisions of the Energy Policy Act of 2005, I am 
disappointed that you have requested the repeal of several provisions 
of Section 365, related to oil and gas permitting and development.
    We felt that Section 365 was necessary to give you the resources to 
expedite oil and gas permitting. EPAct authorized the establishment of 
pilot offices for expedited processing of Applications for Permit to 
Drill (APDs). So far, this program has yielded progress in getting APDs 
out the door more quickly. The number of APDs received and processed in 
2006 was an increase over 2005.
    The repeal of these Section 365 provisions would cause oil and gas 
permit applicants to incur fees to fund the pilot offices. It concerns 
me that you would seek to burden the applicants with this additional 
cost when Section 365 provided a way to fund the pilot offices without 
new fees.
    Finally, I want to reiterate my concern about the Department's lack 
of progress in resolving Indian Water Settlements, particularly in New 
Mexico. Un-adjudicated Indian water rights claims in the western United 
States pose a serious impediment to effective water management in the 
West.
    During your confirmation hearing before this Committee, you 
committed to Senator Bingaman and me that you would make New Mexico 
Indian water rights settlements a priority. These include the Aamodt, 
Abeyta and Navajo settlements. I want to say for the record that your 
proposed budget of $34 million for the Indian Land and Water Claims 
Settlement Fund is not adequate, particularly considering that the 
Aamodt, Abeyta, and Navajo settlements will require a federal 
contribution of approximately $1.1 billion. We want to work with you to 
find a solution to funding these very important settlements.
    Again, thank you for being here, Mr. Secretary. I look forward to 
working with you on these issues.
                                 ______
                                 
  Prepared Statement of Hon. Daniel K. Akaka, U.S. Senator From Hawaii

    Thank you, Mr. Chairman, for calling this hearing on the Department 
of the Interior's FY 2008 budget proposal.
    Mr. Secretary, it is good to see you again, and I appreciate your 
phone call last week regarding the Centennial Challenge initiative for 
the National Park Service.
    The Park Service operational budget increases are much needed. As 
you may know, I have been a strong advocate for increasing operational 
funds, and for the past several years I have worked with Senator Thomas 
to urge our colleagues on Appropriations to increase the funding for 
the National Park Service. I am glad to finally see a real increase for 
base funding for Parks. I also am pleased to see the new Centennial 
Initiative to work with non-profit organizations, donors, and 
volunteers. I look forward to working with you on this.
    While I have specific questions, I am pleased to see specific 
funding for Kalaupapa, Midway Island, the USS Arizona Memorial, and the 
seasonal employees for Hawaii's parks. As usual, I am disappointed to 
see the very small amount of funding for the federal land and water 
conservation fund and the elimination of the Stateside LWCF. My state's 
Department of Land and Natural Resources needs the funding from these 
programs. Without them, Hawaii would have to cut back on activities and 
services for endangered species and park management. These state 
programs are part of the ongoing partnership with states and state 
wildlife agencies. We should not step back from our commitment to 
states.
                                 ______
                                 
   Prepared Statement of Hon. Ken Salazar, U.S. Senator From Colorado

    Thank you Mr. Chairman and Ranking Member Domenici. I want to 
welcome Secretary Kempthorne to today's hearing.
    The Department of Interior is critically important to the state of 
Colorado. The Department of the Interior manages over eight million 
surface acres and over five million subsurface acres in Colorado. 
Almost every Coloradoan is in some way affected by the budget and 
priorities of the Department of the Interior. Millions of Coloradoans 
and visitors to our state visit the National Parks, hike the Historic 
Trails, hunt on BLM lands, or heat their homes with natural gas 
extracted under a BLM lease.
    I want to begin by saying that I am pleased to see the importance 
this budget places on the operation of the National Park System. The 
increase in the FY2008 budget for the operation of the National Park 
System is much needed, and I am encouraged by the Administration's 
stated commitment to the National Parks' Centennial Challenge. The 
increased investment in the Rivers Trails and Conservation Assistance 
program will support the good efforts of organizations like Groundwork 
Denver that are working to build healthy and prosperous communities. 
Increased investment in the Relationship with Youth Partnership 
Programs will help to get young people involved in the conservation of 
the natural resources of the state of Colorado.
    But our commitment to our public lands shouldn't stop at the 
boundaries of our national parks. We have many other crown jewels in 
Colorado, like Canyons of the Ancients National Monument and Gunnison 
Gorge National Conservation Area, which are managed by the BLM and part 
of the National Landscape Conservation System. These are the most 
precious of our BLM lands, yet this budget is proposing a $10 million 
cut in funding for their management--that comes out to less than $2 per 
acre. Meanwhile, studies are showing that cultural, natural, and 
historic resources on these lands are rapidly degrading.
    I'm also perplexed by the budget proposal to eliminate the Land and 
Water Conservation Fund stateside grants program. In Colorado, these 
funds are critical investments in playing fields, trails, and open 
space protection. These projects are the quintessential example of 
cooperative conservation, with local communities matching their 
investment with federal investment. I fought hard for LWCF stateside 
last year, and I will do so again this year.
    In addition to these concerns I have about the stewardship of our 
public lands, I want to say that I am deeply troubled by how this 
budget affects rural Colorado. In particular, this budget makes steep 
cuts to the Payment in Lieu of Taxes, or PILT, program, which is so 
important to Colorado counties like Rio Blanco and San Miguel, Conejos 
and Saguache, Grand and Gunnison. PILT provides money to communities 
that include federal lands (such as National Forests and/or Bureau of 
Land Management lands) to compensate for the fact that these federal 
lands do not pay taxes. In 2006, this program helped pay teachers, 
police neighborhoods, and pave roads in 52 counties in Colorado. The 
President's budget of $190 million would cut this program by 20% from 
the 2006 appropriated levels. This is a serious blow to rural America.
    Finally, I'm looking forward to hearing more about how this budget 
addresses the needs of western Colorado, where communities are 
experiencing rapid growth in energy production. These communities are 
often enthusiastic about expanded BLM oil and gas leasing activities in 
their area because they want to play a role in moving America toward 
energy independence. But these rural communities also care deeply about 
their land and water. They want to contribute to expanded domestic 
energy production while still preserving their natural heritage and a 
quality of life that attracts residents, visitors, and businesses.
    This budget proposes a modest increase for inspections and 
monitoring for oil and gas development. That's a first step, but we 
must be sure the budget for inspections and monitoring is sufficient to 
match the rapid expansion of oil and gas leasing activities. Our rural 
communities deserve high standards and safeguards if they are to help 
carry us toward energy independence.
    Mr. Chairman, I thank you again for holding this hearing and I look 
forward to hearing from Secretary Kempthorne on these issues, and a 
range of others, that are so important to the state of Colorado.
                                 ______
                                 
     Prepared Statement of Hon. Robert Menendez, U.S. Senator From 
                               New Jersey

    Thank you, Mr. Chairman, for allowing us the chance to discuss the 
President's proposed Fiscal Year 2008 budget for the Department of the 
Interior, and thank you, Secretary Kempthorne, for taking the time to 
share your thoughts and ideas with this committee.
    Let me say first that I am encouraged by the possibilities that are 
open to us with the unveiling of the Centennial Initiative for the 
National Parks Service. I believe that our National Parks deserve to be 
maintained as the crown jewels of our national heritage, and that new 
funding for maintenance, personnel, and operations will go a long way 
toward ensuring that our grandchildren will still be able to enjoy the 
natural beauty of our country. I'm pleased to see the Delaware Water 
Gap National Recreation Area, for example, receive an increase of over 
half a million dollars for personnel within the borders of the park.
    I am especially intrigued by the opportunities available to us by 
the private philanthropy program that would match donations with funds 
from the Treasury. It is my hope that Ellis Island, a national icon and 
a symbol of the American dream, will be considered as one of the 
initiative's ``signature projects'' eligible for the matching program, 
and I was pleased to see it highlighted in the Department's budget 
request. For several years, a dedicated group of private citizens has 
been working to preserve and protect the south portion of Ellis Island, 
which is part of New Jersey. Although not as well known as the main 
building, this portion contains structures that are just as historic, 
and were just as vital for the millions of immigrants who passed 
through the island seeking a better life in this country. This is 
exactly the type of private effort that the Centennial Initiative 
should be rewarding with matching funds from the federal government, 
and I look forward to learning more about the process of selecting 
sites and soliciting funds.
    While this budget proposal takes several steps in the right 
direction for the future of our parks, I am disappointed to see that 
the Bush Administration continues to under-prioritize the conservation 
of our open spaces. For the third consecutive year, the Administration 
is proposing to zero out the stateside Land and Water Conservation Fund 
(LWCF), which has already seen a decrease from $140 million five years 
ago to $28 million last year. This program is an invaluable resource 
for all 50 states, providing funds for land acquisition and 
rehabilitation as well as protection of natural resources such as open 
space and clean water. Since 1966, when the LWCF program was 
instituted, New Jersey has received over $110 million in LWCF stateside 
grant funding, which has been used to preserve nearly 74,000 acres of 
open space and fund 241 park and recreation projects statewide. These 
projects span the state, from large acquisitions in the Highlands and 
Pinelands to small acquisitions along New Jersey's Hudson River 
waterfront. Liberty State Park in Jersey City has gone from a derelict 
waterfront to being one of the premier urban waterfront parks in the 
United States, thanks to $6.5 million in LWCF assistance. Furthermore, 
it is also disappointing to see the administration propose another 
severe cut in funding for federal land acquisition under the LWCF. The 
$58 million proposed in the budget represents a staggering 86% drop 
from Fiscal Year 2002, and will shortchange land acquisition and 
protection efforts across the country.
    I am also deeply concerned by the continuing budget shortages 
within our National Wildlife Refuges. Although the FY08 budget contains 
a $12 million dollar increase for these programs, this doesn't keep up 
with inflation, and will do nothing to address the severe staffing 
shortfalls that we are seeing in New Jersey and other states. One of 
our refuges has been completely de-staffed, and others are seeing cuts 
in law enforcement personnel, administrative staff, and wildlife 
biologists. This situation has left places such as the Barnegat region 
of the Edward B. Forsythe National Wildlife Refuge vulnerable to 
vandalism, crime, illegal ATV use, the encroachment of invasive 
species, and danger to the wildlife itself.
    Finally, I am concerned about the implementation of the Minerals 
Management Service Five-Year Plan for leasing activity and drilling 
along the Outer Continental Shelf, which in its most recent incarnation 
included a region off the coast of Virginia, less than 80 miles from 
New Jersey's beaches. Tourism is a $26 billion industry in New Jersey, 
and is responsible for over 10 percent of the state's jobs. Our vibrant 
commercial and recreational fisheries are among the largest in the 
nation, generating over a billion dollars in revenue. In addition, the 
environmental value of our coastline--which provides crucial habitat 
for wildlife and a critical resting spot for countless migratory 
birds--is almost incalculable. Drilling in the Mid-Atlantic region 
would put all of this at enormous risk, and I urge the Secretary to 
ensure that the final 5-year plan respects both the Presidential 
withdrawals and Congressional moratoria in this region, and does not 
include any drilling in the Mid-Atlantic.
    Our parks and our historic places are an important component of our 
collective American heritage. Our children are raised on family trips 
to places such as the Jersey Shore, school field trips to local 
historic places such as Thomas Edison's laboratory, and afternoons with 
their friends in our local parks. These, however, are not and cannot be 
the sole priorities for the Department of the Interior. I would urge 
the Secretary and the Bush Administration to reconsider the lopsided 
values presented in this budget proposal, and take into account all of 
the open spaces and national treasures within our borders that are 
desperate for our attention and funding.

    The Chairman. Thank you very much, Senator Domenici.
    Why don't we go right ahead with your statement, Mr. 
Secretary? We welcome you again to the committee and look 
forward to hearing from you.

STATEMENT OF HON. DIRK KEMPTHORNE, SECRETARY, DEPARTMENT OF THE 
   INTERIOR; ACCOMPANIED BY LYNN SCARLETT, DEPUTY SECRETARY; 
   PAMELA K. HAZE, DIRECTOR OF BUDGET; AND R. THOMAS WEIMER, 
     ASSISTANT SECRETARY FOR POLICY, MANAGEMENT AND BUDGET

    Secretary Kempthorne. Mr. Chairman, thank you very much, 
and to you and to the distinguished members of the committee, 
it's a great pleasure and honor for me to be here today to 
present to you the 2008 fiscal year budget for the Department 
of the Interior. Having served with many of you in the Senate, 
I know from personal experience that establishing a budget is 
one of the most critical responsibilities that you have. It is 
also one of the most complex and difficult duties.
    In undertaking this task, I committed to ensure that the 
Department of the Interior and its agencies would maintain high 
levels of service to the American people and reach for even 
higher levels of excellence. I look forward to working with 
you, Mr. Chairman, and other members of the committee, to 
achieve this goal as we move forward in the budget process.
    The President's 2008 budget request for the Department of 
the Interior is $10.7 billion, nearly $450 million or around 
4.5 percent above the 2007 continuing resolution spending 
level. Within this budget request, our budget includes an 
increase of $214 million to fully cover the fixed costs of the 
entire department. That was critical to us.
    My formal testimony outlines many specific features of our 
budget. This morning I'd like to focus on four initiatives that 
are included. First, our National Parks Centennial Challenge 
will enhance our national parks as we approach the 100th 
anniversary of the National Park System in the year 2016. Our 
Healthy Lands Initiative will allow us to protect critical 
lands and habitat while providing domestically produced energy 
for the Nation. Our Safe Indian Communities Initiative will 
combat the methamphetamine crisis on Indian lands. And through 
our Improving Indian Education Initiative, we will prepare 
Indian children to prosper as adults.
    Our first initiative, the National Parks Centennial 
Challenge, will be a decade-long partnership with the American 
people to renew and to revitalize our National Park System for 
its 100th anniversary in 2016. Our national parks express who 
we are as a Nation, our history, our culture, and our 
spectacular lands. Our Centennial Initiative will prepare our 
parks for a second century of excellence.
    To inaugurate this effort we propose $2.1 billion for park 
operations, a $258 million increase over the 2006 enacted 
budget. This historic increase for operations will bring some 
3,000 additional seasonal rangers and other employees to our 
parks. As part of this operating budget, we propose a 
Centennial Commitment of $100 million to upgrade both our park 
infrastructure and the experiences of people visiting the 
parks.
    Through the Centennial Commitment, we will repair 
buildings, improve landscapes, and enroll more children in the 
Junior Ranger Program. We will expand interactive experiences 
for today's technologically savvy young people. Mr. Chairman 
and members of this committee, as I announced our Centennial 
Challenge last week to park superintendents and to park 
advocates, they greeted the announcement with sincere 
enthusiasm.
    In addition to increased operating funds, we are requesting 
$100 million under our initiative to match $100 million in 
contributions by Americans for signature projects and programs. 
Our budget request anticipates Centennial Challenge funding 
will continue at this level for the next 10 years, providing an 
additional $3 billion over the next decade to support our 
parks. I look forward to joining with all Americans in a 
historic celebration of our national parks in 2016.
    Our second initiative, the Healthy Lands Initiative, will 
restore nearly half a million acres of Federal land in six 
targeted areas of the West through cooperative conservation. 
These areas face competing uses of the land for wildlife 
habitat, recreational opportunities, and energy production.
    We're requesting $22 million to fund partnerships with 
local communities and conservation groups and companies to 
rehabilitate and protect working landscapes. We anticipate our 
partners will provide an additional $10 million to leverage 
Federal funds.
    Our Healthy Lands Initiative combines new Federal funding 
for habitat protection with a new vision of land management. We 
propose to transition from parcel-by-parcel land use planning 
to landscape-scale management. This holistic approach will 
enable us to provide access to energy while simultaneously 
preserving important habitat corridors and other significant 
habitat for species such as sage grouse.
    I've spoken about our vision for managing and preserving 
our lands for future generations to enjoy. We're also proposing 
two initiatives to ensure that future generations of Native 
Americans have safe and secure communities to call home.
    Methamphetamine has devastated communities and families 
across the Nation, yet few places have seen more devastation 
than Indian Country. Tribal leaders I have met with describe a 
methamphetamine crisis that has the potential to destroy an 
entire generation if left unattended. They refer to it as the 
second smallpox epidemic. At one reservation hard-hit by this 
crisis, an estimated 25 percent of babies are born addicted to 
methamphetamine.
    One of the challenges we face is a lack of adequate law 
enforcement on many tribal lands. As a result, organized crime 
has targeted Indian reservations as a hub for the distribution 
and transportation of methamphetamine.
    We're requesting $16 million in new investments for our 
Safe Indian Communities Initiative, to empower tribes to shut 
down these peddlers of poison. With these funds, we will help 
tribes hire the additional officers and provide specialized 
drug enforcement training they need to protect their 
communities. This is more than a budget issue. This is a moral 
issue. We must end this scourge.
    It's not enough to protect Indian children. We must also 
guide them to a brighter future through educational 
opportunities. Over the past 5 years, we have significantly 
improved the condition of Indian Country schools, and yet just 
30 percent of our schools are meeting their No Child Left 
Behind Act goals.
    We're requesting $15 million in new funding under our 
Improving Indian Education Initiative to help Indian children 
succeed. We'll enhance educational programs and provide new 
tools for lower-performing schools. Every child in America 
deserves to be kept safe. Every child in America deserves a 
chance for high quality education. Our initiatives will help 
ensure that the dreams of today's youth become the realities of 
tomorrow.
    I believe that our 2008 budget will, in its entirety, make 
a dramatic difference for the American people. We will better 
conserve our public lands. We will improve our national parks. 
We will protect our wildlife and its habitat. We will help 
craft a better future for Indian Country, and particularly for 
Indian children. And we will produce the energy that America 
needs to heat our homes and run our businesses.
    Mr. Chairman, I again thank you for the courtesies which 
you have always shown me and the opportunity to appear before 
your committee today. I'll be pleased to answer questions that 
you have about these initiatives and about the other provisions 
in the 2008 budget, and my formal statement has been made 
available to you.
    [The prepared statement of Secretary Kempthorne follows:]

 Prepared Statement of Hon. Dirk Kempthorne, Secretary of the Interior

    It is a pleasure to appear before you today to discuss the 
President's FY 2008 budget for the Department of the Interior. This is 
my first appearance before this Committee since my confirmation 
hearings last March. During my time in the Senate, I had the pleasure 
of serving with eleven of the current members of this Committee. I 
considered you my friends and colleagues then and hope to work with all 
of you in that capacity now as we chart the future course for what I 
consider to be one of the most interesting and important cabinet 
agencies: the Department of the Interior.
    Since becoming Secretary, I have traveled extensively in order to 
see Interior at work and to talk with Interior employees. I have 
addressed thousands of Interior employees. I have been impressed by the 
dedication and experience of the talented and dedicated Interior 
workforce. Every day, a Bureau of Indian Education teacher, a park 
ranger, a biologist, geologist, naturalist, or land manager is making a 
difference to help Interior fulfill its responsibilities.
    Developing a budget for the Department of the Interior is an 
extraordinary exercise. We have an extensive mandate that rivals just 
about any governmental agency in its breadth and diversity--and its 
importance to the everyday lives of our citizens. Our 73,000 employees 
live and work in communities across America and its territories. We 
have 2,400 field offices. We manage 145,000 assets--second only to the 
Department of Defense. Our work stretches from pole to pole from 
wildlife refuges in the Arctic to scientific research at the South 
Pole.
    Managing one in every five acres in the United States, we oversee 
land and resources that stretch across 12 time zones from the Caribbean 
to the Pacific Rim. The sun literally never sets on the Department of 
the Interior. We have the third largest contingent of Federal law 
enforcement officers, with 3,400 officers and agents. We oversee over 
800 dams and irrigation projects. Interior-managed lands and water 
generate one-third of the Nation's domestic energy supply. The 
Department serves American Indians, including 561 federally recognized 
Tribes, Alaska Natives, and our Nation's affiliated island communities. 
We undertake research and provide information to understand the Earth 
and assist us in the management of the Nation's water, biological and 
mineral resources, and monitor all manner of natural hazards including 
volcanoes, earthquakes, and landslides. We also work with States to 
restore abandoned mine land sites and protect communities.
    Our overall 2008 request for the Department of the Interior is 
$10.7 billion. Taking into account the shift of funding for the 
Abandoned Mine Land program from discretionary to mandatory, the budget 
is $448.5 million, or 4.4 percent, above the 2007 continuing resolution 
spending level. Our comparison throughout the 2008 budget is with the 
most recent action taken by Congress to fund our bureaus and programs, 
specifically, with the third Fiscal Year 2007 continuing resolution, 
which is effective through February 15, 2007.
    The 2008 budget is carefully crafted within the President's 
commitment to continue to fund the nation's highest priorities while 
eliminating the deficit in five years. The administration is on track 
to achieve this goal.
    At the heart of our budget are four major initiatives:

  <bullet> The National Parks Centennial Initiative to enhance National 
        Parks as we approach their 100th anniversary in 2016;
  <bullet> The Healthy Lands Initiative, which will allow access to 
        public lands for a number of uses and provide for energy for 
        the nation while also protecting critical lands and habitat;
  <bullet> The Safe Indian Communities Initiative to combat the 
        methamphetamine crisis on Indian lands; and
  <bullet> The Improving Indian Education Initiative that will enable 
        Indian children to grow up in an environment that allows them 
        to achieve their dreams.

                THE NATIONAL PARKS CENTENNIAL INITIATIVE

    The President's 2008 parks budget totals a historic $2.4 billion. 
The park operating budget, at $2.1 billion, provides an increase of 
$290 million over the continuing resolution spending level, the largest 
increase in park operations funding ever proposed. This is $258.3 
million over the 2006 level and $230 million over the President's 2007 
budget for parks.
    Last August, in honor of the 90th Anniversary of the National Park 
Service, and with an eye on the upcoming centennial in 2016, President 
Bush directed me to establish specific performance goals to help 
prepare the national parks for another century of conservation, 
preservation and enjoyment. In addition, the President asked that I 
identify signature projects and programs consistent with these goals 
and that continue the NPS legacy of leveraging philanthropic, 
partnership, and government investments for the benefit of the national 
parks and their visitors.
    The President's budget for FY 2008 sets the stage for the next 100 
years of our national parks. It includes the National Parks Centennial 
Initiative, one of my highest priorities. This Initiative proposes up 
to $3 billion in new funds for the national park system over the next 
ten years.
    Within our operating budget increase, we propose a $100 million 
Centennial Commitment over 10 years, for a total of $1 billion 
dedicated to park operations. Our Centennial Initiative will also 
inspire philanthropic organizations and partners to donate $100 million 
per year over 10 years to the National Park Service. The Centennial 
Challenge Federal Fund will match all private donations up to an amount 
of $100 million. These Federal mandatory matching funds and 
philanthropic contributions, together with the $100 million annual 
Centennial Commitment in discretionary funds for park operations, would 
infuse up to $3 billion into the park system over the next decade.
    During the last five years, the NPS has built a strong foundation 
of improving parks, with more than 6,600 park improvements completed or 
underway. The Centennial Initiative funds are in addition to the nearly 
$1 billion in the President's budget for National Park maintenance and 
construction programs. The proposed FY 2008 budget will further improve 
our national parks during the next decade leading up to the 2016 
centennial celebration.
    The 2008 budget and the National Parks Centennial Initiative 
emphasize three key goals:

  <bullet> To engage all Americans in preserving our heritage, history 
        and natural resources through philanthropy and partnerships, 
        with a special emphasis on linking children to nature. An 
        increase of $100 million is proposed for these programs, plus 
        another $100 million in mandatory funds to match donations.
  <bullet> To reconnect people with their parks through enhanced 
        technology and the seamless network of the trails system. An 
        increase of $3.8 million is proposed for these programs.
  <bullet> To build capacity for critical park operations to sustain 
        these efforts over the next century. An increase of $126.2 
        million is requested for these programs.

    The Department will be submitting legislation that proposes the 
creation of the Centennial Challenge matching fund.
    Each year, the NPS welcomes more than 270 million visitors as they 
discover America the beautiful, the historical, the cultural. Our 
national parks preserve majestic natural wonders. They keep watch over 
battlefields hallowed by red badges of courage. They keep culture alive 
at sites dedicated to the performing arts, poetry, and music. Parks 
offer recreation and discovery through spectacular backcountry hiking 
and climbing. They honor great leaders like Thomas Jefferson, Abraham 
Lincoln, Frederick Douglass, Chief Joseph, John Muir, Eleanor Roosevelt 
and Martin Luther King, Jr. As havens of enjoyment, recreation, 
learning and personal renewal, national parks must endure. Our budget 
sets the stage for a new century of park excellence.

                        HEALTHY LANDS INITIATIVE

    Another priority for me is my Healthy Lands Initiative, which will 
ensure continued access to public lands for traditional uses and 
recreation, while maintaining strong environmental protections for 
wildlife and habitat.
    As activities on public land increase, we are seeing growing 
conflicts among recreation users, energy developers, hunters, ranchers, 
and others all competing to protect, access, and use these public 
lands. BLM will join with the U.S. Geological Survey and the Fish and 
Wildlife Service to identify, restore, and mitigate the potential 
impacts of increased energy production in wildlife-energy interface 
areas and potentially prevent the listing of certain species such as 
sage grouse.
    The potential listing of sage grouse as an endangered species could 
severely constrain public land use, particularly for current and future 
energy production. The habitat of the sage grouse covers over 100 
million acres. Our Healthy Lands Initiative of $22.0 million will 
implement a strategic vision to protect and restore sage grouse 
habitat, maintain migratory corridors for other species, and assure 
continued access to energy. These investments will support new land use 
planning techniques and new policy tools that will complement current 
activities and enable us to work with non-Federal partners to restore 
and conserve habitat and maintain access for energy and other uses.
    Focused on six strategic areas, these funds will transform land 
management from the current parcel by parcel approach to landscape-
scale decision making, drawing upon partnerships and new policy tools 
to help BLM provide increased access for energy and other uses, while 
simultaneously preserving important habitat corridors and sites for the 
benefit of species. In 2008, including this increase, over 400,000 
acres will be restored in partnership with Federal leaseholders, 
private landowners, state, local, and tribal governments--to benefit 
wildlife. The Healthy Lands Initiative includes $15.0 million for BLM 
to conduct landscape-scale conservation, $2.0 million for FWS, and $5.0 
million for USGS.

              THE METHAMPHETAMINE CRISIS IN INDIAN COUNTRY

    I would like to highlight two other 2008 priorities, our Safe 
Indian Countries and Indian Education Initiatives. While I recognize 
that the Senate Indian Affairs Committee has jurisdiction over these 
matters, I also know many of you represent States and Tribes that are 
struggling with the impacts associated with methamphetamine.
    Methamphetamine is a highly addictive synthetic stimulant that 
creates intense euphoric highs for periods up to 24 hours. It is 
inexpensive and, unfortunately, has rapidly become the drug of choice 
for an increasing number of Americans. Organized drug cartels have 
targeted reservations to establish methamphetamine operations.
    The President of the National Congress of American Indians has 
stated, ``Meth is killing our children, affecting our cultures and 
ravaging our communities.'' Many tribal leaders have told us 
methamphetamine is destroying lives in Indian country. Some leaders 
believe that on their reservations a whole generation of young people 
may soon be lost to this one drug.
    The social effects of methamphetamine use are tragic. Addicted 
mothers are giving birth to drug-addicted babies. The drug is fueling 
homicides, aggravated assaults, rape, child abuse, and other violent 
crimes. Violent crime in Indian Country is reaching crises levels at 
twice the national average.
    Our budget includes $16 million for a Safe Indian Communities 
initiative that reconfigures and tailors our focus to combat organized 
crime, break up drug trafficking, and interrupt the drug supply.

                       IMPROVING INDIAN EDUCATION

    Improving Indian education is also a priority. One of only two 
school systems operated by the Federal government, the Bureau of Indian 
Education should oversee schools that are models of performance for the 
No Child Left Behind Act. Yet only 30 percent of the schools in the 
Bureau of Indian Education system are meeting NCLB goals.
    In recent years, we have improved school facilities by replacing 32 
schools and renovating another 39 schools. It is now time to focus on 
the classroom. Our 2008 budget proposes to invest $15.0 million to 
improve the performance of students in Indian schools. Additional 
funding will provide educational program enhancements and tools for 
lower performing schools and educational specialists to guide Indian 
schools in achieving academic success. The request also provides 
additional funding for transportation to reduce the redirection of 
education dollars to pay for buses and fuel.

                  SUPPORTING THE DEPARTMENT'S MISSION

    The 2008 budget aligns resources to achieve these and other high-
priority goals guided by the Department's integrated strategic plan. 
Recently revised for 2007-2012, the Department's strategic plan links 
the Department's diverse activities into four common mission areas: 
Resource Protection, Resource Use, Recreation, and Serving Communities. 
A fifth area, Management Excellence, provides the framework for 
improved business practices, processes, and tools and a highly skilled 
and trained workforce.
    Using our strategic plan as the blueprint for improved performance 
and accountability, since 2001, the Department has:

  <bullet> Increased access to meet the Nation's energy needs and 
        enhanced energy security by more than doubling the approval of 
        applications for permits to drill; provided greater 
        opportunities for development of alternative energy, including 
        wind energy; advanced oil shale and methane hydrates for 
        potential future domestic use; and significantly expanded 
        environmental protections with inspection and monitoring 
        programs.
  <bullet> Collected $56.4 billion in revenues from offshore and 
        onshore mineral leases that provided income for Indian 
        communities, funded State infrastructure, and helped to finance 
        Federal programs.
  <bullet> Expanded relationships with partners to restore, improve, 
        and protect three million acres of wetlands and other habitat 
        for migratory birds, anadromous fish, and threatened and 
        endangered species.
  <bullet> Reduced risks to communities from the threat of fire, 
        conducting over 6.7 million acres of fuels treatments through 
        the President's Healthy Forests Initiative.
  <bullet> Improved park facilities for visitors by undertaking more 
        than 6,600 projects at national parks and earned a 95 percent 
        satisfaction rate from park visitors.
  <bullet> Completed condition assessments and performance measures for 
        all park facilities and nearly all Interior facilities.
  <bullet> Improved the educational environment for Indian children by 
        funding 32 new Bureau of Indian Education replacement schools 
        and 39 major school repair projects.

    Looking to the future, the Department of the Interior is committed 
to achieving the goals of our four initiatives and other priorities. 
Our budget will:

  <bullet> Prepare the national park system for another century of 
        conservation, preservation and enjoyment through the 
        President's National Park Centennial Initiative.
  <bullet> Encourage increased donations for signature projects and 
        programs in our national parks with up to $100.0 million a year 
        in matching funds through the National Parks Centennial 
        Challenge.
  <bullet> Increase energy security for the Nation through a new Outer 
        Continental Shelf five-year plan (2007-2012).
  <bullet> Launch a Healthy Lands Initiative to help meet the Nation's 
        needs for access to public lands for energy and other uses 
        while protecting wildlife and habitat in the West.
  <bullet> Leverage Federal funds through partnerships and cooperative 
        conservation to restore 800,000 acres and 734 stream/shoreline 
        miles. These efforts will support the President's government-
        wide goal of increasing the Nation's wetlands by three million 
        acres by 2009.
  <bullet> Improve educational programs and meet the requirements of 
        the No Child Left Behind Act by completing educational reforms 
        in the Bureau of Indian Education.
  <bullet> Help Indian Country reduce methamphetamine crime and the 
        afflictions it has brought to many Tribes through a new Safe 
        Indian Communities Initiative.
  <bullet> Manage a network of parks, sanctuaries, reserves, and 
        refuges to protect ocean and coastal resources as envisioned in 
        the President's Ocean Action Plan.
  <bullet> Implement the master agreement for the Arizona Settlements 
        Act, paving the way for reallocating water from the Central 
        Arizona Project to address the water needs of Indian and other 
        communities.

                            BUDGET OVERVIEW

    The 2008 budget request for current appropriations is $10.7 
billion. Permanent funding that becomes available as a result of 
existing legislation without further action by the Congress will 
provide an additional $5.1 billion, for a total 2008 Interior Budget of 
$15.8 billion.
    The 2008 budget reflects the changes made in financing for the 
Abandoned Mine Land Reclamation Fund in the Office of Surface Mining 
that were required by the Surface Mining Control and Reclamation Act 
Amendments of 2006. Funding for State and tribal AML grants are no 
longer subject to appropriation and are funded as a mandatory 
appropriation. Federal AML components continue to be subject to 
appropriation.
    The change results in a reduction of $134.2 million in 
discretionary budget authority in 2008. After taking into account the 
AML shift of funding from discretionary to mandatory funding, the 2008 
budget request reflects an increase of $448.5 million, or 4.4 percent, 
over the 2007 continuing resolution; $309.0 million, or 3.0 percent, 
over the 2007 President's budget; and $119.7 million below the 2006 
enacted level.
    The 2008 request includes $9.7 billion for programs funded within 
the Interior, Environment and Related Agencies Appropriations Act n 
increase of $239.4 million above the 2007 continuing resolution and 
$100.7 above the 2007 President's budget. After taking into account the 
AML shift of funding from discretionary to mandatory funding, the 2008 
budget request is $370.1 million above the 2007 continuing resolution 
and $231.4 million above the 2007 President's budget.
    The request for the Bureau of Reclamation and the Central Utah 
Project Completion Act, funded in the Energy and Water Development 
Appropriations Act, is $1.0 billion. The request includes a net 
programmatic increase of $78.5 million, or 8.5 percent, above the 2007 
continuing resolution and $77.6 million above the 2007 President's 
budget.
    In 2008, Interior will continue an exemplary record of producing 
revenue for the Treasury. Estimated receipts collected by the 
Department in 2008 will be $15.6 billion, a record level of collections 
that offsets Interior's discretionary budget by nearly 1.5 to one.
    The 2008 budget assumes enactment of a number of proposals for 
which legislation will be transmitted to the Congress. These include 
the Centennial Challenge, as well as proposals to change the manner in 
which bonus bids for coal sales are received consistent with oil and 
gas programs, institute a net receipt sharing provision to return to a 
more equitable Federal-State distribution of onshore mineral revenues, 
and repeal of deep gas and deep water OCS incentives that were included 
in the Energy Policy Act of 2005. These and other new proposals are 
summarized at the end of this testimony.
    The 2008 budget also contains proposals included in the 2007 
President's budget for the Range Improvement Fund and the Federal Lands 
Transaction Facilitation Act. As in the 2007 President's budget, the 
2008 budget proposes to repeal sections of the Energy Policy Act of 
2005, including energy permit processing and geothermal revenues and 
geothermal payments to counties.
    The budget also proposes leasing in the 1002 area of the Alaska 
National Wildlife Refuge, which significantly increases anticipated 
revenues in 2009 and later years. These proposals, in conjunction with 
the revenue enhancements described above, will increase revenues by 
$136.3 million in 2008 and a total of 5.0 billion through 2012.

                       MAINTAINING CORE PROGRAMS

    Department of the Interior programs encompass 390 parks and 547 
wildlife refuges; 261 million acres of multiple use public land; 12 
regional offices, 83 Indian agencies locations, and 184 elementary and 
secondary schools in Indian Country; 472 dams and 348 reservoirs 
operated by the Bureau of Reclamation; and numerous laboratories, field 
research facilities, and other offices.
    At each of these sites, the Department's 73,000 employees maintain 
facilities and resources and provide services to those who use or rely 
on them: park visitors, wildlife watchers and hunters, stockmen and 
miners, Tribes and individual Indians, farmers and electric power 
users. In my travels, Interior's managers have told me that funding for 
fixed costs is their highest priority need.
    Pay and benefits for the Department's workforce are a significant 
cost component of Interior's core programs, comprising 58 percent of 
operating budgets. The proportion of Interior's budget committed to 
personnel costs places it among the top three Federal agencies. Only 
the Departments of Justice and Commerce have a higher proportion of 
salary and benefit costs to total budget. Maintaining this dedicated 
cadre of professionals is essential for the uninterrupted delivery of 
programs and services.
    The Department's 2008 budget request includes $214.2 million to 
fully fund increases for pay and other fixed costs. Of this amount, 
nearly 85 percent, or $184.4 million, supports increases in employee 
compensation, including scheduled 2008 pay raises; two additional paid 
days; and projected increases in health benefits. The budget assumes a 
three percent pay raise in January 2008. The request also funds 
increases in workers' and unemployment compensation; rental payments 
for leased space; and centralized administrative and business systems, 
services and programs financed through the Working Capital Fund.

                        OTHER BUDGET PRIORITIES

    In addition to the four key initiatives I have already highlighted, 
the budget includes the funding for key goals and objectives.
    Achieving Energy Security.--In his State of the Union address, 
President Bush underscored that America must enhance energy security. 
The Department of the Interior plays a key role in advancing this goal. 
Nearly one-third of the energy produced in the United States each year 
comes from public lands and waters managed by Interior. To carry out 
the goals of the Energy Policy Act and enhance the availability of 
affordable oil, gas, and alternative energy sources, the 2008 budget 
for Interior programs includes $481.3 million for energy programs, an 
increase of $25.5 million over the 2007 continuing resolution. With 
these resources, the Department will enhance energy security through 
increased production, protect the environment, promote conservation, 
and expand the use of new technologies and renewable energy sources.
    The BLM 2008 budget request for energy is $142.9 million, an 
increase of $6.0 million above 2007. Included in the BLM request is an 
increase of $3.1 million for inspection and monitoring to ensure 
environmentally responsible energy development on public lands and 
proper reporting of production. The additional funds will provide BLM 
with the capacity to conduct an additional 1,572 inspections by 2009, 
with 522 additional inspections occurring in 2008. Also included is an 
increase of $2.0 million for the Mining Law Administration program. 
This increase is expected to be fully offset by anticipated mining 
claim maintenance fees.
    In 2008, BLM will implement fees for processing drilling permit 
applications to fully replace rental revenue currently available for 
processing oil and gas use authorizations, thereby maintaining BLM's 
capacity for timely permit processing. A legislative proposal will be 
transmitted to the Congress that proposes to repeal Section 365 of the 
Energy Policy Act. Section 365 redirected rental revenue deposits to 
the Treasury to fund BLM pilot offices. Estimated collections of permit 
processing fees in 2008 is $21.0 million.
    The MMS 2008 budget request for energy is $290.8 million, $16.7 
million above 2007. The budget includes increases to facilitate OCS 
development and deepwater activities by implementing the 2007-2012 
Five-Year OCS Oil and Gas Leasing program and completing environmental 
analyses necessary for newly available areas where data are old and for 
future OCS lease sales.
    The Gulf of Mexico Energy Security Act of 2006, signed into law on 
December 20, 2006, significantly enhances OCS oil and gas leasing 
activities and production potential in the Gulf of Mexico. The Act 
opens up 8.3 million acres in the GOM for leasing, including 5.8 
million acres previously withdrawn under Congressional and Presidential 
moratoria. The Act also shares revenues with Gulf-producing States and 
with the Land and Water Conservation Fund, with the first distribution 
estimated to take place in 2009.
    The budget assumes an increase in the royalty rate for new offshore 
Federal oil and gas leases. The Department will begin implementing the 
royalty rate increase in the upcoming 2007 lease sale in the Western 
GOM planning area (Sale 204) scheduled for August 2007. The new rate is 
expected to increase royalty revenues by $4.5 billion over the next 20 
years, and substantially more after that.
    The President's National Energy Policy aims to improve America's 
energy security by increasing domestic production of fossil fuels, 
promoting increased energy conservation, and stimulating the 
development of alternative fuels. The coastal plain in the Arctic 
National Wildlife Refuge is the Nation's single greatest onshore 
prospect for future oil. The 2008 budget assumes enactment of 
legislation opening the Section 1002 area of the coastal plain in ANWR 
to energy exploration and development, with a first lease sale 
occurring in 2009 that would generate $7.0 billion in bonus receipts. 
The budget estimates a total of $8 billion in revenue would be 
generated through 2012. These receipts would be split 50:50 between the 
U.S. Treasury and the State of Alaska.
    Cooperative Conservation.--Through partnerships, Interior works 
with landowners and others to achieve conservation goals across the 
Nation and to benefit America's national parks, wildlife refuges, and 
other public lands. The 2008 budget includes $324.0 million for the 
Department's cooperative conservation programs, $34.6 million over 
2007. These programs leverage Federal funding, typically providing a 
non-Federal match of 50 percent or more. They provide a foundation for 
cooperative efforts to protect endangered and at-risk species; engage 
local communities, organizations, and citizens in conservation; foster 
innovation; and achieve conservation goals while maintaining working 
landscapes.
    The 2008 cooperative conservation budget includes $21.0 million of 
the Department's Healthy Lands Initiative. Also new to the suite of 
cooperative conservation programs highlighted in 2008 are the multi-
agency Open Rivers Initiative and the National Fish Habitat Action 
Plan. These fisheries conservation programs will leverage $16.2 million 
in Federal resources with State, Tribal, local, nonprofit and private 
groups to protect, enhance, and restore aquatic habitats. A program 
increase of $6.0 million for the Open Rivers Initiative will allow FWS 
to enhance its fish passage program by eliminating an additional 190 
obsolete stream barriers such as small dams and open an additional 
1,300 stream miles. The 2008 budget includes an additional $2.3 million 
to implement the National Fish Habitat Action Plan, which will leverage 
resources provided by State, tribal, local, private, nonprofit, and 
private groups to protect, enhance, and restore aquatic habitats.
    The 2008 budget continues funding for high-priority cooperative 
conservation activities, including $13.3 million for the FWS Coastal 
Program, $69.5 million for State and Tribal Wildlife Grants, $4.0 
million for Neotropical Migratory Birds, and $80.0 million for the 
Cooperative Endangered Species Conservation Fund. The 2008 budget 
request for the North American Wetlands Conservation Fund is $42.6 
million, an increase of $6.0 million above 2007. Funding for the 
Partners for Fish and Wildlife program is $48.4 million, a net increase 
of $5.7 million over 2007. These programs provide an effective, 
cooperative approach to conservation and leverage Federal funds. In 
2008, these programs will attract over $274 million in non-Federal 
matches and restore over 800,000 acres of habitat for species at-risk 
and migratory birds.
    In 2008, Interior does not request funding for the Landowner 
Incentive and Private Stewardship Grant programs, in order to 
concentrate conservation funding in a smaller number of high-performing 
programs. This results in a $22.0 million reduction from the 2007 
level. The conservation of at-risk species would benefit from shifting 
resources from these two programs to other programs that can 
demonstrate increased results, such as the Partners for Fish and 
Wildlife and North American Wetlands Conservation Act programs. The 
Landowner Incentive and Private Stewardship grant programs will 
continue to allocate and administer grants from funds appropriated in 
prior years.
    Water in the West.--The Department, through the Bureau of 
Reclamation, is the largest supplier and manager of water in the 17 
western States. The 2008 budget emphasizes Reclamation's core mission 
of delivering water and power. Reclamation priorities include a focus 
on ensuring facility integrity and site security and resolving major 
western water challenges.
    The budget includes $1.0 million for a new loan guarantee program, 
a cost-effective strategy to address Reclamation's aging infrastructure 
and associated asset management issues. The loan program recognizes the 
obstacles facing water districts regarding securing funds for expensive 
rehabilitative repairs without being able to use Federal facilities as 
collateral to obtain financing. The budget also includes $11.0 million 
for Water 2025 to enable Reclamation to help prevent water crises and 
conflict in the West. Water 2025 includes 50:50 challenge cost-share 
grants for on-the-ground improvements to existing facilities, 
implementation of water management tools, and system optimization 
reviews to identify system or basin wide improvements that will 
maximize efficiency. Legislation will be transmitted to Congress to 
seek authorization for the Water 2025 program.
    The budget requests $31.8 million for CALFED pursuant to the 
October 2004 authorization for this water management, ecosystem 
restoration, water quality, water supply, and flood protection program. 
This adaptive management program in California's Central Valley and the 
San Francisco Bay-Delta is addressing conflicts over water supply.
    A total of $77.0 million is requested for the Safety of Dams 
program, an increase of $8.0 million from 2007 that is primarily for 
corrective actions at Folsom Dam. The request for the Central Valley 
Project is $124.8 million, an increase of $4.6 million over 2007. A 
total of $27.2 million is requested for the Central Arizona Project, 
continuing the 2007 level. The budget includes $58.0 million, 
continuing the 2007 level, for the Animas La Plata project to implement 
the Colorado Ute Settlement Act. The Klamath Basin project is funded at 
$25.0 million and the Middle Rio Grande project is funded at $23.2 
million, both essentially at the 2007 level. The request funds rural 
water supply projects at $55.0 million, $13.7 million below the 2007 
level. Funding is requested for the Mini Wiconi, Garrison, and Lewis 
and Clark projects.
    Our budget includes $35.5 million for site security of dams to 
ensure the safety and security of facilities. The 2008 budget assumes 
that, consistent with the practice for other operation and maintenance 
expenses, the operation and maintenance-related security costs for 
Reclamation facilities will be reimbursed by project beneficiaries.
    Refuge Operations and Species Protection.--Targeted increases for 
the National Wildlife Refuge System and other FWS species conservation 
programs will focus new resources on conserving and restoring the 
habitat necessary to sustain endangered, threatened, and at-risk 
species and prevent additional species from being listed under the 
Endangered Species Act. A program increase of $4.7 million for refuge 
wildlife and habitat management will allow the refuge system to 
increase the number of recovery plan actions completed in 2008 by 111; 
protect or restore an additional 57,983 acres; and fill three new 
positions to manage the new Northwestern Hawaii Marine National 
Monument. The 2008 budget also includes $2.2 million in programmatic 
increases for the recovery of the gray wolf and the Yellowstone grizzly 
bear.
    Healthy Forests Initiative.--The 2008 budget for the Healthy 
Forests Initiative, a total of $307.3 million, supports the 
Department's efforts to reduce the threat of catastrophic wildfire and 
improve forest and rangeland health. The 2008 budget request funds the 
Hazardous Fuels Reduction program at $202.8 million, an increase of 
$3.0 million for fixed costs over the 2007 level. An additional $1.8 
million in the hazardous fuels program will be shifted from program 
support activities to on-the-ground fuel reduction to help treat high-
priority acres.
    Wildland Fire Management.--The 2008 budget proposes $801.8 million 
to support fire preparedness, suppression, fuels reduction, and burned 
area rehabilitation. This amount represents a net increase of $32.6 
million above 2007, including an increase of $37.4 million for 
suppression operations. This budget will fully fund the expected costs 
of fire suppression in 2008 at $294.4 million, based on the ten-year 
average. The 2008 Preparedness program is funded at $268.3 million, a 
net reduction of $6.5 million from the 2007 level. A significant 
portion of this reduction will be achieved by eliminating management 
and support positions and lower-priority activities. The 2008 Wildland 
Fire Management program will realign its preparedness base resources to 
better support initial attack capability, which will include the 
addition of over 250 firefighters. These actions will help maintain 
initial attack success.
    Oceans Conservation.--Interior bureaus conduct ocean and coastal 
conservation activities that significantly advance understanding of the 
processes and status of ocean and coastal resources. The 2008 
President's budget includes $929.5 million to support the President's 
Ocean Action Plan. This funding will allow Interior bureaus to continue 
their high-priority work within the U.S. Ocean Action Plan and includes 
an increase of $3.0 million for USGS. In 2008, USGS will begin to 
implement the Oceans Research Priorities Plan and Implementation 
Strategy by conducting observations, research, seafloor mapping, and 
forecast models. USGS will also begin to implement an interagency 
national water quality monitoring network. Also included is $600,000 
for three new positions to support management of the new Northwestern 
Hawaiian Islands Marine National Monument.
    Indian Trust.--The 2008 request for Indian Trust programs is $489.9 
million, $17.6 million above 2007. The Indian Land Consolidation 
program is funded at $10.0 million, $20.7 million below 2007. The 2008 
budget also includes $4.6 million in reductions to reflect efficiencies 
and improvements in services to beneficiaries, the completion of trust 
reform tasks, the completion of project task efforts, and management 
efficiencies. The budget includes a $3.6 million increase for the 
Office of Historical Accounting to assist with the increased workload 
associated with additional tribal trust lawsuits.
    The Office of the Special Trustee for American Indians is 
responsible for financial management of the funds held in trust for 
tribal and individual Indian beneficiaries. Currently, the sum of all 
positive Individual Indian Monies account balances is approximately 
$6.0 million less than the sum of all financial assets currently 
invested by OST on behalf of the IIM beneficiaries. To address this 
imbalance the Department will transmit legislation to balance the 
accounts that would authorize up to $6.0 million be made available to 
credit the investment pool.
    Payments in Lieu of Taxes.--PILT payments are made to local 
governments in lieu of tax payments on Federal lands within their 
boundaries and to supplement other Federal land receipts shared with 
local governments. The 2008 budget proposes $190.0 million for these 
payments. The 2008 request is a reduction of $8 million from the 2007 
level. This level of funding is significantly above the historical 
funding level for PILT. From the program's inception in 1977 through 
2001, the program was funded in the range of $96-$134 million.

                          MANDATORY PROPOSALS

    The 2008 budget assumes enactment of a number of legislative 
proposals. Some of these were discussed earlier, including the National 
Parks Centennial Challenge and Arctic National Wildlife Refuge.
    The 2008 budget also contains proposals that were assumed in the 
2007 President's budget. Included are proposals to discontinue 
mandatory appropriations from the Range Improvement Fund and amend the 
Federal Land Transaction Facilitation Act to update the public lands 
available for disposal, authorize the use of receipts for restoration 
projects, and change the distribution of revenue. As in 2007, the 2008 
budget proposes repeal of authorizations provided in the Energy Policy 
Act of 2005. Repeal of Section 365 would redirect rental receipts to 
the General Fund and authorize BLM to promulgate regulations to phase 
in cost recovery for energy permits, repeal of Sections 224 and 234 
would restore the historical formula for distribution of geothermal 
energy receipts.
    In addition, the 2008 budget assumes enactment of proposals 
including the following:
    National Park Centennial Challenge.--The President announced a 
proposal to provide up to $100 million a year for ten years in 
mandatory funds to match private donations for signature projects and 
programs. These projects and programs will be identified in the 
Secretary's report to the President this May, after a number of public 
listening sessions and recommendations from park professionals. The 
costs for this proposal, contained in a legislative proposal 
transmitted to Congress, are offset within the President's 2008 budget.
    Coal Bonuses.--The 2008 Interior budget assumes increased revenue 
from coal bonuses over the next five years by requiring the full 
payment of bonuses on all new coal leases at the time of lease sale, 
consistent with oil and gas leases. The Administration will propose 
legislation to amend the Mineral Leasing Act to require the payment of 
bonuses at the time of sale. The Act currently allows deferral of bonus 
payments for at least 50 percent of the total acreage offered for lease 
in any one year.
    MMS Net Receipt Sharing.--A simplified net receipt-sharing 
provision is proposed in order to return to a more equitable Federal-
State distribution of revenues by amending the Minerals Leasing Act. 
Currently, States receive an equal share of the revenues from Federal 
energy production without sharing in the administrative costs of 
permitting that production. Instead of attempting to allocate specific 
program costs on a State-by-State basis, the Department proposes a 
flat, two percent deduction from the State share of revenues, or one 
percent of total mineral revenues, prior to making individual State 
allocations.
    Deep Gas and Deep Water Incentives.--Repeal of Sections 344 and 345 
of the Energy Policy Act would eliminate incentives and royalty relief 
that are unwarranted in today's price environment. Section 344 extended 
deep gas incentives and Section 345 provided mandatory royalty relief 
for certain deep water oil and gas production.
    Pick-Sloan Missouri Basin Program.--This proposal would re-allocate 
the repayment of capital costs of the Pick-Sloan Missouri Basin 
program. Power customers would be responsible for repayment of all 
construction investments from which they benefit, whereas to date they 
have only been responsible for a portion of the costs.
    San Joaquin River Restoration Fund Proposed Legislation.--The 2008 
budget reflects the settlement of NRDC v. Rodgers. The Administration 
will submit the San Joaquin River Restoration Settlement Act, which 
will include a provision to establish the San Joaquin River Restoration 
Fund. The legislation will propose to redirect approximately $7.5 
million per year of payments from the Central Valley Project Friant 
Division and $9.8 million from the Reclamation Fund, which would be 
available without further appropriations to implement the provisions of 
the settlement.

                               CONCLUSION

    I believe that our 2008 budget will--in its entirety--make a 
dramatic difference for the American people. We will better conserve 
our public lands. We will improve our national parks. We will protect 
our wildlife and its habitat. We will help craft a better future for 
Indian country and particularly for Indian children. And we will 
produce the energy that America needs to heat our homes and run our 
businesses. This concludes my overview of the 2008 budget proposal for 
the Department of the Interior and my written statement. I will be 
happy to answer any questions that you may have.

    The Chairman. Thank you very much. As I mentioned before 
some of the members came, we have a couple of votes scheduled 
at 10:30, I am told. Why don't we do 5-minute rounds, and we'll 
just get through as much of the questioning as we can before 
then, and then come back if there are still more questions.
    Let me first ask about your National Parks Centennial 
Challenge or Initiative. My understanding is that the Park 
Service today raises about $40 million annually in private cash 
donations from all sources, and about half of that comes from 
donations that are raised by the National Park Foundation. How 
do you expect to ramp that up to $100 million a year for the 
next 10 years?
    Secretary Kempthorne. Mr. Chairman, our proposal is to make 
available up to $100 million. Now, if for some reason we were 
able to raise $40 million and that was the extent of it for a 
particular year, then there would be a match of $40 million, so 
we need not achieve that $100 million to trigger.
    But significantly, Mr. Chairman, what we have found is a 
tremendous enthusiasm from the private sector, from the 
philanthropic community. As I traveled around the country, many 
of these friends of the parks, many corporations, and many of 
the foundations have said, ``We are willing to step up and make 
significant contributions, if we will see that the government 
will do its part. If you will address operations, we're willing 
to be the margin of excellence. We just don't want to be the 
margin of survival.''
    So I believe that with this budget we have stepped up, and 
they have applauded what we're doing in operations. Then the 
response to this, the idea and the concept of a matching fund 
which the President has placed there, again has received great 
enthusiasm.
    I'll give you a couple of examples. Of our 390 park units, 
at least 30 of them are the result of contributions, donations 
by families, private entities, the philanthropic communities; 
so there is a history. That's part of our legacy.
    And then, Mr. Chairman, as we made this announcement, when 
I was with the President and the First Lady last week, for 
example, at Shenandoah National Park, a gentleman named Fred 
Andrea, who has formed a trust to help the Shenandoah Park--he 
did this on his own--but with this announcement he said, ``Do 
you know what this does to now double the revenues that I can 
now generate?'' This has added new impetus to his efforts in 
raising money in the private sector.
    The Pew Foundation last week stepped forward and said, 
``With this challenge, we would like to now propose that we'll 
put $6 million on the table, if the Federal Government will 
match that with $6 million, and we also believe that the State 
of Pennsylvania and four other entities will match that $6 
million.'' So you can begin to see the synergy that comes from 
this.
    Mr. Chairman, I would add also that when you consider one 
of the greatest efforts in fundraising for a national park--the 
Statue of Liberty--was extremely successful, but we do not want 
to overlook the fact that one of the most important aspects of 
that fundraising effort were the pennies from the children of 
America. So it will be from all walks of life, of individuals 
that will step forward, I believe, and want to utilize this 
resource. It doubles our efforts, at a very minimum.
    The Chairman. All right. Thank you for that explanation.
    Let me ask about the Indian water rights settlements that 
Senator Domenici referred to. We have three of them in our 
State that are pending, including the settlement of the Navajo 
water rights in the San Juan River Basin. I hear unfortunate 
messages from the administration that it will not be supportive 
of these settlements for a variety of reasons, particularly the 
San Juan settlement, and I guess I'm concerned that we have 
something of a double standard going on here.
    In 2004 the President signed into law the Arizona water 
settlement that has a projected cost of $2.2 billion over the 
next 40 years. You are well aware of the Snake River settlement 
that was signed into law. That has an estimated cost of $193 
million, $130 million of which will be incurred in 7 years. We 
now have your budget, representing that the administration 
supports a settlement to restore a salmon fishery in the San 
Joaquin River in California. That's estimated to cost $650 
million over the next 20 years. But as to our proposals in New 
Mexico, and particularly the Navajo settlement, we are told 
that the cost is too great and there are problems.
    So I guess I would just ask: what assurance could you give 
us, that your department would work constructively with Senator 
Domenici and myself, to try to get these settlements funded and 
legislated in a way that gets the issues resolved?
    Secretary Kempthorne. Mr. Chairman, as you and I have 
discussed, and I've had similar discussions with Senator 
Domenici, I appreciate and understand the importance of these 
Indian water rights settlements. We have 19 cases that are 
before us.
    I have formed, in the Department of the Interior, an Indian 
Water Rights Task Force. That task force has been to New 
Mexico, has met with both State officials and with tribal 
leaders on this discussion of these key water rights 
settlements that are within your State. Prior to the holidays 
we made great efforts with members of your staff on talking 
about near-term and long-term resolution of this.
    With all of these settlements that you referenced, first we 
had enacted legislation by Congress. Then the funding followed. 
On the Navajo project, for example, I know that there is----
    The Chairman. Of course that's what we're trying to do 
here. We're trying to enact the legislation. We just want your 
support.
    Secretary Kempthorne. Correct, and I'm here to say that 
we're working with you, as a gesture of that support. With the 
Navajo, as you know, in, I believe it's going to be the end of 
March in 2007, we believe we'll have a draft EIS on the Navajo 
project. So we're continuing to make progress. We will stay 
actively involved and dedicated to this. We, too, would like to 
see a resolution.
    The Arizona case which you referenced, the significance of 
that was that there were three settlements that were resolved. 
In the Nez Perce agreement, which Senator Craig is so very 
familiar with, again it settled some longstanding requirements 
on adjudication of water rights.
    So I'm familiar with that. The leader of my task force on 
this is someone who has been very successful in Indian water 
rights settlements in the past. So, again, we remain committed 
to working with you.
    The Chairman. Thank you very much.
    Senator Domenici.
    Senator Domenici. Senator Bingaman, I thank you for raising 
the issue. I won't say much more, except the Secretary should 
know that we have made a decision, the two of us, that we are 
going to proceed. We just can't sit by and let this go on 
forever. We have to establish the situation here in the Senate 
by introducing legislation, and similarly in the House, and end 
up seeing what happens to your responsibility to pay once we've 
got our work done.
    I wanted to ask if you would check an issue for us. You 
know the 1998-1999 lease situation which everyone 3 or 4 months 
ago was talking about, as if these oil companies had actually 
taken advantage of the Government. It has finally settled into 
the reality that it's nothing of the sort. Actually those 
leases were issued without any royalty provision, and that was 
what the administration in office wanted. They decided that was 
the law and for them, that's what was going to happen, so we 
don't have any royalties there.
    But I wanted to suggest to you that a number of the leases 
have been turned back without ever having produced any oil and 
gas. Is the $10 billion projection that has been made regarding 
the leases still accurate? We are going to find some way to 
resolve this up here, I hope, and if you could have them check 
and see if that is still an accurate projection, that would be 
very helpful for us. Can you do that?
    Secretary Kempthorne. Yes. And, Senator Domenici, at a 
hearing this week the Assistant Secretary for Land and Minerals 
Management, Steve Allred, testified before a committee 
indicating that to date perhaps there was something like $800 
to $900 million that did not go to the Treasury, and affirmed 
that he believed that there was possibly $9 billion that still 
could go to the Treasury if we can correct these leases.
    Senator Domenici. Yes. Well, I was there. Senator Craig is 
a member of that committee. That's the subcommittee on 
Interior, Appropriations, which was interesting.
    Now let me go back and please ask you if you will look at 
the section of your budget which calls for repeal of a couple 
of provisions of the Energy Policy Act which we adopted, and 
I'd like you to take another look at this. I don't want to 
support a change in this which treats those who are seeking 
permits differently than other people seeking permits. We don't 
need to charge them an extra fee to set up this center because 
it's a savings.
    The center saves money and produces more resource, and why 
we would want to come along and want to repeal that, when it's 
one of the most exciting concepts out there--I hope you'll look 
at it. There are five of them, and they're multipurpose, 
multiagency centers for permitting, and you all are repealing a 
portion of it to make the drilling companies pay more money, 
which seems to me to be really the wrong time and the wrong 
place.
    Secretary Kempthorne. Senator, I appreciate your comment, 
and I will acknowledge that those seven pilot projects which 
have been opened--which you are a prime instigator of--have 
been extremely successful.
    Senator Domenici. They are successful.
    My last observation has to do with the Indian people and 
the three or four things you have done in education and meth 
and others. We want to work with you, because clearly these are 
some deplorable situations, and what's occurring out there in 
terms of drugs and meth use by the young Indians is deplorable. 
There's not enough money now, and you're asking for more. We'll 
do what we can to support that money, and I'm sure everybody 
will. It might not even be enough. But we thank you, and we 
think that's a good, positive step.
    Secretary Kempthorne. Senator Domenici, I thank you, too. I 
know that you're a great friend of Indian country, someone that 
they respect, and this is a real crisis that we have to 
address.
    Senator Domenici. Yes, sir.
    The Chairman. Senator Salazar.
    Senator Salazar. Thank you very much, Chairman Bingaman and 
Senator Domenici, and thank you, Secretary Kempthorne, for 
being here this morning and for your leadership of the 
Department of the Interior. I hope it's treating you well.
    Secretary Kempthorne. Thank you.
    Senator Salazar. Let me say first, from a positive point of 
view, I fully endorse what you're doing here with the National 
Park Service and moving forward with the kind of vision that I 
think most of us on this committee would expect, and we very 
much appreciate that. I remember speaking with you about that 
during your confirmation process, and I'm delighted that you're 
moving forward with the initiative on the parks.
    Secretary Kempthorne. Thank you.
    Senator Salazar. I have five questions, and they are 
criticisms, and I would hope that as you move forward that you 
reconsider your position and the position of the President on 
these five issues.
    First, the elimination of the stateside Land and Water 
Conservation Fund program. You and I talked about that before 
your confirmation. This committee has pushed back on the 
administration's continued, repeated proposals to strip back 
the Land and Water Conservation Fund stateside program. I think 
it's wrong-headed, moving in the wrong direction, and it's 
something that we hope to restore, and we hope that we might be 
able to get your support as we try to restore that.
    Second, the proposed 20 percent cut in Payment in Lieu of 
Taxes. You and I know, Governor Kempthorne, how important 
Payment in Lieu of Taxes is to our western counties, our 
western States. In my State alone, 52 counties depend on 
Payment in Lieu of Taxes. I have probably five or six counties 
that are almost 100 percent owned by the Federal Government, 
and yet the 20 percent cut which has been proposed here is 
going to have a significant negative impact on them, and so we 
will be pushing back on PILT as well.
    Third, the $10 million cut for the National Landscape 
Conservation System. This program is responsible in effect for 
about 26 million acres of land under your jurisdiction, and 
manages our national monuments, our national conservation 
areas, and a whole host of other important features of our 
public lands. I don't believe that a $10 million cut in those 
programs is warranted today.
    Fourth, the land sales for deficit reduction appear to 
continue to persist in this fiscal year 2008 budget. During 
your hearing in confirmation for this position, one of the 
things we talked about and one of the things that had a 
bipartisan push against the administration was the effort to 
sell off public lands as a deficit reduction tool. I think 
that's the wrong way to go, and it's something that I will 
oppose very strongly. I think we'll have a lot of bipartisan 
support to do that.
    And, finally, the fifth question has to do with bark beetle 
infestation and wildfire suppression. We have huge problems in 
the West, in my State, in Colorado, and I see that there is a 
$55 million cut from the 2006 levels with respect to wildfire 
suppression and bark beetle infestation.
    So I have concerns in those five areas, and if you'll take 
a minute and just maybe respond to them, then it's something 
that we can continue to work on.
    Secretary Kempthorne. Mr. Chairman, Senator Salazar, thank 
you very much. And thank you, first of all, for acknowledging 
the efforts in the park centennial. I appreciate that. I know 
you are a great advocate for the parks.
    On your first point about the stateside Land and Water 
Conservation Fund, I continue to be supportive of that program. 
I have seen as a Governor, I have seen as a mayor, that it has 
great use and benefit. I'm happy that in one of the programs 
which Senator Landrieu was part of, which is the Gulf of Mexico 
Security Act of 2006, that beginning in 2009 there will be a 
revenue stream to the stateside Land and Water Conservation 
Fund.
    Senator Salazar. If I may, Secretary Kempthorne, we were 
all involved in putting together that deal in the Gulf Coast. 
And part of the reason that I supported it, in fact the central 
reason, was that we were creating this conservation royalty 
coming out of the lease sale 181 area.
    But the reality of it is, when I look at the 2008 budget, 
here I have you and the administration saying that the 
stateside Land and Water Conservation Fund is not important, so 
you're zeroing it out. That's inconsistent with what you told 
me when we talked about the future of the Land and Water 
Conservation Fund during your confirmation process, and it 
seems to me inconsistent with what the needs are in 2008. We're 
leaving a gap there, and even when that revenue stream comes on 
board, for many years it's going to be inadequate to fulfill 
the vision of the Land and Water Conservation Fund.
    Secretary Kempthorne. And I appreciate your comments. It is 
a matter of priorities, and it's something for which I'll 
continue to research funding sources that would address that.
    On the Payments in Lieu of Taxes program, I am very 
sensitive to that also. We have many counties that rely upon 
that. As you know, that the Payments in Lieu of Taxes program 
has had a variety of funding levels. As recently as 2000, PILT 
was funded at $134 million, so this year's budget is $198 
million. I wish it were more. I will not tell you that it's not 
a very important program, and so again we will flag that.
    The National Landscape Conservation System: again, I hear 
your comments. We will take that into consideration. I know 
that there were some efforts there. For example, last year I 
believe that there was a $3 million plus-up, a one time plus-
up, which is not reflected in this 2008 budget, and also some 
of the projects such as the commemoration of the Lewis and 
Clark project, which is now complete, are not there for 
funding. But again, we will flag this.
    The land sales for deficit reduction: we did have that 
discussion, I would reaffirm. In fact, I went back and looked 
at the comments. I still believe as I did then. I don't agree 
with selling land for the purpose of deficit reduction.
    I do believe that there are instances that, in being more 
efficient in land management, you can proceed with the sale of 
land that can make us more effective. It's one of the programs 
that I think perhaps Senator Wyden will be talking about.
    The bark beetle infestation: again, being from Idaho, I 
understand the plight of the bark beetle to deal with that 
crisis, and we'll be----
    Senator Salazar. I know my time is up here, but I want to 
work with you on these and other issues as we move forward. 
Thank you, Mr. Kempthorne.
    Secretary Kempthorne. Very good. Thank you very much.
    The Chairman. Thank you. Let me just alert folks, I have 
now been told we have three votes at 10:30, not two.
    Senator Craig.
    Senator Craig. Thank you very much, Mr. Chairman. I'll move 
quickly.
    I appreciate the dialog, Mr. Secretary, that you and I are 
having, and again, welcome to the committee. We appreciate your 
leadership, and Idaho appreciates your presence as our 
Secretary of Interior, and I thank you for that.
    I could talk about Bureau of Reclamation, Healthy Lands 
Initiative, but let me stop and go to one. That's rangeland 
management. Although I do agree with the administration's 
effort at shifting conservation dollars where they can be 
utilized most, I'm a little concerned that some of the most 
important programs have been left out, like the range 
improvement account.
    You've just had a dialog on PILT. A $142 million cut in 
PILT is a frustration. Ron Wyden and I are scrambling mightily 
right now to keep timber-dependent school districts alive that 
are potentially going to lose some money from the Craig-Wyden 
initiative, and to have a decline in PILT--and I understand the 
ups and downs of it--is going to be a frustration for all of 
us.
    America has fallen in love with its public lands, but these 
very land-isolated, fee-based-tax counties are having to pick 
up the cost--as you know, Mr. Secretary--sometimes of the life 
flights and the emergencies that result from this love affair 
that's going on out there with our public lands, when people 
find themselves in trouble. Who picks up the bill? The local 
taxpayer. PILT offsets that. That's an important area for us to 
be involved in.
    Last, I'm going to touch a subject that you can't talk 
about, because I know that your role as Governor in this issue 
disallows you for some time to discuss it. That's wolves in the 
great State of Idaho and in Montana and Wyoming. Yesterday a 
group of hunters in Idaho were out near Avery hunting cougar 
with their dogs. Legally, appropriately. They were attacked by 
a pack of wolves. One hunter nearly lost his life. Lynn 
Scarlett, hear me.
    The day will come, if we don't get the wolf population in 
the intermountain West under control, when a human species will 
fall victim to the greatest predator on the western rangelands, 
in the western mountains of today. That's about to happen, 
tragically enough, because for a decade some of us have been 
talking very loudly about getting this issue under control. And 
that's a reality check that reminds me of it, when these kind 
of reports are coming in now on almost a weekly basis, of a 
confrontation with a pack of wolves by the human species.
    So, having said that: questions. I've talked about the 
$42.5 million loss in PILT. We're going to scramble with that, 
work with you to reinstate those dollars, but here's a question 
and my time is running out to ask you.
    First of all, tell me how many miles of southwestern border 
does the Department of Interior control or have responsibility 
over? Then if you would, take me on a journey and take this 
committee on a journey of your most recent trip down there. 
We're investing very heavily in the border at this moment. We 
want to secure it. We want only legal transactions to move 
across that border. Somebody has just spoken about meth in 
Indian country, and the meth is coming out of the Mexican 
mafia, across our southwest borders, and the Department of 
Interior has a role to play there. Could you visit with us 
about that, Mr. Secretary?
    Secretary Kempthorne. Yes, Senator Craig. Thanks very much. 
The Department of the Interior has approximately 755 miles that 
are along the southern border. That's approximately 40 percent 
of the border between the United States and Mexico. We have 
wildlife refuges. We have national parks. We have significant 
land holdings. And there are five Native American tribes that 
also have land that is there.
    I went there after the first of the year. I went there to 
see what I felt would be the primary issue, which was illegal 
immigration. What I came away with was a stark realization that 
what we're really dealing with are drug cartels and all of 
their activities that continue to smuggle, whether it's human 
lives or drugs, into the United States.
    Many of these lands, for example, Organ Pipe National Park, 
have areas that we really do not allow citizens to go into 
because of concerns for safety. From our wildlife refuges to 
our national parks, anywhere from 30 percent to 50 percent of 
the budgets for those parks----
    Senator Craig. You're suggesting that some of our national 
parks are now off limits to activity by citizens because of 
high risk?
    Secretary Kempthorne. Portions of them are. And we work 
very closely with the Border Patrol in the Department of 
Homeland Security. After I had made this visit, I came back and 
I met with Secretary Chertoff and with John Walters, who is in 
charge of the drug program for the President, because of my 
concerns. It needs to be a collaborative effort. It is a very 
challenging situation.
    In Organ Pipe, for example, in 2002 a park ranger named 
Kris Eggle was shot and killed there. It is the one area where 
a park now has a vehicle barrier that is in place, and yet drug 
cartels have found a means by which they can somehow bring some 
mechanism to ramp over and deposit vehicles that then race 
through the desert across wilderness areas, across national 
parks, wildlife refuges, with no regard for human life, no 
regard for the wildlife that is there, the habitat, and it's a 
very serious situation.
    Senator Craig. Thank you for sharing that with the 
committee. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for your testimony this morning 
and for living up to your commitment, fulfilling your 
commitment at your confirmation hearing to make one of your 
first visits south Louisiana and a tour of the offshore gas 
industry, which is so important to this Nation in a variety of 
different ways--not the least of which, the money it's 
generating is third only behind the IRS, the Customs 
Department--and is very significant to this Nation. So thank 
you very much for your visit and for your attention.
    Thank you also for helping to pass the historic Gulf of 
Mexico Energy Security Act. With your help and many in your 
department, we were able to pass that historic piece of 
legislation. It establishes for the first time for the Gulf 
Coast States an opportunity for revenue-sharing somewhat on 
par--not exactly, but somewhat on par--with the interior 
States, to help form a really strong partnership between the 
Federal Government and the States to produce the energy this 
country needs and to maintain a good environmental balance, as 
well.
    My question is: in that bill, as you are aware, there are 
some fairly complicated formulas that have to be developed by 
Minerals Management in order to establish the revenue streams 
with the four Gulf Coast States--Texas, Louisiana, Mississippi, 
and Alabama--and several of the coastal counties and parishes. 
What is the timeframe for developing those revenues? Are you 
moving expeditiously to do that? And does the budget that we're 
looking at reflect the staffing and the financing that you need 
to get that done?
    And the reason I ask--I'll let you answer--but the reason I 
ask is because I am in the process of meeting with investment 
banking firms to try to borrow against those anticipated 
revenues which now belong to the States, basically, so that we 
can get the work that we need underway without requiring 
additional Federal support. So this is very timely, it's very 
important, and if you could comment on that I would appreciate 
it.
    Secretary Kempthorne. Senator Landrieu, thank you very 
much, and thank you for your efforts on the act itself. MMS is 
working diligently on this. It is a priority. They need to 
develop the regulations. I cannot tell you what the timeframe 
would be, but I will tell you that I do not believe there will 
be any delay in the schedule of payments that would occur to 
those States.
    Senator Landrieu. And I realize that, because we have time 
until those payments are coming, but do you think it would be a 
6-month or a 12-month task? Have you been able to evaluate that 
with your staff and you could give us any----
    Secretary Kempthorne. Senator Landrieu, because of the 
importance of that question, I would prefer to confer with MMS 
and then get an accurate answer to you.
    Senator Landrieu. OK, because we realize that it's going to 
be some time before the revenues actually flow, but if those 
formulas are set up and established, we could then borrow 
against those anticipated revenues and get some work done 
earlier as opposed to later, since it's so critical. But if you 
could get back to me, that would be terrific.
    The other is, I'm concerned about the overall funding 
decrease for Minerals Management. We are all of us engaged in 
trying to recover the $8 to $10 billion that has been lost 
because of a faulty lease plan in 1998 and 1999. There are 
several different ways that various people are approaching 
that. But as I look at the MMS budget--which again brings in, 
from offshore last year it was $7 billion and from onshore, $1 
billion so that's a total of $8 billion to the Federal 
Treasury, this particular agency--as I said, other than the IRS 
and Customs, there's no agency that brings in more money to the 
Federal Treasury that I'm aware of.
    So in light of the problems of Minerals Management, and in 
light of the fact that they generate so much money, it just 
doesn't seem that a $2 million cut or any cut to that agency--
we should be adding auditors, not removing auditors. Could you 
comment on the cut to Minerals Management?
    Secretary Kempthorne. Yes. Senator Landrieu, in 2008 the 
proposal, the OCS program level has in fact a slight net 
increase. To break it down further, $4 million is there to 
fulfill MMS's environmental and oversight responsibilities 
under the 2007 to 2012 5-year OCS plan; $1.3 million to acquire 
the required expertise and resources needed to facilitate OCS 
ultra deep water development; and $820,000 to address well 
abandonment and pollution prevention and to keep pace. I will 
also just add that there is money there that is going to allow 
us to bring systems that are needed, much needed, online and 
operational.
    Senator Landrieu. Mr. Chairman, I would only end with this 
comment. Again, MMS is a relatively small agency in the Federal 
Government that generates a substantial amount of money for the 
Federal Government. It doesn't seem to me that, particularly at 
this time where there are some serious questions about its 
operations, about its auditing capabilities and its expertise, 
that we should be cutting it. We should be expanding it, giving 
them the resources they need to reform, retool, and rebuild 
themselves, because with every step that they can rebuild, it 
may be actually more money to the Treasury, and last time I 
looked we could use it. So I'm going to be looking very 
carefully at Minerals Management's budget as we review and go 
into this year, and I look forward to getting that timeframe 
from you as well as more detail about the MMS reductions.
    Secretary Kempthorne. Mr. Chairman and Senator Landrieu, if 
I could just note that the MMS budget is a 2 percent increase, 
and it's a $3.2 million increase.
    Senator Landrieu. Well, my notes reflect a $2 million cut 
in personnel, so let us reconcile that and we'll see.
    Secretary Kempthorne. All right. Very good.
    The Chairman. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman, and Mr. Secretary, 
always good to have a chance to work with you.
    I want to go in the oil royalty issue as well. Chairman 
Bingaman, as you know, held the hearing earlier. It was clear 
to me that we weren't talking about a few innocent mistakes. We 
were told that it involved hundreds of leases. We've got 
auditors filing false claim suits to recover funds, and one 
Federal court has already agreed with them.
    And my question deals with the royalty-in-kind program, 
which we were told now has officials under criminal 
investigation. Now, this is the program where oil and gas is 
accepted as a royalty payment rather than cash, and Minerals 
Management says that about 80 percent of the Gulf of Mexico oil 
and gas royalties by 2009 are going to come from this program, 
so this program is a big deal because it's the future. It's one 
thing to talk about the past, another thing to talk about the 
future.
    Now, I'm very grateful to Chairman Bingaman. He's not here. 
He and I have gone in together on a letter to the Government 
Accountability Office because every time they look at the 
program, I guess they've looked at it twice, they can't find 
out from Minerals Management something resembling full and 
accurate data with respect to the costs, the total revenue, the 
savings, essentially the financial nuts and bolts of how that 
program works.
    Why is it so hard, Mr. Secretary, to provide full and 
accurate data on this particular program?
    Secretary Kempthorne. Senator Wyden, you would think that 
it would not be. It is a government operation. It needs to 
operate under the accounting procedures, audit procedures, et 
cetera. And I would say that to the great extent, it is. I 
think there are tremendous professional people there that are 
very dedicated to this.
    There have been those instances that come to light that are 
certainly noteworthy. The 1998-1999 situation where the price 
threshold was left out, we believe that it was a mistake, we 
all do. We believe that it was not just some oversight. We 
don't know why it occurred. We don't think it was for a 
motivation that was anything, but just an error was made, but 
someone made that error.
    You mentioned about the royalty-in-kind program. There is 
an ongoing investigation there, and we have taken some actions 
based upon a preliminary indication by the Inspector General. 
So when you ask about this, we will continue to work to make a 
determination of what changes need to be made, how best to make 
those changes, but the fact is that you do have a program of 
audits, of inspectors general. You referenced the auditors that 
went and filed their case with the courts. I've asked the 
Inspector General to examine that and to make a determination 
why they felt they needed to go that route. That would not have 
been the normal next step that they would take. So we continue 
to press for these answers.
    Senator Wyden. The only thing that I find very troubling, 
Mr. Secretary, is this is the big program going forward. In 
other words, we're not talking about the area that we've all 
been thrashing about now for some time, you know, the past 
leases. And I really do hope that the department will now make 
this an urgent priority, because this is where 80 percent of 
the royalty money is going to come in 2009.
    When the GAO comes out with these reports saying that the 
agency cannot get its arm around the costs involved, and has 
done this twice now, in 2003 and 2004--Chairman Bingaman and I 
have asked them to look at it again, and I'm grateful to him 
for joining me in this inquiry. I'm telling you, I'm going to 
get to the bottom of this. It's the big program as it relates 
to oil royalties. The government auditors say we don't have the 
facts about it. I'm going to stay with it until we do.
    Let me ask you one other question--I have just a few 
seconds--on the natural resources budget, the 18 percent cut to 
PILT. You've heard Senator Craig and I express our concern 
about the safety net for the rural counties. Have you all done 
any analysis about what's going to happen to public land 
counties if these cuts go into effect?
    I think it's a very constructive initiative, the 
Cooperative Conservation Program, for example, and others like 
it. My reading is, without the safety net and with the cuts in 
PILT, these rural counties aren't going to be able to provide 
public services, law enforcement, you know, basic services, let 
alone be involved in anything with visitors. So my question is: 
have you all done an analysis of what public lands counties 
would look like if these cuts went into effect?
    Secretary Kempthorne. Senator Wyden, no, I don't know of an 
analysis that has been completed on that. I do know, again 
coming from a Western State, what it does mean to particular 
counties. I would hope, too, Senator, that part of a solution 
for some of those counties is to get into the position, 
particularly where we talk about the O&C counties in Oregon, of 
additional timber harvest so that there can be that additional 
revenue which used to be a mainstay. So again, we look forward 
to working with you.
    Senator Wyden. My time is up. We're going to work with you 
on that front, too.
    Secretary Kempthorne. Good.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you. I've been told that the vote has 
started, but we'll go ahead and have Senator Menendez ask his 
questions, and then we may be able to conclude this hearing. Go 
ahead.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, welcome. Let me start by saying how 
promising I think this national park centennial initiative is. 
I believe the national parks are the crown jewels of our 
national heritage, and I hope we can follow through on this 
commitment and reverse the decline in maintenance and 
operations funding that we've seen in recent years.
    One of the parks that I have a great interest in is Ellis 
Island, particularly on the south side where a private, 
nonprofit organization has been raising money and doing a 
tremendous job of renovating the historic buildings there that 
were really in risk of being lost totally. I understand you've 
had a chance to visit the site. Is that the case?
    Secretary Kempthorne. Yes, Senator Menendez, I have, based 
on your comments during the confirmation, so I felt it was 
important to go see it and talk to these individuals.
    Senator Menendez. And I understand that you expressed the 
possibility that the site could be one of the signature sites 
in this process, this Centennial Challenge?
    Secretary Kempthorne. That's correct. No determinations, 
but I think it could certainly be a prime candidate.
    Senator Menendez. Well, I certainly hope so, Mr. Secretary. 
It was the portal for so many people who came to this country. 
It's rich in history. It's shared with two States. And I think 
it's an excellent example of how a public-private partnership 
can help restore one of America's truly great treasures.
    I have some other questions about the Centennial Challenge 
that I'm going to submit for the record so that we won't eat up 
the time here, but I would love to see your responses to them.
    One question I do want to find out is, are there going to 
be any safeguards to ensure that the money from the Challenge 
isn't used to bridge operating gaps or cover shortfalls in the 
regular maintenance budget? Can we be assured that the money 
raised from this Challenge will go toward enhancing and 
enticing the visitor experience?
    Secretary Kempthorne. Yes. Mr. Chairman and Senator 
Menendez, I appreciate the question. Yes, I will tell you that 
included in this budget also for 2008 is $200 million for 
construction to deal with other programs that would not 
necessarily come under the Centennial Challenge--
infrastructure, et cetera.
    Also, when we had a meeting at Ellis Island with a group of 
private sector and philanthropic representatives, including 
those who have been great advocates for Ellis Island, I had 
with me the Inspector General, so that as we go through this 
process, I'd like him to be at the front end helping us to 
craft that and to have the transparency, so that it's not at 
the end with audits and reports.
    Senator Menendez. Well, we look forward to working with 
that.
    One last thing. What I'm not happy about in the budget is 
the huge cuts to the Land and Water Conservational Fund and 
other land acquisition projects such as the Highlands 
Conservation Act. The department has been very supportive of 
this project in the past, and we certainly appreciate that 
support, but there's no money in the 2008 budget for Highlands 
land acquisition. Here we have a very popular program with 
strong bipartisan support in all four States, and it's getting 
zeroed out in its second year.
    So my question is, Mr. Secretary, now that the CR has 
passed, do you intend to fund the Highlands Act this year, 
seeing that it was in the President's budget and in the 
appropriations bill reported out of both chambers?
    Secretary Kempthorne. Yes, Senator Menendez, it is one of 
the projects that we're looking at. We're working with 
representatives of the Highlands project.
    Senator Menendez. OK. I've been around long enough to 
understand that's not a ``yes'', so let me just simply say that 
we hope that because it was in the President's budget and in 
the appropriation bills reported out of both chambers, and 
because there are four States and eight Senators who strongly 
support it, that we will see the department support it as well. 
Also that we're going to work with our colleagues from 
Pennsylvania, New York, and Connecticut, to change the budget 
as it exists right now, as a member of the Budget Committee and 
then on the floor. So we certainly hope that we don't impede 
the progress, by at least moving forward with that which we 
have under the CR.
    Secretary Kempthorne. Senator Menendez, if I could make a 
point. Though you are correct, it's not a ``yes'', I will tell 
you that there is active discussion. We are taking a cue from 
you about the importance of Ellis Island, the other half that 
has not been restored. That's why I wanted to physically go see 
it, walk through those buildings, see if we can identify 
further assets and individuals that might help us with that 
project. So while we don't have a ``yes'' on a couple of those, 
I will tell you that we're actively involved.
    Senator Menendez. Well, we intend to be actively involved 
with you.
    Secretary Kempthorne. Good.
    Senator Menendez. Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me just raise one issue before we adjourn the hearing, 
Mr. Secretary. You emphasized in your opening statement the 
importance of trying to improve Indian education, and obviously 
that is a priority and needs to be. The way I read your budget 
figures, fiscal year 2006, if you take the amount that was 
spent on Indian education and add to it the amount spent on 
education construction in the BIA, you get $853 million. In 
2008, you add those same two numbers and you get $800 million, 
so that's a 6.2 percent cut when you add the Indian education 
and the Indian education construction together.
    Am I wrong about that? I mean, I know you're adding $15 
million on the operational side, and that's obviously 
encouraging, but when you put the two together, the functioning 
of the schools and the construction budgets for the schools, we 
have a 6.2 percent cut from 2006 to 2008. Am I right?
    Secretary Kempthorne. Senator Bingaman, if I may, I'd like 
to answer your question in detail by submitting it back to you.
    The Chairman. That would be great.
    Secretary Kempthorne. But if I could make this point, for 
the past few years there's been significant progress on school 
construction, both new schools and rehabilitation. We really 
believe that we've reached a point that now we need to turn our 
attention to the classrooms themselves, so that we can benefit 
a much larger segment of Indian country rather than perhaps 
going to what would be the next school that would be 
rehabilitated. But instead, with 50,000 Indian children in the 
Indian schools, we really want to begin addressing that.
    The Chairman. Well, I don't disagree with your desire to 
begin putting more emphasis on the classroom, but as far as I 
am informed, there are still great needs for Indian 
construction around the country. The fact that that might be 
the secondary priority doesn't mean it still isn't a priority. 
So, at any rate, if you could give me a written response on 
that I would appreciate it very much.
    Secretary Kempthorne. All right.
    The Chairman. We're about to finish this vote, so I'd 
better adjourn the hearing. Thank you very much for being here. 
We appreciate it.
    Secretary Kempthorne. Thank you.
    [Whereupon, at 10:41 a.m., the hearing was adjourned.]

                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

     Responses of the Department of the Interior to Questions From 
                            Senator Bingaman

                        DEPARTMENTAL MANAGEMENT

    Question 1. What is the current status of post-Katrina restoration 
work with respect to Departmental facilities and lands? Please provide 
a listing of status by facility or unit. Is there funding included in 
the Budget request for additional restoration work? If so, please 
specify amounts and anticipated uses.
    Answer. The hurricanes of the 2005 season impacted the Department's 
refuges, parks, and facilities along the Gulf coast. The FWS had over 
50 Service units and NPS had 13 parks affected by the hurricanes. The 
MMS Gulf of Mexico Regional Office was damaged and MMS implemented its 
continuity of operations plan to relocate operations to Houston, Texas 
to ensure that production in the Gulf of Mexico was re-established as 
soon as possible following each of the storms. The USGS lost coastal 
and stream gages throughout the impacted area.
    The Department received $283.3 million in supplemental funding, 
allowing the FWS, NPS, MMS and USGS to do immediate stabilization and 
repair of facilities in the Gulf coast region and to re-establish 
operations at affected facilities. The NPS also received $43.0 million 
for Historic Preservation Grants to allow states to quickly assess 
damage to historic structures and provide grants to restore historic 
structures along the Gulf coast.
    Bureaus are expeditiously obligating funds and, as of December 
2006, the bureaus had obligated over $100 million for repair and 
restoration of DOI lands and facilities. The funding provided has been 
used to conduct clean-up of hazardous materials and debris removal on 
public lands and repair and reconstruction of facilities at park units 
and national wildlife refuges. These actions were necessary to open 
roads and trails to the public, repair visitor centers and exhibits, 
and reconstruct water control structures and habitats that are 
important to migratory bird populations and other wildlife. The repair 
of levees on Interior lands is essential to provide flood control to 
communities and to provide habitat that is essential to support 
migratory birds and other wildlife. The MMS funding allowed for the 
repair and replacement of office equipment and furniture, additional 
lease costs, travel and per diem for employees who had to be 
temporarily relocated to Houston, and the restoration of geophysical 
and geological data. The USGS funding enabled the bureau to purchase 
120 storm surge sensors for temporary deployment within potential 
hurricane landfall areas for documentation of storm surge.
    Listed below are the Fish and Wildlife Service refuges and 
hatcheries affected by the hurricanes: Arthur R Marshall Loxahatchee 
NWR; Anahuac NWR; Bayou Sauvage NWR; Big Branch Marsh NWR; Black Bayou 
Lake NWR; Bogue Chitto NWR; Bon Secour NWR; Cahaba River NWR; Cameron 
Prairie NWR; Chattahoochee Forest NFH; Choctaw NWR; Coldwater NWR; 
Culebra NWR; Dahomey NWR; Delta NWR; Florida Panther NWR; Grand Bay 
NWR; Hillside NWR; Hobe Sound NWR; J.N. Ding Darling NWR; Key West NWR; 
Lacassine NWR; Lake Ophelia NWR; Lower Suwannee NWR; Mandalay NWR; 
Matthews Brake NWR; McFaddin NWR; Merritt Island NWR; Mississippi 
Sandhill Crane NWR; Morgan Brake NWR; Natchitoches NFH; National Key 
Deer Refuge; Noxubee NWR; Panther Swamp NWR; Pelican Island NWR; 
Private John Allen NFH; Red River NWR; Reelfoot NWR; Sabine NWR; St. 
Catherine's Creek NWR; St. Marks NWR; St. Vincent's NWR; Tallahatchie 
NWR; Ten Thousands Islands NWR; Tensas River NWR; Texas Point NWR; 
Trinity River NWR; Vieques NWR; Warm Springs RFC; Yazoo NWR.
    Listed below are the National Park Service units affected by the 
hurricanes: Big Cypress National Preserve; Biscayne National Park; 
Canaveral National Seashore; Cape Hatteras National Seashore; Cape 
Lookout National Seashore; De Soto National Memorial; Dry Tortugas 
National Park; Everglades National Park; Gulf Islands National 
Seashore; Jean Lafitte National Historical Park and Preserve; Natchez 
Trace Parkway; New Orleans Jazz National Historical Park; Vicksburg 
National Military Park.
    The 2008 budget request includes $820,000 for a MMS Gulf of Mexico 
hurricane recovery initiative to address well abandonment and pollution 
prevention. The MMS seeks the capability to not only address important 
outstanding issues from the devastation of recent hurricanes, but also 
to ensure the Gulf and other areas are as well prepared as possible for 
future events.
    Additional detailed information on hurricane recovery can be 
provided upon request.
    Question 2. What level of funding has been made available to the 
Department under each of the past fiscal years pursuant to the Coastal 
Wetlands Planning, Protection, and Restoration Act? How much is 
anticipated to be received by the Department during fiscal year 2008 
under this authority? Please provide a description of how funding is 
distributed under this program, how projects are selected, the level of 
state and local input in selecting the projects, and how the activities 
under this program are coordinated with post-Katrina restoration and 
reconstruction work. How would additional funding be used by the 
agencies?
    Answer. FWS administers two of the three grant programs that 
receive funding through the Coastal Wetlands Planning, Protection, and 
Restoration Act. For FWS, this includes the National Coastal Wetlands 
Conservation Grant Program and the North American Wetlands Conservation 
Grant Program, which each receive 15 percent of the funds provided by 
CWPPRA through the Sport Fish Restoration and Boating Trust Fund 
(formerly known as the Aquatic Resources Trust Fund). The latter 
program also receives funding from other sources. The remaining 70 
percent of the CWPPRA funds are targeted for planning and implementing 
wetlands restoration projects in coastal Louisiana, and are managed by 
five federal agencies and the State of Louisiana. The U.S. Army Corps 
of Engineers administers accounting of the program and tracks project 
status.

----------------------------------------------------------------------------------------------------------------
                                                             FY 2005       FY 2006       FY 2007       FY 2008
----------------------------------------------------------------------------------------------------------------
Coastal Wetlands Conservation Grant Program.............   $12,440,000   $13,513,000   $16,372,000   $17,321,000
North American Wetlands Conservation Grant Program......    12,440,000    13,513,000    16,372,000    17,321,000
----------------------------------------------------------------------------------------------------------------

    Monies from the National Coastal Wetlands Conservation Grant 
Program are distributed competitively through a matching grants 
program, which funds up to 75 percent of the total project costs for 
the acquisition, restoration, management or enhancement of coastal 
wetlands. Insular territories and Commonwealths are not required to 
provide matching funds, except for Puerto Rico, and grants awarded may 
not exceed $1 million for any project. In addition to the insular 
territories and commonwealths of the United States, states bordering 
the Atlantic and Pacific Oceans, the Gulf of Mexico (except Louisiana), 
and the Great Lakes are eligible to apply for grants.
    Under the National Coastal Wetlands Conservation Grant Program, FWS 
reviews, ranks, and selects projects based on ranking criteria 
contained in 50 C.F.R. 84. Under the Act, projects are to be given 
priority if they are consistent with criteria and considerations 
outlined in the National Wetlands Priority Conservation Plan; located 
in states with dedicated funding for programs to acquire coastal 
wetlands, natural areas, and open spaces; or located in maritime 
forests on coastal barriers. Other priority ranking factors include 
projects that give benefits to threatened or endangered species; 
encourage cooperative efforts; or benefit other ongoing projects.
    Under the North American Wetlands Conservation Grant Program, FWS 
provides matching grants to States for acquisition, restoration, 
management, and enhancement of coastal wetlands. Grants are awarded 
annually through a nationwide competitive process. The program supports 
public-private partnerships to carry out projects that involve long-
term protection, restoration, or enhancement of wetlands and associated 
uplands habitats. Projects are selected by consensus of two boards: the 
North American Wetlands Conservation Council, made up of 
representatives from federal and state government and private 
conservation organizations, and the Migratory Bird Conservation 
Commission.
    Because these are nation-wide grant programs, they are not 
specifically coordinated with post-Katrina restoration and 
reconstruction, although FWS does provide technical assistance to 
partners who wish to submit grant applications.
    Question 3. What level of funding is included in the budget request 
to implement the appeals/hearings requirement for the hydropower 
licensing provisions of the Energy Policy Act of 2005? How many such 
appeals have been initiated to date? How many appeals have been 
resolved? Please provide a listing of all such appeals and a 
description of the outcome (settled, including whether conditions were 
modified; Departmental condition upheld; or other condition adopted).
    Answer. The FY 2008 budget request includes $400,000 in funding for 
DOI's Office of Hearing and Appeals to hire an additional 
Administrative Law Judge and cover associated costs for hearings under 
section 241 of the Energy Policy Act of 2005.
    DOI has received filings for appeals under the Energy Policy Act 
process in 10 cases, but only 2 have progressed to full trial-type 
hearings. At this time, four of these cases are still at some stage in 
the appeals system, four have been resolved through settlement, one 
case was determined not to be eligible for a hearing under the Energy 
Policy Act (Box Canyon) and one case is stayed pending further FERC 
proceedings on a surrender application based on dam removal settlement 
(Condit).
    A listing of the four cases that were resolved, with a summary of 
the outcome, follows. All of these cases were resolved through 
settlement.

  <bullet> Hells Canyon.--DOI modified conditions consistent with 
        settlement.
  <bullet> Merrimack.--DOI modified conditions consistent with 
        settlement.
  <bullet> Rocky Reach.--DOI modified conditions consistent with 
        settlement.
  <bullet> Priest Rapids.--DOI modified prescription consistent with 
        settlement.

    Question 4. What Solicitor's Opinions are currently under review? 
What Solicitor's Opinions do you expect to review during the remainder 
of FY07 and in FY08? Please provide a list.
    Answer. There are no existing opinions under review and the 
Solicitor's Office has no plans at this time to review any other 
particular Solicitor's Opinions. If asked to review a particular 
opinion by the Secretary or the Secretary's subordinate officers, or if 
legal matters arise which necessitate Office of the Solicitor review of 
previous Solicitor's Opinions, they will be evaluated on a case-by-case 
basis. Changes in statute or new court decisions could theoretically 
lead to examination of existing opinions.

                      MINERALS MANAGEMENT SERVICE

    Question 5. Has the Office of the Solicitor sought the advice of 
the Department of Justice on whether there is a legal basis for seeking 
to reform the 1998 and 1999 OCS leases that omitted the price 
thresholds under the Outer Continental Shelf Deep Water Royalty Relief 
Act of 1995? Has the Solicitor's Office conferred with the Justice 
Department on whether to pursue a mistake theory or other legal theory 
for recovering the forgone royalties?
    Answer. The Office of the Solicitor has conferred with the 
Department of Justice on a variety of legal theories and potential 
remedies, including reformation, and continues to confer regarding 
these leases.
    Question 6. What is the status of the Kerr-McGee (Anadarko) 
litigation relating to the Outer Continental Shelf Deep Water Royalty 
Relief Act?
    Answer. On March 1, 2007, the parties filed a joint status report 
notifying the United States District Court for the Western District of 
Louisiana that mediation efforts did not result in settlement of the 
issue. Pursuant to the schedule prescribed in the Court's order of 
December 4, 2006, the administrative record is due on April 19, 2007. 
Briefing on the parties cross motions for summary judgment is scheduled 
to be completed by August 9, 2007.
    Question 7. The Energy Policy Act of 2005 contains a provision 
providing royalty incentives for natural gas production from deep wells 
in shallow waters of the OCS. The Department also extended such relief 
administratively prior to enactment of that provision. Please provide a 
list of the price thresholds that have applied under the administrative 
and legislative royalty relief provisions for deep gas produced in 
shallow water. What is the justification for the level of the price 
thresholds? Have these price thresholds ever been triggered?
    Answer. Price thresholds applicable to royalty relief for 
production from deep gas wells (well depths greater than 15,000 feet) 
in shallow waters of the Central and Western Gulf of Mexico (water up 
to 200 meters deep) vary depending on whether the incentive is provided 
for new leases in OCS oil and gas lease sales (since March 2001) or as 
a result of MMS rulemaking which provided for a deep gas drilling 
incentive on existing leases issued prior to 2001. The applicable 
thresholds also are revised each year as they are subject to annual 
inflation adjustments.
    Below is a list of price thresholds as originally applied and as 
adjusted for inflation. The MMS website also provides a complete table 
of inflation adjusted price thresholds and average actual prices for 
natural gas each year: http://www.mms.gov/econ/
DWRRAPrice1.htm#Shallow%20Water,%20Deep%20Natural%20Gas.

               PRICE THRESHOLDS FOR SHALLOW WATER DEEP GAS
------------------------------------------------------------------------
                                                              2006 Price
                                                     Price    Thresholds
                                                  Thresholds   (adjusted
                                                  (Original)      for
                                                              inflation)
------------------------------------------------------------------------
Sale: March 2001................................       $3.50       $4.00
Sales: 2001 to 2003.............................        5.00        5.72
Sales: 2004 to 2006 *...........................        9.34        9.88
Pre-2001 leases: Rulemaking (30 CFR 203) *......        9.34        9.88
------------------------------------------------------------------------
* Incentive includes sunset provision: production from deep wells must
  begin by May 2009.

    In the original Deep Water Royalty Relief Act (DWRRA), Congress 
chose an oil price threshold ($28/barrel in 1994 dollars; equivalent to 
$3.50 per million BTU for natural gas), which was about 50% above the 
existing and expected oil price level in the mid-1990's. MMS initially 
lowered the oil and gas price thresholds for both deep gas and 
deepwater royalty relief in the first sale after the DWRRA mandates 
expired in 2000. In an effort to spur additional production as supplies 
tightened over recent years, MMS increased price thresholds applicable 
to new leases. The even higher gas price threshold adopted in 2004 for 
deep gas reflected the extended period of both higher and more volatile 
gas prices; although the price threshold was substantially higher than 
for other royalty relief programs, this specific incentive had a 2009 
sunset date in order to maximize the incentive for near-term 
production.
    For leases sold in the March 2001 lease sale for which the lessees 
did not opt to switch to the new terms announced in 2004 rulemaking, 
price thresholds have been triggered every year except in 2002. For 
leases sold between August 2001 and 2003 for which the lessees did not 
opt to switch, price thresholds have been triggered every year starting 
in 2003. The thresholds have not yet been triggered on leases sold 
since 2004 (or on leases sold between 2001 and 2003 where the lessee 
opted to switch to the new terms) and for pre-2001 leases that qualify 
for deep gas relief under MMS rulemaking.
    The Administration did not support the new mandatory royalty relief 
established in the Energy Policy Act of 2005 and has recently indicated 
support for the repeal of these specific incentives. Although MMS has 
not made a decision on the specific price threshold(s) to be included 
in a new rulemaking implementing the Energy Policy Act provisions, MMS 
continues to assess the effectiveness of existing royalty incentives, 
and will take this new information into account in determining the 
appropriate price threshold(s) to apply to future royalty relief 
incentives, including those provided by the Energy Policy Act.

          OFFICE OF SURFACE MINING RECLAMATION AND ENFORCEMENT

    Question 8. The Surface Mining Control and Reclamation Act 
Amendments of 2006 extended the abandoned mine land (AML) fee 
collection authority through 2021 at a reduced level. Please provide a 
chart showing the annual projected fee collections through 2021 under 
the new law as compared to the annual projected fee collections 
assuming that the fee had not been changed.
    Answer.

------------------------------------------------------------------------
                                                 Estimated Collections *
                                               -------------------------
                  Fiscal Year                    If the Law
                                                  Had Not     Under the
                                                  Changed      New Law
------------------------------------------------------------------------
2008..........................................        300.2        270.1
2009..........................................        305.2        274.6
2010..........................................        313.3        281.9
2011..........................................        317.9        286.1
2012..........................................        320.6        288.5
2013..........................................        323.8        259.1
2014..........................................        327.2        261.7
2015..........................................        332          265.6
2016..........................................        336.3        269
2017..........................................        342.4        273.9
2018..........................................        346.1        276.9
2019..........................................        351.4        281.1
2020..........................................        356          284.8
2021..........................................        358.7        287
------------------------------------------------------------------------
* The estimated collections use DOE projections through 2021 to make
  initial assessments under the new law. Because the new law was passed
  subsequent to development of the green book, the figures may differ.

    Question 9. The Surface Mining Control and Reclamation Act 
Amendments of 2006 provide for the repayment of unappropriated state 
and tribal share balances over seven years. Please provide a chart 
showing the expected annual payments of unappropriated balances to each 
state and tribe under these provisions.
    Answer.

  EXPECTED ANNUAL DISTRIBUTION * OF AML UNAPPROPRIATED STATE AND TRIBAL
            SHARE BALANCES UNDER THE SMCRA AMENDMENTS OF 2006
                        [In Millions of Dollars]
------------------------------------------------------------------------
                                              Estimated
                                                Total         Expected
                                           Unappropriated      Annual
               State/Tribe                  State/Tribal    Distribution
                                            Share Balance   For 7 Years
                                            as of 9/30/07    FY 2008-14
------------------------------------------------------------------------
Alabama..................................           $19.8           $2.8
Alaska...................................             2.2            0.3
Arkansas.................................             0.1            0.0
Colorado.................................            28.9            4.1
Illinois.................................            30.4            4.3
Indiana..................................            44.6            6.4
Iowa.....................................             0              0
Kansas...................................             0.4            0.1
Kentucky.................................           133.3           19.0
Louisiana................................             1.6            0.2
Maryland.................................             4.4            0.6
Missouri.................................             1.1            0.2
Montana..................................            51.6            7.4
New Mexico...............................            20.4            2.9
North Dakota.............................            13.5            1.9
Ohio.....................................            25.7            3.7
Oklahoma.................................             2.3            0.3
Pennsylvania.............................            61.9            8.8
Texas....................................            21.7            3.1
Utah.....................................            16.1            2.3
Virginia.................................            29.0            4.1
West Virginia............................           145.3           20.8
Wyoming..................................           518.3           74.0
Crow Tribe...............................             8.8            1.3
Hopi Tribe...............................             8.0            1.1
Navajo Nation............................            32.1            4.6
                                          ------------------------------
      Totals.............................         1,221.5          174.5
      Seven years........................  ..............        1,221.5
------------------------------------------------------------------------
* This distribution is in lieu payments from Treasury.

    Question 10. What level of funding would be needed to undertake a 
comprehensive inventory of abandoned hardrock mine sites?
    Answer. Conducting such an inventory is beyond our current 
authority. Moreover, there are many states with an extensive history of 
hard rock mining, such as Idaho and Nevada, that have never been 
included in our AML program. Therefore, we are unable to provide an 
estimate of the funds that would be needed for such an inventory.
    Question 11. Please describe what steps OSM takes under SMCRA and 
other legal authorities to regulate so-called mountaintop removal.
    Answer. ``Mountaintop removal'' mining was authorized by Congress 
in the Surface Mining, Reclamation and Control Act, section 515(c). 
State laws and rules require careful planning of mountaintop removal 
mining. Permit applications are thoroughly reviewed to ensure that 
mining and reclamation minimizes adverse impacts on environmental 
resources, adjacent property, and public health and safety. Mining 
operations also must meet requirements of the Clean Water, Endangered 
Species, Clean Air, and National Historic Preservation Acts as well as 
many other local, state, and federal mining health, safety, and land 
use statutes and rules. States conduct monthly inspections to make sure 
mining plans are followed. Violations are cited. Reclamation is 
guaranteed by a substantial performance bond. OSM conducts oversight of 
state programs to assure compliance and seek efficiencies and process 
improvements.

                       BUREAU OF LAND MANAGEMENT

    Question 12a. Section 365 of the Energy Policy Act provides 
mandatory funding from lease rentals for the pilot project to improve 
Federal oil and gas permit coordination. However, the Budget apparently 
proposes to replace this mandatory funding with a new user fee. I have 
several questions about BLM's implementation of this program.
    How much of the funding under the program has been used to pay for 
positions in BLM? Of these, how many positions have been dedicated to 
inspection and enforcement? Please provide a listing of new positions 
funded by office and job function. Please describe the positions you 
anticipate funding in FY 2008.
    Answer. In FY 2006, BLM authorized a total of 125 new positions, 
and total costs to BLM, including associated support services and 
contract labor, were $13,175,000. BLM has approved 162 total positions 
for FY 2007. No additional positions have been authorized for FY 2008 
at this time. Thirty-three positions were dedicated full time to 
inspection and enforcement in FY 2006, with an increase to a total of 
fifty inspection and enforcement positions for FY 2007. The Pilot 
Office inspection and enforcement positions authorized for FY 2006 and 
FY 2007 are listed below, by office and job function.

------------------------------------------------------------------------
                  Office                            Job Function
------------------------------------------------------------------------
Glenwood Springs, CO:
    FY 2006...............................  3 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician
    FY 2007...............................  1 Petroleum Engineering
                                             Technician
Miles City, MT:
    FY 2006...............................  2 Petroleum Engineering
                                             Technicians, 1 Natural
                                             Resource Specialist
Farmington, NM:
    FY 2006...............................  4 Petroleum Engineering
                                             Technicians, 2 Production
                                             Accountability Technicians
Carlsbad, NM:
    FY 2006...............................  4 Petroleum Engineering
                                             Technicians, 2 Production
                                             Accountability Technicians
    FY 2007...............................  4 Petroleum Engineering
                                             Technicians, 2
                                             Environmental Protection
                                             Specialists
Vernal, UT:
    FY 2006...............................  3 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician
    FY 2007...............................  4 Petroleum Engineering
                                             Technicians
Buffalo, WY:
    FY 2006...............................  2 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician,
                                             2 Surface Compliance
                                             Technicians
    FY 2007...............................  3 Surface Compliance
                                             Technicians, 1 Natural
                                             Resource Specialist
Rawlins, WY:
    FY 2006...............................  3 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician,
                                             1 Surface Compliance
                                             Technician
    FY 2007...............................  2 Petroleum Engineering
                                             Technicians
------------------------------------------------------------------------

    Question 12b. I understand that lack of resources in other agencies 
having a role in permitting has been a problem in the past. How many 
positions have been paid for in the Fish and Wildlife Service with 
these new funds? The Forest Service? Please provide a listing of new 
positions funded by office and job function. Please describe the 
positions you anticipate funding in FY 2008.
    Answer. The BLM, working with the Fish and Wildlife Service and the 
Forest Service, has allocated funding for 10 positions and 6 positions, 
respectively. Additional positions for the Fish and Wildlife Service in 
Fiscal Year 2006 include wildlife biologists serving each of the seven 
Pilot Offices plus positions in Cheyenne, WY; Denver, CO; and 
Albuquerque, NM. Forest Service positions include natural resource 
specialists (liaison) positions in Farmington, NM; Vernal, UT; Buffalo, 
WY; and a natural resource specialist, a wildlife biologist and civil 
engineering technician in Glenwood Springs, CO. At this time, no 
additional positions for either the Fish and Wildlife Service or the 
Forest Service have been identified for Fiscal Years 2007 or 2008. 
However, the BLM currently is discussing potential additional needs 
with all the Federal and State partner agencies and will allocate 
planned funding as appropriate to best manage the overall APD workload 
of the agencies.
    Question 13. What assumptions does the FY 2008 budget make with 
respect to leasing in the Arctic National Wildlife Refuge? Please 
provide the specific information and data supporting the assumptions 
contained in the budget with respect to revenues. What assumptions does 
the budget make regarding: (1) the price of oil; (2) the timing of 
production; and (3) the magnitude and location of oil production? What 
assumptions does the budget make regarding bonus bids and what is the 
basis for each assumption? Did you look at comparable lease sales? If 
so, please provide the specific information as to the location, timing, 
resource estimates, and bonus bids for each comparable sale. What 
infrastructure do you assume will be necessary for production from the 
Arctic Refuge? How many miles of pipeline within the Refuge will be 
required, given your assumptions regarding the magnitude and location 
of production?
    Answer. The estimate in the Budget was made by 1) analyzing geology 
and geophysical information to determine geology parameters; 2) 
conducting an engineering analysis of the exploration, development, 
production, and reclamation phases for the potential range of sources; 
and 3) running an economic analysis of 1) and 2) under projected market 
conditions.
    The most recent USGS estimates state that:

  <bullet> There is a 95 percent probability that at least 5.7 billion 
        barrels of technically recoverable undiscovered oil are in the 
        Alaska National Wildlife Refuge (ANWR) coastal plain,
  <bullet> There is a 5 percent probability that at least 16 billion 
        barrels of technically recoverable undiscovered oil are in the 
        ANWR coastal plain, and
  <bullet> The mean or expected value is 10.36 billion barrels of 
        technically recoverable undiscovered oil in the ANWR coastal 
        plain.

    The primary area of the coastal plain is the 1002 Area of ANWR, 
which was established when ANWR was created. Also included in the 
Coastal Plain are State lands to the 3-mile offshore limit and Native 
Inupiat land near the village of Kaktovik.
    The unique combination of source rocks and reservoir traps is 
similar to the geologic combination of events that caused the 
productive reservoirs to the west, including the Prudhoe Bay Field. 
Therefore, similar results are anticipated. However, the geologic 
interpretation has changed since BLM estimated ANWR leasing revenues in 
1992. At that time most of the oil was expected in several large 
structures. Now USGS expects that these structures are more likely gas 
and that most of the oil will be found in stratigraphic traps over a 
large area. The uncertainty of the location of these traps is an added 
risk that affects the bidding of the oil companies. We have been able 
to model the impact on bidding using comparable sales from NPRA and 
price expectations from the Department of Energy's Energy Information 
Administration's (DOE/EIA) Annual Energy Outlook.
    We estimate that first production will not occur until after at 
least 10 years from Congressional approval to open ANWR to leasing. 
This includes all regulatory actions necessary to conduct the first 
sale, exploration sufficient to proceed with development, and the 
concurrent field development, facilities construction, and pipeline 
design, approval, and construction. Thus production will not occur 
until after 2017.
    DOE/EIA has published the Reference Case for the AEO 2006. They 
also provided BLM with sufficient information to conduct the revenue 
estimate analysis with price scenarios consistent with the high and low 
oil prices in the thus far unpublished cases from the AEO 2006.
Assumptions
    The estimate of receipts and funding requirements is based on the 
following assumptions:

  <bullet> Legislation authorizing ANWR development would be enacted in 
        time to allow a sale in FY2009.
  <bullet> Regulations would be completed in FY2008.
  <bullet> The Final Legislative EIS on the 1002 area dated April 1987 
        would satisfy the requirements of NEPA with respect to pre-
        lease activities.
  <bullet> The EIS and related planning document would be final in 
        FY2008 with sufficient time for the sale in FY2009 (18 months 
        after enactment).
  <bullet> The BLM would serve as lead for the EIS in active 
        consultation and cooperation with FWS. BLM would have 
        responsibility for the sub-surface minerals resource input and 
        analysis with assistance from USGS.
  <bullet> Two lease sales would be conducted before October 1, 2011.
  <bullet> The estimates for bonus bids are based on expected values 
        given the best information we have on geologic probability 
        curves and risks, as well as probability functions for costs 
        and prices.
  <bullet> The geologic inputs were based on the joint analysis by 
        staff experts of the USGS and BLM regarding oil potential and 
        probabilities using the most recent USGS estimates of the oil 
        and gas resources of the 1002 area of ANWR (Arctic National 
        Wildlife Refuge, 1002 Area, Petroleum Assessment, 1998, 
        Including Economic Analysis U.S. Geol. Open File Report 98-34, 
        1999) and the various updates including Undiscovered oil 
        resources in the Federal portion of the 1002 area of the Arctic 
        National Wildlife Refuge: an economic update U.S. Geol. Survey 
        Report 2005-1217.
  <bullet> Economic inputs regarding oil pricing were based on the EIA 
        2006 Annual Energy Outlook.
  <bullet> Production will not occur until at least the tenth year 
        after the first lease sale. Does not include production or 
        revenues from State or Native lands.
  <bullet> The top tracts will go first so that the best prospects are 
        sold in the first sale, and most of the remainder in the 
        second.
  <bullet> Final adjustments were made based on bidding patterns in 
        nearby north slope oil and gas lease sales.

    The model assumes a 50/50 split of revenues with the State of 
Alaska, a royalty rate of 12.5%, and that almost all tracts would be 
available for nomination in each sale. The model used for the analysis 
was a Monte Carlo Discounted Cash Flow model. With these 
considerations, the model results in total bonus bid estimates of $7.0 
billion for a 2009 lease sale, and $1.0 billion from a second lease 
sale in 2011, for a total of $8.0 billion. There are 35 mapped 
structural prospects. Each prospect is run 1,000 times in the Monte 
Carlo model, with the condition that hydrocarbons exist, considering a 
number of differing factors. Similarly, the same is done for the one 
large stratigraphic play that covers approximately the northwestern 
third of the 1002 area. As a result, the specific infrastructure and 
transportation assumptions change thousands of times based on the 
running of the model.
    Question 14a. What is the total amount of funding for the oil and 
gas I&E program included in the request for FY08? Please provide a 
table showing the funding for this program (both requested and enacted) 
for the previous 10 fiscal years.
    Answer.

                 BLM INSPECTION AND ENFORCEMENT FUNDING
                        [In Thousands of Dollars]
------------------------------------------------------------------------
                    Fiscal Year                      Request    Enacted
------------------------------------------------------------------------
1997..............................................    $14,850    $14,850
1998..............................................     14,850     14,850
1999..............................................     14,850     14,850
2000..............................................     15,365     15,365
2001..............................................     20,042     20,042
2002..............................................     22,673     22,673
2003..............................................     24,000     24,000
2004..............................................     26,000     26,000
2005..............................................     26,250     26,250
2006..............................................     27,890     27,890
2007..............................................     33,054     33,054
2008..............................................     35,554
------------------------------------------------------------------------

    Question 14b. I had requested funding for additional inspectors in 
the Farmington Field office. How many additional inspectors have been 
added to this office in each of the past three fiscal years?
    Answer. In FY 2005, no additional I&E staff were hired. In FY 2006, 
the Farmington Field Office hired an additional four I&E inspectors. To 
date, in FY 2007, no new FTE's have been hired.
    Question 14c. Are you planning to hire additional inspectors in 
offices where the workload is increasing due to coalbed methane 
production? Please provide specifics.
    Answer. The President's 2008 Budget includes an increase of $2.5 
million for fluid mineral inspections and enforcement reviews and will 
result in an additional 510 inspections in 2008 and an additional 1,050 
inspections in 2009. It takes one full year to certify new inspectors. 
Taking into account an increase in industry activity, including any 
increases in coal-bed methane production, we expect the completion rate 
of required inspections to reach 84 percent in 2008.
    Question 15. What is the total amount of requested funding for oil 
and gas NEPA compliance for FY08? Please provide a table showing the 
funding for NEPA compliance (both requested and enacted) for the 
previous 10 years.
    Answer. The BLM's FY 2008 Budget Request does not specify a funding 
amount for NEPA compliance within the Oil and Gas Management program 
because the costs of NEPA compliance are not individually tracked 
within the BLM's oil and gas financial management system. Rather, those 
costs are aggregated across various portions of the BLM's oil and gas 
budget, such as APD processing, processing of sundry notices, and 
inspection and enforcement. Nevertheless, NEPA compliance costs have 
increased as the number of leases and permits processed have increased.
    Question 16. What is the total backlog of APD's? Please provide a 
table showing the backlog over the last ten years and the number of 
APD's received and processed during each of the last ten years. Please 
display this information on a state-by-state basis.
    Answer. The total number of APDs that were pending in 2006 is 2310 
with an expected decrease in 2007 to 2290, and in 2008 to 2250. A 
comparison of APDs received in Montana, Wyoming, Utah, Colorado and New 
Mexico between the years of 1996 and 2000 and the years 2001 to 2005 
shows a 104 percent increase in activity.
    The tables below include the requested data related to APD 
processing.

                                                 APDS PENDING LONGER THAN 60 DAYS AT END OF FISCAL YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              State                                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005    2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
AK..............................................................       0       0       1       1       6      15       0       0       0       0       0
CA..............................................................       8      12      18      51      24       5       6       7       3       4      41
Colorado........................................................      16      21      28      44      33      74      67      65      52      74     129
Eastern States..................................................       1       3       6      26      10       7      10      23      12      21       9
Montana.........................................................      23      29      36      40     102      67     134     114      82      89       7
NV..............................................................       0       0       1       0       0       0       0       0       7       6       0
New Mexico......................................................     259     295     318     255     368     503     740     692     501     546     459
Utah............................................................      73      82      91     147     150     266     526     443     353     397   1,421
Wyoming.........................................................     305     347     387     349   1,060   1,059   1,597   1,436   1,204   1,324     244
Nationwide......................................................     685     789     886     913   1,753   1,996   3,080   2,780   2,214   2,461   2,310
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                            APDS RECEIVED DURING FISCAL YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
                             State                                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005     2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
AK.............................................................       0       1       2      14      11      23      12       6      18       8        9
CA.............................................................     206     356     395     219     121      70     118      69     116     235      198
Colorado.......................................................      70     107     122     184     254     299     265     323     502     605      896
Eastern States.................................................       4      29      28      37      39      23      14      73      70     136       49
Montana........................................................       8     180     183      89     271     213     221     325     421     451      529
NV.............................................................       0       2       7       0       0       1       7       4      15       9        7
New Mexico.....................................................     745     926   1,034     832   1,280   1,351   1,087   1,385   1,668   1,619    1,843
Utah...........................................................     228     388     389     271     394     680     496     639     792   1,245    1,584
Wyoming........................................................     148     656     984   2,859   1,607   2,159   2,365   2,239   3,377   4,043    5,377
Nationwide.....................................................   1,409   2,645   3,144   4,505   3,977   4,819   4,585   5,063   6,979   8,351   10,492
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                            APDS APPROVED DURING FISCAL YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              State                                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005    2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
AK..............................................................       1       1       3       6       8      11      12       8      14       8      10
CA..............................................................     154     273     410     172      87      72     108      73     109     232     162
Colorado........................................................      59     104      84     153     209     235     208     296     407     608     668
Eastern States..................................................       8      17      34      13      22      27      13      44      63     110      42
Montana.........................................................       5     159     121     103     160     168     202     294     213     425     269
NV..............................................................       0       0       6       1       0       0       6       3      10      10       8
New Mexico......................................................     524     681     716     600     898     930     960   1,183   1,492   1,475   1,866
Utah............................................................     178     299     292     157     316     505     463     437     677     770   1,016
Wyoming.........................................................      91     455     682     554   1,569   1,688   1,568   1,623   3,467   3,380   3,704
Nationwide......................................................   1,020   1,989   2,348   1,759   3,269   3,636   3,540   3,961   6,452   7,018   7,745
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                            APDS RETURNED DURING FISCAL YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              State                                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005    2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
AK..............................................................       0       0       0       1       1       2      21       1       1       0       0
CA..............................................................      43      27      22      21      56      24      12       4       5       3       1
Colorado........................................................       7       1      10      16      29      20      51      29      17      30      90
Eastern States..................................................       0       2       1       3       4       6       5      20      13       8       3
Montana.........................................................       0       0       6      21      26      18      59      64      79      29      19
NV..............................................................       0       0       0       0       0       0       0       0       0       2       3
New Mexico......................................................      59      59     105     307     158     310     413     407     165      95     129
Utah............................................................      29      60      65      47      51      34      84     120     178      16      81
Wyoming.........................................................      11      25      80     131     298     216   1,645     537     441     535     783
Nationwide......................................................     149     174     289     547     623     630   2,290   1,182     899     718   1,109
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                                         TOTAL APDS PROCESSED DURING FISCAL YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
                              State                                1996    1997    1998    1999    2000    2001    2002    2003    2004    2005    2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
AK..............................................................       1       1       3       7       9      13      33       9      15       8      10
CA..............................................................     197     300     432     193     143      96     120      77     114     235     163
Colorado........................................................      66     105      94     169     238     255     259     325     424     638     758
Eastern States..................................................       8      19      35      16      26      33      18      64      76     118      45
Montana.........................................................       5     159     127     124     186     186     261     358     292     454     288
NV..............................................................       0       0       6       1       0       0       6       3      10      12      11
New Mexico......................................................     583     740     821     907   1,056   1,240   1,373   1,590   1,657   1,570   1,995
Utah............................................................     207     359     357     204     367     539     547     557     855     786   1,097
Wyoming.........................................................     102     480     762     685   1,867   1,904   3,213   2,160   3,908   3,915   4,487
Nationwide......................................................   1,169   2,163   2,637   2,306   3,892   4,266   5,830   5,143   7,351   7,736   8,854
--------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 17. How many acres have you put under oil and gas lease 
during each of the past ten fiscal years? Please display this on a 
state-by-state basis.
    Answer.

                                                         NUMBER OF ACRES LEASED DURING THE YEAR
--------------------------------------------------------------------------------------------------------------------------------------------------------
        Geographic State          FY 1996    FY 1997    FY 1998    FY 1999    FY 2000    FY 2001    FY 2002    FY 2003    FY 2004    FY 2005    FY 2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
Alabama........................  .........        684         80  .........      7,855      4,486      4,185      8,990      5,077         80     11,970
Alaska.........................  .........  .........  .........    861,318  .........  .........    567,769     11,500  1,403,561  .........  .........
Arizona........................  .........  .........     55,921  .........  .........     35,584      6,983      3,040      1,224     22,659     13,337
Arkansas.......................        928     39,602     48,011     74,442     21,573    178,785     71,247     95,792    182,158    172,858    121,563
California.....................  .........     27,120     39,638     38,430     34,811     25,290     29,079     60,520     34,343      5,629     74,468
Colorado.......................    217,896    230,242    336,590    242,911    299,978    594,369    448,029    252,004    241,188    237,406    353,172
Connecticut....................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Delaware.......................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Florida........................  .........  .........  .........  .........      2,018  .........  .........      3,368  .........  .........  .........
Georgia........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Hawaii.........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Idaho..........................  .........  .........  .........  .........         40  .........      5,798        671  .........  .........  .........
Illinois.......................  .........  .........  .........  .........  .........  .........        112  .........  .........  .........  .........
Indiana........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Iowa...........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Kansas.........................  .........         80        958      2,354      1,154        599      2,378      5,764      1,240        160        320
Kentucky.......................  .........  .........      1,264  .........      1,143  .........      2,103  .........      4,968  .........      3,604
Louisiana......................     42,900      5,687     25,442     12,333        322        606      3,033        511      1,366      1,985      1,767
Maine..........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Maryland.......................  .........  .........        320  .........  .........  .........  .........  .........  .........  .........  .........
Massachusetts..................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Michigan.......................  .........     20,810  .........     18,650      2,337  .........      3,939      4,050  .........        480        160
Minnesota......................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Mississippi....................     24,945     71,009     78,586      8,524     25,920     19,826     54,755     15,741     41,205     51,600     47,450
Missouri.......................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Montana........................    299,376    241,346    363,402    289,719    380,273    551,660    293,461    172,874    221,740    313,016    200,161
Nebraska.......................        320  .........        760         80        503      7,126  .........      1,880  .........  .........         80
Nevada.........................    178,372    293,760    181,938     69,534    235,348    746,400    259,920    116,292    638,632  1,359,085  1,405,878
New Hampshire..................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
New Jersey.....................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
New Mexico.....................    195,623    329,896    213,957    130,552    190,598    130,193    192,124    239,979    214,756    184,786    160,852
New York.......................  .........  .........  .........  .........        172  .........  .........  .........  .........  .........  .........
North Carolina.................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
North Dakota...................     38,139    188,650     67,110     28,705     21,944     52,858     39,354      6,099     82,527    149,814     64,549
Ohio...........................      8,324        285        337        193      1,870        268        121  .........      5,676        418  .........
Oklahoma.......................     56,163     11,815     13,155     12,432      8,732      8,619      6,018     12,389      3,827     12,428     68,218
Oregon.........................     14,318     14,100        837     11,948     12,605      4,272      5,006        160  .........  .........    255,619
Pennsylvania...................  .........  .........  .........  .........          7  .........        835  .........  .........  .........  .........
Rhode Island...................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
South Carolina.................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
South Dakota...................     60,059     74,693      8,200  .........     62,235     91,880      2,760        548     10,862     33,533     24,775
Tennessee......................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Texas..........................     38,384     35,576      5,784     31,781     13,396     60,972     38,156     43,877     19,509      2,625     16,857
Utah...........................    316,989    444,385    278,702    217,934    247,126    284,928    222,070    240,527    118,878  1,001,681    654,484
Vermont........................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Virginia.......................  .........  .........  .........        870      5,805  .........  .........  .........  .........  .........      1,039
Washington.....................      1,243     11,485        663     32,899     33,891     16,297     11,544    210,188    192,979     45,423    106,484
West Virginia..................  .........  .........  .........  .........     34,358  .........  .........      9,830      8,974     12,307     18,539
Wisconsin......................  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........  .........
Wyoming........................  1,029,579  1,426,795  1,880,476  1,516,941  1,004,479  1,182,253    541,827    547,695    722,431    706,234  1,069,680
                                ------------------------------------------------------------------------------------------------------------------------
      Total....................  2,523,558  3,468,020  3,602,131  3,602,550  2,650,493  3,997,271  2,812,606  2,064,289  4,157,121  4,314,207  4,675,026
--------------------------------------------------------------------------------------------------------------------------------------------------------
 Note.--Data from Public Lands Statistics.

    Question 18a. How many acres of lands administered by the Forest 
Service and the BLM in states west of the hundredth meridian are 
currently under oil and gas lease? Please display by state and agency.
    Answer. The following is a table listing the acreage under oil and 
gas leases on BLM and FS-managed lands in states west of the hundredth 
meridian at the end of FY 2006.

----------------------------------------------------------------------------------------------------------------
                                                                BLM                       Forest Service
                                                 ---------------------------------------------------------------
                      State                          Number of       Number of       Number of       Number of
                                                      Leases           Acres          Leases           Acres
----------------------------------------------------------------------------------------------------------------
Alaska..........................................             339       2,757,762               0               0
Arizona.........................................              41          83,466               0               0
California......................................             723         377,874              22           6,403
Colorado........................................           5,311       4,439,362             522         493,253
Idaho...........................................               5           7,167               0               0
Kansas..........................................              71          24,425             297          64,363
Montana.........................................           3,687       3,205,681             616       1,204,180
Nebraska........................................               2             240               0               0
Nevada..........................................           2,130       4,345,138              30          78,700
New Mexico......................................           8,895       5,265,127             287         233,036
North Dakota....................................             402         135,733           1,409         813,306
Oklahoma........................................             812         102,891             233         135,870
Oregon..........................................             196         290,766               3          10,812
South Dakota....................................             161         144,648              18          11,283
Texas...........................................              47          21,930             499         388,185
Utah............................................           3,884       4,312,992             368         679,710
Washington......................................             448         651,425               0               0
Wyoming.........................................          19,215      13,804,368             756         493,106
                                                 ---------------------------------------------------------------
Total...........................................          46,369      39,970,995           5,060       4,612,207
----------------------------------------------------------------------------------------------------------------

    Question 18b. How much acreage is under lease but not producing?
    Answer. Approximately 31 million acres.
    Question 18c. What are the reasons for this?
    Answer. Each oil and gas lease is effective for 10 years and 
contemplates that production may not occur immediately, but must occur 
within the lease period or any extension granted for good cause. 
Exploration and production companies generally have significant 
inventories of leased acreage that do not have oil or gas production. 
These leased acreage inventories are normal and necessary for a 
company's efficient exploration and production program. For example, 
companies sometimes desire to lease as many parcels of land as possible 
in a specific area before beginning exploration activities making it 
more economical to move needed equipment into the area. Lead time on 
getting a lease drilled may be many years depending on litigation and 
time frames to complete NEPA documentation.
    There are many other explanations for non-producing leases. Private 
individuals, as well as companies, often hold leases for speculation. 
Non-producing leases may be within a unit agreement or development 
contract and not have been drilled. Some leases are suspended as a 
result of litigation. Acquisitions and mergers within the industry 
sometimes result in a company selling or dropping a lease. Changes in 
corporate priorities resulting in management changes also sometimes 
lead to a company not developing a lease.
    Question 18d. How many of these acres are under lease with no 
drilling activity occurring? What are the reasons for this?
    Answer. The BLM tracks the number of leases and acres in 
production. However, because drilling activity can be very short-term, 
in some cases only two to three days, it is very difficult to track 
current drilling activity. Consequently, the BLM does not track how 
many acres under lease currently have drilling activity taking place.
    Question 19a. The Phase II Cumulative Inventory completed by BLM 
under the Energy Policy and Conservation Act (EPCA), as amended, made 
several assumptions. For example, the report excludes from its analysis 
proved reserves. According to BLM, this decreases the resources within 
the ``Accessible under Standard Lease Terms'' category.
    What rationale does BLM have for excluding these reserves?
    Answer. With respect to proved reserves, the inventory requirements 
contained in EPCA Section 604 were amended by the Energy Policy Act of 
2005 at Sec. 364 (a)(1)(A)(i) by striking ``reserve'' and Sec. 364 
(a)(2)(A) by striking ``reserve'' and inserting ``resource''.
    Question 19b. If these proved reserves were included, how would the 
conclusions of the report be changed?
    Answer. The following tables show the changes that would occur if 
the proved reserves were included in the EPCA Phase II results.

                    EPCA PHASE II RESULTS AS RELEASED
------------------------------------------------------------------------
                                            Area          Resources
                                        --------------------------------
                                                                Natural
            Access Category               Percent     Oil--      Gas--
                                             of      Percent    Percent
                                          Federal       of         of
                                                     Federal    Federal
------------------------------------------------------------------------
Inaccessible (Categories 1-4)..........         46         51         27
Accessible with Restrictions                    30         46         60
 (Categories 5-8)......................
Accessible under Standard Lease Terms           24          3         13
 (Category 9)..........................
------------------------------------------------------------------------


  EPCA PHASE II RESULTS WITH PROVED RESERVES CATEGORIZED AS ACCESSIBLE
                       UNDER STANDARD LEASE TERMS
------------------------------------------------------------------------
                                            Area          Resources
                                        --------------------------------
                                                                Natural
            Access Category               Percent     Oil--      Gas--
                                             of      Percent    Percent
                                          Federal       of         of
                                                     Federal    Federal
------------------------------------------------------------------------
Inaccessible (Categories 1-4)..........         46         50         24
Accessible with Restrictions                    30         45         52
 (Categories 5-8)......................
Accessible under Standard Lease Terms           24          5         24
 (Category 9)..........................
------------------------------------------------------------------------

    Question 19c. Similarly, the report classifies lands that are 
available for leasing with no surface occupancy stipulations as 
inaccessible for leasing. What rationale does BLM have for deeming 
these resource ``inaccessible''?
    Answer. Oil and gas leases issued with the No Surface Occupancy 
stipulation are inaccessible from a surface disturbance point of view, 
thereby prohibiting road, drilling pad, and pipeline construction. 
However, some of the resources under these lands are deemed accessible 
by way of directional drilling techniques. The EPCA analytical model 
accounts for this by categorizing resources as accessible within a zone 
(called the ``Extended Drilling Zone'', see the Phase II report 
beginning at A9.2 on page 299) around the perimeter of the NSO lands. 
The width of this zone was determined by BLM and Forest Service field 
experts and ranges from 0 to 3 miles. The remaining oil and natural gas 
resources on NSO lands not within this zone are categorized as 
inaccessible.
    Question 19d. If these resources were included how would the 
conclusions of the report be changed?
    Answer. Only 0.6% of the Federal oil and 1.4% of the Federal 
natural gas are categorized as inaccessible under lands covered by the 
no surface occupancy stipulation. Therefore, the results of the report 
would change very little.
    Question 19e. Does BLM have data on how much oil and gas is 
produced from lease with NSO stipulations? If so, please provide.
    Answer. The Department does not have this information readily 
available. BLM maintains information on what stipulations are included 
with which leases. As part of its minerals revenue management function, 
the Minerals Management Service compiles data on oil and natural gas 
production from onshore Federal leases, but not on what stipulations 
may be attached to those leases.
    Question 20. What is the current level of funding and what level is 
proposed for fiscal year 2008 for the administration of renewable 
energy development on public lands? Please provide allocation by energy 
type.
    Answer.

                      BLM RENEWABLE ENERGY--APPROPRIATIONS HISTORY AND 2008 BUDGET REQUEST
                                          [Dollar Amounts In Thousands]
----------------------------------------------------------------------------------------------------------------
                                                                  2005         2006
                                        2003         2004       Enacted      Enacted        2007         2008
           Program/Issue              Enacted      Enacted       (post        (post       Planned      Request
                                                              rescission)  rescission)
----------------------------------------------------------------------------------------------------------------
Geothermal........................        1,300        1,250        1,233        1,214        1,214        1,214
Geothermal Steam Act *                        0            0            0        3,523        3,438            0
 Implementation Fund (Energy
 Policy Act)......................
Renewable ROW primarily wind &              250          400          644          635          635          635
 solar energy.....................
Hydropower relicensing............          300          300          296          291          291          291
Contribute to biomass energy                  0            0          235          290          757          800
 supply. **.......................
                                   -----------------------------------------------------------------------------
      Total Renewable Energy......        1,850        1,950        2,408        5,953        6,335        2,940
                                   =============================================================================
Rescissions.......................  ...........  ...........        1.40%        1.50%
Wind Energy EIS...................      ( \1\ )      ( \1\ )        1,169        1,532           32            0
----------------------------------------------------------------------------------------------------------------
* The 2008 Budget Request proposes to rescind Section 234 of the Energy Policy Act of 2005 to return the Federal
  share of geothermal revenues to the Treasury. Section 234 redirected these revenues to BLM's Geothermal Stream
  Act Implementation Fund.
** These dollar figures represent project work only and don't account for BLM labor involved in facilitating the
  use of biomass energy within BLM, the public, and industry. Wood cutting permits are issued for heating of
  homes and are not part of this program.
 
\1\ Not applicable.

    Question 21. Please provide a table displaying the level of funding 
requested (both in dollar amounts and as a percentage of the BLM 
budget) and enacted for each of the past 10 fiscal years for each of 
the following activities: Energy and Minerals; Land Resources; Wildlife 
and Fisheries Management; Recreation Management; and Resource 
Protection and Maintenance.
    Answer.

                                          [Dollar Amounts in Thousands]
----------------------------------------------------------------------------------------------------------------
                                                                        Activity
                                       -------------------------------------------------------------------------
                                                                                       Resource       Total,
 Fiscal Year/BA Requested and Enacted      Land     Wildlife  Recreation    Energy    Protection   Management of
                                        Resources     and     Management     and          &           Lands &
                                                   Fisheries               Minerals  Maintenance     Resources
----------------------------------------------------------------------------------------------------------------
1997:
    Request...........................   $123,435    $27,234     $45,864    $69,503     $66,628         $575,892
    Percent of MLR Requested..........      21.4%       4.7%        8.0%      12.1%       11.6%
    Enacted...........................   $124,935    $27,234     $45,864    $69,503     $64,084         $575,564
    Percent of MLR Enacted............      21.7%       4.7%        8.0%      12.1%       11.1%
1998:
    Request...........................   $132,430    $27,778     $50,589    $70,306     $70,310         $587,495
    Percent of MLR Requested..........      22.5%       4.7%        8.6%      12.0%       12.0%
    Enacted...........................   $127,406    $29,028     $48,858    $73,106     $67,256         $583,270
    Percent of MLR Enacted............      21.8%       5.0%        8.4%      12.5%       11.5%
1999:
    Request...........................   $152,955    $33,148     $50,298    $69,564     $74,362         $627,038
    Percent of MLR Requested..........      24.4%       5.3%        8.0%      11.1%       11.9%
    Enacted...........................   $144,914    $31,763     $50,075    $69,944     $32,930         $619,311
    Percent of MLR Enacted............      23.4%       5.1%        8.1%      11.3%        5.3%
2000:
    Request...........................   $161,380    $34,688     $51,753    $74,377     $34,095         $641,100
    Percent of MLR Requested..........      25.2%       5.4%        8.1%      11.6%        5.3%
    Enacted...........................   $162,300    $36,538     $51,403    $76,827     $33,795         $646,493
    Percent of MLR Enacted............      25.1%       5.7%        8.0%      11.9%        5.2%
2001:
    Request...........................   $190,452    $40,712     $62,519    $82,087     $38,875         $715,191
    Percent of MLR Requested..........      26.6%       5.7%        8.7%      11.5%        5.4%
    Enacted...........................   $191,726    $37,902     $62,708    $76,719     $53,684         $752,745
    Percent of MLR Enacted............      25.5%       5.0%        8.3%      10.2%        7.1%
2002:
    Request...........................   $176,547    $37,428     $62,989    $91,488     $61,291         $760,312
    Percent of MLR Requested..........      23.2%       4.9%        8.3%      12.0%        8.1%
    Enacted...........................   $179,447    $37,428     $64,289    $95,533     $61,691         $775,632
    Percent of MLR Enacted............      23.1%       4.8%        8.3%      12.3%        8.0%
2003:
    Request...........................   $177,557    $33,755     $62,696   $104,841     $76,227         $812,990
    Percent of MLR Requested..........      21.8%       4.2%        7.7%      12.9%        9.4%
    Enacted...........................   $182,016    $33,794     $59,840   $105,899     $78,265         $820,345
    Percent of MLR Enacted............      22.2%       4.1%        7.3%      12.9%        9.5%
2004:
    Request...........................   $179,407    $34,292     $66,717   $105,925     $79,670         $828,079
    Percent of MLR Requested..........      21.7%       4.1%        8.1%      12.8%        9.6%
    Enacted...........................   $183,135    $34,098     $62,276   $107,879     $81,290         $839,843
    Percent of MLR Enacted............      21.8%       4.1%        7.4%      12.8%        9.7%
2005:
    Request...........................   $187,761    $37,884     $59,886   $104,423     $81,178         $837,462
    Percent of MLR Requested..........      22.4%       4.5%        7.2%      12.5%        9.7%
    Enacted...........................   $188,014    $36,947     $60,589   $106,631     $81,501         $836,826
    Percent of MLR Enacted............      22.5%       4.4%        7.2%      12.7%        9.7%
2006:
    Request...........................   $186,963    $41,084     $64,604   $106,772     $83,616         $850,177
    Percent of MLR Requested..........      22.0%       4.8%        7.6%      12.6%        9.8%
    Enacted...........................   $187,613    $40,480     $65,131   $108,157     $84,358         $847,632
    Percent of MLR Enacted............      22.1%       4.8%        7.7%      12.8%       10.0%
2007:
    Request...........................   $186,881    $40,805     $63,765   $134,705     $83,631         $863,244
    Percent of MLR Requested..........      21.6%       4.7%        7.4%      15.6%        9.7%
    Enacted...........................   $185,556    $40,780     $63,697   $136,537     $84,154         $866,911
    Percent of MLR Enacted............      21.4%       4.7%        7.4%      15.7%        9.7%
----------------------------------------------------------------------------------------------------------------
Note.--The percentages shown are of the Management of Lands and Resources appropriation not including other
  appropriations to the Bureau of Land Management.

    Question 22. Please describe the status of implementation of the 
EPACT provision requiring BLM to address the issue of abandoned, 
orphaned and idled oil and gas wells on lands administered by BLM? How 
many of each category of well (abandoned, orphaned, or idled) is 
located on BLM administered lands? Please provide the information by 
state.
    Answer. The BLM and the Forest Service (FS) developed a priority 
ranking system for orphaned and idled wells, as required by the EPACT 
The BLM and FS, together with the Department of Energy, met at the end 
of February 2006 and finalized a ranking system for these two well 
categories. The ranking systems were tested by select BLM and FS field 
offices and were modified as appropriate. As of March 2007, an 
Instruction Memorandum requiring our field offices to implement the 
well ranking program is under final field review and will be issued 
after approval by Washington Office management. In addition, as also 
required by the EPACT, a preliminary meeting was held with the 
Interstate Oil and Gas Compact Commission in March 2006 which lead to 
further discussions concerning this program. Future meetings are 
anticipated.

                    SHUT-IN, TEMPORARILY ABANDONED, ABANDONED AND ORPHANED OIL AND GAS WELLS
----------------------------------------------------------------------------------------------------------------
                                                                           Temporarily
                            State                               Shut-in     Abandoned    Abandoned     Orphaned
                                                                 Wells        Wells        Wells        Wells
----------------------------------------------------------------------------------------------------------------
Alaska......................................................           84            6           31            0
Arizona.....................................................            0            0            0            4
California..................................................        1,614          800        1,756           20
Colorado....................................................          531          105          593            0
Eastern States..............................................          185           38           34            0
Montana.....................................................          214          195          607            0
Nevada......................................................           14           17          175            0
New Mexico..................................................        1,755          965        4,624           23
Utah........................................................          391          333          449           14
Wyoming.....................................................        2,420        1,044        3,794            0
Nationwide..................................................        7,208        3,503       12,063           61
----------------------------------------------------------------------------------------------------------------

    Shut-in, Temporarily Abandoned Wells, and Abandoned Well data is as 
of March 3, 2007. Orphaned Wells data is as of September 22, 2006.
    Question 23. Section 1811 of the Energy Policy Act of 2005 requires 
the Department to enter into an arrangement with the National Academy 
of Sciences to undertake a report relating to water and coalbed methane 
production. Because water resources are so important in the West, I am 
interested in seeing that the Department carry out this directive. The 
NAS report is due back to the Secretary and the Administrator of EPA 
within 12 months after the date of enactment of EPACT, and the 
Secretary and the Administrator are to report to Congress within six 
months after receipt of the NAS report. However, I understand that 
there are issues regarding resources for this study. Please provide a 
time-line for carrying out this provision of the law.
    Answer. Section 1811 of the Energy Policy Act of 2005 requires the 
Secretary of the Interior, in consultation with the Environmental 
Protection Agency (EPA), to enter into an arrangement with the National 
Academy of Sciences (NAS) to study the effect of coal bed natural gas 
production on surface and ground water resources. In April 2006, the 
Bureau of Land Management (BLM) forwarded to NAS a number of recent 
studies on this issue and stated its opinion that:

  <bullet> These existing studies provided a comprehensive analysis of 
        topics intended to be addressed in the Act;
  <bullet> That unless specific deficiencies in the existing data were 
        identified, along with practical methods to address them, it 
        would not be in the public interest to arrange to conduct 
        further studies.

    BLM also sought from NAS information as to how to proceed with the 
Act's mandate.
    The Department is currently working with the National Academy of 
Sciences to determine how the review of the relevant studies we 
submitted to it will proceed. The NAS has presented to us 4 options:

  <bullet> Meeting and oral summary without recommendations.
  <bullet> Workshop with written summary, without recommendations, 
        issued within 9 months.
  <bullet> Ad hoc committee study to review existing documents; 
        consensus report with recommendations; study over 10 months.
  <bullet> Ad hoc committee study to address the topic outlined in 
        section 1811; National Research Council study over 12 months.

    The Department has not yet decided on the most effective approach 
for meeting this study requirement.
    Question 24. I understand that the BLM has implemented section 390 
of EPAct relating to NEPA review in a manner such that there is no 
extraordinary circumstances exception with respect to the categorical 
exclusions extended under that provision. How does the extraordinary 
circumstance exception normally apply under the agency's NEPA 
procedures? Weren't those provisions in place at the time of enactment 
of section 390? Has the Solicitor's Office provided a legal review of 
this interpretation of the section?
    Answer. Under CEQ regulations which authorize agencies to create 
categorical exclusions to the applicability of NEPA through agency 
procedures set forth in 40 CFR 1507.3, such procedures also are to 
provide for ``extraordinary circumstances in which a normally excluded 
action may have a significant environmental effect.'' See 40 CFR 
1508.4. In 1984, the Department of the Interior adopted a list of 
``exceptions to categorical exclusions'' in the Departmental Manual at 
516 DM 2, Appendix 2. When those exceptions are present, an 
environmental assessment or environmental impact statement is prepared 
for otherwise categorically excluded actions.
    The Solicitor's Office reviewed BLM's instruction memorandum 
concerning the statutory categorical exclusions and agreed with BLM 
that CEQ procedures, including extraordinary circumstances, do not 
apply to the exclusions created by section 390 of EPAct. Those 
procedures apply to agency-created exclusions, established pursuant to 
the criteria of the CEQ regulations, but not to the section 390 
exclusions that rest primarily on the existence of previous NEPA 
reviews. Rather than being reviewed for ``extraordinary 
circumstances,'' section 390 provides a ``rebuttable presumption'' that 
its exclusions apply, which is subject to rebuttal on the basis of the 
absence of one of the elements set forth in section 390 for the 
exclusion BLM proposes to apply. Members of the public may, during the 
30-days following mandatory posting of the APDs, notify BLM of 
information that rebuts the presumption that the statutory categorical 
exclusions apply. Applying ``extraordinary circumstances'' would 
frustrate the purpose of section 390 to streamline and expedite the 
approval of drilling permits, where the proposed action is very similar 
to an action that has previously been subject to NEPA analysis.
    Question 25. I have asked GAO to look into whether royalty rates 
for oil and gas are commensurate with rates charged on state and 
private lands. Do you believe that the royalty rates for oil and gas 
produced on federal lands are adequate?
    Answer. The Bureau of Land Management has and will continue to 
examine royalty rates for oil and gas on Federal lands and will make 
such changes, if appropriate.
    Question 26. According to information made available to me, 26 
million acres of federal onshore lands currently under oil and gas 
lease but not producing. What are the reasons for this? Do the rules 
for diligent development of federal leases need to be strengthened to 
ensure that these important resources are produced?
    Answer. Each oil and gas lease is issued for a term of 10 years, 
after which it expires in the absence of a well capable of production 
in paying quantities (i.e. a commercial discovery), drilling in 
progress, or suspension of operations granted for causes specified in 
the record. Exploration and production companies generally have 
significant inventories of leased acreage that do not have oil or gas 
production. These leased acreage inventories are normal and necessary 
for a company's efficient exploration and production program. For 
example, companies sometimes desire to lease as many parcels of land as 
possible in a specific area before beginning exploration activities 
making it more economical to move needed equipment into the area. Lead 
time on getting a lease drilled may be many years depending on 
litigation and time frames to complete NEPA documentation.
    There are many other explanations for non-producing leases. Private 
individuals, as well as companies, often hold leases for speculation. 
Non-producing leases may be within a unit agreement or development 
contract and not have been drilled. Some leases are suspended as a 
result of litigation. Acquisitions and mergers within the industry 
sometimes result in a company selling or dropping a lease. Changes in 
corporate priorities resulting in management changes also sometimes 
lead to a company not developing a lease.
    Question 27. Last summer, 18 Senators joined me in writing to you 
to ask that the Department reconsider the decision to lease for oil and 
gas land in the vicinity of Teshekpuk Lake in the National Petroleum 
Reserve-Alaska that Secretary Watt had withdrawn due to its importance 
to wildlife. The lease sale was subsequently enjoined by a federal 
court.
    What is the current status of this lease sale? Will you reconsider 
the decision to lease these sensitive lands in the vicinity of Tesekpuk 
Lake?
    Answer. On December 4, 2006, the Alaska State Office published a 
Notice of Intent to Prepare a Supplement to the Northeast National 
Petroleum Reserve-Alaska Amended Integrated Activity Plan/Environmental 
Impact Statement in the Federal Register. The supplement will address 
the analysis which the court found lacking in the January 2006 Record 
of Decision. The supplement is expected to be completed by the end of 
2007 or early 2008 with a Record of Decision signed early in 2008. A 
lease sale is under consideration for June 2008.
    Development of oil and gas resources in the National Petroleum 
Reserve-Alaska is an important component of the President's National 
Energy Policy. As I have said in the past, we must improve America's 
energy security by increasing domestic production of fossil fuels, 
promoting increased energy conservation, and stimulating the 
development of alternative fuels. Until the draft supplement is ready 
for release to the public, any speculation as to whether the Preferred 
Alternative will result in changes to the Leasing Plan is premature. In 
the Supplement, as in the Original Plan, the BLM is balancing the 
responsibility for development of the oil and gas resources with 
protection of wildlife, habitat, and Native Alaskan subsistence values.
    Question 28a. What is the current level of bonding or financial 
assurances required for hardrock mining operations?
    Answer. In order for an operator to begin operations under an 
accepted Notice (exploration) or an approved Plan of Operations 
(mining/milling) the operator must provide BLM with a reclamation bond 
(financial guarantee) that is acceptable to BLM. The operator must 
provide the cost to reclaim the operations as if BLM were hiring a 
third-party contractor to perform reclamation of the operations after 
the project area has been vacated. The reclamation bond must also 
include BLM's cost to administer the reclamation contract (43 CFR 
3809.554)
    Question 28b. What administrative mechanisms are in place to ensure 
that financial assurances are adequate to cover all reclamation costs?
    Answer. In 2006, BLM used the Agency's internal tracking system, 
LR2000, to produce a ``Fiscal Year Bond Review Report.'' This report is 
produced based on specific information entered into the system to 
record the amount of the required reclamation bond needed to conduct 
operations, and if the required bond has been obligated (provided it 
has been submitted) by BLM to cover the operations. The report also 
tracks the interval of time between bond reviews. The BLM uses the Bond 
Review Report to determine if all reclamation bonds requiring review 
for adequacy have been conducted, and if necessary, develops an action 
plan to correct any omissions or deficiencies.
    Question 28c. How many hardrock mining operations have been 
identified where financial assurances are inadequate to cover 
reclamation costs?
    Answer. The reclamation bonds will be reviewed according to policy 
and regulations and will be completed in FY 2008. The field offices 
populate the Bond Review Report with the required data to provide an 
accurate representation of the reclamation bonds accepted for 
authorized operations. To date, the Bond Review Report indicates that 
less than 6 percent of the bonds need to be adjusted. The BLM State 
Offices have initiated action plans to bring those operations into 
compliance by the end of FY 2007.
    Question 29. Have you quantified the number of new mining claims 
located over the past 10 years? Please provide number of claims located 
by year. How many claims have been located in the vicinity of the Grand 
Canyon? Have you witnessed an increase in the claims located for 
uranium production?
    Answer. The following table displays the number of new mining 
claims located over the past 10 years.

                            NEW MINING CLAIMS
------------------------------------------------------------------------
                                                               Number of
                             Year                                Claims
------------------------------------------------------------------------
1996.........................................................     51,170
1997.........................................................     51,853
1998.........................................................     34,468
1999.........................................................     24,483
2000.........................................................     22,123
2001.........................................................     13,561
2002.........................................................     15,407
2003.........................................................     31,185
2004.........................................................     44,350
2005.........................................................     57,391
2006.........................................................     89,049
------------------------------------------------------------------------

    There currently are no active mining claims in the Grand Canyon 
Parashant National Monument, which is jointly managed by the BLM and 
NPS. The monument, which falls within the jurisdiction of the BLM-
Arizona Strip Field Office, borders the Grand Canyon National Park to 
the south and the State of Nevada to the west. The Kaibab National 
Forest north of the Grand Canyon National Park within the Arizona Strip 
is wholly contained in the Grand Canyon National Game Preserve, which 
is withdrawn from mining claim location. Within the BLM-Arizona Strip 
District Office there are also no active mining claims in the Vermilion 
Cliffs National Monument. This monument borders Kaibab National Forest 
to the west and Glen Canyon National Recreation Area to the east. 
Within the BLM-Arizona Strip Field Office there are presently about 
6,000 active mining claims of which approximately 5,000 were staked for 
uranium in the last 3 years.
    There is currently renewed interest in exploration and production 
of uranium from domestic sources. Nationally, from 2001 to 2004 
approximately 2,000 to 4,000 uranium claims were recorded. In 2005, the 
number of uranium claims recorded was approximately 18,000. This is due 
to both a shrinking supply in the Canadian reserves (major source of 
uranium for North America and parts of Europe) and the resulting 
increase in price for uranium oxide, from $9 in 2001 to $75 per pound 
in 2007. In addition, from FY 2002 through FY 2006, the BLM has 
received sixteen uranium plans of operations. Nine of the plans have 
been approved, and seven are pending approval.
National Landscape Conservation System
    Question 30. The BLM's budget proposes only $32 million in funding 
for the National Landscape Conservation System, the collection of 
monuments, wilderness areas and other similar conservation areas. The 
FY '08 proposal is almost $10 million than the FY '06 funding level. 
This is coupled with a cut in the BLM's cultural resource protection 
budget, which according to the budget explanatory materials, is reduced 
``in order to fund higher BLM priorities.'' Do you support the concept 
of the National Landscape Conservation System? If so, then why are the 
protection of national monuments and cultural resources on BLM lands 
not a priority?
    Answer. The Department supports the National Landscape Conservation 
System (NLCS). The NLCS includes approximately 27 million acres of land 
and hosts more than one-third of the recreation on BLM-managed lands. 
The differences in the NLCS budget from FY 2006 to FY 2008 are caused 
by a number of factors. First, the NLCS completed a number of projects 
in FY 2006 and anticipates completing others in FY 2008. These 
completed projects will not need funding in FY 2008. These include the 
conclusion of the commemoration of the Lewis and Clark expedition and 
the completion of planning efforts at several NLCS areas including 
Craters of the Moon, Kasha Katuwe, and Sloan Canyon. Savings are 
estimated at over $3 million. Second, the FY 2006 figures include 
approximately $3.8 million in recreation fees that are not currently 
reflected in the FY 2008 budget. Third, almost $3.5 million in earmarks 
directed to the NLCS in FY 2006 were not included in the FY08 budget.
BLM Land Sales
    Question 31. Mr. Secretary, during your confirmation hearing last 
year, I understood you to say that you opposed the sale of public lands 
for deficit reduction purposes. Yet with the Administration's proposal 
to redirect at least 70 percent of the sale of BLM lands and deposit 
them into the Treasury, won't that be the case--land sales for 
budgetary purposes. Given your previous statement, why do you now 
support this.
    Answer. During the confirmation hearing last year, I stated that I 
would oppose land sales specifically for deficit reduction, but 
recognized that there were occasions in which land sales are 
appropriate, such as for reasons of creating more efficient management 
blocks of land. My position has not changed.
    Under the Federal Land Policy and Management Act of 1976 (FLPMA), 
the Bureau of Land Management (BLM) has long had authority to sell 
lands, identified through the land use planning process, that are not 
central to achieving the BLM mission. FLPMA sets forth certain criteria 
under which public lands may be identified for disposal, such as the 
lands are difficult and uneconomic to manage and are not suitable to 
manage by another Federal department or agency. The disposal of such 
lands, therefore, allows BLM to achieve a more common sense land-use 
pattern and reduce administrative costs for Federal programs. The 
Administration proposal would seek to change the allocation of proceeds 
received from such sales, but would not change the long-established 
process or existing disposal criteria established by FLPMA.
    Question 32. If you are going to propose redirecting most of the 
proceeds from public lands sales into the Treasury, why are you not 
including revenues from the sale of public lands under the Southern 
Nevada Public Land Management Act, which account for the vast majority 
of land sale revenues?
    Answer. Through the budget process, the Administration made the 
decision to seek to amend the Federal Land Transaction Facilitation Act 
(FLTFA).
Otero Mesa
    Question 33. What is the schedule for any future leasing activities 
for tracts within Otero Mesa in New Mexico?
    Answer. There is no schedule for future leasing of tracts in Otero 
or Sierra counties in New Mexico, including tracts within Otero Mesa. A 
decision on issuance of the Bennett Ranch Unit (BRU) lease is pending 
BLM completion of an Environmental Assessment (EA), in compliance with 
a Federal court order; the BLM does not expect to complete the EA until 
the conclusion of discussions regarding an appeal of the Court's 
decision.
    The BLM had suspended operations of the Bennett Ranch Unit (BRU) 
and decided to defer leasing until an amendment to the Resource 
Management Plan (RMP) for oil and gas leasing was completed. On January 
24, 2005, the Record of Decision for the Resource Management Plan 
Amendment (RMPA) and Final Environmental Impact Statement for Otero 
Mesa was signed. Litigation followed. On September 27, 2006, the United 
States District Court for the District of New Mexico ruled that 
challenges to the BLM's RMPA lacked merit. The Court found that the BLM 
did not violate the National Environmental Policy Act (NEPA), the 
Federal Land Policy and Management Act (FLPMA), or the Endangered 
Species Act (ESA), among other laws. The Court directed the BLM to 
prepare an Environmental Assessment or Environmental Impact Statement, 
as appropriate, prior to issuing the BRU lease. The BLM is complying 
with the Court's decision.
    Question 34. BLM's Record of Decision concerning oil and gas 
leasing within Otero Mesa specifically sets out that BLM has a 
responsibility to protect groundwater resources that might be affected 
by such leasing. Before issuing any permits to drill, BLM is to 
determine where fresh aquifers are located so that it can ensure that 
adequate protections for groundwater quality and quantity are 
incorporated into its drilling permits. Given that the State of New 
Mexico and USGS have initiated an in-depth study of the Salt Aquifer 
which underlies Otero Mesa, shouldn't BLM delay any leasing activity 
and join with New Mexico and USGS to fully evaluate and study the Salt 
Basin Aquifer? If not, how does BLM intend to secure the information 
and analysis needed to fully protect this critical water supply for New 
Mexico?
    Answer. The Resource Management Plan (RMP) which includes the Otero 
Mesa provides very strict stipulations on oil and gas development. At 
the present time, the BLM is not planning another lease sale until the 
agency has more information about the potential development which may 
occur on lands which were leased in previous decades or on the pending 
Bennett Ranch Unit lease. The RMP clearly established limits on the 
amount of surface disturbance which could occur in the grasslands as 
well as the number of wells which could be drilled. The BLM is being 
very cautious about leasing so as not to create a situation where the 
established limits could be exceeded if a field(s) is developed at some 
future point.
    The BLM is confident that its process (which includes extensive 
review by geologists) to approve plans will protect the aquifer at such 
time drilling does take place. The geologist will identify any 
anticipated hazards by looking at nearby well history, logs and 
completion reports. The geologist also will consult industry databases, 
State Oil Conservation Division and Engineer, and NM Tech well and 
geologic records and reports (including the USGS and Sandia Laboratory 
reports). The USGS report indicates water in the Salt Basin Aquifer is 
anticipated to range from 500 to 6,500 parts per million (ppm), or 
milligrams per liter, level of total dissolved solids. BLM is 
protecting usable water up to 10,000 ppm, which is the level set by the 
NM Water Quality Board.

                    UNITED STATES GEOLOGICAL SURVEY

    Question 35. Does the President's budget include funding for 
archiving initiative for the preservation of geologic and geophysical 
data as provided for by Section 351 of the Energy Policy Act of 2005? 
Please provide a status report on implementation efforts and a time 
line for implementation of this provision.
    Answer. The President's budget includes $1.18 million for the 
program authorized under section 351. In FY 2006, the USGS formed a 
preservation committee to develop an implementation plan which was 
submitted to Congress, as directed in the Energy Policy Act 
legislation. The new Program Coordinator on the Chief Scientist for 
Geology staff will begin implementation of the program in FY 2007. 
Below are some of the activities that may be accomplished in FY 2007 
and FY 2008:

  <bullet> Transfer approximately 1,000 pallets of important oil shale 
        cores, currently inaccessible and stored in the Anvil Mine, 
        west of Denver, Colorado, to the USGS core repository at the 
        Denver Federal Center.
  <bullet> Curate this material and make it available to researchers 
        within the Federal Government, States, universities, and 
        private industry.
  <bullet> Continue efforts to preserve and make accessible on-line the 
        extensive offshore seismic reflection data along the west coast 
        of the United States that was donated by private industry.
  <bullet> Continue interactions with State geological surveys and 
        other DOI agencies that maintain geological and geophysical 
        data and samples to address their preservation and data rescue 
        needs. Initiate curation of critical paleontologic and other 
        energy-related collections.
  <bullet> Establish detailed guidelines for distribution of program 
        funds.
  <bullet> Convene an expert panel to gather input on minimum standards 
        and best practices for the preservation and archiving of the 
        various geologic data and collections, including consistent 
        inventory standards where appropriate.
  <bullet> Convene an expert panel to gather input on guidelines for 
        the proper preservation of physical samples, as well as 
        original data and derived information stored on various paper 
        and digital media.
  <bullet> Coordinate efforts with other organizations that are 
        dedicated to the exchange of information in the geosciences.
  <bullet> Convene an expert panel to gather input on designing the 
        National Digital Catalog of geologic and geophysical 
        information, including maps, well logs, engineering data and 
        samples.
  <bullet> Establish guidelines for standardized data catalogs and 
        directories that follow national and international standards.
  <bullet> Establish metadata standards for all data to be incorporated 
        within the National Digital Catalog.
  <bullet> Prepare an annual report for the Secretary of the DOI on the 
        progress of implementing the program.

    Question 36. The Energy Policy Act of 2005 requires the U.S. 
Geological Survey to undertake a national assessment of oil shale 
resources. Please describe the work plan and time-line for this 
assessment.
    Answer. The purpose of this assessment would be to determine the 
location, quality, and quantity of oil shale deposits of the United 
States, and develop modern analytical techniques to quantify the oil 
generation potential of oil shale. Because of its size and the amount 
of available data, the initial and priority effort will be the 
evaluation of the Green River oil shale deposits of Colorado, Utah, and 
Wyoming. After completion of this initial effort, which USGS expects 
will take two to three years if time and funding permit, further 
assessments could be made regarding the Devonian oil shales of eastern 
United States and other deposits in central and western United States. 
Funding for this assessment was included in the USGS FY 2007 budget 
request. The USGS is examining its alternatives under the continuing 
resolution to determine if funding can be made available in FY 2007. 
The start date for this effort is dependent upon the availability of 
the funds, but the work should commence by the beginning of FY 2008, if 
not before.
    Question 37. The budget proposes a decrease of $2.0 million in the 
USGS Priority Ecosystem Science program. What research will be cut or 
terminated as a result of this decrease? What is the rationale for this 
reduction?
    Answer. The reduction to Priority Ecosystems Science (PES) comes in 
the Geographic Analysis and Monitoring Program line item. The reduction 
of $2 million was taken in the PES program to allow GAM to retain 
funding for other, higher priority activities. At the President's 
Request level, PES activities will continue in the six study unit area 
(Greater Everglades, San Francisco Bay, Chesapeake Bay, Mojave Desert, 
Platte River, and the Greater Yellowstone area).

                         NATIONAL PARK SERVICE

    Question 38. The National Park Service Concessions Management 
Improvement Act of 1988 requires the National Park Service to utilize 
concession contracts for the provision of commercial services in units 
of the National Park System. The Park Service has at times also entered 
into long-term leases for commercial activities within national park 
units.
    Please provide me with a listing of all commercial activities for 
which you are using leasing authority as well the statutory authority 
for each lease. How do you determine whether to issue a lease or a 
concession contract in a specific case?
    Answer. We estimate that NPS uses leasing authority for at least 40 
operations within units of the National Park System; a complete list of 
the leases and the authority will be provided to the committee 
separately. Two sets of regulations are used for leases: 36 CFR Part 17 
and 36 CFR Part 18. The Part 17 regulations are based on Section 5(a) 
of the Act of July 15, 1968 and on 15 USC 4601-22(a). The Part 18 
regulations are based on 16 USC 1 et seq. (particularly 16 USE 1a-
2(k)), and 16 USC 470h-3. If any leases are authorized under other 
authorities, that will be noted on the list that will be submitted 
separately.
    There are certain circumstances in which it is appropriate to 
provide services through a lease. In general, as stated in Section 8.12 
of Management Polices 2006, if the leased property where the proposed 
services are to be provided is not near a particular visitor 
destination of the park area, and if the patrons of the lessee are 
expected to be primarily persons who come to the park area only to 
utilize the lessee's services, it is likely that the use of a lease 
will be permissible.
    Question 39a. I have several questions concerning competitive 
sourcing activities in the National Park Service:
    How many competitive sourcing evaluations does the National Park 
Service intend to undertake during the upcoming year? How many FTEs are 
involved?
    Answer. In FY 2007, the National Park Service is conducting three 
streamlined competitions of Job Corps Centers involving work performed 
by approximately 60 Government employees and 150 contractor man-year 
equivalent positions. The bureau is also conducting a streamlined 
competition of turf maintenance functions in the metropolitan areas of 
the National Capital Regions encompassing work performed by 
approximately 44 Government employees and 50 contractor man-year 
equivalent positions.
    NPS also plans to begin preliminary planning for a potential 
competition in three areas:

  <bullet> Information technology functions performed in the Washington 
        Support Office encompassing approximately 80 Government 
        employees and a to-be-determined number of contractor man-year 
        equivalents;
  <bullet> Guard functions within the U.S. Park Police in the 
        Washington D.C. and New York City metropolitan areas 
        encompassing approximately 26 Government employees; and
  <bullet> Interpretive media design functions at Harpers Ferry Center 
        encompassing work performed by approximately 103 Government 
        employees and a to-be-determined number of contractor man-year 
        equivalents.

    Any actual competitions in these three areas would begin in FY 
2008.
    Lastly, NPS has completed the preliminary planning phase of human 
resources functions performed across the Service, and has decided to 
conduct a standard competition of the processing (versus advisory) 
tasks associated with human resources records management, position 
classification, compensation and payroll, and benefits functions. The 
scope encompasses approximately 122 full-time equivalent Government 
positions and approximately 14 contractor man-year equivalent 
positions.
    Question 39b. OMB Circular A-76 sets out the requirements for 
Federal agencies to follow when undertaking competitive sourcing 
evaluations. Please describe for me the steps involved in conducting an 
assessment under A-76.
    Answer. OMB Circular A-76 allows for two kinds of competitions: 
streamlined and standard. Prior to starting either, preliminary 
planning is required to be conducted to analyze the functions being 
performed and recommend the scope and grouping(s) suitable for 
competition along with the most suitable type of competition. Both 
types require formal offers, from Government sources including at least 
the owning agency, but can also include other public reimbursable 
sources (i.e., other Government agencies).
    Streamlined competitions are an option only where 65 or fewer 
Government FTEs are currently performing the scope of work to be 
included. They are intended to be business case analyses and are 
limited to cases where the analyses can be completed in 90 or 135 days. 
Standard competitions mirror typical acquisitions where requirements 
documents are developed, solicitations released, offers received, and 
formal source-selection processes conducted. Standard competitions 
allow either 12 or up to 18 months to complete all actions.
    Question 39c. What costs are associated with an A-76 evaluation at 
a park or central office level? Does this include time NPS employees 
spend on competitive sourcing related activities and not on their 
regular duties?
    Answer. Since 2001, the NPS has conducted two competitions in 
accordance with OMB Circular A-76:

  <bullet> Natchez Trace Parkway maintenance--the total cost of this 
        competition of 74 FTE was $192,000 ($1,350 per FTE), and the 
        total savings over five years was $1.103 million ($221,000 per 
        year). A recent audit of this competition by the DOI Inspector 
        General suggests that savings were understated by over $500,000 
        because more roadway is being maintained than before.
  <bullet> Southeast Archaeological Center--the total cost of this 
        competition of 43 FTE was $97,000 ($2,256 per FTE), and the 
        total savings over five years was $4.2 million ($840,000 per 
        year).

    OMB guidance for Congressional Reporting under Section 647(b) of 
the FY 2004 Consolidated Appropriations (P.L. 108-199) does not allow 
personnel time during a planning phase to be charged to the competitive 
sourcing costs (see excluded costs below) so we do not have figures for 
this portion of the work. This phase typically includes analysis of 
activities, grouping into business units, an assessment of workload 
data, baseline costs of the existing organization and a definition of 
requirements to do the work. As described below, the time required for 
this work can vary considerably by the scope and size of the work to be 
analyzed. Analysis of a Service-wide function is considerably more 
time-consuming than an analysis of a function or functions within a 
park or program.
    OMB guidance allows costs to be included as long as they are 
directly attributable and can be distinctly identified against effort 
spent on competitive sourcing. That includes:

  <bullet> costs of consultants or contractors who participate in the 
        conduct of reported competitions;
  <bullet> costs of travel, training, or other incremental expenses 
        directly attributable to the conduct of reported competitions; 
        and
  <bullet> incremental in-house staff costs incurred as part of 
        conducting competitions (i.e., staff hired specifically to work 
        on a particular competition or overtime costs (where overtime 
        costs are tracked)).

    Excluded costs include:

  <bullet> costs of in-house staff who spent time on the competition 
        during regular working hours, such as developing the 
        performance work statement, but were working before the 
        competition commenced and continue to work; and
  <bullet> costs of central program oversight of competitive sourcing 
        (i.e., those resources that do not directly relate to a 
        particular competition) such as competitive sourcing office 
        staff or general training provided to employees that is not 
        considered a part of the competition.

    Question 39d. I understand that an A-76 evaluation can cost as much 
as $5,000 per employee. Is that correct?
    Answer. Costs per employee are directly impacted by the size and 
scope of competitions. High cost on a per FTE basis typically occurs in 
studies of limited scope and small size where fixed costs cannot be 
spread. Agencies that can design competitions around relatively large 
concentrations of commercial activities would report lower costs on a 
per FTE basis. The NPS is cognizant of this and where the agency is 
considering competitive sourcing, it is trying to ensure there is 
enough critical mass to warrant the expense, to have reasonably sure 
expectations of enhanced effectiveness and greater efficiencies, and to 
ensure that long-term savings outweigh the one-time costs of conducting 
competitions.
    Question 39e. What effect does competitive sourcing have on agency 
employee morale? Are you concerned about this?
    Answer. Any organizational development study that has the potential 
for changes in the workplace impacts morale. We are concerned about 
this, but we will take advantage of every program available to minimize 
impacts.
    Question 39f. Circular A-76 requires an agency to conduct a 
competition to determine if governmental employees should perform 
commercial activities. Among Federal agencies, the National Park 
Service is unique in that it has specific statutory authority (the 
National Park Service Concessions Management Improvement Act of 1998) 
which provides that commercial activities in national park units are to 
be undertaken by private companies through concession contracts. Are 
services provided through concession contracts taken into account when 
determining the number of FTE's that should be subject to a competitive 
sourcing evaluation? If not, why not?
    Answer. As you know, the Concessions Management Improvement Act of 
1998 and its legal predecessors, which actually predate the formation 
of the NPS, require that the NPS use concessions contracts for 
commercial activities in National Parks when they are ``necessary and 
appropriate'' for the private sector to perform. Concessioners are a 
major employer in national parks, hiring over 25,000 seasonal 
hospitality workers during peak seasons alone. The private-sector 
concession operators generate over $800 million in annual revenue and 
provide a franchise fee to the NPS averaging 4.5%. Franchise fees are 
used to fund many visitor service programs as well as reduce the 
backlog of maintenance and repair projects within the parks.
    Employees hired by concessioners are not Federal employees, and 
thus are not subject to the requirements of the FAIR Act for the NPS.
    Question 39g. Do you view the 1998 concessions law as superseding 
the FAIR Act for the National Park Service?
    Answer. Neither law is specific about its influence over the other. 
As a practical matter, however, under current concessions law, the 
National Park Service must determine those activities ``necessary and 
appropriate'' for the commercial activities and must offer those 
opportunities for competition to the private sector. In fact, the 1998 
Concessions Act called for the government to develop a new process for 
increased competition and for setting franchise fees commensurate with 
probable value. The law has caused the NPS to reevaluate all of its 
concessions activities and contracts. This analysis and the new 
contracts and franchise fees have resulted in a more robust concessions 
program that offers considerable incentives for the parks to identify 
commercial activities and for the private sector to bid on them. 
Concessions return $36 million in franchise fees directly to National 
Parks. In return, however, the pool of potentially commercial 
activities performed by the employees of the National Park Service has 
been reduced, thus limiting the number of positions to which the FAIR 
Act applies.
    Question 39h. To date, how many competitive sourcing evaluations 
has the National Park Service undertaken? How many of those evaluations 
have determined that specific functions or activities would be better 
provided by non-governmental personnel?
    Answer. Since 2001, two competitions have been conducted: for 
maintenance functions at Natchez Trace Parkway, and for the Southeast 
Archeological Center. The NPS in-house Most Efficient Organization 
(MEO) won both times by streamlining operations and saving funds to 
reinvest in other critical programs.
    In addition, NPS has conducted a number of analyses following the 
streamlined competition procedures, but which were not formal 
competitions. These Preliminary Planning Efforts, or PPEs, are intended 
to verify whether we can achieve comparable savings without competition 
as would likely be achieved through competition. In all our PPEs, the 
in-house MEO was selected. These PPEs included:

  <bullet> Golden Gate National Recreation Area--maintenance. January 
        2004.
  <bullet> Cultural Resource Center, Intermountain Region. March 2004.
  <bullet> Great Smoky Mountains National Park--maintenance. July 2005.
  <bullet> New York Harbor Parks--maintenance. January 2006.
  <bullet> National Mall and Memorial Parks--maintenance. January 2006.
  <bullet> Indiana Dunes National Lakeshore--whole park. May 2006.
  <bullet> San Juan National Historic Site--whole park. May 2006.
  <bullet> Boston National Historic Park--whole park. May 2006.

    Question 39i. Given the costs associated with a competitive 
sourcing evaluation, does it make sense to undertake additional 
evaluations at the same time as you seek new funds to hire up to 3,000 
new seasonal employees?
    Answer. Two thousand of the seasonal employee increase request are 
for protection and interpretation rangers, categories that are exempt 
from A-76 competitions. The 1,000 that are for maintenance are needed 
to fill immediate needs in the parks and for the most part are filling 
positions that have existed in prior years. Park managers, 
knowledgeable of local conditions, prices, and job requirements, make 
decisions as to the viability of contracting for maintenance functions 
without the benefit of a study. In some cases, contracting is the most 
advantageous course and, in others, it is not. Since this funding is 
for temporary employees needed to meet peak workload needs, it can be 
easily redirected in the future should a park manager or an A-76 
evaluation determine that contracting is more cost-effective.

                       FISH AND WILDLIFE SERVICE

    Question 40. How often does the Fish and Wildlife Service inspect 
oil and as operations in units of the National Wildlife Refuge System? 
What are the applicable bonding or financial assurances requirements 
for such operations?
    Answer. The frequency of inspections varies from refuge to refuge, 
depending on the nature and extent of the oil and gas activity, 
available staffing, and level of (or potential for) environmental 
damage from the oil and gas activity. Refuge managers are faced with a 
multitude of refuge responsibilities, including addressing 
contaminants, invasive species, water quality and quantity, law 
enforcement, visitor services, safety, wildlife values, marine 
resources, wetland management, endangered species management, refuge 
maintenance, human encroachment, wildlife diseases, air quality and 
fire management, to name a few. At those refuges with active oil and 
gas production, all of these activities must compete with management of 
oil and gas activities.
    FWS policy requires a performance bond or certificate of insurance 
for exploration, development and production activities. A performance 
bond is a measure of insurance for the FWS that the operator will 
comply with the terms and stipulations of the approved plan of 
operations and Special Use Permit, if one is required. If an operator 
possesses an existing state or national bond of sufficient coverage, a 
new bond may not be required. FWS identifies potential costs involved, 
should it become necessary for FWS to pay for restoration of damaged 
areas. These costs should be fully covered by the performance bond or 
certificate of insurance. Documentation of the existence of the 
required bond or certificate and its coverage of the service is 
submitted to the project leader prior to issuance of a Special Use 
Permit. The amount of the operator's bond is the estimated reclamation 
cost, plus the liability amount.
    In addition, oil and gas companies have several options for 
mitigating damage and restoring surface lands on National Wildlife 
Refuges, including:

  <bullet> Repairing all damages caused by exploration and development 
        activities;
  <bullet> Contracting with a third party to repair all damages caused 
        by mineral activities; and
  <bullet> In Louisiana and Texas, providing funds to FWS in an amount 
        sufficient to cover the cost of repairing damage that has 
        occurred or is reasonably expected to occur as a result of oil 
        and gas activities.

    Finally, language in the FY 2000 Appropriations Act provided FWS 
with the authority to accept funds for site-specific damages caused by 
oil and gas activities to refuge lands in Louisiana and Texas. These 
funds can be collected and held for assessed damages and for 
anticipated damages from oil and gas exploration. These funds were 
designated for completing damage assessments of affected sites, 
mitigating or restoring damaged resources and monitoring and studying 
recovery of damaged resources, and are to be used to implement actions 
that affect restoration and enhancement of affected habitats or to 
mitigate the damages through restoration or improvement projects in 
other habitats and sites on the refuge.
    Question 41. What authority does the FWS have to oversee oil and 
gas operations on units of the National Wildlife Refuge System? Is 
there funding requested for this in the President's budget? If so, at 
what level? Please provide the level of budget request and actual 
appropriations for FWS oil and gas activities for the past 10 fiscal 
years.
    Answer. FWS's authority for overseeing leased oil and gas is the 
National Wildlife Refuge System Administration Act of 1966 (16 U.S.C. 
668dd-ee) and, in Alaska, section 1008 of the Alaska National Interest 
Lands Conservation Act (16 U.S.C. 3148). Generally, leasing has been 
restricted by regulation to those situations involving drainage and 
when concurred in by the Director (43 C.F.R. 3101.5-1 and 3100.2). 
Where private interests own the subsurface or mineral rights on these 
lands, FWS's authorities are section 6 of the Migratory Bird 
Conservation Act (16 U.S.C. 715e) and the National Wildlife Refuge 
System Administration Act.
    FWS supports its oversight through the employment of three 
dedicated personnel that manage its oil and gas activities; one 
national coordinator and two field personnel. FWS is also investigating 
the best management practices of the NPS Geologic Resources Division, 
which manages 700 wells on NPS lands, and has implemented training for 
employees managing oil and gas on refuge lands. FWS is currently 
finalizing an oil and gas handbook to assist field personnel with 
managing oil and gas activity.
    For refuges, there is no funding in the FY 2008 budget for oil and 
gas activities beyond the base management funds. Oil and gas activities 
on refuge lands are monitored by refuge personnel who are funded out of 
those funds. There have been no separate requests or appropriations for 
FWS oil and gas activities in the past.

                        BUREAU OF INDIAN AFFAIRS

    Question 42. It is my understanding that BIA uses ``historical 
precedent'' as the basis for the distribution of public safety funding.
    Please explain in detail how the current formula is determined? Why 
doesn't the BIA use an objective formula for the distribution of public 
safety dollars that takes into account on-reservation population, land 
area, crime rates and economic situations?
    Answer. When law enforcement funding was moved out of Tribal 
Priority Allocations in FY 1999, it retained the underlying base 
funding amounts by tribe/location. The tribes determined, with BIA 
concurrence, that the levels of funding in place at the time 
represented the most accurate reflection of collective need across the 
nearly 200 tribal law enforcement programs. In the following years, 
numerous tribal consultations and studies were undertaken in pursuit of 
a more equitable or effective distribution methodology for the base 
funding. Efforts revealed that every proposed formula re-distribution 
of base funding created significant areas of concern for some tribes, 
and none would achieve a greater level of accuracy in meeting tribal-
specific needs across the board.
    In the past few years, as data collection and reporting 
capabilities of tribes have improved, funding increases have been 
requested by BIA to specifically address high crime areas in Indian 
country. Clearly, the distribution methodology used would be critical 
to accomplishing the purpose of the additional funding. As a result, 
the BIA undertook an analysis of all law enforcement agencies in Indian 
country based on the following criteria to determine levels of need:

  <bullet> Population to officer ratios compared to similarly located 
        programs,
  <bullet> Presence of methamphetamine and other illegal drugs within 
        the community,
  <bullet> Crime rates, especially violent crimes, compared to national 
        averages, and
  <bullet> Proximity to international borders.

    The BIA used this analysis to determine the distribution of $3.9 
million in additional funding provided by Congress in 2006, and intends 
to use a similar methodology to distribute future funding increases.
    Currently, all BIA law enforcement funding is distributed in 
accordance with this two-tiered methodology, which includes a base 
component to ensure the varied needs of individual tribes are met with 
resource stability, and an incremental component to target funding 
increases to the areas of greatest emerging need.
    Question 43a. In 2004, the Department of Interior Inspector General 
issued a scathing report ``Neither Safe Nor Secure'' which outlined the 
deplorable condition of detention facilities throughout Indian Country. 
The report stated that, ``BIA's detention program is riddled with 
problems and, in our opinion, is a national disgrace with many 
facilities having conditions comparable to those found in third-world 
countries. In short, our assessment found evidence of a continuing 
crisis of inaction, indifference, and mismanagement throughout the BIA 
detention program.''
    The 2004 Report issued recommendation #16, which stated that 
Department of Interior and BIA should develop strategic plans for jail 
replacement and renovation, and that DOI should assist BIA in 
developing a comprehensive needs assessment to ensure jails are built 
and sized appropriately.
    In the three years since Report has been issued, has DOI conducted 
a comprehensive needs assessment and developed a strategic plan for 
jail replacement, including how many additional detention facilities 
are needed in Indian Country and the criteria for determining the 
priority for constructing these facilities?
    Answer. A strategic plan for repairs and renovation of detention 
facilities has been created. The BIA has hired a contractor to assist 
the BIA in determining long range planning strategies for the future of 
the detention center program.
    Question 43b. How much funding has DOI provided for jail 
construction since the Report was issued, and how does DOI propose to 
fund future detention facility construction to implement the Inspector 
General's recommendations?
    Answer. Construction of new detention facilities in Indian country 
is funded through Department of Justice grants to tribes; not within 
BIA's budget. The BIA manages a Public Safety and Justice (PS&J) 
Facility Improvement and Repair (FI&R) program that funds multiple 
major and minor FI&R projects at BIA owned detention centers each year. 
In response to the Inspector General's report published in 2004, 
funding for this program was increased from $1.4 million in 2004 to 
$3.8 million in 2005, and increased an additional $4.3 million in 2006. 
The PS&J FI&R program is currently funded at $8.1 million. Total 
funding for this program from FY 2005 through the FY 2008 request is 
over $28 million and supports prioritized FI&R projects that will 
provide for full rehabilitation of 10 detention centers in Indian 
country.
    Planned PS&J FI&R projects are listed in priority ranking order 
within the BIA FY 2008--2012 Five Year Deferred Maintenance and 
Construction Plan published in the FY 2008 Indian Affairs Budget 
Justification beginning on page IA-CON-SUM-11.

                          DOI STAFFING LEVELS

    Question 44. How do you see Department of the Interior bureaus 
working with the Department of Homeland Security to protect the 
environmental resources and cultural heritage of the borderlands?
    Answer. The Departments of Agriculture and the Interior signed a 
Memorandum of Understanding (MOU) with the Department of Homeland 
Security in March 2006. The MOU integrates three Departmental missions 
to accomplish one goal of securing the border. It facilitates Border 
Patrol access to Federal public lands and improves their ability to 
gain operational control of the border while protecting environmentally 
sensitive lands. The MOU improves communication and cooperation between 
all three Departments.
    To assist in accomplishing the border security mission, Interior 
has established a border coordination office in Tucson, AZ to cover the 
entire southwest border and in Boise, ID to cover the Canadian Border. 
The Border Coordinators assigned to these offices are the points of 
contact for the Border Patrol, Interior agencies, and other border 
entities to ensure we are coordinating on issues relevant to the border 
such as infrastructure installation, deployment of resources, 
information sharing, developing joint law enforcement operations, and 
addressing environmentally sensitive issues. These positions have 
proven invaluable to ensure we are protecting the sensitive ecosystems 
while securing our borders.
    Question 45. Have DHS infrastructure requests impacted DOI work 
loads? If so, how?
    Answer. DHS infrastructure requests do result in increased DOI 
workloads as we ensure compliance with applicable environmental law, 
regulation, and policy including, but not limited to the Wilderness 
Act, the National Environmental Policy Act and Endangered Species Act. 
Under the MOU discussed above, we are working with DHS to secure 
borders while at the same time protecting Federal public lands.
    Question 46. I am concerned that local BLM, Fish & Wildlife and 
other DOI offices might not be able to work quickly enough to keep DHS 
projects on track. It is my understanding that border DOI offices need 
more employees to work on permitting and compliance issues for DHS 
infrastructure projects. In southern New Mexico for example, DHS 
currently wants to add two forward operating bases on BLM land, a radio 
repeater in a Wilderness Study Area, miles of vehicular barrier, and 
new roads. DHS also plans to roll out numerous camera towers and 
sensors as part of the Secure Border Initiative. The Las Cruces BLM 
office, which serves southern New Mexico, has gone from 80 full-time 
employees a few years ago to approximately 68 now. Recent lost full-
time jobs include positions in realty, engineering, range science, 
wildlife, GPS, administration and archeology. Will this budget allow 
for the timely completion of DHS-related work southern New Mexico and 
other states?
    Answer. As mentioned in this question, various security efforts are 
underway in the border area, including the identification of 
infrastructure needs ranging from the construction of roads, barriers, 
lights, and surveillance systems, to the development of staging areas, 
forward operating stations, and training facilities. Environmental 
assessments have been initiated for these projects. In order to address 
the staffing requirements that are necessary to continue work on these 
important initiatives, the BLM, along with other Federal agencies, is 
developing a long-term budget strategy for implementation of the MOU 
with DHS, and to address other environmental mitigation and restoration 
efforts.
    Question 47. Would full-time but temporary hires of four to five 
years allow for the completion of DHS-related projects? Once the amount 
of infrastructure requests begin to taper off office numbers could 
begin to go back to current numbers.
    Answer. As noted above, the BLM, along with its Federal partners, 
are developing a long-term budget strategy to help the Agency implement 
its MOU with DHS. We are willing to explore and discuss all options, 
including the use of temporary employees, for addressing staffing needs 
to complete these projects. While certain work can easily be 
accomplished using temporary employees, realty work requires expertise 
which is gained primarily through work experience and formal training. 
A temporary assignment for an experienced realty person may not attract 
qualified applicants.
    Question 48. It's my understanding that DHS has funded a limited 
number of temporary DOI positions to help keep a back log of DHS-
related work from forming. What's your view on such a relationship 
between the agencies? Are there barriers to DHS funding DOI work?
    Answer. We are not aware of any such arrangement between DOI and 
DHS, but we would be supportive. The monetary support would allow the 
DOI to provide timely responses in support of DHS infrastructure needs, 
and help both agencies to serve their statutory roles with respect to 
the protection of public lands. There are similar reimbursable 
agreements between the Federal Highway Administration and the resource 
agencies, such as the Fish and Wildlife Service and the Advisory 
Council on Historic Preservation (ACHP), which review transportation 
plans. ACHP also has reimbursable agreements with the Department of the 
Army and other agencies.

                         ORIENTATION/EDUCATION

    Question 49. Over the next two years thousands of National Guard 
soldiers will be spending periods of time along our nation's border as 
part of Operation Jump Start, some soldiers stay months, some stay a 
matter of weeks. Thousands of new Border Patrol agents are being 
deployed every year. New National Guard and Border Patrol units need to 
be trained on orientation and compliance. They need to learn about DOI-
related regulations and need to learn the location of WSAs and the 
habitats and locations of endangered species. BLM has provided some of 
this training but is strained to do so. In southern New Mexico for 
instance there are only two rangers who do this with National Guard 
soldiers coming and going regularly. Should this orientation work be a 
priority?
    Answer. Training is an integral part of ensuring environmentally 
sensitive lands are recognized and protected to the extent possible 
while securing our nation's border. The BLM and other Federal land 
management agencies have provided training for Border Patrol agents and 
continue to do so. In addition, the land management agencies have 
developed materials for Border Patrol agents to use during their 
``musters,'' the short meeting held before any new shift of field 
agents goes on duty. This ``train-the-trainer'' model gives the Border 
Patrol the tools to continue educating their personnel about the 
sensitive environment in which they are working and how to best protect 
public lands.
    One initiative the Border Patrol has implemented is their Public 
Lands Liaison Program, a training program in part. They have designated 
one agent in each of their 20 Sectors as the Public Lands Liaison 
Agent. This agent receives in-depth training on relevant environmental 
law and regulation and acts as the primary point of contact in each 
Sector for all Federal land management agencies. This helps to ensure 
the Border Patrol maintains awareness of environmental issues and 
increases communication and cooperation between agencies along the 
border.

                              SOLID WASTE

    Question 50. One southern New Mexico rancher told my office in 2005 
that a regular group of deer hunters said that they were leaving his 
land because ``it's full of trash.'' This is land that has been ranched 
by this family for generations. The situation has only deteriorated 
since 2005. I've heard of solid-waste clean-up plans in Arizona. Are 
there plans in place to clean up immigration-generated waste along the 
entire border?
    Answer. No border-wide plans are currently in place, but DOI and 
DHS are concerned about the problem and considering proposals to 
document trash sites, abandoned vehicles, and illegal roads and trails 
in order to facilitate the cleanup of these sites on public lands. Any 
cleanup of private lands would require coordination with appropriate 
parties.

                            ABANDONED MINES

    Question 51. In late January 2007 an undocumented immigrant from 
Mexico fell into a mine shaft in Luna County, New Mexico. He was 
rescued by Border Patrol agents. Some agents acknowledge that it could 
have just as easily been one of them that fell into the mine. Is the 
DOI addressing this issue?
    Answer. The January 20, 2007 accident involving an undocumented 
immigrant who fell into an abandoned mine shaft occurred on state lands 
in Luna County, New Mexico.
    While this particular accident did not occur on BLM lands, we 
recognize the need and importance of Abandoned Mine Land (AML) 
remediation on public lands. The BLM is presently identifying its high-
use lands in order to establish priorities for future safety-related 
actions. The BLM also is focusing on better education and outreach to 
alert the public to the dangers of AMLs. The BLM is participating in 
the Department of Labor's Mine Hazard Awareness Campaign. This is a 
cooperative Federal, State, and private educational effort aimed at 
school-aged children and their parents which warns of the dangers of 
entering abandoned mines. The BLM has also published and distributed an 
AML safety brochure, and has addressed AML safety hazards on its AML 
website.

                   INDIAN EDUCATION AND CONSTRUCTION

    Question 52. To follow up from our discussion during the hearing, I 
strongly support the Department's efforts to improve education in 
Bureau-funded schools. However, I am concerned that while there are 
funding increases in certain areas of the BIA education budget, the 
significant cuts in other areas, including Johnson O'Malley (JOM) 
grants, post-secondary scholarships, and Indian school construction, 
appear to counter the Department's stated objective.
    With regard to the proposed elimination of JOM, have you confirmed 
that schools getting JOM grants can successfully substitute Title 7 
Part A grants to LEAs? Is there enough funding in Title 7 to completely 
replace the more than $24 million in funding lost by JOM?
    Answer. Public school districts will continue to be funded by Title 
I, Part A and Title VII--Indian Education Act (Public Law 107-110) 
programs through the Department of Education. Johnson O'Malley (JOM) 
funds are supplementary funds and do not supplant other federal, state 
or local funds. These supplemental education programs offered by the 
Department of Education will continue to provide replacement services 
previously funded by the JOM program. Funding under Title I Grants to 
Local Educational Agencies (CFDA No. 84.010) authorized by the 
Elementary and Secondary Education Act of 1965 (ESEA) and Indian 
Education Grants to Local Educational Agencies (CFDA No. 84.060) 
authorized by the ESEA will still be available to local education 
agencies.
    Question 53. Has the Department evaluated how cuts to post-
secondary scholarships will impact Native American students' ability to 
attend college?
    Answer. The Bureau of Indian Education (BIE) analyzes trends from 
data made available through the Tribal Priority Allocations (TPA) 
report mechanisms, and in turn, estimates the number of applications we 
anticipate. Based on such analysis, the BIE anticipates that the grant 
award amounts for the FY 2008 will remain at the same level, realizing 
a decrease in the number of applications from the previous year. Any 
significant shift from these numbers can be countered by a slight 
adjustment in grants awarded to individual tribal members by tribal 
education agencies. In addition, the Financial Needs Analysis conducted 
by the colleges and universities will be used to determine student 
needs and will also offset such changes by substitution of other 
available monies.
    Question 54. In addition to the written response you asked to 
provide me for my question regarding cuts to education construction 
funds, please make available to my office, as provided by the Native 
American Education Improvement Act of 2001, the ``long-term 
construction and replacement list for all Bureau-funded schools 25 
U.S.C. 2005(d)(2)(A),'' and the ``list for the orderly replacement of 
all Bureau-funded education-related facilities over a period of 40 
years'' 25 U.S.C. 2005(d)(2)(B). If these are not available, please 
explain why and when you plan on making them available.
    Answer. The lists are not available at this time. A rule must be 
issued to determine the criteria for determining which facilities are 
to be included on the lists. The Department is working with 
stakeholders to determine the proper process for issuing the rule; in 
particular, whether it will be feasible to convene a negotiated 
rulemaking team. We expect a determination of the type of rulemaking 
process to convene in the fall.
    Question 55. Please also provide my office with the latest updated 
data from the ``Facilities Information Systems Support Database'' 25 
U.S.C. 2005 (a)(6). Has this been made available to Congress and when 
was it last updated?
    Answer. Once the rule discussed in the answer to question 54 is 
published, the Bureau of Indian Affairs (BIA) will conduct an 
assessment of Bureau-funded schools and will enter that information 
into the BIA Facilities Management Information System. The lists will 
then be generated and copies will be provided as mandated within Public 
Law 107-110.

                     INDIAN WATER RIGHT SETTLEMENTS

    Question 56. In 2004, the President signed into law the Arizona 
Water Settlement, which will cost at least $2.2. billion over the next 
40 years. He also signed the Snake River Settlement with an estimated 
cost of $193 million. In its testimony before Congress, the 
Administration was supportive of both settlements and did not raise 
issues having to do with liability, local cost-share, or overall cost. 
These issues have been raised with respect to the New Mexico 
settlements. Please detail the basis for treating the New Mexico 
settlements differently from the settlements just mentioned. Please 
document the state/local cost-share involved in each of these 
settlements.
    Answer. The Administration's analysis of Indian water rights 
settlements is predicated upon the ``Criteria and Procedures for the 
Participation of the Federal Government in Negotiations for the 
Settlement of Indian Water Rights Claims'' (55 FR 9223). With respect 
to Federal contributions, the Criteria and Procedures provide that 
Federal contributions to a settlement should not exceed the sum of the 
calculable legal exposure and additional costs related to Federal trust 
or programmatic responsibilities. Of particular interest to the 
Administration in determining calculable legal exposure is the 
liability facing the United States if no legislative settlement is 
reached.
    The settlements referenced in this question can be distinguished 
from the New Mexico settlements as currently proposed in terms of 
either the calculable legal exposure or the Federal programmatic 
responsibilities that are implicated. The Arizona Water Rights 
Settlement Act concluded a lawsuit over the financial repayment 
obligation of Arizona water users for the Central Arizona Project 
(CAP), with significant amounts of money at stake, as well as settling 
several state-wide water rights adjudications. Moreover, as part of the 
Arizona Water Rights Settlement Act, a mechanism was put in place to 
address New Mexico's water rights claims in the Upper Gila Basin. We 
further note that the Administration's testimony on the Arizona Water 
Settlement Act raised the issue of cost directly. Administration 
testimony delivered to the Senate Energy and Natural Resources 
Committee on September 30, 2003, and to the House Resources Committee 
Subcommittee on Water and Power on October 2, 2003, expressed concern 
that ``[t]here are . . . numerous costs . . . which the United States 
does not believe are reasonably related to the costs avoided and 
benefits received.'' The Snake River Act settled outstanding state-wide 
litigation and provided all of the parties with certainty in the 
implementation of programs consistent with the Department's obligations 
under the ESA.
    The Guidelines represent the policy of the Administration, but the 
Administration evaluates each proposed settlement individually. Just as 
we did for each of the water settlements mentioned in this question, we 
are evaluating the New Mexico settlements in their unique contexts to 
determine to what extent each proposed settlement is consistent with 
our programmatic objectives and our responsibility to American 
taxpayers as well as our responsibility to protect the interests of the 
Pueblos and the Navajo Nation.
    That having been said, it is difficult to ``document'' the state/
local cost share in Indian water rights settlements. If the state/local 
cost share is considered in terms of cash contributed, the settlement 
statutes speak for themselves. The value of state/local in-kind 
contributions, relinquished claims to Bureau of Reclamation Project 
water, contributions of the expertise of state agencies, and co-
management opportunities is considerably more subjective and 
intangible. The Department would need to explore these questions with 
the States of Arizona and Idaho and the various local parties involved 
in the two settlements before embarking on documentation of cost share.
    Question 57. The Administration's testimony in both the Idaho and 
Arizona settlements justify a large federal contribution, in part, due 
to existing programmatic responsibilities. The Snake River settlement 
testimony specifically references a BIA program to support the tribe's 
domestic water and sewer systems. How do these programmatic 
responsibilities apply to the New Mexico settlements? How much 
programmatic funding (not funding from the Land & Water Settlement 
Fund) has BIA provided in each of the last 5 years for tribal domestic 
water and sewer systems (not simply for studies)?
    Answer. BIA does not have a program providing funding for tribal 
domestic water and sewer needs in New Mexico. Other Federal agencies, 
such as the Indian Health Service under the Department of Health and 
Human Services or the Environmental Protection Agency, may have related 
programs.

                         BUREAU OF RECLAMATION

Middle Rio Grande
    Question 58. The FY'08 budget appears insufficient to ensure 
compliance with the existing biological opinion governing water 
operations in the Middle Rio Grande (MRG). What is the most recent cost 
estimate for complying with that biological opinion? What is the cost 
for complying with the work plan associated with the MRG ESA 
collaborative program? What is the cost estimate for complying with the 
ESA recovery plan for the MRG? Is there overlap between these 3 
initiatives? If funding for MRG ESA activities is limited to the 
request in the FY'08 budget, is there a danger of non-compliance with 
the reasonable and prudent alternative in the 2003 biological opinion?
    Answer. The most recent cost estimate for complying with the 10-
year 2003 biological opinion (BiOp) was estimated in 2004 at a total 
cost of $233 million.
    The Long Term Plan of the MRG ESA Collaborative Program estimates a 
total cost of $233 million from 2005-2014. For FY2008, a total of $28 
million is identified in the Long Term Plan for Collaborative Program 
activities.
    The U.S. Fish and Wildlife Service has primary responsible for 
developing recovery plans. Reclamation participated in preparing 
recovery plans for the Southwestern willow flycatcher and the Rio 
Grande silvery minnow. The revised silvery minnow recovery plan is 
still in the draft stage, and a final is expected by the end of FY 
2007. Recovery plans do not require any mandatory action by any federal 
agency, including BOR; however, they outline specific actions and 
measurable criteria to achieve downlisting and delisting. Overall cost 
estimates exist, but recovery plans for the minnow and flycatcher 
encompass more than the Middle Rio Grande and costs specific to MRG 
have not been specifically defined. BiOp compliance actions and the 
Collaborative Program are consistent with the recovery plans.
    There are strong interrelationships among 2003 BiOp compliance, the 
MRG ESA Collaborative Program and Recovery plans for the minnow and 
flycatcher. Some of the 2003 BiOp requirements are included within the 
scope of the Collaborative Program. Implementing activities of the 
Collaborative Program and the requirements of the 2003 BiOp both 
contribute to recovery. The FY08 budget takes these areas of overlap 
into account and assumes simultaneous progress in each area.
    The request in the FY08 budget anticipates continued participation, 
as agreed, by all Federal and non-Federal partners for the non-water 
supply-related activities of the Collaborative Program such as minnow 
rescue, species and water quality monitoring and research, and habitat 
planning, construction, and monitoring activities.
    Question 59. A couple of years ago, the Department entered into a 
new agreement with the Middle Rio Grande Conservancy District (MRGCD) 
to perform operations, maintenance, and betterment work on the 
irrigation facilities serving Pueblo lands. MRGCD is to develop annual 
work plans pursuant to this arrangement. Is the Department consulting 
with the Middle Rio Grande Pueblos and conducting oversight to ensure 
that the annual work plans are being carried out in a manner that 
benefits the Pueblos? How much funding has the Department provided to 
MRGCD in each of the last 3 years under this agreement? Is the BIA 
providing any funding directly to the Pueblos to rehabilitate their 
irrigation systems? If so, how much has the BIA provided in each of the 
last 3 years?
    Answer. The Department consults with the six Pueblos affected by 
the MRGCD and monitors work done by the MRGCD in accordance with annual 
work plans to ensure that benefits accrue to the Pueblos. In the last 
three years, the Department has provided the following funding to the 
MRGCD under the agreement to provide operations, maintenance, and 
betterment work described in this question: FY 2004--$450,000; FY 
2005--$730,051; FY 2006--$1,400,000.
    No funding has been provided directly to the individual Pueblos, 
but BIA's Southern Pueblos Agency expended $35,000 per year in Fiscal 
Years 2004, 2005, and 2006 to make limited infrastructure improvements 
to the six Middle Rio Grande Pueblos' systems.
Rural Water Projects
    Question 60. The Rural Water Supply Act was recently signed into 
law. Does the Bureau of Reclamation have funding in FY'07 to begin 
implementing the program and developing the criteria called for in the 
law? What role will the Department of Agriculture play in helping 
Reclamation implement the loan guarantee title of the law?
    Answer. Implementation of P.L. 109-451 is a priority for 
Reclamation and we are moving ahead with an action plan to implement 
the program including the development of criteria. While no funds were 
specifically included in the FY 2007 Continuing Resolution, we have 
formulated our operating plan consistent with guidance issued by the 
Office of Management and Budget. On February 15, 2007, OMB issued 
Memorandum 07-10 which provided guidance to Departments and agencies on 
the development of operating plans. Based on this guidance, our plans 
incorporate funding for program and projects that were selected as a 
result of merit-based and competitive allocation processes.
    USDA has already provided significant assistance in implementation 
of the program. The open communication and discussion between our two 
agencies will prove invaluable in getting this program up and running. 
Currently, we are consulting with USDA regarding loan guarantee 
administration. They are taking an advance look at our proposed rules 
as required by Section 209a of the Act and will serve to ensure our 
programs are consistent where they can be. For example, our default 
timelines will parallel theirs, and their forms will be slightly 
modified for use in our program. Section 209b of the Act requires the 
Secretary to enter into a MOA with USDA for provision of appraisal and 
other administrative functions associated with the Loan Guarantee 
Program. Discussions with USDA regarding the specific functions they 
may assist are ongoing.
    Question 61. The Bureau of Reclamation's budget for rural water 
projects is exceedingly inadequate, with potential serious implications 
for a number of communities. Most egregious is the elimination of 
funding for the Fort Peck project and the North Central Montana 
project. Fort Peck was funded at $16 million in FY'06 and is due to 
receive another $5 million in FY'07. What are the implications on the 
ground if Reclamation's attempt to zero out funding for this project 
actually happens? How does Reclamation justify its budget from a 
project management perspective? Won't Reclamation's budget result in 
adding additional cost to the Project by starting and stopping design 
and construction activity?
    Answer. As discussed in the previous answer, the Reclamation 
operation plan for FY 07 has been developed in accordance with the 
guidance contained in OMB Memorandum 07-10. Year-to-year variability in 
the availability of Federal funds can in some cases result in increased 
overall project costs. The uncertainty of the Federal budget process, 
and the resulting year-to-year variability in appropriated funds for 
authorized rural water projects, has been a problem for many rural 
water projects that have difficulty competing for scarce Federal 
funding. The Rural Water Supply Act enacted last year should help to 
prevent this scenario from recurring by ensuring that proposed rural 
water projects are guided through the program's planning process under 
a consistent set of eligibility criteria, including appropriate local 
cost shares.
    Question 62. Under the FY'07 funding resolution and the FY'08 
budget, does the Bureau of Reclamation have funding to work with the 
Eastern New Mexico Rural Water Authority to comment on and evaluate 
engineering plans and designs? Reclamation previously did some analysis 
related to the Authority's ability to pay for a rural water project. 
What is the status of that work?
    Answer. Reclamation can assist the Authority to a limited extent. 
However, there is no funding specifically for the project in either the 
FY 2007 resolution or the FY 08 President's request. Reclamation 
completed a capability and willingness to pay analysis for the proposed 
project in 2003. This analysis is included in Smith Engineering 
Company's Conceptual Design Report. This analysis was done for an 
earlier version of the project that included deliveries to Tucumcari 
and Quay County which have since withdrawn. The Authority presently has 
a consultant, RBC Capital Markets, working on a financial analysis and 
plan. Reclamation has continued to provide technical assistance and 
advice to the Authority and consultant on a limited basis.
    Question 63. The President's Fiscal Year 2008 budget request 
includes $55 million to complete ongoing rural water projects. The 
Committee is particularly interested in the ongoing Municipal, Rural 
and Industrial (MR&I) systems for the Pick Sloan-Missouri River Basin. 
Accordingly, please provide a list of ongoing and completed Department 
of Interior, Bureau of Reclamation rural water supply projects. For 
each rural water supply project include total estimated project cost, 
the percentage of federal grant funds, percentage of federal loan 
funds, percentage of non-federal grant funds, and percentage of non-
federal loan funds
    Answer. As far as the Department of the Interior is aware, all 
federal funding provided to these projects is in the form of federal 
grant funds. The Bureau of Reclamation does not provide any Federal 
loan funding. We do not track non-federal grants or loans; these would 
be applied for and obtained by the project sponsor in order to fulfill 
the required non-Federal cost share. There is no set percentage of 
grant funding given each year. The amount of grant funding varies each 
fiscal year depending on appropriated funding and the work to be 
completed each year.

                         RURAL WATER--GP REGION
                      [Dollar Amounts in Thousands]
------------------------------------------------------------------------
                                                Total
                                   Total      Estimated   % of Fed/Non-
           Project            Estimated Cost  Cost (Non-  Fed Cost Share
                               (Federal) \1\   Federal)        \2\
------------------------------------------------------------------------
Fort Peck Reservation/Dry           $252,061    $23,493  Tribal System:
 Prairie RWS.                                             100/0
                                                         Dry Prairie
                                                          System: 76/24
Fort Peck County Rural Water          $5,800    ( \3\ )  75/25
 Supply System (Project
 Completed).
Garrison Diversion Unit.....        $450,877   $300,000  State MR&I: 75/
                                   +$294,798    ( \3\ )   25
                                                         Indian MR&I:
                                                          100/0
Mid-Dakota Rural Water              $148,465     $9,670  75/25
 System (Project Completed
 FY 2006).
Mni Wiconi Rural Water              $446,967    $17,456  Tribal: 100/0
 Supply Project.                                         Non-Tribal: 80/
                                                          20
Lewis & Clark Rural Water           $345,529    $96,006  Rural
 System.                                                  Customers: 80/
                                                          20
                                                         Incremental
                                                          Costs of Sioux
                                                          Falls: 50/50
Perkins County Rural Water           $23,964     $7,997  75/25
 System.
North Central MT Rural Water        $258,415    $33,888  Core System:
 Supply System.                                           100/0
                                                         Non-Core
                                                          System: 80/20
------------------------------------------------------------------------
\1\ Total Estimated Cost is based on 10/2007 prices (FY 2008
  Justifications). Includes indexing where authorized.
\2\ Based on authorized legislation.
\3\ Not applicable.

Site Security
    Question 64. The FY'08 budget assumes that the costs associated 
with guard and patrol activities ($18.9 million) will be treated as 
project O&M costs, subject to reimbursement by water and power users 
based upon project cost allocations. In FY'06, Congress limited the 
reimbursable portion of security costs to $10 million. How was the $10 
million allocated? How much of the FY'07 security costs will the Bureau 
of Reclamation seek reimbursement for?
    Answer. Reclamation collects reimbursable guard and patrol costs in 
accordance with project allocations. To comply with the $10 million 
ceiling imposed by Congress, Reclamation reduced the amount that it 
billed for guard and patrol costs proportionately across all 
beneficiaries. In FY 2006, the $10 million reimbursable guard and 
patrol costs were collected as follows: $ 6.1 million in direct up-
front funding from power customers and $ 3.9 million in appropriated 
project O&M funds from irrigation, M&I, and other water users. The 
Bureau of Reclamation proposed collecting the full $18.9 million in its 
FY 2007 budget request, and is now in the process of evaluating how 
much it is authorized to collect under the FY 07 continuing resolution.
Colorado River
    Question 65. Legislation was enacted in the 109th Congress to 
expedite the lining of the All-American Canal and to authorize 
construction of a ``Drop 2'' regulating reservoir on the lower Colorado 
River. What was the impact of that legislation and what is the current 
status of those projects? How will each of those projects be funded? 
How will the water stored and saved in the Drop 2 reservoir be 
allocated under existing law?
    Answer. The question of the effect of recent legislation regarding 
the All-American Canal is currently pending before the 9th Circuit 
Court of Appeals. This matter has been fully briefed by all parties, 
and the Court held oral arguments on the issue on February 21, 2007. We 
expect the Court to issue a decision that will interpret the impact of 
the legislation shortly. In the meantime, implementation of the All-
American Canal lining project remains on hold under the terms of a 
temporary injunction issued by the 9th Circuit in August 2006. Enacted 
language regarding construction of the ``Drop 2'' regulating reservoir 
is similar enough to the language on the All-American Canal that the 
Court's decision may contain analysis that could be applicable to both 
projects. Section 203(e) of the San Luis Rey Indian Water Rights 
Settlement Act provides that ``no Federal funds are authorized'' for 
the All American Canal lining project, and funding is being provided by 
participating contractors who would benefit from the water that would 
be conserved as a result of the project. Similarly, the Department 
anticipates that funding for the Drop 2 reservoir will be available 
from the beneficiaries of that reservoir. We are currently in 
discussions with the lower basin States of Arizona, California, and 
Nevada regarding allocation of water that would be conserved by the 
reservoir.
    Question 66. What is the status of the Bureau of Reclamation's plan 
to establish shortage-sharing and coordinated operation criteria for 
the Colorado River? Have the 7 basin states finalized an agreement 
signing on to these criteria?
    Answer. On February 28, 2007 the Department of the Interior 
published a Draft Environmental Impact Statement (DEIS) on Colorado 
River Interim Guidelines for Lower Basin Shortages and Coordinated 
Operations for Lake Powell and Lake Mead. We announced this publication 
in the Federal Register and posted the DEIS on our website at http://
www.usbr.gov/lc/region/programs/strategies.html. The Federal Register 
notice opened a public comment period on this effort. We have not 
received final input from the States regarding the proposed shortage 
guidelines and coordinated operating criteria, but we are anticipating 
that we will receive additional comments from the States before the 
public comment period closes on April 30, 2007.
Climate Change
    Question 67. Has the Bureau of Reclamation, as part of its need to 
manage its projects in the face of ongoing climate change, evaluated 
what activities and information are necessary to be able to utilize 
existing global climate models on a regional basis to help identify 
changes in temperature, precipitation patterns, and overall water 
supply? Through its Research and Development Program, what specific 
innovative tools is Reclamation evaluating for water supply forecasting 
and assessing risk to water delivery from climate change?
    Answer. Reclamation's R&D Office, in coordination with our regional 
offices, is taking a look at the best and most practical ways to 
address challenges posed by climate change. This effort is intended to 
help Reclamation to be as forward-looking as possible, within the 
limitations of available data and uncertainties. The effort will focus 
on understanding risks, impacts, opportunities, and develop strategies 
that help us be flexible, adapt to and manage climate change 
influences, instead of reacting to change after the fact.
    As part of this effort, Reclamation is also assisting in forming 
collaborative teams with the climate science and water management 
expertise at other federal agencies, universities, states, and local 
entities. Collaboration and a focus on problem solving will be keys to 
ensuring that the entire Western water scientific and water management 
community responds effectively to the water management challenges of 
the coming decades.
CVPIA
    Question 68. Please explain how the Bureau of Reclamation 
determines the annual charge to be paid by water contractors in the 
Central Valley Project--including base charges and surcharges. What are 
those charges in FY'07 and what will they be in FY'08? Please describe 
the process by which Reclamation determines what restoration projects 
to fund on an annual basis. What are the restoration priorities?
    Answer. According to the Central Valley Project's irrigation and 
municipal and industrial ratesetting policies, as approved by the 
Secretary, water rates per acre-foot are developed for each water 
contractor based on the estimated cost of providing water to a specific 
contractor and that contractor's historical deliveries. The estimated 
costs include: (1) main system facility (capital) costs, (2) annual O&M 
costs, and (3) applicable interest costs. Water contractors are 
required to pay for each month's estimated water deliveries two months 
in advance.
    In addition, Public Law 106-377, Appendix B, Section 203 requires 
Reclamation to assess and collect $162,000 (30% of $540,000) annually, 
indexed for inflation, from CVP water contractors for remittance to 
Trinity PUD. The current indexed assessment being collected from water 
contractors is about $195,000 or 11 cents per acre-foot.
    The Restoration Charge (Section 3407(d) of the Central Valley 
Project Improvement Act, Public Law 102-575 (Act)) requires annual 
indexing (Consumer Price Index Urban) of the October 1992 prices levels 
for agriculture ($6.00 per acre-foot) and municipal and industrial 
(M&I) ($12.00 per acre-foot) water sold and delivered by the Central 
Valley Project (CVP). The Friant Surcharge (Section 3406(c)(1) of the 
Act) is directed only to those water contractors receiving water from 
the Friant Division of the CVP; and is not indexed annually, but based 
on three tiers identified therein ($4.00, $5.00 and $7.00 per acre-
foot).
    The FY '07 Restoration Charges are $8.58 per acre-foot and $17.15 
per acre-foot for agriculture and M&I, respectively. The FY '08 
Restoration Charges have not been calculated yet, however, based on 
past results, it is expected to increase by 3 percent in FY '08 
resulting in charges approximating $8.84 per acre-foot and $17.67 per 
acre-foot for agriculture and M&I, respectively. The Friant surcharge 
for FY '07 and FY '08 is $7.00 per acre-foot for agriculture and M&I 
water delivered.
    Futhermore, Section 3407(d)(2)(A) of the Act provides for an 
additional annual charge for CVP water sold or transferred for M&I 
purposes to any entity which has not previously been a CVP contractor. 
The FY '07 charge is $35.74 per acre-foot and the FY '08 charge would 
be approximately $36.81 per acre-foot.
    Numerous meetings occur among restoration program managers and 
stakeholders (e.g., the Restoration Roundtable) to determine which 
programs are put forth for consideration by agency decision makers. 
``Out year'' proposals and budgets are prepared by Program Managers, 
reviewed at several levels within the agencies, then programs and 
funding are decided upon by the Regional Director of the Mid-Pacific 
Region and the Manager of the California-Nevada Office of the Fish and 
Wildlife Service.
    Reclamation and the Fish and Wildlife Service consider the doubling 
of anadromous fish as required under Section 3406(b)(1) to be the top 
CVPIA Restoration priority. The second priority is providing water and 
infrastructure to the Central Valley Wildlife Refuges as required under 
Section 3406(d).
Desalination
    Question 69. Has the Bureau of Reclamation completed its business 
plan for operating the Tularosa desalination facility? If so, can you 
please supply a copy to the Committee? What guidelines exist to 
determine the priorities for desalination research? Will Reclamation 
use the Desalination and Water Purification Technology Roadmap? How 
will Reclamation work with the public and private entities to ensure 
that any research efforts are likely to applied in the field and 
address the needs facing many communities in the West?
    Answer. Reclamation delivered a copy of the business plan to 
Senator Domenici in June 2006. We would be happy to transmit another 
copy for the Committee.
    Reclamation has entered into a contract with the National Academy 
of Sciences to evaluate the current status of desalination 
technologies; industry progress in adapting, maturing, and implementing 
these technologies; future research needs, and the appropriate federal 
and non-federal roles to address future needs. This will build upon the 
Desalination and Water Purification Technology Roadmap. Reclamation 
will use both of these reports to collectively evaluate needs and to 
guide Reclamation's research strategies. Reclamation also considers 
input from other federal and non-federal desalination consortiums and 
organizations in determining research objectives and priorities that 
are consistent with our overall guiding principal and goals.
    Reclamation is discussing the formation of an Advanced Water 
Treatment Technology Team consisting of representatives from our region 
and area offices to help connect the research results with Reclamation 
stakeholders that are positioned to implement such technologies. The 
team would use the Research and Development Office as a focal point for 
planning strategies that help research results get used.
    Question 70. Why does the Bureau of Reclamation keep moving its 
desalination program requests among various programs (e.g. Water 2025; 
Science & Technology; and Title XVI)? Does Reclamation need new 
authority to establish a comprehensive and structured desalination R&D 
program?
    Answer. Section 20312 of the Fiscal Year 2007 Continuing Resolution 
(PL 110-5) extended the authorization for the Water Desalination Act of 
1996 (42 USC 10301) through the year 2011. The primary programs 
involved in desalination research are the Science and Technology (S&T) 
Program, the Desalination and Water Purification Research Program 
(DWPR), Title XVI, and the Colorado River Basin Salinity Control 
Project (Title I). Beginning in FY 2008, no desalination research 
funding will be requested under Water 2025. This will help to better 
consolidate and administer Reclamation's desalination research. Each of 
these programs has unique authorities and objectives. For instance, the 
S&T Program and Title I fund internal research conducted in 
collaboration with industry and stakeholders. The DWPR and Title XVI 
programs fund external research grants to non-federal entities.
    Each of these programs fund a niche area, consistent with program 
objectives, authorities, and priorities. DWPR and Title XVI have 
similar authorities. As such, these programs have been used 
interchangeably as appropriate, to help manage issues such as the 
periodic expiration of DWPR authority. Although all programs operate 
under different authorities which have different specific objectives, 
collectively they have a common complementary objective of advancing 
desalination or advanced water treatment technologies. As such, 
Reclamation is placing more emphasis on improving internal coordination 
across these programs to assure more efficient and consistent 
implementation and accomplishment. The Research and Development Office 
will serve as the focal point for coordination activities, which also 
helps to ensure that Reclamation's investments in desalination research 
are better integrated and coordinated with the other important water 
resource research challenges and the multidisciplinary intersections 
that must be addressed to confront the Western water challenge of the 
21st century.
Water 2025
    Question 71. The Bureau of Reclamation's budget identifies $14.5 
million in available funding for Water 2025 in FY'07. How does 
Reclamation justify this amount given the limited funding available in 
FY'06? Does Reclamation have the authority to operate the program in 
FY'07?
    Answer. The increase reflects the overwhelming response to the 
Water 2025 Challenge Grant program and the importance of focusing 
Reclamation's resources on the geographic problem areas in the West, or 
``Hot Spots,'' in order to prevent crises and conflict over water. Each 
year since the program was initiated in 2004, the number of qualified 
proposals received by Reclamation has far exceeded the amount of 
funding available. Even with limited funding in FY 2006, for example, 
Reclamation received more than 100 proposals for Challenge Grant 
funding, representing a combined request of over $19 million in Federal 
funding to complete more than $63 million in improvements across the 
West. In FY 2004 and FY 2005, when more funding was available for Water 
2025, the combined request by applicants for Federal funding under the 
Challenge Grant program was between $30 and $35 million each year.
    Reclamation has authority to implement the Water 2025 program in FY 
2007 pursuant to the Revised Continuing Appropriations Resolution, 
2007, passed February 15, 2007 (the ``Continuing Resolution''). The 
Continuing Resolution provides for the continuation of the authority 
provided in the Energy and Water Development Appropriations Act of 
2006, including the authority for the Water 2025 program that was 
included in Section 205 of the 2006 Act.
    Question 72. The FY'08 budget identifies $1.0 million for system 
optimization activities within Water 2025. Doesn't system optimization 
have the potential to yield much more water than individual 
infrastructure improvement projects, that can subsequently be used to 
address other water needs?
    Answer. The $1.0 million requested in 2008 will be used for the 
System Optimization Reviews. System optimization reviews compliment the 
Water 2025 Challenge Grant program by ensuring that the individual 
improvement projects funded through the Challenge Grant program are 
part of a larger planning process. Through system optimization reviews, 
Reclamation will enter into cost-shared cooperative agreements with 
districts and States to assess the potential for water management 
improvements in a given basin or district. The end product of a system 
optimization review will be a plan of action that includes 
recommendations and performance measures for conservation and 
efficiency projects having the greatest impact in improving water 
management, such as creating water banks, facilitating water transfers, 
and modernizing canals. The recommendations for on-the-ground 
improvements or water markets identified in the plan of action could 
then be used by the State or district to apply for Federal funds 
through the Water 2025 Challenge Grant Program.
    Question 73. In the water conservation projects funded by the 
Bureau of Reclamation over the past several years, has Reclamation 
identified with specificity the water saved by each project, and how 
that saved water is being used within state law to address other needs 
in that river basin at issue? If not, isn't this appropriate criteria 
for Reclamation to consider in prioritizing funding requests?
    Answer. The expected water savings and how that water will be used 
to prevent conflicts over water are key considerations in the 
prioritization of proposals for funding under Water 2025. Water 2025 
proposals are selected through a competitive process in which proposals 
are reviewed and ranked by a team of technical experts, using the 
criteria that have been developed for the program. A summary of the 
Water 2025 selection criteria is available at http://www.doi.gov/
water2025/criteria.html. In evaluating whether a proposed project is 
likely to prevent conflict over water, the technical review team 
considers how much water will be saved and the proposed use of the 
saved water, including whether it will be made available to other water 
uses and whether it will be applied to address a specific water 
conflict or issue. Once a project has been completed, the recipient is 
required to submit a final report to Reclamation explaining how the 
project was completed, stating how much water was actually saved, and 
how the saved water is being used.
Columbia River
    Question 74. Please detail the Bureau of Reclamation's current 
efforts to support Salmon Recovery in the Columbia River basin. How 
have Reclamation's efforts been impacted by current litigation? What 
Reclamation facilities are involved in the effort to develop a 
comprehensive biological opinion for Federal Columbia River operations?
    Answer. Reclamation continues to operate its projects in the 
Columbia River basin, including actions for ESA listed salmon and 
steelhead, in accordance with various biological opinions. For example, 
flow augmentation in the Columbia River is provided through operations 
at Hungry Horse and Grand Coulee dams. Reclamation also provides 
technical assistance in planning and designing fish passage facilities, 
fish screens, and actions enhancing tributary spawning and rearing 
habitat; and funds the acquisition of up to 487,000 acre-feet of water 
for flow augmentation from Reclamation projects in the Snake River 
Basin through leases and purchases from willing sellers.
    To date, Reclamation project operations have not been altered by 
the remand. However, the staff effort required by the remand is 
diverting resources from some salmon recovery activities.
    Reclamation's Hungry Horse and Grand Coulee dams are included as 
part of the Federal Columbia River Power System. In addition, all 
Reclamation projects in Idaho and Oregon above Hells Canyon are 
included in the remand of the Upper Snake River Basin biological 
opinion.
Title XVI Water Projects
    Question 75a. How many pending (i.e. not authorized) Title XVI 
projects has the Bureau of Reclamation reviewed and determined to be 
feasible? Please identify those projects.
    Answer. The following pending (i.e. not authorized) projects have 
been determined to be feasible by Reclamation: California.--Inland 
Empire Utilities Agency Regional Recycled Water Program, Cucamonga 
Valley Water District Water Recycling Project, Chino Basin Desalters 
(Inland Empire Utilities Agency, Western Municipal Water District), 
Delta Diablo Sanitation District--City of Pittsburg Water Recycling 
Project.
    Question 75b. Please also identify any projects for which 
Reclamation has completed an appraisal level report.
    Answer. Following are pending projects (i.e. not authorized) for 
which Reclamation has completed or approved an appraisal level report: 
California.--City of Fort Bragg Water Reclamation Project, Del Norte/
Crescent City Water Reclamation Study, Mission Springs Water District 
Project; Texas.--Leon Creek/Mitchell Lake Water Reuse Project (San 
Antonio), Brownsville Water Recycling Project, City of Austin 
Wastewater Reclamation and Reuse Project.
    Question 75c. Finally, please identify any pending projects in 
which Reclamation has had some level of significant involvement, 
including communication with local project sponsors.
    Answer. Following are pending (i.e. not authorized) projects, or 
the names of sponsors of such projects, for which Reclamation has had 
some level of significant involvement: Arizona.--City of Tucson; 
California.--Big Bear Area Regional Wastewater Agency, City of Apple 
Valley, City of Corona, City of Industry, City of Oxnard (GREAT 
program), City of Palo Alto/Mountainview Moffat Area Recycled Water 
Project, City of Redlands, City of Riverside, City of San Juan 
Capistrano, Delta Diablo Sanitation District--City of Antioch Recycled 
Water Project, Eastern Municipal Water District, El Toro Water 
District, Elsinore Valley Water District, Hawaii Stormwater Reuse 
Project, Las Virgines Municipal Water District, Los Angeles County 
Sanitation Districts, Marine Corps Base--Camp Pendleton, Pacific 
Recycled Water Project, Prado Wetlands (Orange County Water District), 
Rancho California Water District, Redwood City Recycled Water Project, 
Rowland Water District, Santa Ana Watershed Project Authority, Santa 
Clara Valley Water District--South County Recycled Water Project, 
Suburban Water Systems, Vallecitos Water District, Ventura County 
Waterworks Districts, Victor Valley Wastewater Reclamation Authority, 
Western Municipal Water District, Yucaipa Valley Water District; New 
Mexico.--City of Alamogordo; Oregon.--Salem Natural Treatment System 
Project; Texas.--Trinity River Corridor Project (Dallas), Williamson.
Reclamation Fund
    Question 76. The Reclamation Fund currently has a large surplus. 
What is the projected surplus at the end of FY'08? What happens to the 
excess revenues on an annual basis that are not accounted for as an 
offset to the Bureau of Reclamation's appropriated funds?
    Answer. The projected balance at the end of FY 2008 is $7.8 
billion. Receipts deposited in the Reclamation Fund are made available 
by Congress through annual appropriation acts. Those receipts and 
balances not appropriated from the Reclamation Fund remain in the Fund 
as unappropriated receipts (i.e., balances). The increase in the 
balances, which is a current trend, is the result of an increase in 
receipts and a decline in appropriations.
Navajo Indian Irrigation Project
    Question 77. The 1962 legislation authorizing the Navajo Indian 
Irrigation Project (NIIP) refers to an irrigated farm of 110,630 acres. 
The Interior Department's Inspector General stated in a 1988 Audit 
Report that ``it is generally agreed that the [Navajo] Tribe was 
promised a completed irrigation project of a certain size and, based on 
that promise, made important concessions in return for an irrigation 
project.'' Do you believe that the federal government has the 
obligation to complete the NIIP to 110,630 acres?
    Answer. Congress authorized the Secretary to construct NIIP in 
1962, the product of years of discussions among the United States, the 
Navajo Nation, the State of New Mexico, and other interested parties. 
Section 2 of the NIIP Act described the project as serving 
approximately 110,630 acres with an average annual diversion of 508,000 
acre-feet of water for irrigation. Congress authorized ``not more than 
$135,000,000'' to be spent for construction and purchase of lands 
outside the Navajo Reservation for project purposes, and raised this 
funding ceiling to $206,000,000 by a 1970 amendment of the Act. The 
1988 Audit Report cited in the question also recommended termination of 
NIIP on a number of grounds, including what the Inspector General 
considered the ``excessive cost of the Project'' and the low revenue 
yields produced by farming operations. The Department did not agree 
with the Audit recommendation at that time and has continued to support 
NIIP operations. We have not opined on whether the federal government 
has an obligation to complete the NIIP to 110,630 acres.
    Question 78. The Inspector General also determined that the NIIP 
``was authorized in the same Congressional bill as the San-Juan Chama 
Diversion Project, with the implication that construction of the two 
projects would proceed generally at the same pace.'' The legislative 
history of the Act is replete with statements by sponsors and others 
that the project was to be completed within about 15 years. Do you 
agree that Congress intended in 1962 that the NIIP would be completed 
in about 15 years?
    Answer. Members of Congress and others may have envisioned 
construction of the two projects to proceed at roughly the same pace at 
the time of passage of the Act in 1962. However, the statutes as 
enacted did not include a specific time period for construction. In 
addition, unlike the San Juan-Chama Project, the construction plans for 
NIIP had not been fully developed prior to passage of the NIIP Act. 
NIIP pre-construction plans were reevaluated in 1965 and again in 1970 
to replace lands found to be unsuited to sustained irrigation. Other 
factors have also affected the construction schedule for NIIP. For 
example, the project design was further altered when the Navajo Nation 
and the Department agreed to replace the gravity flow system in the 
initial design with sprinkler-based technology.
    Question 79. Section 1 of the NIIP legislation adopted the 
Coordinated Report as the blueprint for the NIIP development. That 
Report addresses the burden for Operation and Maintenance (``O&M'') 
expenses pending project completion. The Report, at page 357, states 
that the Navajo Nation would not be required to pay for O&M until 
``completion of the project development period'' and defines that time 
as ten years AFTER completion of the 110,630-acre project on page 346. 
Are there any contemporaneous sources (i.e., circa 1962) that you are 
aware of that would support the position that the O&M burden should be 
shifted to the Navajo Nation prior to the completion of the ``project 
development period'' as so defined in the Coordinated Report? If so, 
what are those sources?
    Answer. We have reviewed the Coordinated Report and find nothing 
that addresses the question of when the Navajo Nation would assume 
responsibility for paying operation and maintenance (O&M) expenses. The 
Report, at page 346, recommends a 10-year development period before 
construction costs are assessed, but does not discuss assessment of O&M 
charges. Similarly, at page 357 in the ``Conclusions'' section, the 
Report states that ``[r]eimbursable Federal charges assessable against 
project lands would be paid to the Treasury, in accordance with 
existing laws, following completion of the project development 
period.'' This conclusion summarizes the Report's earlier discussion of 
repayment of construction costs and has no relevance for the assessment 
of O&M charges. Section 5 of the NIIP Act expressly addresses the issue 
of O&M charges and mandates that the payment of O&M charges be made in 
accordance with the Act of August 1, 1914 (38 Stat. 582, 583), as 
amended (25 U.S.C. Sec. 385), which provides the Secretary broad 
discretion to set and assess O&M charges for all Indian irrigation 
projects. We find no statutory or regulatory requirement that the 
Project be completed before O&M charges are assessed. Finally, we are 
not aware of any other contemporaneous sources that bear on the issue 
of when the Navajo Nation should assume payment of O&M charges.
    Question 80. The Administration reduced funding for the NIIP 
construction in FY'02, but Assistant Secretary McCaleb assured the 
Navajo leadership that the reduction would be only for one year. The 
administration has yet to seek restoration of the funding. Initially, 
the rationale was that the Navajo Agricultural Products Industry 
(``NAPI''), which farms the NIIP lands, was in need of management and 
organizational changes. Those changes have now been implemented. The 
Administration's position now seems to be that there needs to be an MOU 
addressing O&M responsibilities pending completion of the project. If 
the Navajo Nation is correct in the view that the O&M burden rests with 
the Department until the end of the project development period (as 
defined in the Coordinated Report), isn't the Department's position 
inconsistent with the authorizing legislation?
    Answer. The NIIP Act grants the Secretary broad discretion to set 
and assess O&M charges. While negotiation of an MOU would offer the 
Navajo Nation an opportunity to influence the timing and method of 
assessment of O&M charges, it is neither a prerequisite for assessment 
nor a condition for future appropriations.
    Question 81. NAPI and the Bureau of Indian Affairs officials have 
both stated that the very integrity of the NIIP project is now in 
jeopardy because of the insufficiency of O&M funding and the resulting 
``deferred maintenance.'' Is that also your understanding?
    Answer. No. The BIA provides funding to NAPI under a Public Law 93-
638 contract to perform recurring maintenance activities for the 
project. Although deferred maintenance is a consideration for NIIP and 
for some other BIA irrigation systems, core funding has been provided 
for critical O&M functions.
    Question 82. In 2005, Departmental officials indicated that they 
were seeking a Solicitor's opinion on the Federal government's 
obligation to construct and maintain NIIP. Has the Solicitor been 
tasked to write an opinion? Why is it taking an inordinate amount of 
time? When can we expect the opinion? Is this a wise use of Interior 
money when the legislative history is clear and Interior itself has 
previously acknowledged the obligation, as well as OMB?
    Answer. The Department has assembled the voluminous record related 
to NIIP and its authorization, a massive amount of documents that spans 
more than half a century. To accomplish this task, the Department 
retained the services of an historical research consultant to ensure 
the Department had as complete a compendium of relevant documents as 
possible. Completion of this research and compilation effort did not 
conclude until late last summer. With this in mind, an opinion on this 
matter will not be issued any time soon.
    Question 83. If no additional construction of the remaining blocks 
in NIIP is currently taking place, and maintenance is being deferred, 
please identify how the funds requested in the FY'08 budget are 
expected to be expended. Please account for FY'06 expenditures from 
both the construction and O&M accounts.
    Answer. Construction funds in FY 2008 will be used by the Bureau of 
Reclamation (Reclamation) to address the construction deficiencies 
identified in the 1988 IG Audit Report, as amended, and to complete 
transfer stipulations identified for work completed since 1988. 
Construction funding is also to be used by Reclamation to operate and 
maintain completed project features which have not been transferred to 
BIA O&M status. Expenditures for FY 2006 were utilized for the same 
purposes. Key activities funded in FY 2006 included: Stage 18 canal 
rehabilitation; initiation of Stage 19 canal rehabilitation; 
corrections to Gallegos Pumping Plant; correction on Hogback Diversion 
Dam and main canal enlargement; on-going construction management and 
design. Also funded: BIA Environmental Compliance/San Juan Recovery 
Implementation Program Committee.
    FY 2007 activities programmed by Reclamation include: repairs to 
concrete lining of Amarillo canal; correct logic controller program; 
Burnham lateral repair; on-going construction management and design. 
Also funded: BIA Environmental Compliance/San Juan Recovery 
Implementation Program Committee.
    FY 2008 activities programmed by Reclamation include: Kutz pumping 
plant automation; correct logic controller program; deficiency/
inspection contract with NAPI; Burnham lateral repair; on-going 
construction management and design. Also funded: BIA Environmental 
Compliance/San Juan Recovery Implementation Program Committee.
    Question 84. What is the estimated cost to complete Block 9 of 
NIIP? What specific actions are necessary?
    Answer. Reclamation's estimated cost to complete Block 9 is $76.4 
million, based on the 2005 Construction Cost Estimate and indexed for 
October 2006. The estimate will be adjusted as Reclamation completes 
the collection of required design data.
    Question 85. What is the estimated cost to complete Blocks 10 and 
11 of NIIP? What specific actions are necessary?
    Answer. Reclamation's estimated costs to complete Blocks 10 and 11 
are $130.5 million and $112.9 million, respectively, also based on the 
2006 indexed price mentioned above. Estimated costs will be adjusted as 
Reclamation completes the collection of required design data. In 
addition to construction activities, work to be completed includes 
investigations and collection of design data, final design, and 
preparation of construction specifications.
    Construction of Blocks 10 and 11 may require additional storage. 
The initial design assumed that Gallegos Dam would provide this 
required storage. Construction of Gallegos Dam, and associated 
features, has been estimated at $86.4 million at the October 2006 price 
level. Oil and gas development in the vicinity planned for Gallegos Dam 
since the conceptual plans were developed may make the construction of 
Gallegos Dam problematic and may require evaluation of storage 
alternatives.
    Question 86. If the NIIP construction budget were increased and 
sustained at $20 million per year rather than the $12.6 million in the 
FY '08 budget, how long would it take to complete Block 9? What if the 
construction budget were increased and sustained at $25 million per 
year?
    Answer. Based on the estimate indexed to the October 2006 price 
level, Reclamation estimates that if funding is sustained at the $20 
million level, Block 9 would require 6 years to complete. If funding is 
sustained at the $25 million level, Block 9 would require 5 years to 
complete. Both of these scenarios provide an allowance for the 
completion of the remaining deficiency and transfer stipulation items 
and further assume that BIA will utilize $1 million of the funds 
annually to perform NIIP administration and oversight and for BIA 
participation in the San Juan River Basin Recovery Implementation 
Program.

                      USGS WATER RESOURCES PROGRAM

    Question 87. Is USGS, as part of its Water Resources Program, 
evaluated what activities and information are necessary to be able to 
utilize existing global climate models on a regional basis to help 
identify changes in temperature, precipitation patterns, and overall 
water supply? If so, what types of activities and data-gathering needs 
has it identified?
    Answer. The USGS Water Resources Program is indeed involved in 
working with global climate models and with long term hydrologic and 
climate data to understand the changes in water resources that have 
taken place in recent decades and projecting the changes that are 
likely to occur in the coming decades. Progress on this question 
depends on two things: (1) a strong theoretical basis of understanding 
of how these climate and hydrologic processes work and (2) long-term 
high-quality data sets that can be used to test and refine the theory. 
The USGS has defined, in some detail, the kinds of data sets that are 
needed in terms of streamgages, ground water wells, and monitored 
glaciers. In fact, the FY 2008 proposed budget for the USGS includes a 
specific increase associated with improving the stability of the 
national streamgaging network in order to serve these needs for 
understanding long-term changes in water supply and flood hazards as 
well for providing the data needed for streamflow forecasting and water 
management. It is also crucial that the USGS continue its close 
collaboration with leading global climate modeling groups such as the 
Geophysical Fluid Dynamics Laboratory of the National Oceanic and 
Atmospheric Administration in Princeton, NJ. This kind of partnership 
brings strong hydrologic understanding to the climate modeling 
community and enables careful analysis of potential implications of 
climate change on water resources.
    Question 88. Please describe USGS's role as part of the U.S. 
Climate Changes Science Program.
    Answer. Earth Surface Dynamics Program funded projects support the 
goals of the U.S. Climate Change Science Program (CCSP) to (1) improve 
knowledge of the Earth's past and present climate and environment, 
including its natural variability, (2) improve quantification of the 
forces bringing about changes in the Earth's climate and related 
systems, (3) reduce uncertainty in projections of how the Earth's 
climate and environmental systems may change in the future, (4) 
understand the sensitivity and adaptability of different natural and 
managed ecosystems and human systems to climate and related global 
changes, and (5) explore the uses and identify the limits of evolving 
knowledge to manage risks and opportunities related to climate 
variability and change.
    Science funded through four Bureau Programs that crosscut CCSP's 
Strategic Priorities is related to:

  <bullet> Climate Change and Variability,
  <bullet> Ecosystems,
  <bullet> Land-use/Land Cover Change,
  <bullet> the Carbon Cycle, and
  <bullet> the Water Cycle.

    Earth Surface Dynamics Program: 10.0 Million.--This program 
conducts paleoclimate and climate change science and monitoring 
investigations focused on constraining models for global and regional 
climate simulations by the worldwide climate simulations modeling 
community as well as providing the causes and mechanisms related to 
climate change impacts such as sea-level rise, abrupt climate change, 
Arctic permafrost degradation, coastal erosion, plant community 
migrations due to climate change, ocean circulation modeling, hypoxia 
in the Gulf of Mexico, and climate change impacts on critical 
ecosystems such as Greater Everglades and Chesapeake Bay.
    Ecosystems Program: 6.0 Million.--Studies ecological and physical 
impacts related to climate change, such as wetlands loss due to sea-
level rise, damage to critical ecosystems as a function of global 
warming, glacier retreat in Glacier National Park, proliferation of 
invasive species due to climate change, and impacts on critical species 
due to landscape degradations, such as Polar Bear habitat decline due 
to projected sea-ice loss induced by global warming.
    Geographic Analysis and Monitoring Program: 7.0 Million.--Studies 
land cover and land-use changes resulting from climate change, 
feedbacks between landscape change and climate, and remotely sensed 
changes in atmospheric carbon flux related to global warming.
    Hydrologic Networks & Analysis: 3.08 Million.--Hydrologic 
monitoring of water quantity and quality changes related to global 
warming and precipitation pattern changes induced by climate change, 
especially in sensitive areas of the arid southwest, Alaska, and New 
England. Work also includes water quality studies focused on assessing 
the consequences of hydrological changes on sediment and chemical 
transport, including Dissolved Organic Carbon, Mercury, and Nutrients; 
all of which have significant impacts on ecosystem and Human health.
    Question 89. Please identify the types of activities being 
undertaken as part of the development of the Groundwater Climate 
Response Network. As I understand it, USGS has identified 62 principal 
aquifers. How is monitoring of those aquifers prioritized (i.e. are 
there any criteria associated with prioritizing studies)?
    Answer. The ground-water Climate Response Network (CRN) presents 
data collected primarily from water table (generally shallow) wells 
across the Nation that tend to respond rather quickly to climate 
variations. The CRN currently consists of 552 wells; 228 of the wells 
have real-time instrumentation. The CRN design calls for real-time 
reporting from at least one well in each of the Nation's climate 
divisions. The current CRN covers only 167 of the 366 climate divisions 
across the Nation. Thus at least 199 additional wells are needed for 
full coverage, primarily in the central and western U.S. There is an 
ongoing effort to identify wells monitored under all USGS programs that 
meet the criteria of the CRN, and to add them to the network. Lastly, 
the USGS is developing a fact sheet that describes the network and the 
information available to the public via the Internet.
    The USGS identified the Nation's 65 Principal Aquifers under a 
previous ground-water program. Based on national ground-water use 
statistics, the Ground-Water Resources Program (GWRP) has identified 30 
priority aquifers to be evaluated for ground-water availability. These 
30 priority aquifers account for about 94 percent of the Nation's total 
ground-water withdrawals for public supply, irrigation, and self-
supplied industrial uses combined. With the exception of the High 
Plains aquifer, there is no nationwide systematic ground-water-level 
monitoring program for the Nation's principal aquifers. One of the 
tasks within the ongoing GWRP ground-water availability studies is the 
design of a ground-water-level monitoring network for the aquifer 
system. Having these designs will enable the USGS and its partners to 
maintain a regular accounting of changes in the amount of water in 
storage and water levels in these important aquifers.
    Question 90. Please identify the 51 study units associated with the 
NAWQA program. Do the water quality studies overlap with other 
monitoring efforts in other programs--e.g. the stream-gaging and 
groundwater resources programs?
    Answer. Since 2001, there have been 42 study units in the NAWQA 
Program, which was a reduction from the 51 study units included from 
1991-2000. The NAWQA study unit activities build upon streamgaging data 
supported by the streamgagaing program, and also use information from 
the ground-water resources program. Evaluation of water quality must 
always build on an understanding of flow and storage of water. NAWQA 
depends for most of its physical data on streamflow and ground water on 
monitoring and studies carried out in the USGS National Streamflow 
Information Program (NSIP), Ground Water Resources Program, and the 
Cooperative Water Program. Monitoring networks for the NAWQA program 
always depend on existing data collection systems, adding new sites 
only when it is absolutely necessary to meet a specific NAWQA program 
needs. The vast majority of streamflow information used in NAWQA is 
supported by other USGS programs (Cooperative Water Program and NSIP) 
as well as funding provided by the 800 funding partners who support 
USGS streamgaging.

------------------------------------------------------------------------
                                   NAWQA Study Unit     States in Study
           Study Unit                    Name                Unit
------------------------------------------------------------------------
1                                Acadian-             LA, MS
                                  Pontchartrain
                                  Drainages.
2                                Albemarle-Pamlico    NC, VA
                                  Drainages.
3                                Apalachicola-        AL, FL, GA
                                  Chattahoochee-
                                  Flint River Basins.
4                                Canadian-Cimarron    CO, KS, NM, OK, TX
                                  River Basins.
5                                Central Arizona      NJ, NY
                                  Basins.
6                                Central Columbia     ID, WA
                                  Plateau-Yakima
                                  River Basin.
7                                Central Nebraska     NE
                                  Basins.
8                                Connecticut,         CT, MA, NH, NY,
                                  Housatonic and       RI, VT
                                  Thames River
                                  Basins.
9                                Delaware River       PA, NY, NJ
                                  Basin.
10                               Eastern Iowa Basins  IA, MN
11                               Georgia-Florida      GA, FL
                                  Coastal Plain
                                  Drainages.
12                               Great Salt Lake      UT, ID, WY
                                  Basins.
13                               Hudson River Basin.  NY, CT, MA, NJ, VT
14                               Kansas River Basin.  CO, KS, NE
15                               Lake Erie-Lake       IN, MI, OH, PA, NY
                                  Saint Clair
                                  Drainages.
16                               Long Island-New      NJ, NY
                                  Jersey Coastal
                                  Drainages.
17                               Lower Illinois       IL
                                  River Basin.
18                               Mississippi          AR, KY, LA, MS,
                                  Embayment.           MO, TN
19                               Mobile River Basin.  MS, AL, GA
20                               Nevada Basin &       CA, NV
                                  Range.
21                               New England Coastal  ME, MA, NH, RI
                                  Basins.
22                               Ozark Plateaus.....  AR, KS, MO, OK
23                               Potomac River Basin  DC, MD, PA, VA, WV
                                  & Delmarva
                                  Peninsula.
24                               Puget Sound          WA
                                  Drainages.
25                               Rio Grande Valley..  CO, NM, TX
26                               Sacramento River     CA
                                  Basin.
27                               San Joaquin-Tulare   CA
                                  Basins.
28                               Santee River Basin   SC, NC
                                  and Coastal
                                  Drainages.
29                               South-Central Texas  TX
30                               South Platte River   CO, NE, WY
                                  Basin.
31                               Southern California  CA
                                  Coastal Drainages.
32                               Southern Florida     FL
                                  Drainages.
33                               Tennessee River      AL, GA, KY, MS,
                                  Basin.               NC, SC, TN, VA
34                               Trinity River Basin  TX
35                               Upper Colorado       CO, UT
                                  River Basin.
36                               Upper Illinois       IL, WI, IN
                                  River Basin.
37                               Upper Mississippi    MN, WI
                                  River Basin.
38                               Upper Snake River    ID, MT, NV, UT, WY
                                  Basin.
39                               Western Lake         MI, WI
                                  Michigan Drainages.
40                               White, Great &       IN, OH
                                  Little Miami River
                                  Basin.
41                               Willamette Basin...  OR
42                               Yellowstone River    MT, WY, ND
                                  Basin.
------------------------------------------------------------------------

    Of the original 51 study units, the following were discontinued in 
2000, or combined with other study units when the current 42 study 
units were defined. Two new study units were then added (Canadian-
Cimarron, and Kansas) to create the 42 study units.

------------------------------------------------------------------------
                                    States in Study
      NAWQA Study Unit Name              Unit          Decision in 2000
------------------------------------------------------------------------
Allegheny-Monongahela River       MD, NY, PA, WV....  Discontinued.
 Basins.
Cook Inlet Basin................  AK................  Discontinued.
Delmarva Peninsula..............  DE, MD, VA........  Combined with
                                                       Potomac River
                                                       Basin.
Great & Little Miami............  ID, OH............  Combined with
                                                       White River
                                                       Basin.
Kanawha-New River Basin.........  NC, VA, WV........  Discontinued.
Lower Susquehanna River Basin...  PA................  Discontinued.
Northern Rockies Intermontane     ID, MT, WA........  Discontinued.
 Basins.
Oahu............................  HI................  Discontinued.
Red River of the North..........  MN, ND, SD........  Discontinued.
Upper Tennessee River Basin.....  KY, NC, SC, TN, VA  Combined with
                                                       Lower Tennessee.
Yakima River Basin..............  WA................  Combined with
                                                       Central Columbia
                                                       Plateau.
------------------------------------------------------------------------

    Question 91. How will the Landsat Data Continuity Mission be 
impacted by available FY'07 funding? What is the reason for the Landsat 
data gap that is expected to occur about 2010 (if not earlier)? Won't 
this data gap be a significant loss to the scientific community? What 
will be the extent of the impacts? Please be as specific as possible.
    Answer. All planning and procurement activities scheduled for FY'07 
in support of the Landsat Data Continuity Mission will be able to 
proceed in conjunction with NASA's procurement schedule. The earliest 
potential launch date for the Landsat Data Continuity Mission is 2011. 
Both Landsat 5 and 7 are operating beyond their designed lifetimes; 
hence, either satellite could fail at any time before the launch of the 
Landsat Data Continuity Mission, thus producing a Landsat data gap. 
Both satellites should continue to operate into 2010 when their orbit-
positioning fuel runs out. At that time, a decommissioning process will 
be initiated and over approximately one year the satellites will be 
maneuvered into an orbit that will eventually safely deorbit them.
    The data gap will represent a loss to the scientific community, as 
well as to policy makers and the public at large. For 35 years, Landsat 
satellites have provided the Nation's decision makers and the public 
with high quality images of the entire Earth's land surface. These 
images are used in assessments of natural disasters; to support 
agricultural research and operations; for studies of climate and land 
use change; in water resource assessment and management, coastal zone 
management, and ecological forecasting; and in many other national 
security, scientific, operational, and economic applications.
    Landsat's greatest users are in agriculture and forestry. 
Agricultural and forestry applications combined make up the largest 
operational Landsat user group, accounting for nearly 25 percent of the 
total number of images sold throughout this period. The most common 
application appears to be estimating annual agricultural production and 
national and international forest area. Cropland area and production 
statistics developed using Landsat data are the basis for ensuring that 
agricultural statistics that drive national and global commodity 
markets are fair and accurate so that the economic viability of U.S. 
agriculture is stable. The U.S. Department of Agriculture's (USDA) 
National Agricultural Statistics Service (NASS) has used Landsat data 
for the past two decades as a key input for developing U.S. crop 
acreage estimates. Landsat data are used to construct the Nation's area 
sampling frame for agricultural statistics. This is the statistical 
foundation for providing agricultural estimates with complete coverage 
of American agriculture.
    Landsat data are used by a wide range of federal climate 
researchers, including: the National Science Foundation; the National 
Aeronautics and Space Administration; the National Oceanic and 
Atmospheric Administration; the Environmental Protection Agency; the 
Department of Energy; the Department of Health and Human Services; the 
Department of Defense; the Department of State; the Agency for 
International Development; and the Departments of Agriculture, 
Transportation, and the Interior. Likewise, Landsat data are used for 
climate research by: the Smithsonian Institution; the United Nations, 
and many national and international academic institutes and scientific 
organizations.
    While there is not currently an operational satellite system that 
could replicate the data characteristics and global coverage frequency 
of Landsat 7, a multi-agency team, chaired by representatives from the 
USGS and NASA, is investigating alternative data sources to mitigate a 
Landsat data gap. Extensive work has been completed on identifying the 
most Landsat-like data sources that could be used during any data gap, 
and a data-gap implementation plan was completed in FY 2007.
    Question 92. USGS is currently participating with the State of New 
Mexico in studying and mapping the Salt Basin aquifer. Do you 
anticipate funding being available in FY'07 to continue this effort? 
How much funding? Will funding be available in FY'08 based on this 
budget?
    Answer. Using cooperative funding from the New Mexico Interstate 
Stream Commission (ISC), the USGS completed a ``Plan of study to 
improve the understanding of the hydrogeology of the Salt Basin'' and 
presented this plan to the ISC on August 23, 2006. Among other issues 
discussed in the plan, the following study elements were proposed: (1) 
systematic monitoring of surface-water discharge and ground-water 
levels, (2) application of geochemical and isotopic techniques to 
better delineate areas of ground-water recharge, (3) application of 
geophysical techniques to better establish the degree of development 
and interconnectedness of fractures and solution channels in the 
carbonate aquifer, and (4) simulation of effects of potential ground-
water development on the Otero Mesa on ground-water levels in the New 
Mexico and Texas parts of the basin. Another agreement with the USGS 
and the ISC is currently funded through the USGS Cooperative Water 
Program in FY 2007 ($48,500 funded by the USGS and $48,500 funded by 
the ISC) to continue this effort by designing a specific proposal to 
implement the plan of study and to determine which agency should 
complete which study element. In addition, the USGS is preparing to 
commit $100,000 per State fiscal year ($25k in Federal FY 2007 and $75k 
in Federal FY 2008) for 3 years to complete the proposed investigative 
work in the Salt Basin. The USGS is waiting for action from the New 
Mexico legislature on the ISC-proposed $2.2 million in funds over 3 
years to complete this study.
    Question 93. USGS has helped to develop a detailed and 
comprehensive groundwater model for the Rio Grande basin underlying 
Albuquerque. It's my understanding that this model is one of the most 
sophisticated that USGS has developed to date. Is that a correct 
assessment? What other aquifer systems are modeled to this level of 
detail (or in the process of developing as detailed a model)?
    Answer. Yes, the USGS applied state-of-the-art approaches to 
produce a complex and sophisticated Rio Grande basin model. Other areas 
where the USGS has been or is currently involved in advanced modeling 
projects include the Central Valley of California, the Death Valley 
regional flow system, Lake Michigan Basin, Biscayne Bay, and multiple 
locations along the Atlantic Coastal Plain and the Sparta aquifer in 
Arkansas.
    Question 94. The President recently signed into law the U.S-Mexico 
Transboundary Aquifer Assessment Act. Will USGS provide funding in 
FY'07 to begin implementing this law? If so, how much? What is the 
extent of actions that USGS can take this coming year to implement the 
Act? Based on this budget, will funding be available in FY'08 to begin 
the studies called for in the Act?
    Answer. In 2007, the USGS will continue funding for the U.S.-Mexico 
border environmental health initiative, now in its fourth year of 
operation, funded within the USGS Ground-Water Resources Program, but 
will not begin activities under the U.S.-Mexico Transboundary 
Assessment Act. The 2008 budget was formulated last fall, before 
passage of the Act, and does not include specific funding for the Act.
    Question 95a. Within the FY'08 budget for USGS's Hydrologic 
Research & Development Program, how much is allocated to: Developing 
improved computer models of the global climate system as described on 
page I-27 of the USGS green book? What activities are related to this 
effort?
    Answer. The USGS Water discipline has one project that is directly 
involved in global climate modeling ($0.3 million per year) and is 
conducted in collaboration with the National Oceanic and Atmospheric 
Administration Geophysical Fluid Dynamics Laboratory. Several other 
projects interact very closely with climate modelers, providing 
feedback from USGS data and analyses that help them improve the models. 
These additional projects are funded at about $1 million per year.
    Question 95b. Within the FY'08 budget for USGS's Hydrologic 
Research & Development Program, how much is allocated to: Evaluating 
and developing methods for estimating streamflow to assist in 
forecasting flood magnitudes as described on page I-28?
    Answer. The USGS Water discipline in total has budgeted about $1.1 
million in 2008 for evaluation and development of methods for 
estimating streamflow, through its National Research Program (NRP). The 
amount of Hydrologic Research and Development (HR&D) funding devoted to 
these efforts varies from year to year, depending on contributions to 
the NRP by the other USGS water programs. NRP scientists conduct 
research on complex hydrologic problems and develop techniques and 
methods to help advance the state of the science and assist other USGS 
programs in carrying out their missions, and the techniques and 
understanding developed by NRP scientists form the scientific basis for 
most hydrologic programs carried out by USGS across the Nation. The 
activities of the NRP are funded at about $30 million each year, with 
about 40 percent coming from Hydrologic Research and Development and 
the remainder coming from the other programs in the Hydrologic 
Monitoring, Networks, and Analysis subactivity.
    Question 95c. Within the FY'08 budget for USGS's Hydrologic 
Research & Development Program, how much is allocated to: Constructing 
models that integrate ground-water/surface-water interactions as 
described on page I-28?
    Answer. The USGS Water discipline in total has budgeted about $1.0 
million in 2008 for developing integrated ground-water/surface-water 
interaction models, through its National Research Program (NRP). The 
amount of Hydrologic Research and Development (HR&D) funding devoted to 
these efforts varies from year to year, depending on contributions to 
the NRP by the other USGS water programs. NRP scientists conduct 
research on complex hydrologic problems and develop techniques and 
methods to help advance the state of the science and assist other USGS 
programs in carrying out their missions, and the techniques and 
understanding developed by NRP scientists form the scientific basis for 
most hydrologic programs carried out by USGS across the Nation. The 
activities of the NRP are funded at about $30 million each year, with 
about 40 percent coming from Hydrologic Research and Development and 
the remainder coming from the other programs in the Hydrologic 
Monitoring, Networks, and Analysis subactivity.
Mariana Islands
    Question 96a. The Committee held an oversight hearing on the 
Mariana Islands last week and heard details of the developing fiscal 
and social crisis as the garment industry departs. It is likely that 
local revenue collections will drop substantially, 20-40 percent, over 
the next year or two, and possible that thousands of alien workers may 
be abandoned by their employers as the economy contracts.
    Can you assure the Committee that the Department is closely 
monitoring the situation and is prepared to lend assistance should it 
become necessary?
    Answer. As Deputy Assistant Secretary David Cohen stated in his 
testimony before the Committee on February 8, 2007, the Department is 
extremely concerned about the threat of economic collapse facing the 
CNMI. The simultaneous decline of the CNMI's only two major industries 
has caused government revenues to decline sharply, dropping 
approximately 25 percent from $221.2 million in 2004 to a projected 
$165.8 million for the current fiscal year. Continued declines of this 
magnitude would cast doubt on the CNMI government's ability to remain 
solvent and to provide even the most basic critical services to CNMI 
residents. DOI will continue to monitor the situation and to keep the 
Committee informed.
    Question 96b. Can you assure the Committee that the Marianas 
government has effective plans to respond to the revenue loss and to 
the need to repatriate abandoned or unneeded guest workers, and illegal 
aliens?
    Answer. At this time we are concerned that a more careful planning 
process for economic transition in the CNMI is needed. We are 
encouraging the CNMI government to develop plans for these 
contingencies, but more work needs to be done.

     Responses of the Department of the Interior to Questions From 
                            Senator Domenici

                           MINERAL ROYALTIES

    Question 97. The Department of the Interior estimates that New 
Mexico will receive $501 million in mineral royalties in FY2007 and 
$542 million in FY2008. In FY2006, New Mexico royalties were $573 
million.
    Do you solely attribute the projected New Mexico royalty decrease 
from FY2006 levels to oil and gas price decreases since FY2006? If not, 
what other factors have contributed to the decrease?
    Answer. The figures cited above are for actual and estimated 
mineral revenue payments to states. A number of factors, which include 
OMB's estimated forecast of oil and gas prices, may contribute to the 
total distribution a state receives in a given year. Fiscal year 
estimates for payments to states are based on revenue estimates for 
each source type, the appropriate distribution for each land category, 
and the amount of total mineral receipts disbursed to that state for 
the prior year. Mineral receipts are derived from royalties, rents, 
bonuses, and other revenues, including minimum royalties, late payment 
interest, settlement payments, gas storage fees, estimated royalty 
payments, and recoupments.

                             HEALTHY LANDS

    Question 98. Mr. Secretary, the President's Budget requests $22 
million for a new Healthy Lands initiative which would aim to protect 
wildlife where energy development is occurring.
    Will you require a non-federal cost share for the Healthy Lands 
initiative? If so, what will it be?
    Answer. A non-federal cost share is not required but strongly 
emphasized to achieve the desired effect of a landscape approach to 
include multiple jurisdictions within critical watersheds and 
ecosystems. BLM will leverage funding and matching efforts provided by 
other Federal agencies; State, local and tribal governments; 
philanthropic organizations; advocacy groups; and energy industry 
partners. All six geographic areas have several partners already 
engaged but are at different levels of contribution toward 
implementation of actions on the ground. In addition to the requested 
increase of $15 million in BLM funding for the Healthy Lands Initiative 
for FY 2008, the BLM will apply $8.2 million in existing base funds to 
this effort. Additionally, HLI includes $2 million for FWS activities 
and $5 million for USGS. All three agencies will work together to 
identify, restore, and protect significant habitat for the benefit of 
wildlife and energy activities and potentially prevent the listing of 
at-risk species.
    Question 99. Will you focus Healthy Lands' activities on areas 
where endangered or threatened species are located? If so, how does 
this program relate to the Threatened and Endangered Species program 
within BLM?
    Answer. The Healthy Lands Initiative's (HLI) primary focus is on 
sustaining and restoring watersheds and other crucial habitats that 
include a broad suite of species while assuring continued development 
and uses of our public lands. This proactive approach should help to 
avoid species being listed and may also impact habitats that contribute 
to the recovery of Threatened and Endangered (T&E) species. HLI will 
initially focus on six geographic areas where important habitat for key 
species interfaces with energy resources or other significant resource 
users, such as recreation. This landscape scale approach will emphasize 
cooperative conservation to maximize benefits to large swaths of 
Federal, State, and private lands.
    The Bureau's T&E Program emphasizes habitat restoration and 
maintenance that contributes to the recovery of species that are 
already listed under the Endangered Species Act. T&E Program funds are 
spent in those areas with high-priority listed species, and these areas 
do not necessarily overlap with the six geographic areas under HLI.
    Question 100. Please describe how you plan to use the $3.5 million 
allocated for New Mexico.
    Answer. In 2007, the BLM and partners continue to focus on 
vegetative treatment efforts, along with reclamation initiatives on key 
watersheds that have a long history of impacts, including drought, 
suppression of natural fires, historic grazing, invasion of weeds and 
exotic species, and 90 years of oil and gas development. Treatments 
include 62,391 acres of vegetation, 36 miles of riparian areas, and 
reclamation of 83 acres of historic abandoned or orphaned oil and gas 
well pads and roads within the Healthy Land Initiative emphasis area. 
In addition, the BLM and its partners are taking the landscape level 
approach to enhancing and sustaining healthy lands statewide. Targets 
for areas treated outside the wildlife/energy interface include nearly 
80,000 acres which are a combination of base budget and partnership 
funding.
    In 2008, BLM will enhance partnerships statewide, including the San 
Juan and Permian Basin emphasis areas. With existing funding of $2 
million and Healthy Lands Initiative funding of $3.5 million, the BLM 
anticipates being able to treat or improve habitat on approximately 
91,000 acres on BLM lands, 450 acres of non-BLM lands, and 30 miles of 
stream within the emphasis area. In addition, 266 acres of historic 
abandoned or orphaned oil and gas well pads that have no responsible 
party would be reclaimed. Targets for areas treated outside the 
wildlife/energy interface include nearly 150,000 acres, which are a 
combination of base budget and partnership funding. This is a 
significant increase over the proposed 2007 treatment using existing 
funds.

                               BLM LANDS

    Question 101. The President's Budget for FY2008 proposes to amend 
the Federal Land Transaction Facilitation Act to provide that revenues 
from BLM land sales would be used for BLM operations and that at least 
70 percent of the proceeds would be deposited in the Treasury.
    What effect will this legislation have on the ability of the BLM 
and other Federal land management agencies to purchase inholdings 
located in federally designated areas?
    Answer. The Administration's legislative proposal would amend the 
Federal Land Transaction Facilitation Act (FLTFA) by: 1) providing that 
the Act be applicable to Federal areas that were designated after the 
date of enactment of FLTFA and to public lands identified for disposal 
after the date of enactment of FLTFA; 2) allowing for a portion of the 
funds in the Federal Land Disposal Account to be used for the purchase 
of inholdings; 3) allowing a portion of funds in the Federal Land 
Disposal Account to be spent on conservation enhancement projects on 
Federal lands; and 4) ensuring that a majority of the funds in the 
Federal Land Disposal Account are expended within the State in which 
the funds were generated.
    Under the Administration's legislative proposal, up to 30 percent 
of the proceeds from the sale of lands identified for disposal under 
the Federal Land Policy and Management Act (whether identified before 
or after the enactment of FLTFA) could be used to purchase inholdings. 
Under current law, up to 100 percent of the proceeds from the sale of 
land identified for disposal prior to FLTFA, but none of the proceeds 
from the sale of lands identified for disposal after enactment of FLTFA 
would be available for this purpose.

                          OJITO WILDERNESS ACT

    Question 102. During the last session of Congress, the Ojito 
Wilderness Act (P.L. 109-94) was enacted.
    Please describe what steps you have taken to implement that law.
    Answer. Upon enactment of P.L. 109-94, nearly 11,000 acres were 
designated as wilderness. Since that time, the BLM in New Mexico has 
taken a number of steps to implement the legislation, including, 
installing signs identifying the new wilderness boundaries, developing 
public information, and maintaining field presence to provide visitor 
services and protect resources.
    In addition to the wilderness designation, P.L. 109-94 combined 
with P.L. 109-309 (the Ojito Technical Corrections Act) directs the 
Secretary to convey at fair market value approximately 11,436 acres to 
the Pueblo of Zia to be held in trust by the Secretary for the Pueblo 
of Zia. The BLM and BIA have been working cooperatively with the Pueblo 
as they develop their regulations to conclude that conveyance. A 
meeting is anticipated in April, 2007 between these parties to continue 
this process.

                    ONSHORE MINERAL LEASING REVENUES

    Question 103. The President's FY2008 budget proposes amending the 
Mineral Leasing Act to provide that two percent of the onshore mineral 
leasing revenues that currently go to the states instead be deposited 
in the Treasury. Mineral royalty revenues are a great source of income 
for my home state of New Mexico.
    If this proposal were enacted, do you believe that the affected 
states would be able to adequately address the impacts of mineral 
development within their borders?
    Answer. We defer to the States that receive funds under the Mineral 
Leasing Act for their perspective, and individual circumstances may 
vary. But it is worth pointing out that mineral revenue payments to 
states have increased substantially in recent years. Presumably, this 
means that states with significant new mineral development also have 
significant new resources to address the impacts from that development. 
The proposed reduction in payments would be a small fraction of the 
total mineral revenue payments. This proposal recognizes the principle 
that states receiving significant benefits from Federal mineral 
development should also share in the costs of permitting that 
development.
    Question 104. Have you discussed this proposal with states that 
currently receive onshore royalties? And if so, what responses have you 
received?
    Answer. We have not had discussions with States regarding the Net 
Receipts Sharing proposal.

                 ARCTIC NATIONAL WILDLIFE REFUGE (ANWR)

    Question 105. Mr. Secretary, the President's budget proposes 
legislation to open Section 1002 of ANWR up to energy exploration and 
development. The proposal assumes that the first lease sale in 2009 
would generate $7 billion and a total of $8 billion would be generated 
through 2012.
    Please explain how you calculated the $8 billion figure. What 
budget assumptions were made in estimating this amount?
    Answer. The estimate in the Budget was made by 1) analyzing geology 
and geophysical information to determine geology parameters; 2) 
conducting an engineering analysis of the exploration, development, 
production, and reclamation phases for the potential range of sources; 
and 3) running an economic analysis of 1) and 2) under projected market 
conditions.
    The most recent USGS estimates state that:

  <bullet> There is a 95 percent probability that at least 5.7 billion 
        barrels of technically recoverable undiscovered oil are in the 
        Alaska National Wildlife Refuge (ANWR) coastal plain,
  <bullet> There is a 5 percent probability that at least 16 billion 
        barrels of technically recoverable undiscovered oil are in the 
        ANWR coastal plain, and
  <bullet> the mean or expected value is 10.36 billion barrels of 
        technically recoverable undiscovered oil in the ANWR coastal 
        plain.

    The primary area of the coastal plain is the 1002 Area of ANWR, 
which was established when ANWR was created. Also included in the 
Coastal Plain are State lands to the 3-mile offshore limit and Native 
Inupiat land near the village of Kaktovik.
    The unique combination of source rocks and reservoir traps is 
similar to the geologic combination of events that caused the 
productive reservoirs to the west including the Prudhoe Bay Field. 
Therefore, similar results are anticipated. However, the geologic 
interpretation has changed since BLM estimated ANWR leasing revenues in 
1992. At that time most of the oil was expected in several large 
structures. Now USGS expects that these structures are more likely gas 
and that most of the oil will be found in stratigraphic traps over a 
large area. The uncertainty of the location of these traps is an added 
risk that affects the bidding of the oil companies. We have been able 
to model the impact on bidding using comparable sales from NPRA and 
price expectations from the Department of Energy's Energy Information 
Administration's (DOE/EIA) Annual Energy Outlook.
    We estimate that first production will not occur until after at 
least 10 years from Congressional approval to open ANWR to leasing. 
This includes all regulatory actions necessary to conduct the first 
sale, exploration sufficient to proceed with development, and the 
concurrent field development, facilities construction, and pipeline 
design, approval, and construction. Thus production will not occur 
until after 2016.
    DOE/EIA has published the Reference Case for the AEO 2006. They 
also provided BLM with sufficient information to conduct the revenue 
estimate analysis with price scenarios consistent with the high and low 
oil prices in the thus far unpublished cases from the AEO 2006.
Assumptions
    The estimate of receipts and funding requirements is based on the 
following assumptions:

  <bullet> Legislation authorizing ANWR development would be enacted in 
        time to allow a sale in FY2009.
  <bullet> Regulations would be completed in FY2008.
  <bullet> The Final Legislative EIS on the 1002 area dated April 1987 
        would satisfy the requirements of NEPA with respect to pre-
        lease activities.
  <bullet> The EIS and related planning document would be final in 
        FY2008 with sufficient time for the sale in FY2009 (18 months 
        after enactment).
  <bullet> The BLM would serve as lead for the EIS in active 
        consultation and cooperation with FWS. BLM would have 
        responsibility for the sub-surface minerals resource input and 
        analysis with assistance from USGS.
  <bullet> Two lease sales would be conducted before October 1, 2011.
  <bullet> The estimates for bonus bids are based on expected values 
        given the best information we have on geologic probability 
        curves and risks, as well as probability functions for costs 
        and prices.
  <bullet> The geologic inputs were based on the joint analysis by 
        staff experts of the USGS and BLM regarding oil potential and 
        probabilities using the most recent USGS estimates of the oil 
        and gas resources of the 1002 area of ANWR (Arctic National 
        Wildlife Refuge, 1002 Area, Petroleum Assessment, 1998, 
        Including Economic Analysis U.S. Geol. Open File Report 98-34, 
        1999) and the various updates including Undiscovered oil 
        resources in the Federal portion of the 1002 area of the Arctic 
        National Wildlife Refuge: an economic update U.S. Geol. Survey 
        Report 2005-1217.
  <bullet> Economic inputs regarding oil pricing were based on the EIA 
        2006 Annual Energy Outlook.
  <bullet> Production will not occur until at least the tenth year 
        after the first lease sale. Does not include production or 
        revenues from State or Native lands.
  <bullet> The top tracts will go first so that the best prospects are 
        sold in the first sale, and most of the remainder in the 
        second.
  <bullet> Final adjustments were made based on bidding patterns in 
        nearby north slope oil and gas lease sales.

    The model assumes a 50/50 split of revenues with the State of 
Alaska, a royalty rate of 12.5%, and that almost all tracts would be 
available for nomination in each sale. The model used for the analysis 
was a Monte Carlo Discounted Cash Flow model. With these 
considerations, the model results in total bonus bid estimates of $7.0 
billion for a 2009 lease sale, and $1.0 billion from a second lease 
sale in 2011, for a total of $8.0 billion. There are 35 mapped 
structural prospects. Each prospect is run 1,000 times in the Monte 
Carlo model, with the condition that hydrocarbons exist, considering a 
number of differing factors. Similarly, the same is done for the one 
large stratigraphic play that covers approximately the northwestern 
third of the 1002 area. As a result, the specific infrastructure and 
transportation assumptions change thousands of times based on the 
running of the model.
    Question 106. Please explain your proposal for completing the 
environmental requirements necessary to allow for an ANWR lease sale in 
2009.
    Answer. All of the assumptions made regarding a lease sale in 2009 
contemplate that legislation authorizing ANWR development would be 
enacted sometime in 2007. With that in mind, BLM estimates that 
regulations would be completed during FY 2008. The Final Legislative 
Environmental Impact Statement on the 1002 area, dated April 1987, 
would satisfy the requirements of the National Environmental Policy Act 
with respect to pre-lease activities. Based on past experience, BLM 
estimates that the Environmental Impact Statement and related planning 
document would be finalized in FY 2008, approximately 18 months after 
enactment, thus allowing sufficient time for the sale in FY 2009.

               NATIONAL PETROLEUM RESERVE-ALASKA (NPR-A)

    Question 107. A lease sale was undertaken for oil and gas 
production in the NPR-A.
    When do you anticipate the vast oil and gas resources contained in 
NPR-A will be brought into production?
    Answer. The Department expects the first significant commercial oil 
production from the NPR-A in 2010.

                        BLM--HARD ROCK MINERALS

    Question 108. The budget proposes a $2 million increase above the 
FY 2006 level of $32.7 million for Mining Law Administration. The 
increase is expected to be offset by the annual mining claim 
maintenance fee.
    I see a sizable increase in revenues expected from the annual 
mining claim maintenance fee to pay for a $2 million increase in the 
Mining Law Administration program.
    What activities are causing the increase in the maintenance fee?
    Answer. It is a statutory requirement [30 U.S.C. Chapter 2, section 
28(j)] that every five years the mining claim maintenance fee and 
location fee be adjusted to reflect changes in the Consumer Price 
Index. On September 1, 2004, the maintenance fee was increased to $125 
per claim and the location fee to $30 per claim, in accordance with the 
July 1, 2004 Department rulemaking. Total maintenance fee revenues are 
also increasing because of the increase in the number of claims filed 
due to the sustained high commodity price.
    Question 109. Does the Bureau of Land Management have sufficient 
personnel to meet the increase in mining claims and activity?
    Answer. The FY 2008 Budget request includes a requested increase of 
$2 million for the Mining Law Program. These funds are proposed to be 
used to hire additional staff to more effectively manage the program.
    Question 110. I am told that there has been a considerable increase 
in mining activity in relation to uranium. Is the current moratorium on 
new mining patents likely to negatively impact the uranium supplies 
that could be needed as our nuclear industry comes back on line?
    Answer. No. Development of locatable mineral deposits on public 
land does not require the mining claimant/operator to apply for or 
receive a patent to the land. The mining claimant/operator is required 
to obtain the proper authorization (in accordance with 43 CFR 3809) and 
provide an acceptable financial guarantee to BLM before commencing 
operations.

         PROCESSING OF APPLICATIONS FOR PERMIT TO DRILL (APDS)

    Question 111. As a result of the Energy Policy Act of 2005, there 
has been a significant increase in the number of APDs submitted and 
processed.
    How many APDs do you estimate will be submitted and processed in 
FY2008 and how does this compare to years past?
    Answer. The table below shows the number of APDs submitted and 
processed nationwide, going back to 1996. The data for FY 2007 and FY 
2008 are estimates.

                    APDS RECEIVED DURING FISCAL YEAR
------------------------------------------------------------------------
                     Fiscal Year                           Nationwide
------------------------------------------------------------------------
1996.................................................              1,409
1997.................................................              2,645
1998.................................................              3,144
1999.................................................              4,505
2000.................................................              3,977
2001.................................................              4,819
2002.................................................              4,585
2003.................................................              5,063
2004.................................................              6,979
2005.................................................              8,351
2006.................................................             10,492
2007.................................................             11,500
2008.................................................             12,500
------------------------------------------------------------------------


                 TOTAL APDS PROCESSED DURING FISCAL YEAR
------------------------------------------------------------------------
                     Fiscal Year                           Nationwide
------------------------------------------------------------------------
1996.................................................              1,169
1997.................................................              2,163
1998.................................................              2,637
1999.................................................              2,306
2000.................................................              3,892
2001.................................................              4,266
2002.................................................              5,830
2003.................................................              5,143
2004.................................................              7,351
2005.................................................              7,736
2006.................................................              8,854
2007.................................................             10,555
2008.................................................             11,984
------------------------------------------------------------------------

    Question 12. How many new APDs do you estimate will be submitted 
and processed in New Mexico in FY2008 and how does this compare to 
years past?
    Answer. The following tables show APDs received and processed in 
New Mexico, by Fiscal Year, back to Fiscal Year 1996. The data for 2007 
and 2008 are estimates.

                    APDS RECEIVED DURING FISCAL YEAR
------------------------------------------------------------------------
                     Fiscal Year                           New Mexico
------------------------------------------------------------------------
1996.................................................                745
1997.................................................                926
1998.................................................              1,034
1999.................................................                832
2000.................................................              1,280
2001.................................................              1,351
2002.................................................              1,087
2003.................................................              1,385
2004.................................................              1,668
2005.................................................              1,619
2006.................................................              1,843
2007.................................................              2,332
2008.................................................              2,535
------------------------------------------------------------------------


                 TOTAL APDS PROCESSED DURING FISCAL YEAR
------------------------------------------------------------------------
                     Fiscal Year                           New Mexico
------------------------------------------------------------------------
1996.................................................                583
1997.................................................                740
1998.................................................                821
1999.................................................                907
2000.................................................              1,056
2001.................................................              1,240
2002.................................................              1,373
2003.................................................              1,590
2004.................................................              1,657
2005.................................................              1,570
2006.................................................              1,995
2007.................................................              2,300
2008.................................................              2,611
------------------------------------------------------------------------

                             INDIAN ENERGY

    Question 113. Mr. Secretary, there are vast untapped energy 
resources on American Indian lands. The USGS estimates that there are 
approximately 5.3 billion barrels of oil, 37.9 trillion cubic feet of 
natural gas, and 53.7 billion tons of coal on American Indian land. 
Title V of the Energy Policy Act of 2005 directs the Secretary of the 
Interior to undertake several activities to help the Indian nations 
develop these resources.
    Please describe your progress in implementing Title V of the Energy 
Policy Act of 2005.
    Answer. The Department of the Interior has made significant 
progress in responding to the provisions of Title V of the Energy 
Policy Act of 2005. We have established an Indian energy resource 
development program to assist consenting Indian tribes and tribal 
energy resource development organizations under the auspices of the 
Office of Indian Energy and Economic Development (IEED) which is the 
responsibility of the Assistant Secretary for Indian Affairs.
    The IEED is currently creating a grant program that will provide 
development grants to Indian tribes and tribal energy resource 
development organizations for use in developing or obtaining the 
managerial and technical capacity needed to develop energy resources on 
Indian land, and to properly account for resulting energy production 
and revenues.
    The IEED is continuing to mange the existing energy and mineral 
development program that provide grants to Indian tribes and tribal 
energy resource development organizations for use in carrying out 
projects to promote the integration of energy resources, and to 
process, use, or develop those energy resources, on Indian land.
    The IEED is continuing to manage the existing Loan Guaranty and 
Interest Insurance and Subsidy program which provides low-interest 
loans to Indian tribes and tribal energy resource development 
organizations for use in the promotion of energy resource development 
on Indian land and integration of energy resources.
    In addition the Department published proposed regulations in August 
2005 that would implement the provisions of Title V that authorized the 
Department to enter into Tribal Energy Resource Agreements with tribes 
that would give them greater flexibility in managing a wider spectrum 
of energy development activities. The Department is considering the 
comments received from stakeholders on the proposed regulations and 
hopes to have final regulations published in the near future.
    Question 114. Is the $11.7 million proposed for BIA Indian energy 
programs adequate to carry out the DOI's responsibilities under Title V 
of the Energy Policy Act of 2005?
    Answer. The $11.7 million identified in the President's proposed FY 
2008 budget for minerals and mining reflects all of the funds requested 
to manage the minerals and mining programs and not only Title V 
initiatives. The funds are used to support various minerals and mining 
functions such as review of Indian Mineral Development Act agreements, 
regional office and agency office oversight, some realty functions, and 
oversight of inspection and enforcement. These funds will allow the 
Department to develop a program allowing tribes to initiate activities 
authorized under Title V of the Energy Policy Act of 2005.
    Question 115. When do you anticipate you will complete the Indian 
land rights-of-way report as required by Section 1813 of the Energy 
Policy Act of 2005?
    Answer. The Department of the Interior has worked collaboratively 
with the Department of Energy since passage of the Energy Policy Act of 
2005 to gather information, conduct analysis and develop 
recommendations for Congress to consider in regards to the issues it 
raised in Section 1813. A key element of the process has been the very 
extensive stakeholder consultations that the Departments conducted as 
we prepared the final report. The Departments published a second draft 
report in December 2006 and gave stakeholders until February 5, 2007 to 
comment on the reports contents and recommendations. The Departments 
have finished consideration of stakeholder comments and suggestions and 
the draft final report is now undergoing Administration review. We 
anticipate transmitting the final report to Congress soon.

                    PAYMENTS IN LIEU OF TAXES (PILT)

    Question 116. Mr. Secretary, given that the Department of the 
Interior controls one of five acres here in the United States, and 
those federal lands have such a importance to counties where they are 
located, I need to better understand why the Department is proposing to 
reduce funding for the PILT program from the $236 million Congress 
appropriated in FY 2006 down to the $190 million requested in FY 2008.
    Can you tell me why the Administration is unwilling to meet our 
commitments to the rural counties where most of the Department's lands 
are located?
    Answer. The 2008 budget proposes $190 million for the Payments in 
Lieu of Taxes program. Although this is below the 2006 record high 
level, it is above historical funding levels. In FY 2000, PILT was 
funded at just under $134 million. As part of the President's effort to 
constrain spending and reduce the budget deficit while funding key 
Departmental priorities, the 2008 budget for the Department makes 
difficult choices, and this was one of them.
    Question 117. Mr. Secretary, I am interested in analysis related to 
the Administration's proposed 18% cut to PILT and the cut and phase out 
of Forest County Safety Net. The elimination of these programs, or 
severe reduction in these programs, could have an impact on local 
governments who have been receiving these payments. I also know that 
many of these counties have receive payments to help them transition to 
the new economic reality of reduced timber harvesting for quite some 
time. Would you have your staff produce the three sets of data I 
describe in the questions below?
    If the federal lands were privately held and managed as they are 
under current federal management plans, how much local tax revenue 
would generate?
    I believe an analysis similar to this was undertaken by several 
Forest Service researchers and published in the Journal of Forestry in 
the middle 1990's. Could you have your staff update that study for both 
the Forest Service and Department of the Interior agencies and get that 
to us?
    Answer. The analysis that was completed at that time involved the 
collection and analysis of a significant amount of data, and updating 
the analysis would be complicated. The Department will assess the 
feasibility and cost of updating this study and whether the potential 
benefits of doing so might justify the cost.
    Question 118. I am interested in knowing what the level of economic 
activity (direct and indirect jobs and economic activity) was being 
generated on federal lands in 1990. Compare that to what has been 
produced in recent years, for example, 2004, or 2005, or 2006. Compare 
that to the annual total of PILT and Forest Service 25% Payments and 
BLM O&C Payments that counties received. A total number by State will 
suffice.
    Answer. BLM makes O&C payments only in the state of Oregon.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Economic Activity-1990 (Receipts from O&C and CBWR Grant    $215,258,097
 Lands).................................................
Economic Activity-2006 (Receipts from O&C and CBWR Grant      29,593,251
 Lands).................................................
PILT-1990...............................................       2,925,062
PILT-2006...............................................       6,595,478
O&C County Payments-1990................................     104,057,572
O&C County Payments-2006................................     117,105,152
------------------------------------------------------------------------

    With regard to the level of economic activity generated on federal 
lands, the BLM does not have such data and compiling such data would be 
complicated.
    Question 119. Would you have your staff provide us with a list of 
the counties that received payments above and beyond those that would 
have been produced from the actual BLM O&C 50% Payment revenues and the 
Forest Service 25% Payment revenues from 1990 through 2006?
    Answer. All of BLM's 18 O&C Counties received payments above and 
beyond those that would have been produced from actual payments, and 
these O&C Counties are: Benton, Clackamas, Columbia, Coos, Curry, 
Douglas, Jackson, Josephine, Klamath, Lane, Lincoln, Linn, Marion, 
Multnomah, Polk, Tillamook, Washington, and Yamhill. Coos County and 
Douglas County also contain Coos Bay Wagon Road (CBWR) grant lands.
    Question 120. Please provide a county by county list of the amount 
each county received in total Forest Service and BLM Owl Guarantee 
Payments and P.L. 106-393 Payments from 1990 to 2006. I also would like 
to know what they would have received in the absence of those laws for 
each year from 1990 through 2006. I want this for any county that was 
or is qualified to receive either Forest Service payments under the Act 
of 1908, and or Bureau of Land Management Oregon and California and 
Coos Bay Wagon Road payments resulting from the O&C Act of 1937 (as 
amended). Please also include a column in the data that shows the 
difference between what would have been received under the old laws and 
what was received as a result of the Owl Guarantee Payments and P.L. 
106-393 laws. Finally, please total those figures for each county over 
the years they received these extra congressionally-mandated payments.
    Answer. See attachment labeled ``Question 120,'' which contains 
files titled ``Annual Payments to Counties From O&C Lands fiscal years 
1990 through 2006'', and ``Annual Payments to Counties from CBWR Lands 
fiscal years 1990 through 2006.''

                      ONSHORE MINERAL DEVELOPMENT

    Question 121. I am disappointed that the President's FY 2008 Budget 
proposes to repeal several provisions of Section 365 of the Energy 
Policy Act of 2005. The proposal provides that mineral leasing rentals 
that currently fund the Permit Pilot Offices would be deposited in the 
General Fund. Under the President's proposal, the Pilot Offices would 
be funded with Application for Permit to Drill (APD) processing fees.
    Do you believe that seeking fees for APDs, in addition to rentals, 
would discourage domestic production of oil and gas? If not, why?
    Answer. The number of APDs has risen steadily over the past ten 
years. We expect that trend would continue even if BLM began recovering 
it costs from industry to process the applications.
    Question 122. Has DOI recovered fees for processing APDs in the 
past?
    Answer. No. However, the Federal government has utilized cost 
recovery authority to require identifiable users, rather than the 
general taxpayer, to pay for costs incurred by the Federal government 
on their behalf. This includes cost recovery fees in the energy and 
minerals programs that were proposed in response to a recommendation by 
an Inspector General Report that BLM collect fees for processing 
minerals-related documents whenever possible.
    Question 123. Under this proposal, how would you calculate the 
amount charged for each APD?
    Answer. BLM's 2005 proposed rule (65 FR 78440) to increase fees and 
impose new fees to cover the cost of processing a variety of mineral-
related documents included consideration of an APD fee. Because the BLM 
determined that a reasonably accurate estimate of the average 
processing cost could be ascertained for APDs, the proposed rule 
provided a phase-in schedule for a fixed fee rather than assessing APD 
fees on a case-by-case basis.
    Question 124. Do you believe that additional Pilot Offices are 
needed? If so, where?
    Answer. We have not proposed additional Pilot Offices at this time. 
However, the President's budget retains 2007 increases for domestic 
energy programs, plus an additional $3.1 million to address inspection 
and environmental issues associated with energy development. These 
funds will be used to perform an additional 1,560 inspections to 
monitor the effectiveness of oil and gas lease stipulations at 272 
locations. The full impact of this additional funding will not be seen 
for at least one year because of the time necessary to fully certify 
newly-hired inspectors. Of the total additional inspection capacity 
funded with the request, BLM will perform 510 additional inspections in 
2008.
    Question 125. Are the Pilot Offices in need of additional staff? If 
so, which offices and what staff are needed? How do you propose the 
additional staff would be paid for?
    Answer. In FY 2006, BLM authorized a total of 125 new positions, 
and total cost s to BLM, including associated support services and 
contractor labor were $13,175,000. BLM has approved 162 total positions 
for FY 2007. No additional positions for the pilot offices have been 
authorized for FY 2008 at this time. Thirty-three positions were 
dedicated full time to inspection and enforcement in FY 2006, with an 
increase to a total of fifty inspection and enforcement positions for 
FY 2007. BLM is regularly reviewing staffing requirements at the pilot 
offices and is making adjustments based on these reviews. The Pilot 
Office inspection and enforcement positions authorized for FY 2006 and 
FY 2007 are listed below, by office and job function.

------------------------------------------------------------------------
                  Office                            Job Function
------------------------------------------------------------------------
Glenwood Springs, CO:
    FY 2006...............................  3 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician
    FY 2007...............................  1 Petroleum Engineering
                                             Technician
Miles City, MT:
    FY 2006...............................  2 Petroleum Engineering
                                             Technicians, 1 Natural
                                             Resource Specialist
Farmington, NM:
    FY 2006...............................  4 Petroleum Engineering
                                             Technicians, 2 Production
                                             Accountability Technicians
Carlsbad, NM:
    FY 2006...............................  4 Petroleum Engineering
                                             Technicians, 2 Production
                                             Accountability Technicians
    FY 2007...............................  4 Petroleum Engineering
                                             Technicians, 2
                                             Environmental Protection
                                             Specialists
Vernal, UT:
    FY 2006...............................  3 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician
    FY 2007...............................  4 Petroleum Engineering
                                             Technicians
Buffalo, WY:
    FY 2006...............................  2 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician,
                                             2 Surface Compliance
                                             Technicians
    FY 2007...............................  3 Surface Compliance
                                             Technicians, 1 Natural
                                             Resource Specialist
Rawlins, WY:
    FY 2006...............................  3 Petroleum Engineering
                                             Technicians, 1 Production
                                             Accountability Technician,
                                             1 Surface Compliance
                                             Technician
    FY 2007...............................  2 Petroleum Engineering
                                             Technicians
------------------------------------------------------------------------

                   BLM ENERGY AND MINERALS MANAGEMENT

    Question 126. I was pleased to see that the President's budget for 
the BLM includes $141 million for energy and minerals management. This 
is a $33 million (31%) increase from the FY2006 enacted level.
    Do you believe that this amount is sufficient to keep up with the 
increase in energy production on public lands that has resulted from 
the enactment of the Energy Policy Act of 2005?
    Answer. Contributing to domestic energy by implementing the 
President's National Energy policy is one of the BLM's highest 
priorities, and we believe the President's FY 2008 Budget supports this 
effort. The President's budget retains 2007 increases for domestic 
energy programs, plus an additional $3.1 million to address inspection 
and environmental issues associated with energy development.
    Question 127. Do you believe that the proposed increase of $3.1 
million for inspection and enforcement is adequate to keep up with the 
increase in APDs granted since the enactment of the Energy Policy Act 
of 2005?
    Answer. The President's budget retains 2007 increases for domestic 
energy programs, plus an additional $3.1 million to address inspection 
and environmental issues associated with energy development. These 
funds will be used to perform an additional 1,560 inspections to 
monitor the effectiveness of oil and gas lease stipulations at 272 
locations. The full impact of this additional funding will not be seen 
for at least one year because of the time necessary to fully certify 
newly-hired inspectors. Of the total additional inspection capacity 
funded with the request, BLM will perform 510 additional inspections in 
2008.

                     RURAL FIRE ASSISTANCE PROGRAM

    Question 128. The President's budget again proposes eliminating the 
Rural Fire Assistance Program. Rural fire departments are often the 
first line of defense.
    Please describe your rationale for eliminating this program. What 
affect will this have on rural fire departments' budgets and their 
ability to respond to fires?
    Answer. Although this was a highly successful program, it had 
achieved the primary goal of updating the equipment and prevention 
programs in rural fire departments across the country. We are now 
turning our focus toward the Ready Reserve program, which provides 
training to rural departments in order to enhance their capability in 
responding to wildland fires. More than $1.8 million was allocated to 
the Ready Reserve program in 2006. Because the money was allocated late 
in the year, beyond the annual training window, approximately $1.2 
million was carried over to this year and will be used for training 
rural fire department personnel this coming spring.

                        WILDLAND FIRE MANAGEMENT

    Question 129. The Committee recently held a hearing on wildfire 
cost containment. At that hearing, a DOI representative testified that 
the DOI, in collaboration with the Forest Service, was working to 
implement several cost containment measures.
    What progress have you made in implementing these measures and when 
do you anticipate that the implementation will be completed?
    Answer. The Department is currently working with the Forest Service 
to develop options to control suppression costs, although the specifics 
are not available at this time. We look forward to working with the 
committee in the development of these cost control measures. In the 
interim, the agencies are taking several steps to contain costs.
    In the last six years, many reviews focused on cost containment 
have been conducted by the agencies and external organizations. As a 
result of these reviews, more than 300 recommendations have been 
documented to assist both Departments in trimming the costs associated 
with wildland fire. Many of them have been adopted, or are being 
considered, by the fire agencies. For example, incident business 
advisors have been trained and assigned to help contain costs on large 
fires. Procurement analysts have been assigned to systematically assess 
alternative sources of supplies for equipment and services. Working 
closely with the National Association of State Foresters and the 
International Association of Fire Chiefs, more Type 3 teams have been 
formed and trained, allowing local resources to manage suppression 
efforts, which helps to lower costs. These are just a few of the many 
steps that the Departments have taken to control costs.
    The tremendous growth in the wildland urban interface (WUI) 
continues to challenge fire agencies on all levels. WUI fires are 
generally more complex and costly to suppress because of the presence 
of people and homes. The Departments have responded in many ways to 
alleviate this challenge. For instance, reducing the build-up of 
biomass in WUIs has been a priority. The 2006 fire season was long and 
arduous. During that year, more than half of the 2.9 million acres 
treated were in WUIs. Also, the agencies are emphasizing ``Appropriate 
Management Response,'' which is a risk-informed, performance-based 
strategy that will reduce costs by increasing flexibility in wildland 
fire decisions.
    Among the firefighting agencies, we are continually assessing which 
actions and efforts will bring about the greatest return in the 
shortest time, all the while recognizing that protection of life and 
property are our highest priorities.
    Question 130. To what extent can you work with other agencies to 
ensure that fire management activities are undertaken at the greatest 
value to the taxpayer?
    Answer. Over the past 20 years, the Federal agencies have developed 
strong relationships with each other and with State and local 
cooperators in wildland fire suppression. The assistance by cooperators 
on Federal fires has grown, as well as cooperative efforts to suppress 
fires that cross ownership boundaries. Over time, the need to maximize 
efficiency and effectiveness has required the sharing of resources to 
fight these multi-jurisdictional fires across the landscape. The 
sharing of responsibilities, resources, and costs is often determined 
through cooperative agreements among the affected entities. Local units 
develop individual cost-sharing agreements for each large fire under 
the umbrella of a master cooperative agreement, with the State. We 
recognize the need to review existing master cooperative agreements 
with our State partners and ensure consistency with the 2001 update to 
the Federal Wildland Fire Management Policy. Toward this end, the 
Departments are working with the States on an interagency master 
cooperative agreement template to improve cost-share methods and 
provide greater consistency across the country. As mentioned 
previously, DOI is currently working with the Forest Service to develop 
further measures to control suppression costs.

                    UNITED STATES GEOLOGICAL SURVEY

    Question 131. Mr. Secretary, the President's FY2008 budget requests 
$22.9 million for the Mineral Resources Program. This is a decrease of 
43 percent from the FY2006 enacted level. As you are aware, the DOI and 
non-federal entities rely heavily on the information that is provided 
by this Program.
    Do you believe that the significant funding decrease for the 
Mineral Resource Program will impair our ability to fully understand 
the nature and extent of the mineral resources managed by the DOI?
    Answer. The budget focuses USGS on those areas of the Mineral 
Resources Program that are most critical to Federal, including DOI, 
needs. Despite reductions, the USGS will maintain overall program 
effectiveness to the extent possible.

                          UNCONVENTIONAL FUELS

    Question 132. The Department of Energy estimates that technically 
recoverable oil shale in the United States is roughly equivalent to 
three times Saudi Arabia's oil reserves. Section 369 of the Energy 
Policy Act of 2005 directs the Secretary of the Interior to undertake 
several actions in order to promote the development of unconventional 
resources. I am very pleased that you included $4.4 million for ongoing 
oil shale activities. This is an increase of $1 million from the FY2007 
request.
    Please explain to the Committee your progress in completing the 
programmatic EIS for the commercial leasing of oil shale and tar sands.
    Answer. The BLM completed data collection in November 2006 and is 
currently working on all aspects of the programmatic environmental 
impact statement (PEIS) analysis. We anticipate release of the PEIS in 
July 2007, a preliminary final PEIS in January 2008, and a Record of 
Decision in June of 2008.
    Question 133. When do you anticipate you will complete the 
regulations for a commercial oil shale and tar sands leasing program?
    Answer. On August 25, 2006, the BLM published an Advanced Notice of 
Proposed Rulemaking (ANPR) requesting comments on 5 items to be 
considered in developing regulations for oil shale commercial leasing. 
The comments are being considered as the BLM drafts regulations on oil 
shale commercial leasing. The BLM currently anticipates publishing a 
proposed rule in the Federal Register in September 2007.
    Question 134. What steps are you taking to ensure that the concerns 
of those communities that may be affected by a commercial leasing 
program are addressed?
    Answer. The BLM is collaborating closely with state and local 
governments in Colorado, Wyoming and Utah to ensure that their 
interests and concerns are addressed as efforts to develop federal oil 
shale resources continue. Fourteen state and local government agencies 
are participating as cooperating agencies during development of the 
programmatic environmental impact statement and have signed memoranda 
of understanding toward this end. The BLM also held a listening session 
with state representatives from Utah, Colorado, and Wyoming to hear and 
capture their concerns related to the regulatory initiative. We plan to 
have at least one more listening session prior to proposing the oil 
shale leasing regulations.
    Question 135. What do you believe is the greatest impediment to the 
commercial development of unconventional fuels?
    Answer. In general, the key question is whether oil shale and gas 
hydrates can eventually be produced economically, as determined by the 
producers. Many factors affect the commercial viability of 
unconventional fuels; BLM's role is making the resource available, 
where appropriate, through leasing while ensuring appropriate 
environmental safeguards. The BLM is moving forward on efforts to 
support the commercial development of these fuels with particular focus 
on oil shale and gas hydrates. We recognize the enormous potential of 
oil shale resources in the United States. Oil shale resources underlie 
a total area of 16,000 square miles, the largest known concentration of 
oil shale in the world, and hold 1.5 to 1.8 trillion barrels of oil 
equivalent in place within the Green River Formation (includes Utah, 
Colorado, and Wyoming), 800 billion of which are estimated to be 
technically recoverable. With the recent spikes in oil prices, there 
has been renewed interest among some companies to find a way to 
economically produce oil from shale. The BLM is currently preparing a 
Programmatic EIS which will analyze issues associated with commercial 
oil shale and tar sands leasing on Federal land. Draft regulations for 
oil shale leasing are expected to be published in 2007.
    Working with other federal agencies and industry, BLM also is 
supporting natural gas hydrate assessments on lands within Alaska's 
Arctic North Slope. The objective of the work is to better define 
hydrate resources, to understand the factors which affect their 
producibility and to identify environmental hazards that may be 
generated by the production of hydrates so that BLM can ensure proper 
management of any potential future production on Federal lands.
    Question 136. What can we learn from the Canada in their 
development of tar sands?
    Answer. The tar sands found in Alberta, Canada are not comparable 
to the tar sands found in Utah because they are geologically different 
deposits with different characteristics, requiring different 
technologies for development.

              GILA RIVER SETTLEMENT BIOLOGICAL ASSESSMENT

    Question 137. The 2004 Arizona Water Rights Settlement specified 
conditions under which New Mexico could develop a water project on the 
Upper Gila River. To meet the requirements of that agreement, the New 
Mexico Interstate Stream Commission has undertaken an environmental 
assessment effort. In 2005, the Bureau of Reclamation committed to 
fully participate and financially support these assessments in the 
Upper Gila River.
    Please explain why USBR funds for participating in this process are 
not included in the FY2008 budget.
    Answer. Reclamation's FY 2008 budget request does include $250,000 
within the Colorado River Basin Project-Central Arizona Project item to 
continue collecting and evaluating necessary preliminary environmental 
data to assist New Mexico in deciding whether to build a New Mexico 
Unit. Current efforts focus on New Mexico's collaborative process to 
assist the Fish and Wildlife Service (FWS) in producing a preliminary 
report under the Fish and Wildlife Coordination Act by 2009, addressing 
the effects of potential allowable water withdrawals from the Gila 
River system.
    Question 138. How do you respond to the claim that the USBR and 
Fish and Wildlife have been less than cooperative in participating in 
the development of an environmental assessment?
    Answer. Reclamation and the Fish and Wildlife Service are active 
participants in the State of New Mexico's decision-making process and 
have been since the Arizona Water Rights Settlement Act was passed. 
Both Reclamation and FWS signed a Memorandum of Understanding with the 
New Mexico Interstate Stream Commission, the Southwest New Mexico Water 
Planning Group, and the New Mexico Office of the Governor in March 2006 
creating the Gila-San Francisco Coordinating Committee (GSFCC) to 
collaboratively evaluate the environmental effects of potential water 
withdrawals. Both Reclamation and FWS are members of the GSFCC, and 
Reclamation is one of the co-chairs of the Technical Subcommittee, a 
member of the Public Involvement Subcommittee, a member of Sandia 
National Laboratories decision-making model development team to assist 
in regional planning efforts, and an active participant in other 
collaborative efforts including the Gila Science Forums. The FWS has 
assigned three staff people from the New Mexico Ecological Service 
Office (NMESFO) to participate in the process and participate in all of 
the committees and in the Gila Science Forums. A formal environmental 
assessment under NEPA and other environmental compliance activities 
including those under the Endangered Species Act will be performed when 
specific project alternatives are proposed. Based on New Mexico's 
process for finalizing their decision to the Secretary by 2014, we 
anticipate the evaluation of alternatives and associated environmental 
compliance activities to begin in approximately 2010.
    Question 139. How do you plan to improve the Department's 
participation in the development of an environmental assessment?
    Answer. Reclamation is identified as the lead agency for 
environmental compliance with New Mexico as joint lead if they so 
request. In this role, Reclamation will continue to actively 
participate in all activities associated with the New Mexico Unit of 
the Central Arizona Project under the terms of the AWSA, and with the 
GSFCC as New Mexico works through the collaborative decision-making 
process to determine the viability of a New Mexico Unit and other water 
utilization alternatives to meet water supply demands in the Southwest 
Water Planning Region of New Mexico. FWS support of Reclamation's 
environmental compliance activities is a key element in successfully 
fulfilling Reclamation's role.

                  TULAROSA BASIN DESALINATION FACILITY

    Question 140. Over the past five years, I have provided funding for 
the construction of a Tularosa Basin Desalination Research and 
Development Center in New Mexico. As you are aware, I included a 
provision in the FY2007 Energy and Water Development Appropriations 
Bill that would direct the Secretary of the Interior to transfer O&M of 
the Facility to New Mexico State University.
    What is the status of the Tularosa Facility's construction and when 
do you anticipate the facility will be completed?
    Answer. The Tularosa facility is in the final stages of 
construction and scheduled to be completed in May 2007.
    Question 141. Who will manage the facility from the time the 
facility is completed until Congress is able to transfer O&M of the 
facility to NMSU?
    Answer. Reclamation is preparing to enter into a commissioning 
contract to test and prepare the facility for long-term operations. A 
commissioning contract is commonly used by GSA and has proved to be an 
effective method to test and transition facilities from construction to 
long-term operations. The commissioning contract is expected to last 
for a period of 6 to 9 months. A pre-approved GSA commissioning 
contractor will be competitively selected for the contract.

                            MINNOW SANCTUARY

    Question 142. The Reasonable and Prudent Alternatives specified in 
the 2003 Fish and Wildlife Service's Biological Opinion on the Rio 
Grande Silvery Minnow required the construction of two minnow refugia. 
In order to comply with this mandate, I have secured funding for the 
construction of a minnow sanctuary.
    What is the status of the sanctuary's construction and when will it 
be completed?
    Answer. The first two phases of construction are complete including 
concrete work in the Albuquerque Riverside Drain and earthwork and 
grading on the sanctuary's channels and pools. We anticipate awarding a 
contract for the final phase of construction in June. This will include 
remaining structures and all the necessary pumps, piping, fish screens, 
and mechanical, electrical, alarm, and control systems. We expect to 
complete construction by December, 2007.
    Question 143. Does the USBR have sufficient funding in FY2007 to 
complete construction of the Minnow Sanctuary or will additional FY2008 
funds be required?
    Answer. Reclamation expects to have sufficient funds in FY 2007 to 
complete construction.
    Question 144. Will you please provide my office with a long-term 
operations plan for the Sanctuary?
    Answer. Reclamation and the U.S. Fish and Wildlife Service are 
developing a detailed operations plan for the sanctuary. We will 
provide it to your office as soon as it is complete.

                        ANIMAS-LA PLATA PROJECT

    Question 145. Despite past claims of mismanagement and poor 
planning and oversight, the A-LP project is now proceeding at an 
acceptable rate. The President's budget calls for $58 million for the 
project in FY 2008. However, some of the project beneficiaries claim 
that the project requires $75 million in FY 2008 to keep it on schedule 
and to keep total project costs to a minimum.
    Do you believe that the $58 million requested is adequate to keep 
the project on schedule?
    Answer. A funding level of $58 million in FY 2008 is adequate to 
keep the project on its currently published schedule. This schedule 
does reflect ``projected'' delays.
    Question 146. What precautions are being taken to ensure that there 
are not further cost overruns with the project?
    Answer. We have refined and streamlined reporting within 
Reclamation for the A-LP. The Four Corners Construction Office is 
responsible for all matters pertaining to the construction of the 
project. This office is managed by a Project Construction Engineer who 
reports directly to the Regional Director of the Upper Colorado Region 
in Salt Lake City, Utah. The construction office continually evaluates 
ways to save costs and still maintain the project features. Cost 
tracking procedures implemented in 2004 now relate all project costs to 
the cost estimate (indexed for inflation) for early detection of 
problems. This cost information is shared with the Project Sponsors on 
a bi-monthly basis.
    Question 147. Will providing greater appropriations in the near-
term keep down the total cost of the project?
    Answer. Higher levels of funding would allow work to be completed 
in an efficient manner and allow the Navajo Nation Municipal Pipeline 
to proceed thereby reducing the projected delay of 1\3/4\ years in 
delivering water to The Navajo Nation at Shiprock, New Mexico. 
Additional funding would allow work to start earlier on several 
features which will minimize the impacts of inflation on construction 
costs and reduce the overall cost of the project.

UNITED STATES BUREAU OF RECLAMATION (USBR) 2003 BIOLOGICAL OPINION FLOW 
                              REQUIREMENTS

    Question 148. The USBR is tasked with providing water in order to 
comply with the Fish and Wildlife Service's 2003 Biological Opinion. 
However, it is unclear where the USBR will obtain this water once the 
Albuquerque-Bernalillo County Water Utility Authority begins diverting 
its allocation of San Juan-Chama Project water. The President's FY2008 
USBR budget proposes a 17 percent decrease to the Middle Rio Grande 
Project from FY2006 enacted levels.
    In light of potential water shortages, how will the USBR meet the 
requirements of the 2003 Biological Opinion with the proposed budget, 
particularly when the cost of water may increase significantly?
    Answer. With careful management, Reclamation's current water 
supplies should be adequate to meet Biological Opinion requirements 
through FY 2007. Reclamation is engaging stakeholders in the basin to 
ensure those supplies are conserved and to develop contingency plans 
for meeting Biological Opinion requirements.
    Question 149. San Juan--Chama Project water cannot be used for 
meeting the requirements of the ESA unless it is acquired by a 
``willing sellor or lessor''. If water cannot be acquired from project 
contractors, where do you anticipate you will get the water to meet the 
requirements of the ESA in 2008?
    Answer. Reclamation is continuing to work with San Juan--Chama 
contractors who are willing to lease water for Biological Opinion 
requirements. Numerous contractors continue to be willing to enter in 
to such agreements. In addition, Reclamation is working with 
stakeholders in the basin to conserve current supplies for use in 2008.
    Question 150. What are you doing to address this potential problem?
    Answer. Reclamation is actively pursuing participation of 
stakeholders in the basin to help conserve current supplies and develop 
new ways of operating to meet ESA needs. This includes working closely 
with the Fish and Wildlife Service to ensure understanding of the 
prioritization of ESA needs in order to more effectively and 
conjunctively manage the system and water secured for ESA purposes.

                        MIDDLE RIO GRANDE BASIN

    Question 151. The USGS budget proposes $1.5 for the Middle Rio 
Grande Basin.
    On what activities will this money be spent?
    Answer. Basins of the Rio Grande in the southwestern United States 
encompass the main city areas of northern New Mexico (e.g., Santa Fe 
and Albuquerque) and are home to half the population and to a similar 
portion of the economy. The vitality of Middle Rio Grande basin 
communities and economies depends on satisfying the growing demands for 
water, including drinking water, extracted from complex aquifers, yet 
knowledge of the aquifer systems and sustainability of the resource are 
poorly known. To address this need in the Albuquerque area, the USGS, 
in cooperation with the City of Albuquerque, New Mexico, Office of the 
State Engineer, and Bernalillo County, is monitoring ground-water-
quality at multiple depths, researching the interaction between 
surface- and ground-water resources to help local water managers 
determine the impact of withdrawals both from the aquifer system and 
from the Rio Grande, and researching the rate at which the aquifer can 
recharge itself after water is withdrawn. Related USGS investigations 
include (1) studies of the geologic framework of the basin region, 
which will provide critical information on ground-water aquifers, 
hazards (seismic, subsidence, landslide), and resources and (2) studies 
in the San Luis Basin, which will improve ground water models used for 
management of the Rio Grande.

                       RURAL WATER IMPLEMENTATION

    Question 152. Please describe how the Department will implement 
Title II of the Rural Water Supply Act of 2006.
    Answer. Reclamation is currently in the process of developing a 
Notice of Proposed Rulemaking to publish in the Federal Register as 
required in Section 204 of the Act. The rule will cover both 
eligibility criteria and program administration. Approval from OMB for 
information collection required to assess potential loan guarantee 
requests will be sought concurrently. Appropriations in the amount of 
$1 million have been requested for FY 2008.

                   NEW MEXICO EMERGENCY DROUGHT WELLS

    Question 153. With funding I secured in 2006, the USBR began 
construction of five water wells for the communities of Ruidoso Downs, 
Village of Ruidoso, Capitan, Cloudcroft, and Las Vegas. To date, only 
one well has been completed. There is the possibility that these 
communities may again face drought in 2007.
    When do you anticipate the remaining wells will be completed?
    Answer. Well construction has been completed at Ruidoso Downs and 
Cloudcroft, but test pumping continues to be done at Cloudcroft, and 
neither system has been connected to municipal water systems. 
Continuation of development and test pumping of the Cloudcroft well has 
been suspended until later in the spring because it is believed that 
this will be more effective if some recharge of the well is allowed to 
occur. Wells at Ruidoso and Las Vegas are in the final stages of 
construction and they should be completed within the next few weeks. 
Work has not been initiated on the well at Capitan pending completion 
of the well at Las Vegas.
    Question 154. Please explain why completion of the wells has taken 
as long as it has.
    Answer. Wells at Ruidoso Downs and Cloudcroft were completed 
without extraordinary delays. Some problems were encountered with the 
development pumping at Cloudcroft and a decision was made to suspend 
this operation until later in the spring to allow some recharge to 
occur. The driller had some problems obtaining needed equipment for the 
well at Ruidoso which caused some delay during the pilot hole boring. 
The Las Vegas well is a large, deep hole in formations that have been 
difficult for the contractor to drill into. Nevertheless, the 
construction process at the Las Vegas well has been completed and the 
well is currently undergoing development pumping.
    Question 155. Is additional funding necessary for their completion?
    Answer. The actual costs for the drilling of the Las Vegas well 
have thus far significantly exceeded preliminary estimates. Well 
drilling is not an exact science and the potential always exists that 
extraordinary conditions may be encountered.

                        USBR SITE SECURITY COSTS

    Question 156. Since September 11, 2001, the Bureau has been working 
to increase the security at Reclamation facilities. In May 2005, in 
response to Congress, the Bureau submitted a report with a breakout of 
planned reimbursable and non-reimbursable security costs by project and 
region. In its FY 2006 budget request, the Administration proposed that 
costs for guards and patrols be subject to reimbursement. The report 
language allowed Reclamation to collect $10 million out of the $18.9 
million in such reimbursable costs from water and power customers.
    Given the Continuing Resolution for FY 2007, the customers believe 
the same $10 million limitation should apply. However, in the recent 
budget request, the Bureau states that ``in FY 2007 and FY 2008, 
Reclamation plans to collect all reimbursable costs for guards and 
patrols totaling $18.9 million.''
    Is it the Bureau's intention to collect the full $18.9 million in 
projected reimbursable costs for guards and patrols, despite the FY 
2006 Energy and Water Appropriations Report language limiting this 
collection to $10 million?
    Answer. The Bureau of Reclamation is in the process of evaluating 
how much it is authorized to collect under the FY 07 continuing 
resolution.
    Question 157. Are other project beneficiaries being held 
accountable for these increased security costs?
    Answer. Project beneficiaries pay in accordance with project cost 
allocations.

                               WATER 2025

    Question 158. Please describe Reclamation's future vision for the 
Water 2025 program and any necessary authorities needed to implement 
the program.
    Answer. Water 2025 has two purposes. First, it provides a basis for 
a public discussion of the realities that face the West so that 
decisions can be made at the appropriate level in advance of water 
supply crises. Second, it sets forth a framework to identify the 
problems, solutions, and a plan of action to focus limited resources as 
the Department of the Interior works with States, Tribes, local 
government, and the private sector to meet water supply challenges.
    In FY 2006, Reclamation worked with the Office of Management and 
Budget to develop long term goals and an implementation plan for Water 
2025. The overarching goal of Water 2025 is to prevent crises and 
conflict over water in the West. Water 2025 will attain this long-term 
goal by increasing certainty and flexibility in water supplies, 
diversifying water supplies, and preventing crises through added 
environmental benefits in many watersheds, rivers and streams.
    As provided in the implementation plan, Water 2025 projects and 
activities will continue to focus on geographic areas highlighted in 
the illustration, Potential Water Supply Crises by 2025, May 2003, 
(``Hot Spot Illustration''), where competing demands for water for 
people, cities, farms, and the environment mean that water-related 
crises have the highest likelihood of occurring. As the program moves 
forward, Reclamation will update the Hot Spots Illustration on a 
regular basis; the first such update is currently underway. Water 2025 
projects and activities will be concentrated on establishing 
collaborative partnerships to address water supply issues by creating 
water markets in conformance with existing laws, increasing water 
delivery efficiency, and eliminating interruptions in water supplies, 
such as those resulting from endangered species requirements or court 
actions.
    As in previous years, leveraging limited Federal dollars through 
the Water 2025 Challenge Grant Program will continue to be a major 
component of the program. Second, water system optimization reviews, a 
new component of Water 2025 will be introduced in FY 2008. Through 
system optimization reviews, Reclamation will work with willing States, 
irrigation and water districts, and other local entities, on a 50-50 
cost-share basis, to assess the potential for water management 
improvements to optimize efficiency.
    For the first four years of the program, FY 2004 through FY 2007, 
authority to enter into cooperative agreements with States, Tribes, 
irrigation districts and others under Water 2025 has been provided 
through the annual appropriation process. However permanent 
authorization is needed to ensure the long-term effectiveness of the 
program.
    The permanent authority that is required to implement the program 
would authorize the Secretary to enter into grants and cooperative 
agreements with States, Tribes, irrigation districts, water districts, 
or other organizations with water delivery authority to fund up to half 
of the cost of making improvements that will prevent water-related 
crises and conflicts in watersheds that have a nexus to Federal water 
projects in the West, including actions that conserve water, increase 
water use efficiency, facilitate water markets, enhance water 
management, or other actions.
    Question 159. Please describe the major accomplishments of the 
Water 2025 after its four years of existence. Specifically, how have 
funds that have been appropriated for the program reduced conflict 
amongst water users?
    Answer. Since 2004, the Challenge Grant program has funded 78 
projects to carry out approximately $64.1 million in water system and 
water management improvements across the West (approximately $16.4 
million in Federal investment and approximately $47.7 million in non-
Federal cost-share). A brief summary of each of the 78 projects funded 
is available at http://www.doi.gov/water2025/grant.html. Those 78 
projects (to be completed within two years from the date of award) will 
create new water banks, promote the use of advanced technology to 
improve water management, and increase collaboration among Federal, 
State, tribal, and local entities.
    Based on estimates in the project proposals, the 78 projects funded 
in FY 2004, FY 2005, and FY 2006 could save up to 296,000 acre feet per 
year, collectively, once fully implemented. These projects incorporate 
the following improvements:

  <bullet> 26 projects, collectively, will convert 81 miles of dirt 
        canals to pipeline.
  <bullet> 53 projects include installation of water measurement 
        devices, SCADA systems and automated water delivery systems.
  <bullet> 12 projects include water marketing plans.

    The first projects funded under the program are beginning to be 
completed and have already helped to form collaborative alliances that 
will help to prevent future water conflicts. For example, the Central 
Oregon Irrigation District, an FY 2004 Challenge Grant recipient, has 
established a pilot water bank in the Deschutes Basin through an 
alliance of seven irrigation districts, six cities, three tribes and 
the Deschutes Resource Conservancy (the ``Deschutes Water Alliance'' or 
the ``Alliance''). Deschutes County is experiencing the most rapid 
population growth anywhere in Oregon, and there is a moratorium on 
further groundwater pumping without a mitigation plan. Accordingly, the 
only available source of supply to meet expanding water supply needs 
must come from water transfers or water conservation.
    The pilot water bank will facilitate water sales and transfers 
among water users, with the goal of addressing long-term water needs 
for urban water supply, irrigation, and industrial uses, and for 
instream needs for ESA listed fish species. The irrigation district 
members of the Alliance are undertaking voluntary water conservation 
measures to supply water to the bank, and will be the bank's primary 
suppliers. Water purchasers will include irrigation districts with 
unreliable water supplies, the Central Oregon Cities organization, and 
affiliated drinking water suppliers, the Deschutes Resource Conservancy 
which needs water to restore instream flows, and other water users in 
the basin.
    In Utah, the Bear River Small Irrigators, Inc. have used their FY 
2004 Challenge Grant to install a real-time, automated water diversion 
reporting system along the Bear River. The project is an integral part 
of a plan to automate diversions from the headwaters of the Bear River 
to the Great Salt Lake. The system will provide accurate and timely 
water diversion data so water users can optimize their water use. The 
absence of such data in the past has led to water ``hoarding'' due to 
delays and inconsistencies in reporting. Others besides the irrigators 
will benefit from this project as well because the conserved water will 
be made available for lease. It is anticipated that the project will 
also increase the natural flows remaining in the system which will help 
meet environmental needs downstream.
    In Arizona, the Yuma County Water Users Association used their FY 
2004 Challenge Grant to expand a state-of-the-art monitoring and 
control system on the Association's main canals, install flow 
measurement devices and upgrade water data archiving and tracking 
systems, to allow more efficient management of water deliveries. The 
Association estimates that the project will result in a water savings 
of between 12,000 and 20,000 acre feet per year. The Association is 
located in the southwest corner of Arizona, bordered by Mexico and 
California. The saved water will allow the Association to decrease its 
diversions from the Colorado River, freeing up more water for growing 
metropolitan areas in Arizona and other junior water users on the 
Colorado River.

                       ESA COLLABORATIVE PROGRAM

    Question 160. Mr. Secretary, in order to address endangered species 
issues in the Middle Rio Grande Valley, I established the Middle Rio 
Grande Endangered Species Act Collaborative Program. As you are aware, 
this provides a forum for all interested parties to discuss ways to 
address endangered species issues in a cooperative way and has been 
largely successful in producing consensus.
    How is compliance with the 2003 Biological Opinion proceeding? Do 
you feel that adequate funds for this purpose are included in the 
President's budget request?
    Answer. Compliance with the 2003 Biological Opinion is currently 
proceeding satisfactorily. The request in the FY08 budget anticipates 
continued participation, as agreed, by all Federal and non-Federal 
partners for the non-water activities of the Collaborative Program such 
as minnow rescue, species and water quality monitoring and research, 
and habitat planning, construction, and monitoring activities.
    Question 161. What construction activities required by the 2003 
Biological Opinion do you anticipate will be completed in Fiscal Year 
2008?
    Answer. The Rio Grande silvery minnow sanctuary will be 
constructed. Environmental clearances for fish passage at San Acacia 
Diversion Dam will be completed and the project will be in the final 
design stage. Habitat restoration construction will be on track.
    Question 162. Will the USBR work with federal agencies, state 
government agencies, tribes, local government and other non-
governmental groups in implementing the ESA Collaborative Program?
    Answer. Yes.

                   USBR DESALINATION RESEARCH PROGRAM

    Question 163. I am interested in the process and the schedule the 
Administration will undertake to develop both a short and long-term 
strategy within your desalination research program.
    What portion of the funds do you intend to provide for in-house 
research vs. extramural grants?
    Answer. For FY 2008, Reclamation has requested approximately $6.6 
million for desalination research. Approximately $1.6 million of this 
request is intended for in-house research with the balance of 
approximately $5 million supporting external research.
    Question 164. Please describe what the guiding principles/goals of 
the program would include.
    Answer. Reclamation's goal is to advance the state of the art in 
high risk, applied research and development specifically targeted at 
reducing the cost of treating impaired waters and to enhance non-
federal partnerships to accelerate the implementation of improved 
technology, including the resolution of non-technical impediments to 
water use, consistent with the Administration's R&D investment 
criteria. Our objective is to focus investments on R&D and leverage 
investments with other federal and non-federal entities to facilitate 
the efficient advancement and deployment of technologies and best 
practices. A secondary objective is to assure that knowledge generated 
from this investment is available/transferable to communities looking 
for solutions.
    Question 165. Please describe which broad BOR mission areas would 
be supported by the desalination research.
    Answer. Reclamation's vision is to provide opportunities that can 
expand water supplies, in a sustainable manner, and relieve stress on 
Western rural communities, Native Americans, and the Western watersheds 
supporting Reclamation projects.
    Question 166. Please describe how you intend to coordinate with 
other federal/state/local and commercial entities within the 
desalination research program.
    Answer. At the policy level, Reclamation and the other Federal 
agencies involved in water resources research and development are 
working under the guidance of the White House Office of Science and 
Technology Policy Subcommittee on Surface Water Availability and 
Quality and the Interagency consortium for Desalination and Membrane 
Separation Research to coordinate Federal R&D for water availability to 
ensure an adequate water supply for the Nation's future.

                    INDIAN WATER RIGHTS SETTLEMENTS

    Question 167. Mr. Secretary, un-adjudicated Indian water rights 
claims in the western United States are a great source of uncertainty. 
In my view they pose the greatest impediment to effective water 
management in the West. During your confirmation hearing before this 
Committee, you committed to Senator Bingaman and me that you would make 
New Mexico Indian water rights settlements a priority. These include 
the Aamodt, Abeyta and Navajo settlements.
    What progress have you made with respect to the Aamodt, Abeyta, and 
Navajo settlements?
    Answer. The Aamodt and Abeyta settlements both seek federal 
contributions of water or funding to acquire water. The Bureau of 
Reclamation has completed a study of evaporation surplus a Cochiti 
reservoir to determine if additional water from that source would be 
available to supplement un-contracted San Juan Chama supplies, and we 
have met with the parties and provided draft copies of the study to 
them and asked for comments. The study showed that some surplus is 
available. At the direction of the Secretary, Counselor Bogert met with 
the parties to both settlements in New Mexico on March 14-15, 2007 to 
discuss water supply issues. The United States has presented the 
parties with a proposed level of Federal contribution in Aamodt. In 
Abeyta, the Department's Working Group on Indian Water Settlements met 
on March 1, 2007 to consider a recommended federal contribution to the 
Abeyta settlement. Another meeting is anticipated to be scheduled in 
April. In the meantime, consultations with OMB and DOJ are on-going.
    The Bureau of Reclamation is scheduled to release a planning 
report/draft environmental impact statement (PR/DEIS) to the public by 
the end of March on the proposed Navajo-Gallup Water Supply Project, 
(Project). As you are aware, this project, which is designed to provide 
for a treated water pipeline through the Navajo Nation, the city of 
Gallup, and the Jicarilla Apache Nation, is the centerpiece of the 
Navajo settlement. The PR/DEIS will include an analysis of the 
potential environmental impacts of constructing and operating the 
pipeline as well as an appraisal level cost estimate using 2005 
construction cost indices. Reclamation is also re-pricing the cost-
estimate to provide appraisal level information based on 2007 costs. 
This additional information should be available in June of this year.
    Question 168. When do you anticipate you will complete your study 
to determine if there is additional water available from the San Juan-
Chama Project as a result of an over-estimation of evaporative loss 
from Cochiti Reservoir?
    Answer. The Bureau of Reclamation has completed a study of 
evaporation surplus a Cochiti reservoir to determine if additional 
water from that source would be available to supplement un-contracted 
San Juan Chama supplies. The Department provided copies of the study to 
the parties and asked for their comments. The study showed that some 
surplus is available.
    Question 169. When will you provide the parties to the Abeyta 
settlement an official administration position on their proposed 
settlement?
    Answer. The Counselor to the Secretary met with the parties on 
March 15, 2007, and advised them that we will provide the parties with 
an administration position as soon as it is available. The Department's 
Working Group on Indian Water Settlements met on March 1, 2007, to 
consider a recommended federal contribution to the Abeyta settlement. 
Another meeting is anticipated to be scheduled in April. In the 
meantime, consultations with OMB and DOJ are on-going.
    Question 170. How do you plan to secure a commitment from OMB that 
a reasonable federal contribution will be made available for the New 
Mexico Indian water rights settlements?
    Answer. We will continue to meet with OMB to keep them informed of 
developments in the New Mexico settlements and to work with them to 
identify approaches to these settlements that are fair to taxpayers as 
well as the settling parties.

 INDIAN WATER RIGHTS SETTLEMENTS--SAN JOAQUIN AND ARIZONA WATER RIGHTS 
                              SETTLEMENTS

    Question 171. It is my understanding that OMB recently gave their 
approval to the proposed San Joaquin Settlement which is estimated to 
cost roughly $650 million. Additionally, the Administration did not 
oppose the Arizona Water Rights Settlement Act which cost roughly $2.4 
billion.
    Please explain why these settlements received favorable treatment 
from OMB while the New Mexico Indian water rights settlements have not.
    Answer. OMB's analysis of Indian water rights settlements is 
predicated upon the ``Criteria and Procedures for the Participation of 
the Federal Government in Negotiations for the Settlement of Indian 
Water Rights Claims'' (55 FR 9223). With respect to Federal 
contributions, the Criteria and Procedures provide that Federal 
contributions to a settlement should not exceed the sum of the 
calculable legal exposure and additional costs related to Federal trust 
or programmatic responsibilities. Of particular interest to the 
Administration in determining calculable legal exposure is the 
liability facing the United States if no legislative settlement is 
reached. In the case of the Arizona Water Rights Settlement Act, the 
settlement concluded a lawsuit over the financial repayment obligation 
of Arizona water users for the Central Arizona Project (CAP), with 
significant amounts of money at stake. The San Joaquin Settlement 
referred to in this question was not an Indian water rights settlement, 
but the calculable legal exposure was part of the analysis. The San 
Joaquin settlement would bring to an end a multiyear lawsuit, and 
continued litigation would expose the parties to the risk of 
significant costs. In situations where the proposed Federal 
contribution outweighs the litigation exposure, Administration support 
for a settlement requires that the additional contribution be closely 
related to programmatic responsibilities that cannot be funded through 
the regular budget process.
    Question 172. Do you believe that your proposed budget of $34 
million for the Indian Land and Water Claims Settlement Fund is 
adequate to settle unresolved Indian land and water claims in FY2008?
    Answer. The Indian Land and Water Claims Settlement Fund line item 
in the budget is adequate for its intended purpose of fulfilling BIA's 
commitment under enacted Indian land and water settlements. Funding for 
ongoing negotiations to settle unresolved Indian land and water claims 
is provided under several other items in the DOI budget, including 
Water Resources Management in BIA's budget.
    Question 173. How does the Administration propose it will fund the 
Aamodt, Abeyta, and Navajo settlements which, in sum, will require a 
federal contribution of roughly $1.1 billion?
    Answer. The Administration is working closely with the New Mexico 
delegation to identify mechanisms to satisfy the needs of the parties 
to these settlements.

                           ISLETA SETTLEMENT

    Question 174. Mr. Secretary, the Administration has entered into a 
Settlement Agreement with Pueblo of Isleta regarding the Department of 
the Interior's alleged mismanagement of the Pueblo's lands and natural 
resources. The President's FY 2008 budget request includes $2.4 million 
for the Pueblo of Isleta Settlement.
    The settlement resolves the claims of the Pueblo of Isleta against 
the United States. It provides funding to restore, improve, and develop 
on-reservation land and natural resources of the Pueblo. The required 
Department portion of the $40.0 million settlement is $7.4 million 
proposed to be funded over three years.
    How will this initial funding be used?
    Answer. The Department of the Interior's portion of the settlement 
is $7.2 million. The $7.2 million would be used for the drainage and 
remediation of approximately 1,081 acres of waterlogged agricultural 
land and carrying out the rehabilitation and remediation of forest and 
range land. The Pueblo of Isleta will be required to match the 
appropriated funds and provide assurances that the Pueblo will deliver 
the matching funds prior to the Secretary making a distribution of the 
appropriated funds.
    Question 175. What is the total portion of the settlement 
attributable to the Department of the Interior?
    Answer. The Department's total portion of the settlement is $7.2 
million.
    Question 176. Are you planning to continue to budget for this 
settlement through FY 2010?
    Answer. Yes, the Department will plan on seeking appropriations in 
accordance with the settlement agreement.

             BIA WATER RIGHTS NEGOTIATIONS/LITIGATION FUND

    Question 177. Mr. Secretary, you propose a $1 million decrease for 
both the BIA water rights negotiations/litigation fund and the 
litigation support/attorney's fees fund.
    Do you believe that the Indian nations will be able to represent 
their interests in water rights settlement negotiations with the amount 
of money you have proposed for these accounts?
    Answer. The funding requested will provide support for tribes 
involved in litigation, negotiation, or administrative proceedings.

            NATIONAL PARK SERVICE--RECREATION/ENTRANCE FEES

    Question 178. National Parks are allowed to collect entrance and 
user fees. Eighty percent of the fees are retained by the unit at which 
the fees are collected and the remaining 20% is placed in a general 
fund for distribution throughout the National Park system. The current 
program is based on a Fee Demonstration Program and subsequent 
legislation enacted in the 108th Congress. Interest groups have 
expressed concern that fee is a form of taxation.
    How much money has the National Park Service collected since the 
recreation fee demonstration program/Public Lands Recreation 
Enhancement Act began? Provide a breakdown by NPS unit and state.
    Answer:

                        NPS COLLECTIONS 1997-2006
                        [In Millions of Dollars]
------------------------------------------------------------------------
                             Year                                Amount
------------------------------------------------------------------------
1997.........................................................       45.1
1998.........................................................      136.8
1999.........................................................      141.4
2000.........................................................      133.6
2001.........................................................      126.2
2002.........................................................      125.7
2003.........................................................      123.5
2004.........................................................      128.6
2005.........................................................       28.2
2006.........................................................      135.1
                                                              ----------
      Total NPS Collections..................................      1,220
------------------------------------------------------------------------
Note.--Specific park amounts in the attached report have not been
  reconciled to official treasury reports.

    Due to the volume of the data requested on the recreation fee 
program, collections by NPS unit, by fiscal year, will be provided by 
the National Park Service under separate cover.
    Question 179. How has each unit of the National Park System 
benefited from funds collected in accordance with the Recreation Fee 
Demonstration Program and the Public Lands Recreation Enhancement Act 
since October 1, 1996? For each unit of the National Park System, 
provide one or more examples of a project funded by recreation fees.
    Answer. Every unit of the National Park Service has benefited from 
the Recreation Fee Program, either by the unit's collection and 
retention of 80% of its fees or by projects funded from the 20% funds. 
All units have benefited by the Servicewide projects that have national 
application, such as development of a content management system for the 
park-specific web pages. With the new Federal Lands Recreation 
Enhancement Act, the NPS changed the basic revenue retention formula to 
allow parks that gross less than $500,000 per year to retain 100% of 
their revenues. Due to the volume of the data requested on the 
recreation fee program, a list of funded projects from the Project 
Management Information System will be provided by the National Park 
Service under separate cover.
    Question 180. How much of the total funds collected has the 
National Park Service spent at units that do not collect fees (i.e., 
80% is retained at the site of collection and 20% can be distributed to 
other sites, some of which may not collect fees of their own; how do 
sites that do not collect fees benefit from the program)? Provide a 
list of the units, location by state, and amount of money provided to 
each unit.
    Answer. The National Park Service has distributed $262,827,420 in 
Recreation Fee 20% and National Park Pass 30% revenue. Annually, 
approximately \4/5\ of these funds are distributed for individual 
park's projects identified through the NPS Project Management 
Information System. The other \1/5\ of the funds are used for 
Servicewide projects where centralized management provides greater 
efficiency or as part of a Servicewide initiative. Servicewide 
centrally managed projects include the Public Land Corps, upgrades to 
the NPS Internet site, and the development of a Incident Management 
Reporting System. Examples of Servicewide Initiatives are Accessibility 
and Structural Fire. Early in the fee program, a few parks' start-up 
costs were supported from the 20% revenues. Due to the volume of the 
data requested on the recreation fee program, a list of the units, 
location by state, and amount of money provided to each unit will be 
provided by the National Park Service under separate cover.
    Question 181. How many people including seasonal and full-time 
employees are performing fee collection as 25% or more of their job at 
each unit of the national park system? Provide a list that includes the 
following: name of the unit; NPS region; state; number of individuals 
involved; the average employee pay grade for individuals involved 
(e.g., GS-7); and average pay for individuals involved.
    Answer. The number of employees currently performing fee collection 
duties Servicewide is 709 FTE. The average grade for a fee collection 
employee is a GS-05, Step 2, with an annual salary of: $26,477, which 
does not include locality adjustments or benefits. Due to the volume of 
the data requested on the recreation fee program, a list of FTE by unit 
will be provided by the National Park Service under separate cover.
    Question 182. Which park units use unmanned fee collection devices 
to collect user fees? How many unmanned fee collection points does each 
unit have?
    Answer. [No answer recieved.]
    Question 183. Since October 1, 1996, how have funds collected in 
accordance with the Recreation Fee Demonstration Program and the Public 
Lands Recreation Enhancement Act been used to support facility 
construction (e.g., kiosks, restrooms, visitor centers, interpretive 
displays) and the maintenance backlog? Provide a list of all projects 
by unit of the national park system with a total value of $100,000 or 
more and show the proportion of recreation fee money used for each 
project.
    Answer. The primary emphasis for the Recreation Fee Program 
continues to be to address deferred maintenance. The NPS has approved 
over $473 million in project dollars to address this need. With the new 
Federal Lands Recreation Enhancement Act law, the focus remains on 
deferred maintenance with a stronger emphasis on facilities with a 
direct visitor connection. Due to the volume of the data requested on 
the recreation fee program, list of all facility projects where 
Recreation Fees partially or completely funded the project will be 
provided by the National Park Service under separate cover. The list 
will not include projects that have not completed the approval process 
and will not include facility projects funded 100% from other fund 
sources.
    Question 184. Entrance fees at a number of National Park Service 
units have recently increased. For example, the fee to enter Black 
Canyon of the Gunnison changed from $8 to $15 per vehicle effective 1 
January 2007. Which units of the National Park Service charge an 
entrance fee, how much is the current fee at each unit, and how has the 
fee changed since October 1, 1996? Provide a list broken down by units 
within each region and state. For each unit include the amount charged 
beginning in 1996 and the new amount and year each time the fee was 
changed.
    Answer. Due to the volume of the data requested on the recreation 
fee program, list of entrance fee rates will be provided by the 
National Park Service under separate cover.

                          NATIONAL PARK POLICE

    Question 185. The DOI budget for FY08 includes an increase of $8 
million for the National Park Police.
    How many new vehicles have been purchased or leased for use by the 
National Park Police each year since October 1, 1996?
    Answer. The U.S. Park Police currently have 108 leased vehicles and 
have purchased 269 new vehicles from 1996 to 2006 as follows:

------------------------------------------------------------------------
                  Year (FY)                    Leased \1\  Purchased \2\
------------------------------------------------------------------------
1997.........................................      \3\ 64           29
1998.........................................          86           28
1999.........................................          89            3
2000.........................................          94            4
2001.........................................          96            4
2002.........................................         120           61
2003.........................................         114           74
2004.........................................         119           30
2005.........................................         104           22
2006.........................................         108           14
------------------------------------------------------------------------
\1\ Leased: the number includes the total number of vehicles leased each
  year.
\2\ Purchased: the number includes only vehicles purchased that year.
\3\ Figures do not include the Washington Metropolitan Area as accurate
  data is not readily available for FY 97.

    Question 186. How many people in administrative, law enforcement 
and other positions with the National Park Police have departed the 
organization since October 1, 1996?
    Answer. 551.
    Question 187. How many people have been hired for administrative, 
law enforcement or other positions by the National Park Police since 
October 1, 1996?
    Answer. 525.
    Question 188. Describe each position that has remained vacant for 
six months or more since October 1, 2001. Include the date it became 
vacant, the date it was filled, and the reason it remained vacant for 6 
months or more.
    Answer. In addition to the 551 vacancies created by personnel 
leaving the agency, numerous other vacancies are created by personnel 
reassignments from one position to another within the organization. To 
provide the data requested will require a very extensive hand search of 
our personnel records. If particular positions of interest are 
identified, we can research those on a case-by-case basis.
    Question 189. How much has the National Park Police budgeted and 
expended each year since October 1, 2001, for each of the following: 
operations, vehicles, other equipment, construction, maintenance, 
personnel, and other costs?
    Answer. Please see the attached file labeled ``Question 189,'' and 
containing a chart titled ``Park Police.''
          national park service--funding from outside sources
    Question 190. The DOI budget includes a proposal to collect funds 
from outside sources as part of the Centennial Initiative. The National 
Park Service currently brings in an amount that represents about 12 
percent of its budget from outside sources.
    What authority does the National Park Service have to solicit, 
accept, and use funding from non-Federal sources?
    Answer. The first section of the Act of June 5, 1920, 41 Stat. 917, 
provides that: ``The Secretary of the Interior in his administration of 
the National Park Service is authorized, in his discretion, to accept 
patented lands, rights-of-way over patented lands or other lands, 
buildings, or other property within the various national parks and 
national monuments, and moneys which may be donated for the purposes of 
the national park and monument system.''
    Question 191. How much has the National Park Service received from 
sources outside the Federal government each year since October 1, 1996 
(specify the source of funds such as National Park Foundation, National 
Parks Conservation Association, specific friends groups, etc)?
    Answer. The National Park Service has received $223.8 million for 
fiscal years 1996-2006. Following is a breakdown of this figure by 
fiscal year:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
1996....................................................     $15,806,923
1997....................................................      14,791,549
1998....................................................      14,475,977
1999....................................................      14,514,866
2000....................................................      18,414,427
2001....................................................      27,536,965
2002....................................................      15,239,199
2003....................................................      28,966,193
2004....................................................      19,409,761
2005....................................................      27,605,055
2006....................................................      27,001,957
------------------------------------------------------------------------

    To specify the source of these funds would require an inordinate 
amount of time and effort. This is due to two factors: 1) Donations are 
not accounted for centrally, but rather captured at the park level, and 
2) the donor is not entered into the accounting system. These factors 
would require someone at each park and region to manually go through 
thousands of deposit tickets each year to find the donor for each 
donation.
    Question 192. When compared with the National Park Service budget, 
what percentage do funds from outside sources represent each year since 
October 1, 1996?
    Answer. On average, slightly less than 1 percent (0.91%) of the 
total National Park Service budget authority (discretionary and 
mandatory funding) is represented by donations over the past ten years. 
Over the same period, total donations as a percentage of discretionary 
funding represents slightly more than one percent (1.03%). The year by 
year amounts are shown below:

                                                          DONATIONS AS A PERCENT OF NPS BUDGET
                                                              [Dollar Amounts in Thousands]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                       FY 1997   FY 1998   FY 1999   FY 2000   FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006
--------------------------------------------------------------------------------------------------------------------------------------------------------
Donations...........................................   $14,782   $14,468   $14,515   $18,414   $27,537   $15,239   $28,966   $19,410   $27,605   $27,002
Percent of Discretionary Funding....................     1.05%     0.87%     0.82%     1.00%     1.25%     0.66%     1.30%     0.86%     1.19%     1.20%
Percent of Total Funding............................     0.96%     0.77%     0.72%     0.87%     1.11%     0.59%     1.14%     0.76%     1.05%     1.04%
--------------------------------------------------------------------------------------------------------------------------------------------------------
* Funding amounts exclude emergency supplementals and Wildland Fire transfers.

    Question 193. How has the money obtained from these sources been 
used (i.e., facility construction, maintenance, interpretive displays, 
etc.)? Provide a summary by NPS Region and state.
    Answer. The answer to this question also involves a very labor 
intensive exercise due to the thousands of donation accounts that we 
maintain. We are in the process of collecting this data into the 
following categories and will then provide this to you by region when 
available: General (many donations received are not designated for a 
specific purpose); Interpretation & Education; Resource Stewardship; 
Facility Operations and Maintenance; Capital Improvements; Other.

                            INVASIVE SPECIES

    Question 194. An invasive mussel (the quagga mussel) was recently 
discovered in Lake Mead National Recreation Area. The mussel can be 
extremely destructive to water pipes and aquatic ecosystems.
    What type of inspection and monitoring program does the National 
Park Service have to prevent the introduction of quagga mussels and 
other invasive species into Lake Mead?
    Answer. Because of the number of access points and size of the area 
involved, NPS relies largely on self-inspection of boats and other 
equipment. With this in mind, as discussed in more detail below, the 
park and its partners are making efforts to educate recreational users 
in order to prevent the accidental spread of these invaders to other 
waters.
    Question 195. What types of changes are needed to prevent further 
introduction of this species and other invasive species into Lake Mead?
    Answer. Park staff are working with our partners to coordinate a 
response to contain the mussel's spread. The park is also making 
efforts to educate recreational users--boaters, fisherman, and divers--
in order to prevent accidental spread to other waters, including 
providing information on procedures to follow when taking equipment out 
of the water. Procedures include:

  <bullet> Draining the water from motors, live wells, and bilges on 
        land before leaving the immediate area of the lake;
  <bullet> Completely inspecting the vessel and trailer, removing any 
        visible mussels, and feeling for any rough or gritty spots on 
        the hull--these may be young mussels that can be hard to see;
  <bullet> Flushing the motor and bilges with hot, soapy water or a 5 
        percent solution of household bleach;
  <bullet> Cleaning and washing the trailer, truck, or other equipment 
        that comes in contact with lake water, as mussels can live in 
        small pockets anywhere water collects.

    In addition, when home, boats and other equipment should be air-
dried for at least 5 days before launching in any other waterway, and 
bait should not be reused once it has been exposed to infested waters, 
and tackle should be allowed to air dry for at least 5 days before 
fishing in other lakes and streams.
    Question 196. What is the suspected origin of the quagga mussels 
found in Lake Mead?
    Answer. Quagga mussels are normally spread through sources of 
standing water and by attaching themselves to boats, which are launched 
in one lake and later moved to a different lake. There is also a 
concern about the potential movement of quagga mussels by fish stocking 
operations. Quagga mussels are microscopic in juvenile life stages, 
making them impossible to detect solely by visual inspection.
    Question 197. How does the National Park Service plan to deal with 
the quagga mussels found in Lake Mead? What is the timeline for 
implementation and milestones to track success?
    Answer. Once established in a water body, there is no known method 
of eradication. Staff are currently working with state and federal 
partners in an effort to assess the extent of the infestation and to 
coordinate a response to contain the mussel's spread. The park is also 
making efforts, along with the 100th Meridian Initiative, a partnership 
of organizations focused on zebra and quagga mussel control, to educate 
recreational users--boaters, fisherman, and divers--in order to prevent 
accidental spread to other waters.
    The Columbia River 100th Meridian Initiative team has developed a 
zebra and quagga mussel rapid response plan, which includes a 
predetermined response management system that expedites decision-
making, information sharing, and seeks to avoid duplication of effort. 
An interagency response task force will guide the execution of the plan 
in the event of further spread to the Columbia basin. A current version 
of the plan is available at http://100thmeridian.org/ColumbiaRT.asp.
    Question 198. What is the estimated cost to control/eradicate the 
quagga mussels from Lake Mead?
    Answer. As noted above, once established in a body of water, there 
is no known method of eradication of the mussel. The NPS is currently 
focused on working with our state and federal partners to assess the 
extent of the infestation and to coordinate a response to contain the 
mussel's spread.

                      GRAND CANYON RAILWAY BUYOUT

    Question 199. In January 2007, the Grand Canyon Railway accepted a 
buyout from Xanterra Parks & Resorts. The buyout must be approved by 
the National Park Service before it is final.
    What is the history of the Grand Canyon Railway and any predecessor 
rail operation at Grand Canyon National Park?
    Answer. The Santa Fe Railway completed a spur from its main line at 
Williams, Arizona, to the South Rim in 1901. It ceased passenger 
service to the South Rim in 1968, then also ceased freight service in 
the early 1970's. In 1982, the Supreme Court ruled that the railroad 
had abandoned its easement rights within Grand Canyon National Park, 
which reverted to the federal government.
    In 1989, passenger service resumed under a concession permit issued 
to Grand Canyon Railway, Inc., a privately held corporation. Service 
has continued since 1989 under that ownership. Currently, Xanterra 
Parks & Resorts, L.L.C. is seeking to purchase the Railway, and the 
National Park Service is completing review of a sale and transfer 
package for this purpose.
    Question 200. How many visitors have used the railway to access 
Grand Canyon National Park each year since 1990?
    Answer. The following chart provides recent information relating to 
visitor access from the railway:

------------------------------------------------------------------------
                                                                Railway
                            Year                              visitation
------------------------------------------------------------------------
2006........................................................     238,380
2005........................................................     222,277
2004........................................................     210,866
2003........................................................     190,863
2002........................................................     178,595
2001........................................................     170,481
2000........................................................     168,712
1999........................................................     161,932
1998........................................................     143,185
1997........................................................     122,411
1996........................................................     118,371
1995........................................................      96,582
1994........................................................     106,864
1993........................................................     105,027
1992........................................................      99,942
1991........................................................     118,371
1990........................................................      97,290
1989........................................................      27,042
                                                             -----------
      TOTAL.................................................   2,577,191
------------------------------------------------------------------------

    Question 201. What is the relationship (e.g., contract, permit, 
business authorization, etc) between the National Park Service and the 
railway? How has that relationship changed throughout the history of 
the railway? What is the benefit to the National Park Service (i.e., 
franchise fee, permit fee, etc.)?
    Answer. The existing concessioner, Grand Canyon Railway, Inc., 
operates under a Concessions Permit which expired in 1994, and is 
operating under a continuation in order to avoid an interruption in 
visitor services. The NPS is developing a prospectus for this operation 
at this time.
    The Santa Fe Railway operated as a public transportation service 
along rights-of-way granted to it prior to the existence of Grand 
Canyon National Park. We are unaware of any special contractual 
relationships that might have existed during that time period.
    The existing concessioner pays an annual building use fee of 
$19,500, plus a franchise fee of $100 or 2% of gross receipts, 
whichever is greater, on applicable sales within Grand Canyon National 
Park.
    Question 202. How much money has the National Park Service or U.S. 
Treasury obtained each year since 1990 as a result of the relationship 
between the National Park Service and the railway and how have the 
funds been used?
    Answer.

------------------------------------------------------------------------
                                                     Bldg Use
                                                       Fees    Franchise
                       Year                          (Stay in   Fees (To
                                                      Park)    Treasury)
------------------------------------------------------------------------
1990..............................................    $19,500       $100
1991..............................................     19,500        100
1992..............................................     19,500        100
1993..............................................     19,500        100
1994..............................................     19,500        128
1995..............................................     19,500        223
1996..............................................     19,500        164
1997..............................................     19,500        185
1998..............................................     19,500        147
1999..............................................     19,500        181
2000..............................................     19,500        115
2001..............................................     19,500        100
2002..............................................     19,500        242
2003..............................................     19,500        224
2004..............................................     19,500        307
2005..............................................     19,500        492
2006..............................................     19,500        388
Accumulated Interest..............................     51,000
                                                   ---------------------
      TOTALS......................................    382,500      3,300
------------------------------------------------------------------------

    The fees have been used to improve the rail depot including site 
improvements, structural repairs, and roof.

                    NATIONAL PARK SERVICE CENTENNIAL

    Question 203. The National Park Service is asking for $3 billion in 
new funds over ten years. The funds would be derived from $100 million 
per year in discretionary funds, $100 million per year in federal funds 
to use in matching up to $100 million per year from public/private 
donations. $300 million represents about 12% of the NPS budget for FY 
2008 and the total of $3 billion over ten years exceeds the NPS budget 
for any year in its history.
    What specific goals have you set for the National Park Service for 
use of $300 million per year in discretionary funds for the next 10 
years?
    Answer. The National Park Service's budget represents the largest 
budget request ever for park operations and for those programs that 
benefit the national park system. The 2008 request includes $2.1 
billion for park operations, an increase of $258 million above the FY 
2006 enacted level.
    The NPS is requesting $40.6 million for seasonal employees, $20 
million for flex park base funding at 20 to 25 parks to improve natural 
and cultural resource condition, $35 million for regular and cultural 
cyclic maintenance, $3.4 million to expand the volunteer-in-parks 
program, and $1 million to grow the Junior/Web Ranger program. The $100 
million commitment will provide the impetus needed to enhance visitor 
operations and provide a legacy for the future. A visit to a national 
park unit should be safe, healthful, educational, and, above all, 
memorable.
    The operational component (President's Commitment) of $100 million 
in discretionary funds is complemented by $100 million in dedicated 
mandatory Federal funding (Centennial Initiative) that would be 
available to match up to $100 million in donations for signature 
projects and programs. The Challenge is designed to encourage 
philanthropists, foundations, park friends groups, park visitors, 
corporations, and private citizens to demonstrate their support for 
national parks. A legislative proposal has been transmitted to 
authorize this new source of funding. Once authorized, the funds 
leveraged through this public/private partnership will be used to 
accomplish signature projects and programs that protect park assets, 
preserve the heritage of America, maintain park facilities and improve 
the services offered by the NPS to its visitors. The process of 
selecting signature projects will be an outgrowth of the Centennial 
Report due to the President in May 2007, based on input gathered from 
the American people through listening session across the country. The 
Secretary will present examples of proposed signature projects and 
programs as part of the Centennial Report. The Department is also 
developing criteria and procedures for selecting these projects and 
programs. The list will be prepared by the Director of the National 
Park Service, drawing upon ideas generated through listening sessions, 
public engagement, and the input of Park Service professionals.
    Question 204. What are the top 10 priorities in each NPS Region for 
use of $300 million in discretionary funds per year?
    Answer. As discussed above, the President's Commitment of an 
additional $100 million will be used for both park specific needs and 
general program needs such as the volunteers-in-the-parks program and 
the Junior Ranger program. The $200 million that is the Centennial 
Initiative will be used for signature projects and programs to be 
designated by the Director of the National Park Service after listening 
sessions held throughout the country. We also contemplate that 
signature projects and programs will, from time to time, be added to 
the list submitted to the President in May 2007. While we are examining 
the normal priority lists developed by each NPS region, we have not 
asked them to develop priority lists for the $300 million increase.
    Question 205. What type of restrictions do you intend to place on 
the National Park Service on use of the $300 million per year in 
discretionary funds?
    Answer. No funds will be available for any project or program for 
which the National Park Service does not have the authority to spend 
funds. The $200 million that is the Centennial Initiative will only be 
available for signature projects and programs. As mentioned above, the 
list will be prepared by the Director of the National Park Service, 
drawing upon ideas generated through listening sessions, public 
engagement and the input of Park Service professionals. The Department 
is developing the restrictions or guidelines for selecting signature 
projects and programs.
    Question 206. Does your request for $3 billion in discretionary 
funds over the next ten years mean that the Administration has 
corrected the National Park Service maintenance backlog?
    Answer. The maintenance backlog identified in 2000 was based on the 
best information available at the time, but it was not based on the 
comprehensive review of facility conditions or compiled through the 
systematic process that we have today. We now know that the maintenance 
of our parks is an ongoing and dynamic process with the backlog being 
the gap between current and acceptable facility conditions rather than 
a static number.
    Since 2002, President Bush has invested over $5 billion to 
significantly improve the condition of park facilities. Between 2002 
and 2007, the National Park Service has undertaken more than 6,600 
maintenance projects. NPS has information about its assets that it has 
never had before--systematic information about its inventory, the value 
of assets, comprehensive condition assessments of all assets measures 
to compare targets with actual results. This information has been used 
to prioritize facilities maintenance investments and to link budget 
decisions to maintenance or achievement of target facility condition 
goals.
    As part of the Centennial Initiative, funding of $25.0 million is 
requested to focus on enhancing the regular Cyclic Maintenance program 
at the parks. With the additional funding, parks will be able to 
increase their cyclic maintenance programs to assist in preventing the 
deterioration of the NPS assets. By increasing the project dollars, 
parks will have the ability to maintain recently rehabilitated and/or 
repaired assets in a state of good condition, as well as continuing to 
maintain assets that are presently in a fair or good condition. Cyclic 
eligibility requirements and criteria are intended to maximize cyclic 
maintenance work, so that assets are maintained on a predictive cycle 
rather than falling into disrepair. The highest priorities are those 
assets that are mission critical and are still in a maintainable 
condition, but could fall into poor condition without the proper 
application of life cycle maintenance. With this and other increases, 
the FCI for all regular assets is expected to improve by 0.004 from FY 
2007 and not deteriorate to the level expected without the increases. 
This could impact as many as 707 historic structures. In addition, some 
of the signature projects, such as those that rehabilitate historic 
structures, may address deferred maintenance needs.

     Responses of the Department of the Interior to Questions From 
                             Senator Akaka

              NATIONAL PARK SERVICE--CENTENNIAL INITIATIVE

    Question 207. I have some questions about the Centennial Challenge, 
but let me first say I am pleased to hear about this innovative 
proposal and look forward to reviewing the proposed legislation. I 
understand this new authorizing legislation is still in development, 
and I look forward to developing this program with you. There is no 
question that we need to bring the philanthropic community to partner 
with National Parks, because we have much to gain, and this is a very 
ambitious goal.
    What, specifically, makes you optimistic that you can raise $100 
million per year? If you don't raise the target $100 million, does that 
mean that the matching funding won't be released from the Treasury?
    Answer. There has already been significant interest in the 
Centennial Challenge. Donors throughout the country are excited about 
the opportunity to have their donations matched by a significant 
commitment of new Federal money. The intent of the Challenge is to 
match donations up to $100 million. If we only raise $50 million in a 
fiscal year and the projects are 1:1 matches, then only $50 million of 
Federal funds will be deposited in the Challenge Fund. The intent is to 
provide an incentive for our partners to donate early in the process; 
if the availability of matching funds could roll over into future 
years, some donors might decide to wait until the end of the 10-year 
period.
    Question 208. The idea is to have a national ``call'' for proposals 
for matching funds. But won't this compete with the local ``friends 
groups'' of each of the National Parks?
    Answer. No. We see the Challenge as a wonderful opportunity for 
local friends groups. Under existing law, their donations are usually 
not matched. Under the Centennial Challenge, local friends groups have 
an opportunity to have their projects added to the list of signature 
projects and programs and thus be eligible for this new matching 
funding. Even if their projects are not chosen for the list, they end 
up in a position no different than the one they are in now.
    Question 209. What kind of assurance can you give us that the 
Challenge funding will benefit all States or geographic regions of the 
country? Most donors want to ``give'' to specific parks or projects, so 
how will other areas benefit?
    Answer. We are holding listening sessions throughout the United 
States. The National Park Service is mindful of the need to ensure that 
all geographic regions of the country benefit from the Challenge. We 
anticipate that a number of the programs added to the list will be 
programs that benefit a broad range of parks, as opposed to a 
particular individual park.
    Question 210. Have you undertaken studies to see which partnership 
ventures work well with donor organizations--are there success models 
in San Francisco with the Presidio, or other sites around the U.S., 
such as the Statue of Liberty?
    Answer. We are well aware of the partnership ventures that have 
worked well within the National Park System. We have worked with the 
leaders of those ventures within the National Park Service, as well as 
others groups, such as the Presidio Trust and the Statue of Liberty-
Ellis Island Foundation, in the development of this proposal and will 
continue to work with them during its implementation.
    Question 211. What specific preparations are you undertaking to 
reach out to the private sector? Is the one-to-one match a proper 
incentive to draw capital?
    Answer. We have already received interest from the private sector. 
As mentioned above, we are holding listening sessions throughout the 
country. We are also relying upon our partners to work with us in 
engaging the private sector. We believe a 1:1 match is a significant 
incentive in drawing capital.
    In closing on this Centennial Initiative, I want to thank you once 
again, Mr. Secretary, on thinking outside the box, to bring us this new 
Initiative. The ``challenge'' part of the initiative is welcome, to me, 
and I look forward to working with you on the details.

                        INVASIVE SPECIES FUNDING

    Question 212. I appreciate the invasive species cross-cut that you 
have provided in the FY2008 budget across all the DOI bureaus, 
including the amounts spent on prevention, rapid response, control and 
management, and restoration.
    As you know, I have monitored the funding for invasive species and 
have introduced bills to increase the spending and cooperation with 
states to fight invasive species. Hawaii has a serious problem with 
invasive species. As you can imagine, all species love to come to 
Hawaii to visit, and they like to stay. The number of invasive species 
is probably greater in Hawaii than in any other state.
    I notice a slight decrease in the funding since FY 2006--about a 2 
percent decrease. Is there any reason that your request is lower this 
year? How will you keep up with the growing number of acres that are 
fighting invasive species when you decrease your budget request? And 
for the record, can you please estimate how much of that money will be 
targeted in Hawaii?
    Thank you. I will be reintroducing my invasive species bill again 
soon, and I look forward to working with you on this.
    Answer. Given the wide range of habitats and natural resources 
managed by the Department, the control of invasive species is an 
important function, and the Department continues to make progress in 
the control of invasive species. The total funding requested by the 
Department for invasive species activities has actually increased 
almost 3 percent from the Department's FY 2006 budget request ($60.0 
million) to the Department's FY 2008 budget request ($61.7 million).
    While the Department does not segregate invasive species action 
funding by individual state, we are carrying out important work on 
invasive species in Hawaii. For example, NPS, as part of its Centennial 
Initiative, is increasing the cyclic maintenance for historic 
properties, such as Kaloko-Honokohau National Historic Park. Plans 
there are to remove invasive vegetation, which is toppling walls, 
uprooting foundations, obscuring petroglyphs, and disturbing midden 
deposits at an archeological site that is a contributing element of the 
Honokohau Settlement National Landmark District.
    Funding in the FY 2008 budget request will also allow the National 
Wildlife Refuge System to continue operation of five Invasive Species 
Strike Teams, including one in Hawaii and the Pacific Islands, which 
will prioritize early detection and rapid response to newly emerging 
infestations. In addition, USGS is focusing research in Hawaii on the 
ecology and control of highly invasive plants (e.g., miconia, faya 
tree, strawberry guava, Kahili ginger), including exploration and 
testing for biological control agents; animals (e.g., Argentine ant, 
yellow jackets, brown tree snake on Guam); wildlife disease organisms; 
and methods for reducing the impacts of invasive species on the 
region's unique native flora and fauna.

                           PARKS OVERFLIGHTS

    Question 213. As you know, I am concerned about the ability of the 
Park Service to implement the National Parks Air Tour Management Act, 
enacted in 2000, under current funding scenarios. Can you please 
provide for the record the funding and staff levels for the proposed 
budget for FY 2008, and enacted levels for FY 2006 through 2007. (When 
the 2007 CR is signed into law.)
    Answer. The table below lists the NPS' FY 2006 and requested FY 
2008 staffing and funding levels for Air Tour Management Plans (ATMPs), 
which are part of the Natural Sounds Program. The NPS proposed a $2.4 
million increase in the FY 2007 budget request, which is assumed as 
part of the FY 2008 request. The FY 2007 operating plan funded this 
program at the FY 2007 requested level. Please note, the dollar figures 
provided include: 1) funding provided to the Volpe Center, the 
contractor used by the FAA for the development of Air Tour Management 
Plans and 2) funding used by the NPS to develop the foundation for 
ATMPs, including the development of an MOU with the FAA, an 
Implementation Plan for ATMPs, ATMP regulations, and monitoring 
protocols.

                      [Dollar Amounts in Thousands]
------------------------------------------------------------------------
                                                     Staffing     Base
                                                      (FTE)     Funding
------------------------------------------------------------------------
FY 2006...........................................          4     $1,233
FY 2007 Op. Plan..................................          6     $3,635
FY 2008 Req.......................................          6     $3,635
------------------------------------------------------------------------

               CLEAN VESSEL ACT--FISH & WILDLIFE SERVICE

    Question 214. I notice that you have an increase in the Clean 
Vessel Act Grants, an extremely worthwhile program that we in Hawaii 
would like to participate in.
    We need pumpout facilities because of the increasing numbers of 
sport fishing and eco-tourism boats in Hawaii and our goal of 
maintaining good water quality along the coast.
    There is an increase of $300,000 in FY2008, but the program is 
generally level-funded over the years.
    What is your rationale for not requesting more funds for this 
program that helps counties and localities with siting and building 
pumpout stations?
    Answer. The Clean Vessel Act grant program is one of six grant 
programs authorized by Congress (Sport Fish Restoration, Multistate 
Conservation, Coastal programs, Clean Vessel, Boating Infrastructure, 
and National Outreach and Communications) plus four Fisheries 
Commissions, the Sport Fishing and Boating Partnership Council, and 
Boating Safety, that are funded through the Sport Fish Restoration and 
Boating Trust Fund. The program does not require appropriations because 
there is permanent authority to use the receipts deposited into the 
Fund in the fiscal year following their collection. By statute, two 
percent of the Sport Fish Restoration Trust Fund is allocated to FWS 
every year for qualified projects under the Clean Vessel Act.
    Can you please advise me on the disposition of those grants, for 
the record if you prefer, and whether Hawaii has participated in these 
funds in the past?
    Answer. Grant funds are competitively awarded by FWS to an 
appropriate State Agency, typically a division of the Department of 
Natural Resources or similar environmental department. We recognize 
there is a great need in Hawaii for the projects funded through this 
program. Though Hawaii has participated in the program in the past, it 
has infrequently submitted applications for these grants. I am happy to 
tell you, however, that in the FY 2006 cycle, the most recent for which 
information is available, Hawaii received $1 million in grant funding.

     Responses of the Department of the Interior to Questions From 
                            Senator Menendez

    Question 215. The budget as submitted calls for the specific amount 
of $100 million to be set aside each year for ten years, but 
fundraising campaigns often experience significant variances in the 
rate at which private funds are committed and/or pledges fulfilled. Is 
there a mechanism in place to ensure that the federal funds set aside 
can be ``saved'' in the event that a particular year yields less than 
$100 million private funds but is followed by a year yielding far more 
than the $100 million set aside? In other words, is there a means by 
which the federal match can be managed to the often variable pace of 
private fundraising?
    Answer. The Administration's proposal requires that the private 
money be matched in the year it is donated; i.e. if a particular year 
yields less than $100 million in donations, the unused balance of that 
$100 million will not be carried over to the next fiscal year. The 
intent is to provide an incentive for our partners to donate early in 
the process; if the availability of matching funds could roll over into 
future years, some donors might decide to wait until the end of the 10-
year period. However, the proposal allows for the matching of letters 
of credit in any given fiscal year. This allows donors to make an 
irrevocable pledge of funds and have that money matched in the year the 
letter of credit is provided. This will enable the National Park 
Service to better manage receipt of donations over more than one fiscal 
year so as to maximize use of the $100 million available in each fiscal 
year.
    Question 216. Will the NPS partnership policies, recently revised 
and updated, continue to be reviewed and adjusted within existing laws 
so that the most effective public-private partnerships possible can be 
developed and advanced?
    Answer. We will continue to look for ways within existing law to 
provide the most effective public-private partnerships we can under 
this proposal.
    Question 217. How will decisions be made regarding which parks and 
which projects will receive funds raised through the NPS Centennial 
Campaign Initiative? Is there a process in place and has input from the 
parks' private partners been considered in the development of such a 
process?
    Answer. The Challenge is designed to encourage philanthropists, 
foundations, park friends groups, park visitors, corporations, and 
private citizens to demonstrate their support for national parks. A 
legislative proposal has been transmitted to authorize this new source 
of funding. Once authorized, the funds leveraged through this public/
private partnership will be used to accomplish signature projects that 
protect park assets, preserve the heritage of America, maintain park 
facilities and improve the services offered by the NPS to its visitors. 
The process of selecting signature projects will be an outgrowth of the 
Centennial Report due to the President in May 2007, based on input 
gathered from the American people through listening sessions across the 
country. This includes soliciting input from the parks' private 
partners. The Secretary will present examples of proposed signature 
projects and programs as part of the May report to the President as 
part of the Centennial Report. The Department is also developing 
criteria and procedures for selecting these projects and programs. The 
list will be prepared by the Director of the National Park Service, 
drawing upon ideas generated through listening sessions, public 
engagement, and the input of Park Service professionals.
    Question 218. Regarding the de-staffing of National Wildlife 
Refuges across the country, the Fish and Wildlife Service has been 
working on a ``workforce restructuring'' plan on a region-to-region 
basis. While this work is admirable and making the best of a bad 
situation, what plans are in place to keep the public safe in an open 
park without a staff? How do you prevent vandalism? How do you protect 
the wildlife refuge and the visitors at the same time? How do you keep 
it clean? How do you protect against illegal ATV use without an 
enforcement staff? How do you maintain the habitat and protect against 
invasive species?
    Answer. Not all refuges are currently staffed or, in fact, need to 
be staffed. While complexing may lead to reduced staff on some refuges, 
the overall goal is to ensure the Refuge System mission is accomplished 
while continuing to provide priority services and wildlife-dependent 
recreation opportunities. Based on the Service's experience with 
previously complexed refuges, we believe that in select locations this 
approach can help achieve these goals.
    The Service has also found that the Refuge System relies on its 
many Friends Groups and thousands of volunteers. In addition, events in 
recent years have highlighted the importance of law enforcement 
operations within the refuge system, and the Service has responded by 
improving refuge law enforcement capabilities. Among the management 
improvements, the refuge system developed the Law Enforcement 
Assessment and Deployment Model (LEAD) as a strategic workforce plan 
for Refuge Law Enforcement. Developed by the International Association 
of Chiefs of Police, the model is applied to field data received for 
each refuge to help estimate an approximate number of the ``full time 
equivalents'' of law enforcement staffing that may be appropriate to 
protect a refuge, its assets, resources, and borders of that size and 
complexity.
    The refuge system has also instituted a ``Zone System'' to provide 
critical law enforcement planning, deployment, and support to multiple 
wildlife refuges with maximum efficiency through experienced officers. 
A Zone Officer provides refuges within his or her designated zone with 
technical assistance on law enforcement, institutes reliable record-
keeping and defensible reviews, enhances training, and promotes 
communication and coordination with other law enforcement agencies.
    Another planned improvement is to replace dual-function officers, 
who currently dedicate 25 to 50 percent of their time to law 
enforcement activities and the balance on traditional conservation and 
wildlife-dependent recreation programs, with full-time officers to 
improve effectiveness and efficiency. This will also allow current 
dual-function officers to focus on their primary duties.
    Finally, Refuges currently without full-time officers or with 
inadequate coverage also rely on partnerships with local, county, and 
State law enforcement officers and other federal agencies.

     Responses of the Department of the Interior to Questions From 
                             Senator Thomas

                          CENTENNIAL CHALLENGE

    Question 219. Mr. Secretary, I was honored to have joined you in 
launching the NPS Centennial Challenge at Yellowstone National Park in 
August of last year. I am also very pleased with the federal investment 
President Bush has committed in his budget as part of this important 
initiative.
    In what ways will the Centennial Initiative improve visitor 
services?
    Answer. The Centennial Initiative includes $40.6 million for 3,000 
new rangers, $20.0 million in flexible park base funding, $35.0 million 
for cyclic maintenance, $3.4 million for the Volunteers-in-Parks 
program, and $1.0 million for the Junior/WebRanger program. The funding 
increases proposed will establish a park system for the 21st Century 
with a wide range of visitor services, including interpretive and 
educational programs, staffing for visitor centers, appropriate levels 
of security and safety at parks, and facilities and resources in 
acceptable or good condition. For example, the Centennial Initiative 
supports park operations with 3,000 additional interpretation, 
maintenance, and law enforcement seasonal employees to help during 
periods of peak visitation. The Centennial Initiative also improves 
visitor services by adding funds for cyclic maintenance so that parks 
can adhere to their preventive maintenance schedules for visitor 
facilities.
    Volunteers currently provide over five million hours of service at 
national parks throughout the United States. These volunteers work with 
park scientists to protect endangered species, assist in the repair of 
facilities, remove invasive plants, assist archeologists conducting 
surveys, and assist rangers with visitor activities at campgrounds and 
visitor centers. There remains, however, an untapped reserve in the 
communities surrounding parks that can contribute to enriching the 
parks' experience for visitors. As part of the Centennial Initiative, 
the 2008 budget request proposes a $3.4 million increase to the 
Volunteers-in-Parks program to capture the untapped reserve of 
volunteers.
    Question 220. Who will decide how the $100 million dollars in 
discretionary funds is allocated each year?
    Answer. The future allocation of discretionary funds under the 
Centennial Initiative will be decided in the ordinary way in which 
those funds are allocated: the Administration will present its budget 
to the Congress and the appropriations process will result in the final 
allocation. For FY 2008, there are five discretionary programs, 
totaling $100 million, that are part of the Centennial Initiative: 
$40.6 million for 3,000 new rangers; $20.0 million in flexible park 
base funding; $35.0 million for cyclic maintenance; $3.4 million for 
the Volunteers-in-Parks program; and $1.0 million for the Junior/
WebRanger program.
    Question 221. What criteria will be used to decide which signature 
projects and programs are awarded a federal match?
    Answer. The process of selecting signature projects will be an 
outgrowth of the Centennial Report due to the President in May 2007, 
based on input gathered from the American people through listening 
sessions across the country. This includes soliciting input from the 
parks' private partners. The Secretary will present examples of 
proposed signature projects and programs as part of the May report to 
the President as part of the Centennial Report. The Department is also 
developing criteria and procedures for selecting these projects and 
programs. The list will be prepared by the Director of the National 
Park Service, drawing upon ideas generated through listening sessions, 
public engagement, and the input of Park Service professionals.
    Question 222. Who will administer the federal matching program and 
how much will it cost to administer?
    Answer. The National Park Service will administer the federal 
matching program. Until it is determined what form the federal matching 
program will take, which is dependent on the passage of legislation, it 
will be difficult to estimate the full cost of administering the 
program. In the interim, the 2007 operating plan and the 2008 budget 
request include $300,000 to cover initial administration costs.
    Question 223. What kind of private donations will qualify for the 
NPS Centennial Challenge initiative? Specifically, will gifts or 
partial gifts of in holdings qualify?
    Answer. The Administration proposal specifies that only cash 
donations are eligible for matching funds, in large part due to the 
complexity of tracking and valuing the various forms of non-cash 
donations. Gifts and other non-cash donations, such as land, would 
continue to be welcomed, but would not be matched.
    Question 224. There does not appear to be any offsets in the 
President's FY08 budget for the $100 million in discretionary funds and 
the $100 million in mandatory funds that require a match. Do you have 
an offset in mind to help Congress in passing this Centennial Challenge 
funding request?
    Answer. The discretionary and mandatory funding increases are 
offset within the President's budget. As part of the President's budget 
for the Department of the Interior, there are a number of mandatory 
proposals with collective savings that exceed the costs of this 
proposal and could be used as an offset.

                            PARKS OPERATIONS

    Question 225. The President's budget requests a $250 million over-
all increase in park operations, the largest single increase in Park 
Service history.
    How will the National Park Service efficiently manage this large 
increase?
    Answer. The needs identified in the FY 2008 budget were identified 
and prioritized by program directors, superintendents, and regional 
directors through the Operations Formulation System (OFS). One of the 
criteria in the OFS process is that the funds could be quickly and 
efficiently executed. We understand that the increase is large overall, 
but once it is distributed to the various parks, the actual increase 
for each park will be manageable. We are taking the steps necessary to 
allow implementation and are confident that the dedicated park managers 
have targeted these funds to address priority park needs.

                            SCOPE OF THE NPS

    Question 226. The National Park Service has been expanding in the 
number and diversity of units since its inception. What started as an 
array of parks and monuments was expanded to include historic sites, 
landmarks, memorials, national seashores, national recreation areas, 
etc. The mission has evolved significantly during the past 90 years.
    How would the President's budget address the seemingly exponential 
growth of the National Park Service?
    Answer. The additional funds for park base increases also address 
new responsibilities added to the National Park System. Within the 
allowance provided to the NPS in each budget, requirements for new 
programs and units are accommodated to the extent possible. Of the 
$40.561 million requested in 2008 for park base increases, $10.515 
million is targeted at new responsibilities.
    Question 227. Do you believe the National Park Service budget helps 
define and reinforce the appropriate scope for the agency?
    Answer. Yes, the budget is a result of many management tools, such 
as business plans and core operations analyses, used by the National 
Park Service to best define what the Service should be doing within its 
statutory authorities. The tools help the NPS managers to not only 
identify what can be done, but also to ask if it should be done. In 
this way, the NPS is focusing available resources on its core 
responsibilities and priorities.
    Question 228. How many national park system units were in existence 
prior to the Organic Act of 1916 and how many have been added each 
decade since that time?
    Answer. Prior to the 1916 Organic Act, there were 35 properties 
that later became units of the National Park System.
    Units added per decade follow:

------------------------------------------------------------------------
                            Decade                               Units
------------------------------------------------------------------------
Pre 1920.....................................................         47
1920's.......................................................         16
1930's.......................................................         50
1940's.......................................................         26
1950's.......................................................         22
1960's.......................................................         71
1970's.......................................................         82
1980's.......................................................         34
1990's.......................................................         29
2000's.......................................................         13
------------------------------------------------------------------------

    There are currently 390 units of the National Park System.
    Question 229. How has the number of National Park Service employees 
and budget changed each decade since 1916?
    Answer.

                  NATIONAL PARK SERVICE HISTORY BY DECADE: APPROPRIATIONS, EMPLOYEES, AND PARKS
                                          [Dollar Amount in Thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                                          Park
                                                               Park Ops          Total      Employees    Units
----------------------------------------------------------------------------------------------------------------
FY 1916...................................................              $0              $0  .........         34
FY 1917...................................................            $236            $533  .........         38
FY 1926...................................................          $1,478          $3,218  .........         53
FY 1936...................................................          $2,604         $16,696  .........        143
FY 1946...................................................          $5,427          $5,487  .........        168
FY 1956...................................................         $20,787         $48,866  .........        186
FY 1966...................................................         $61,410        $197,977  .........        237
FY 1976...................................................        $255,203        $598,459     13,684        287
FY 1986...................................................        $610,634        $825,805     15,734        338
FY 1996...................................................      $1,081,772      $1,361,050     19,918        369
FY 2006...................................................      $1,718,591      $2,316,344     20,056        390
FY 2008 Req...............................................      $1,969,010      $2,363,784     21,589        390
----------------------------------------------------------------------------------------------------------------
Note.--Appropriation totals include supplemental appropriations.
Note.--Employees represent full-time equivalent of regular hours worked each year. Information on employment is
  not readily available before 1976.

    Question 230. What was the mission of the original national park 
custodians prior to the Organic Act of 1916 and how has the mission 
changed since 1916? 
    Answer. Prior to the 1916 Organic Act, the parks were generally 
managed as independent entities. For the most part, their mission was 
dictated by the statute or Presidential proclamation that established 
them. Following enactment of the ``Antiquities Act'' in 1906, the 
Secretaries of Interior, Agriculture, and War adopted uniform rules and 
regulations that helped to further shape the sense of mission 
applicable to the park units that were established under that 
authority. The NPS mission was greatly clarified with the enactment of 
the 1916 ``Organic Act.'' It instructed the NPS to promote and regulate 
the use of the Federal areas known as national parks, monuments, and 
reservations by such means and measures ``as conform to the fundamental 
purpose of the said parks, monuments, and reservations, which purpose 
is to conserve the scenery and the natural and historic objects and the 
wild life therein and to provide for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.'' That mission has not changed since 
1916. However, our understanding of the park resources entrusted to our 
care, and what is required to properly care for them, has grown 
substantially.
    Question 231. What is the precedent for the national park service 
to serve in an advisory/funding capacity for non-units such as National 
Heritage Areas?
    Answer. Since 1916, the National Park Service has been the Federal 
agency responsible for preserving nationally significant natural and 
historic resources for present and future generations. Heritage Areas 
allow the Park Service to fulfill this mission without having to 
acquire or manage more land. Instead, NPS assists citizens who express 
the initiative to protect their nationally important resources. 
Fostering local stewardship of distinct and largely intact historic and 
cultural landscapes allows the National Park Service to work more 
directly with the public in the direct preservation and protection of 
important landscapes that have helped define a distinctly American 
identity.
    Question 232. How does the National Park Service determine the 
number of personnel and budget to assign to a new unit of the national 
park system?
    Answer. The determination of the optimum operational level of a 
site evolves through management planning. New sites come to the 
National Park Service in a variety of ways and conditions. Some may 
already have visitor centers while others may have a lot of development 
that has to be reversed or completed in order for visitors to fully 
understand the values for which the site was given the designation. The 
plan on how best to interpret and preserve those values requires a lot 
of discussion within the organization and with partners and neighbors.
    Generally, when the site is first acquired, responsibility for the 
site is assigned to a superintendent of a nearby park unit or a new 
park manager is appointed. Initial funding may come from the regional 
contingency fund until the park's needs are identified. That person 
will work with regional support to create a general management plan and 
other documents that identify how the park should be managed and the 
visitor facilities that are needed. If the site has many undesired 
facilities or the land needs to be restored from prior land uses, it 
can take several years before the site is considered ``operational.''
    In the meantime, the park manager assembles a management team to 
work with partners, develop strategies and bring areas or facilities 
into operation. The funding needs of the site are prioritized along 
with other NPS sites and needs are addressed, as budget priorities and 
allowances dictate.

                               VISITATION

    Question 233. In recent years, the National Park System has 
experienced a decrease in overall visitation.
    How might the increased fee for the America the Beautiful National 
Parks and Federal Recreational Lands Pass affect visitation?
    Answer. The research conducted in 2006 by the University of Wyoming 
to assist in pricing the new interagency pass indicates that an 
increase in pass price should have very little effect on the total 
visitation to units of the National Park System. The new interagency 
pass is one of several payment options available to visitors. Visitors 
will continue to have the option to pay the entrance fee for their 
visit to a particular park at the gate. The entrance fees range from $3 
to $25 and typically cover entrance for a period of time ranging from 1 
to 7 days, depending on the site. Visitors also will have the option to 
purchase an annual pass for a particular park. These single site annual 
passes range in price from $10 to $50.
    Question 234. How many visitors has each park unit received each 
year since October 1, 1996? Provide a list organized by region, state, 
and park unit.
    Answer. The National Park Service will provide the spreadsheets 
entitled ``NPS Recreational Visits Administrative Region,'' ``NPS 
Recreational Visits by State,'' and ``NPS Recreational Visits by Park 
Unit'' under separate cover, due to the volume of this request.
    Question 235. How has the number of visitors to each park changed 
since September 11, 2001?
    Answer. Park visitation significantly dropped in 2002 and in 2003 
after September 11, 2001. The drop was partly as a result of partial 
closures of some sites as well as a sharp reduction in international 
travelers coming to the United States. In 2004, there was a sharp rise 
in visitation with a system-wide growth of over 10 million visits. 
During the 4th quarter of 2006, receipts from international travel to 
the U.S. finally surpassed the pre-September 11 levels. The document 
provided under separate cover in our answer to question 234, ``NPS 
Recreational Visits by Park Unit (1996-2006),'' also provides some 
information. The most relevant comparison is between 2000 (the last 
full year of visitation prior to September 11, 2001) and 2006.
    Question 236. Which parks have seen the greatest reduction in 
visitation since September 11, 2001?
    Answer. The following parks have recorded the greatest reduction in 
recreational visits between 2000 (the last full year prior to September 
11) and 2006. Some changes have little to do with the effects of 
September 11, but are from lingering impacts of natural disasters 
(e.g., Gulf Islands NS) and changes in visitor counting methods (e.g., 
Cuyahoga Valley NP, Mammoth Cave NP, Statue of Liberty NM).

------------------------------------------------------------------------
                                                          Amount
------------------------------------------------------------------------
Boston NHP.....................................          -506,420 (-21%)
Cape Hatteras NS...............................          -522,378 (-20%)
Cumberland Gap NHP.............................          -583,457 (-38%)
Cuyahoga Valley NP.............................          -856,102 (-26%)
George Washington PKWY.........................        -1,024,948 (-29%)
Glen Canyon NRA................................          -682,733 (-27%)
Gulf Islands NS................................        -2,603,779 (-57%)
Lake Meredith NRA..............................          -578,141 (-36%)
Mammoth Cave NP................................        -1,151,334 (-66%)
Statue of Liberty NM...........................        -2,246,121 (-41%)
White House....................................          -693,763 (-59%)
------------------------------------------------------------------------

    Question 237. Which changes in security or restricted access for 
security reasons have contributed to a reduction in visitation?
    Answer. The greatest effect on visits from changes in security has 
occurred at the White House. Following modification of the tour policy 
after September 11, 2001, visitation dropped significantly. In 2006, 
almost 700,000 fewer people toured the White House than in 2000, the 
last full year before the September 11th attacks. The drop in 
visitation at Statue of Liberty NM is not due to its security changes, 
but to a 2006 change in counting instructions that eliminated double-
counting of people visiting both Liberty Island and Ellis Island on the 
same day. No significant impacts of security changes at Independence 
NHP or the Washington Monument have been noted.
    Question 238. What is the National Park Service doing to increase 
visitor diversity? What type of advertisements, employee sensitivity 
training, interpretive programs, exhibits, or other efforts has the NPS 
initiated to increase visitor diversity? Provide specific examples from 
each region.
    Answer. The National Park Service is increasing its use of 
``culturally relevant'' interpretation to connect with diverse ethnic 
and racial groups. Many Civil War battlefields now include 
interpretation not only of battle tactics, but of the greater fight to 
abolish slavery. The 20th century fight for civil rights is told at 
several units of the National Park System, ranging from Brown vs. Board 
of Education National Historic Site in Kansas, to Little Rock Central 
High School, to the birthplace of Martin Luther King, Jr. in Atlanta. 
At Manzanar National Historic Site in California, the site of a 
Japanese American internment camp during World War II, culturally 
relevant interpretation could better serve the thirty-one percent of 
visitors to that park who are of Asian descent. The challenge faced by 
the National Park Service is to extend this program to sites where the 
cultural connections are not as clear, but where the visitor experience 
could be enhanced through such interpretive services.
    In addition, we are conducting a pilot project at Cuyahoga Valley 
National Park and the Ohio and Erie Canal National Heritage Corridor 
that involves outreach to predominantly African American neighborhoods 
in Akron, Ohio. The objective is to increase the use of the canal 
towpath by neighborhood residents for walking and bicycling. The park 
is working with leaders of the African American community to develop an 
effective outreach program, and it is cooperating with the National 
Park Service Social Science Program and university researchers to 
evaluate the impact of the outreach program.
    Question 239. Which units of the National Park Service have had the 
greatest success in increasing visitor diversity? Provide one or more 
units within each region as examples and a description of the visitor 
diversity program at each.
    Answer. Please see the answer provided above to question 238.

                          MAINTENANCE BACKLOG

    Question 240. In the 2000 presidential campaign, the condition of 
national park facilities became an issue and specific park structures 
were highlighted as sites in need of urgent repair. The 
Administration's overall maintenance needs became known as the 
maintenance backlog and ultimately the deferred maintenance program.
    How many maintenance projects were identified as part of the 
maintenance backlog in 2002? How many of those have been brought to 
current standards for use? Provide a list of maintenance projects 
performed as part of the maintenance backlog and cost of each by park 
unit and state since October 1, 2002.
    Answer. The maintenance backlog identified in 2000 was based on the 
best information available at the time, but it was not based on the 
comprehensive review of facility conditions or compiled through the 
systematic process that we have today. We now know that the maintenance 
of our parks is an ongoing and dynamic process with the backlog being 
the gap between current and acceptable facility conditions rather than 
a static number. The backlog is not the total amount of all deferred 
maintenance in all parks, for that would suggest an unrealistic goal of 
bringing all facilities up to perfect condition.
    Since 2002, President Bush has invested over $5 billion to 
significantly improve the condition of park facilities. Between 2002 
and 2007, the National Park Service has undertaken more than 6,600 
maintenance projects. The information on the specific projects is 
listed on a spreadsheet that is more than 500 pages. We would be 
pleased to brief the committee on this compilation.
    In addition, NPS has information about its assets that it has never 
had before--systematic information about its inventory, the value of 
assets, comprehensive condition assessments of all assets measures to 
compare targets with actual results. This information has been used to 
prioritize facilities maintenance investments and to link budget 
decisions to maintenance or achievement of target facility condition 
goals.
    Question 241. What is the facilities condition index and how has it 
been applied to address the maintenance backlog?
    Answer. The facility condition index (FCI) is the ratio of deferred 
maintenance to the current replacement value, so the lower the ratio, 
the better condition of the asset. FCI is now a government-wide measure 
used by all agencies, as part of the Real Property initiative in the 
President's Management Agenda. NPS uses the Facility Management 
Software System to link information derived through facility condition 
assessments to an industry-standard cost-estimating tool. Once the FCI 
is determined for individual assets, the NPS establishes a service-wide 
FCI baseline and then uses the baseline to determine target ranges for 
future conditions. NPS has established an initial FCI baseline for 
eight major categories of regular assets--buildings, campgrounds, 
trails, paved roads, unpaved roads, water systems, wastewater treatment 
plants, and employee housing. This process allows NPS to evaluate the 
impact of a particular funding level on asset performance and condition 
and quantify the consequences of delaying or not accomplishing the 
repairs. It also allows managers to compare progress over time and 
between areas to identify the best results.
    Question 242. In addition to the facilities condition index, what 
procedures has the National Park Service initiated since October 1, 
2002, to manage and reduce the maintenance backlog?
    Answer. For the first time ever, the NPS has established the Asset 
Management Program to assist NPS managers in monitoring and 
prioritizing ongoing maintenance needs. Through this program, NPS 
conducts an inventory of maintenance needs, identifies deficiencies, 
estimates cost of repair and the current replacement value of park 
assets, and applies a facility condition index (FCI) and asset priority 
index (API) to make informed decisions about how to optimize 
investments in park facilities. The API is used by park managers to 
identify the importance of the asset in accomplishing the park's 
mission and represents an important step in prioritizing the allocation 
of maintenance funds. NPS has also developed an Asset Management Plan, 
as required under the government-wide Real Property initiative, and is 
developing preventive maintenance schedules to determine the investment 
needed to sustain assets.
    Question 243. What is the status of the National Park Service 
effort to correct the maintenance backlog?
    Answer. The maintenance backlog identified in 2000 was based on the 
best information available at the time, but it was not based on the 
comprehensive review of facility conditions or compiled through the 
systematic process that we have today. We now know that the maintenance 
of our parks is an ongoing and dynamic process with the backlog being 
the gap between current and acceptable facility conditions rather than 
a static number. The backlog is not the total amount of all deferred 
maintenance in all parks, for that would suggest an unrealistic goal of 
bringing all facilities up to perfect condition.
    Since 2002, President Bush has invested over $5 billion to 
significantly improve the condition of park facilities. In addition, 
NPS has information about its assets that it has never had before--
systematic information about its inventory, the value of assets, 
comprehensive condition assessments of all assets, and measures to 
compare targets with actual results. This information has been used to 
prioritize facilities maintenance investments and to link budget 
decisions to maintenance or achievement of target facility condition 
goals.
    To facilitate the NPS preventative maintenance program and to 
protect the previous investment in deferred maintenance, the 
President's FY 2008 budget includes an increase of $25 million for 
regular cyclic maintenance and $10 million for cyclic maintenance of 
historic structures. The President's Centennial Initiative also 
includes $12 million to hire an additional 1000 seasonal maintenance 
employees. As a result of these efforts, the NPS expects a 14 percent 
improvement in the overall condition of park facilities by 2012.

                            BORDER SECURITY

    Question 244. The National Park Service currently conducts border 
security operations at parks along the Mexican and Canadian borders. 
These activities take a significant toll on the park and its staff.
    What percentage of employee workload is devoted to border security 
and how has that changed since September 11, 2001?
    Answer. Border security falls primarily under the jurisdiction of 
the Department of Homeland Security. Certainly, however, parks along 
the borders have seen an increase in the impact from illegal border 
crossings on park resources and visitor safety. The percentage of 
employee workload devoted to mitigating those impacts, and the extent 
to which this percentage has changed since September 11, 2001, varies 
among units of the National Park Service. At least half of Organ Pipe 
Cactus National Monument's annual operating base ($3.3M) is spent on 
mitigating the impacts of border crossings. These activities include 
law enforcement operations, equipment and training, coordination of 
activities with DHS and other law enforcement agencies, employee and 
visitor safety programs, the border resource impact program, 
maintenance of dirt roads and the vehicle barrier fence, coordination 
with federal and state agencies on border issues, and information 
requests from the public, media, and non-profit organizations.
    Padre Island National Seashore Law Enforcement Ranger staff time 
devoted to criminal activity from illegal border crossings is projected 
at 40-50% of overall patrol workload. The National Seashore is a 
remote, 67-mile-long setting in close proximity to Mexico. It is used 
as a strategic smuggling corridor by criminal organizations to 
transport illegal immigrants and contraband into the United States. 
Since 9/11, increased smuggling activity through the park has been 
attributed to tighter border security at official crossings and at 
checkpoints on primary mainland highways. The Bureau of Customs and 
Border Protection (CBP) has identified Padre Island as one of the four 
primary smuggling corridors through South Texas. The Padre Island 
corridor bypasses Border Patrol checkpoints on nearby mainland 
highways; thereby providing unimpeded access to distribution hubs in 
San Antonio, Houston, and Dallas.
    Beginning in the late 1990s, undocumented aliens and drug-smuggler 
traffic increased exponentially at Organ Pipe Cactus National Monument 
and most recently at Coronado National Memorial, both of which are in 
Arizona. Amistad National Recreation Area and Padre Island National 
Seashore in Texas also have substantial undocumented alien and drug 
smuggler traffic. As a result of this increased activity, the National 
Park Service has increased law enforcement FTE for those parks. At 
Organ Pipe, the law enforcement staff doubled in size (from 6 to 12) 
following the death of ranger Kris Eggle who was killed by a drug 
smuggler in 2002. The law enforcement staff at Coronado has also 
doubled in size (from 2 to 4). The amount of time those rangers spend 
on border impacts varies from park to park, but at the most heavily 
impacted parks, border issues consume as much 90 to 95 percent of their 
time. At Glacier National Park, rangers are responsible for port 
security on the Canadian border following a decision by U.S. Customs to 
locate personnel at ports of entry elsewhere.
    Other Interior agencies along the international border including 
the Bureau of Indian Affairs, Bureau of Land Management, and the Fish 
and Wildlife Service allocate significant resources to address border 
security related activities. For example, at National Wildlife Refuges 
located along the international border, managed by FWS, 50-60 percent 
of annual operating base is used to address these issues. For FY 2006, 
this amounted to roughly $2.2 million on six refuges alone.
    Question 245. Describe the National Park Service involvement in 
border security operations including relationship with the Border 
Patrol, U.S. Armed Forces, state governments, and the countries of 
Mexico and Canada.
    Answer. The NPS and the U.S. Border Patrol conduct border 
operations under a memorandum of understanding that clarifies the 
responsibilities of each agency. In general, park personnel and border 
patrol sector personnel have developed strong working relationships and 
regularly combine forces to interdict illegal aliens and drug 
smugglers. At Glacier NP, a border security task force of U.S. and 
Canadian agency officials meets regularly with NPS personnel. At Padre 
Island, park rangers work closely with the U.S. Coast Guard. At Organ 
Pipe Cactus, NPS law enforcement efforts are either coordinated with 
the Border Patrol or planned to complement USBP operations. The NPS 
participates in the Border Anti-Narcotics Network Task Force which 
includes the NPS, the Border Patrol, the Pima County Sheriffs 
Department, Immigration and Customs Enforcement, the Bureau of Land 
Management, the U.S. Fish and Wildlife Service, and the U.S. Forest 
Service. NPS enforcement operations routinely utilize JCNTF (National 
Guard) resources for air support and surveillance.
    The Law Enforcement Ranger staff serves as the primary entity 
addressing law enforcement issues at Padre Island National Seashore on 
a day-to-day basis. The Padre Island Task Force, an interagency force 
made up of 17 different federal (including USBP), state, and local law 
enforcement agencies, works collaboratively in planning and conducting 
joint operations to interdict criminal smuggling operations. Operations 
also include Army National Guard reserve units that are occasionally 
requested to support National Park Service (NPS) staff during 
operations in surveillance and support positions.
    Question 246. What is the status of the vehicle barrier being 
constructed along the U.S./Mexico border in Organ Pipe Cactus National 
Monument? How much has it cost to date and what is the estimated cost 
for completion?
    Answer. Approximately 30 miles of vehicle barrier has been 
completed at Organ Pipe and 1.25 miles at Coronado National Memorial at 
a cost of $13 million. Construction will begin on another 1.25 miles at 
Coronado later this year.
    Question 247. How has the number of law enforcement positions 
within the National Park Service, including National Park Police, 
changed since September 11, 2001?
    Answer. In August of 2001, the USPP had 630 police officers, in 
March 2007, the USPP is staffed at 585 police officers. Park Rangers 
have fluctuated from a high of 1,639 in 2003 to a low of 1,491 in 2005. 
In 2001, there were 1,539 permanent law enforcement officers. The 2006 
figures show 1,537, which includes both uniformed Park Rangers and 
Criminal Investigators. This figure does not include seasonal staff.

              GRAND TETON NATIONAL PARK HARTGRAVE PROPERTY

    Question 248. The Wyoming Congressional Delegation sent a letter to 
the Secretary's of Interior and Agriculture on January 10, 2007, asking 
the Secretary's to exercise their authority under the Federal Land 
Transaction Facilitation Act (FLTFA) of 2000 (also known as the Baca 
bill) to acquire the Hartgrave property at Grand Teton National Park.
    How much money has been obtained as a result of FLTFA each year 
since the law was enacted and how much is currently available for use?
    Answer. The following table provides a year by year breakdown of 
the amount deposited in the FLTFA account over the last six fiscal 
years.

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
FY 2001.................................................      $1,206,529
FY 2002.................................................       2,343,807
FY 2003.................................................       1,078,316
FY 2004.................................................      15,759,647
FY 2005.................................................      10,549,206
FY 2006.................................................      57,468,523
FY 2007 (to 1/31/07)....................................       2,032,652
Total (to 1/31/07)......................................      90,438,682
------------------------------------------------------------------------

    As you are aware, not less than 80% of FLTFA funds must be used for 
land acquisitions (the remaining 20% may be used for administrative 
costs related to FLTFA sales), and 80% of that amount must be used 
within the state from which they are generated. As of January 31, 2007 
FLTFA deposits within the state of Wyoming, available for land 
acquisition, total $715,135.51.
    Question 249. Have any FLTFA funds been spent by either Department 
to acquire any property at Grand Teton or elsewhere since the law was 
enacted? If so, please identify the inholding, the acquiring 
department, the agency or bureau tasked with management of the 
acquisition, and the amount paid.
    Answer. There are several pending projects for FLTFA land 
acquisitions, but to date none have been completed.
    Question 250. If no inholdings have been purchased to date, why 
not, given the authority was given to the Departments of Interior and 
Agriculture in 2000 and expires in 2010?
    Answer. FLTFA requires that not less than 80 percent of amounts not 
used for administrative expenses be expended within the State where the 
funds were generated. Most states, like Wyoming, have yet to generate 
sufficient funds under FLTFA to allow for priority land acquisitions. 
The BLM in coordination with the other Federal land managing agencies 
is working on a proposal to use the 20 percent of funds not required 
under FLTFA to remain within the state of origin to complete a number 
of priority inholding purchases.
    Question 251. The letter from the Wyoming delegation encouraged the 
Secretary of the Interior to purchase the Hartgrave property in Grand 
Teton National Park. Land values are escalating in this beautiful 
corner of Wyoming. The Hartgrave property was appraised almost two 
years ago at over $2 million. Even if Interior were to buy it today at 
the appraised price, the owner will be selling it at a bargain price 
due to appreciation in land values in the area. Is the Department of 
the Interior moving forward to purchase the Hartgrave property? If so, 
when will Interior purchase it?
    Answer. As noted in question 250, the BLM and other Federal land 
managing agencies are currently working to use the non-state specific 
portions of the FLTFA account to complete the acquisition of a number 
of priority inholdings. The property of special concern to the Wyoming 
delegation within Grand Teton National Park is one of those targeted 
inholdings.
    Question 252. In real estate markets where land values are 
escalating as they are in Jackson Hole, what can the Secretary of the 
Interior do under existing authorities to make sure the owner will not 
lose fair market value of the property due to Interior's delay in 
closing on the purchase long after the property appraisal was 
completed?
    Answer. To ensure that the appraisal's effective date of value is 
appropriate for the timing of the closing, it is important for the 
relevant agencies to coordinate, early in the process, with the 
Department of the Interior Appraisal Services Directorate (ASD). The 
ASD completes appraisals for agency land acquisitions according to the 
Uniform Standards of Professional Appraisal Practice and the Uniform 
Appraisal Standards for Federal Land Acquisition, upon request. The 
appraisals conclude to a supported opinion of market value as of a 
certain date and, of course, do not reflect changes in the pertinent 
real estate market after the appraisal is completed. If the closing is 
unduly delayed, an appraisal update to provide a more recent opinion of 
value can be requested. This new appraisal assignment will consider the 
current market conditions and any changes to the property. For 
expediency, the same appraiser is used if possible.
    Question 253. In real estate markets where land values are 
depreciating, how does the Department of the Interior make sure an old 
appraisal doesn't cause the government to purchase the inholding at a 
price that exceeds the fair market value at the time of a delayed 
closing?
    Answer. To ensure that the appraisal's effective date of value is 
appropriate for the timing of the closing, it is important for the 
relevant agencies to coordinate, early in the process, with the 
Department of the Interior Appraisal Services Directorate (ASD). The 
ASD completes appraisals for agency land acquisitions according to the 
Uniform Standards of Professional Appraisal Practice and the Uniform 
Appraisal Standards for Federal Land Acquisition, upon request. The 
appraisals conclude to a supported opinion of market value as of a 
certain date and, of course, do not reflect changes in the pertinent 
real estate market after the appraisal is completed. If the closing is 
unduly delayed, an appraisal update to provide a more recent opinion of 
value can be requested. This new appraisal assignment will consider the 
current market conditions and any changes to the property. For 
expediency, the same appraiser is used if possible.
    Question 254. Environmental laws require that the Department of the 
Interior determine the status of hazardous substances or other 
contamination for any property it acquires. Is the cost of this 
determination for FLTFA acquisitions borne by the government as it 
should be? How does the Department of the Interior plan to expedite the 
hazardous material/contamination determination for the Hartgrave 
property so that it does not delay closing on the purchase?
    Answer. The Department of the Interior is responsible for the cost 
of preacquisition work, including environmental site assessments (ESA) 
of all property it is in the process of acquiring. (The cost of any 
remediation is the responsibility of the willing property seller.) The 
cost for the preacquisition work is factored into the total required 
cost of the project. An ESA was previously prepared for the Hartgrave 
property and a contractor is in the process of updating that ESA to 
reflect current conditions. The contractor has scheduled a field review 
for April 2007 (pending snowmelt) and will transmit the ESA report to 
the NPS once that is completed.
    Question 255. If the Department of the Interior intends to purchase 
the Hartgrave property using FLTFA authority, will the Secretary's 
staff give the Wyoming congressional delegation a monthly report of 
progress made toward purchase of the property?
    Answer. The National Park Service would be pleased to provide 
information about the process of acquiring land within the boundaries 
of the National Park System, and the status of any particular 
acquisition, as it occurs.

              GRAND TETON NATIONAL PARK SNAKE RIVER RANCH

    Question 256. The 35.67-acre property is an in-holding located near 
Granite Creek in the southwest corner of Grand Teton National Park, 
just west of the Granite Canyon Entrance Station and the Moose-Wilson 
Road. The property is adjacent to two other inholding properties, which 
the National Park Service acquired from Resor family and The 
Conservation Fund in 2001 and 2003 as well as other protected lands 
held by the Park Service. The Snake River Ranch property sits at the 
base of the Grand Teton mountain range, just north of the Teton Village 
development, and acquiring the lands will provide access and 
exceptional wildlife viewing opportunities for the public. The family 
has agreed to sell the lands to the National Park Service (with 
assistance from The Conservation Fund) for $7.2 million. The current 
market value of the tract is approximately $10.3 million and increasing 
in value by about 1% each month. This represents an approximate $3.1 
million gift to the United States.
    What is the status of NPS plans to purchase the Snake River Ranch 
property?
    Answer. The NPS has previously acquired two other parcels of the 
Snake River Ranch is interested in acquiring this parcel if funds were 
available.
    Question 257. What are NPS's land acquisition priorities for fiscal 
year 2007, and where does the Snake River Ranch acquisition fall in 
that list?
    Answer. The NPS has not yet finalized its acquisition priorities 
for FY 2007. The property is currently the second highest priority for 
acquisition at Grand Teton National Park for FY 2007.
    Question 258. What documents or studies are required to complete 
the acquisition of the Snake River Ranch? What is the status of each 
document/study? What is the timeline for completing all necessary 
documents/studies to complete the acquisition?
    Answer. The project will require an updated title commitment and a 
new Phase I Environmental Site Assessment (ESA). Because it will take 
approximately 6 months to complete these tasks, and the ground must be 
clear of snow before the ESA can be conducted, the report would not be 
complete until August or September.
    Question 259. Is it reasonable to expect the acquisition of Snake 
River Ranch to be completed in Fiscal Year 2007? If not, when does NPS 
plan to complete the acquisition of Snake River Ranch?
    Answer. Given that NPS has not yet finalized its land acquisition 
priorities for FY 2007, it would be premature to predict whether 
acquisition of this property would occur during the fiscal year.
    Question 260. When the National Park Service establishes land 
acquisition priorities for in holdings offered on a willing-seller 
basis, does the Service give priority to lands offered below market 
value?
    Answer. The Land Acquisition Ranking System (LARS) is used to 
identify and analyze Service-wide acquisition priorities for funding. 
Typically when determining land acquisition priorities, NPS looks at 
ten factors, including issues such as whether the property is being 
offered by a willing seller or whether a not-for-profit entity is 
involved in the transaction. While a value at below market rate might 
be a consideration, if known, typically valuation information is not 
available until after funds have been appropriated to NPS to carry out 
an appraisal of the property, and this is normally after acquisition 
priorities have been established.
 using personnel management actions to solve short-term budget problems
    Question 261. Employee positions that become vacant because of 
retirement and employee reassignment are sometimes left vacant as a 
means of reducing operating costs. Each month the position remains 
vacant means less funds to expend for employee wages. The term ``lapsed 
position'' is frequently used to describe the practice.
    How has the National Park Service used lapsed positions to avoid 
budget shortfalls?
    Answer. It is the initiative of each park to determine if and when 
to replace a vacated position. In creating financial plans, parks 
reduce their payroll expectations by a small percentage in order to 
account for the expected time it takes to fill positions that are 
vacated. However, in recent years, parks have intentionally lapsed 
positions in order to absorb unfunded pay requirements and across-the-
board reductions. It is often difficult to identify which positions are 
``lapsed'' since parks may choose to hire a position in a different 
division or capacity than the vacated position, and some parks have 
experienced a net increase in staffing due to specific budgetary 
increases. However, as a whole, lapsing or leaving positions unfilled 
is one of the primary ways in which parks have avoided over-expending 
in a tight budget environment. This is especially evident among 
seasonal employees, which allow the parks more flexibility in hiring 
from year to year.
    Question 262. How many National Park Service employee positions 
have remained vacant for more than 6 months since October 1, 2001? 
Provide a list that includes region, state, park unit, and salary for 
each position.
    Answer. Estimating the number of positions being lapsed would 
require a very subjective analysis. For example, if an employee retires 
or leaves a park, and the park hires a position in a different division 
or capacity, is the vacated position considered to be lapsed, or is the 
position obsolete? Parks may also choose not to fill a position in 
order to accelerate their rate of equipment replacement or project 
funding. While it is a requirement that positions be established in the 
Federal Personnel and Payroll System (FPPS) in order to hire an 
employee, there is no requirement nor does the system automatically 
eliminate obsolete vacant positions.
    Perhaps the most objective way to determine the extent to which the 
NPS is lapsing positions to accommodate budget constraints is to 
evaluate the number of Full-Time Equivalents (FTE) paid by the NPS each 
year. FTE are a standard measure of staffing used through the Federal 
government. One FTE equates to a full-time permanent person. Please 
note that a single FTE may represent more than one employee if they 
fill seasonal or part-time positions.

                              NATIONAL PARK SERVICE FULL TIME EQUIVALENT EMPLOYEES
----------------------------------------------------------------------------------------------------------------
                                                       FY 2001   FY 2002   FY 2003   FY 2004   FY 2005   FY 2006
----------------------------------------------------------------------------------------------------------------
Discretionary Funded FTE............................    17,345    17,451    17,359    17,038    17,176    16,599
Mandatory Funded FTE................................     1,567     1,501     1,500     1,573     1,631     1,771
Reimbursable FTE....................................       506       560       681       688       694       726
Allocation FTE......................................       871       993     1,034     1,100       984       960
                                                     -----------------------------------------------------------
      Total National Park Service FTE...............    20,289    20,505    20,574    20,399    20,485    20,056
----------------------------------------------------------------------------------------------------------------

    The NPS funded 233 fewer FTE in FY 2006 than in FY 2001. This 
includes 746 fewer FTE funded through discretionary appropriations in 
FY 2006 than in FY 2001, but that was partially offset with more FTEs 
funded through reimbursements and mandatory funds.
    Question 263. How many permanent National Park Service employee 
positions are currently vacant throughout the National Park System? 
Provide a list by region, state, park unit, grade level, position 
title, and salary.
    Answer. This data is not readily available, would have to be 
verified by each park/office in NPS, is subjective in nature, and would 
take a considerable amount of time to compile. Again, a better measure 
is to evaluate FTE usage, shown above.

                      BICYCLING IN NATIONAL PARKS

    Question 264. The National Park Service signed a memorandum of 
agreement with the International Mountain Bicycling Association (IMBA) 
in 2005 to improve opportunities for mountain bicycling in National 
Parks.
    What is the status of the Pathways project in Grand Teton National 
Park? Is the Pathways effort being conducted in accordance with the 
National Park Service/IMBA agreement?
    Answer. The NPS released a Final Environmental Impact Statement for 
the Transportation Plan in September 2006, and recently concluded the 
process of formal consultation with the U.S. Fish and Wildlife Service. 
A Record of Decision is expected to be signed before the end of the 
month. The agreement between IMBA and the NPS focused primarily on the 
availability of existing administrative roads for bicycling, whereas 
the Grand Teton Transportation Plan proposes the construction of new 
pathways, parallel to existing roads, to provide enhanced and safe 
opportunities for bicycling.
    Question 265. What is the National Park Service policy for mountain 
bicycling?
    Answer. The NPS is committed to increasing public awareness of 
outdoor recreational opportunities in the national park system that 
promote health and fitness, and has recognized that mountain bicycling 
in authorized areas can be an excellent way to enjoy America's outdoor 
heritage in a manner that is compatible with resource protection. Under 
the agreement with the IMBA, NPS committed to work with our partners to 
identify mutually beneficial projects or activities, including trail 
construction and maintenance projects, trail patrols, docent programs, 
gathering and sharing information regarding mountain biking on NPS 
lands, safety training, and other educational efforts.
    Under NPS regulations, the designation of roads, areas, and routes 
as appropriate for mountain biking must comply with the requirements of 
36 C.F.R. 4.30 and all other applicable laws, regulations, and policies 
of the NPS. While park roads and parking areas within developed zones 
do not require special designation allowing bicycles, proposed bicycle 
use on all other routes within developed zones, and administrative 
roads (those closed to public motorized use) outside of developed zones 
will require an analysis, including public comment, and decision 
pursuant to NEPA. Any proposed route other than an administrative road 
that is not within a developed zone must be promulgated as a special 
regulation.
    Question 266. Which units of the national park system allowed 
mountain bicycling prior to the 2005 agreement with IMBA? Provide a 
list by region, state, and unit.
    Answer. Bicycling is a welcome and recognized activity at over 130 
national parks. However, NPS does not differentiate between mountain 
biking and other types of bike riding in national parks.
    Question 267. Which park units have begun allowing mountain 
bicycling as a result of the 2005 IMBA agreement? Provide a list by 
region, state, and unit.
    Answer. Since entering into the agreement with the IMBA, NPS has 
announced 3 pilot projects, including:

  <bullet> Big Bend National Park (Texas; Intermountain Region). This 
        unit is initiating an Environmental Assessment study, a 
        necessary first step toward creating opportunities for 
        singletrack riding in the 801,000-acre park. If the results of 
        the study are favorable, NPS will move forward with a rule-
        making procedure to permit mountain biking in non-Wilderness 
        areas.
  <bullet> Fort Dupont National Park (Washington, DC; National Capital 
        Region). Fort Dupont provides a unique opportunity for 
        singletrack mountain bicycling inside the Beltway with eight 
        miles of existing trails open to biking. NPS, in conjunction 
        with IMBA and its local affiliate will carry out an assessment 
        of the hiking and biking trails within the Fort Circle Parks, 
        greatly assisting the park with the goals of improving both 
        trail sustainability and visitor access and enjoyment of the 
        trail system.
  <bullet> Cuyahoga Valley National Park (Ohio; Midwest Region). This 
        unit, only 15 minutes from downtown Cleveland, will examine 
        mountain bicycling as a possible component of its next trail 
        management plan revision.

    Question 268. How many miles of paved, unpaved, and off road 
bicycling does the national park service currently allow? Provide a 
list by region, state, and unit.
    Answer. The NPS does not maintain records of the number of miles of 
paved, unpaved, and off-road bicycling allowed in national parks.

                        NATIONAL HERITAGE AREAS

    Question 269. How will the National Park Service allocate funding 
for National Heritage Areas under the continuing resolution? How much 
funds will each National Heritage Area receive in FY2007?
    Answer. The FY 2007 operating plan forwarded to the Appropriations 
Committees allocates essentially level ($13.3 million) funding to the 
Heritage Area program. Funding has not been allocated to individual 
areas yet.
    Question 270. How much has each National Heritage Area received in 
federal and non-federal funding each year since originally designated? 
How much of the non-federal share for each heritage area was cash? How 
much of the non-federal share was goods-and-services or some other type 
of in-kind contribution? Provide a list by state and heritage area.
    Answer. Attached below is a chart* titled ``Funding information on 
Heritage Partnership Programs''. This chart shows the year each 
National Heritage Area (NHA) was designated, total funding received 
through 1996, and then annually through FY 2006. The National Park 
Service (NPS) does not maintain records of how much non-federal funding 
each NHA has received since designated. Each NHA, except Cane River 
National Heritage Corridor, is required to match the federal funds that 
it receives under the legislative authorization that established the 
area. In requesting funding through their cooperative agreements or 
through their direct appropriations, NHAs are required to certify that 
they have the required match.
---------------------------------------------------------------------------
    * Graphic has been retained in committee files.
---------------------------------------------------------------------------
    In addition, NHAs receiving over a specified amount, usually 
$100,000 a year (the majority of NHAs fall into this category) are 
required to undertake an annual audit by an independent auditor. This 
annual audit includes an examination of the financial records of the 
NHA including verifying the existence of the required matching funding. 
The NPS does not maintain records of the non-federal share or whether 
the non-federal share was cash or in-kind goods and services.
    Question 271. Compare and contrast the various management entities 
for all National Heritage Areas currently in existence. How many 
members does each area have? How are the members selected for each 
area? How long can each member serve and how are they replaced? What 
form of compensation does each member receive?
    Answer. The chart below, titled ``Management Entities in National 
Heritage Areas,'' shows the various organizational approaches that 
serve as management entities for NHAs. As heritage areas rely on strong 
regional or local support, it is important to have an organization, 
either a newly created one or an existing organization, that has the 
credibility to guide the management planning process and implement the 
plan's goals and objectives. The management entity must also have 
financial resources to provide staff, support, and seed money for 
community projects. NHAs utilize a number of different management 
structures. There are a number of options:

  <bullet> Nonprofit organization.--This is the most common management 
        structure. Board structure and membership can be tailored to 
        local situations and the non-profit can act quickly and 
        entrepreneurially to take advantage of opportunities. It can 
        hire staff without the constraint of government rules and seek 
        public and private funding. Sometimes an existing organization 
        can be transformed into the management entity, if the board and 
        staff place the interest of the heritage area before individual 
        interests or past agendas.
  <bullet> Federal commissions.--Under this management approach, the 
        Secretary of the Interior appoints members to a statutorily 
        established NHA commission. The commissions are governmental 
        entities and for this reason they have a certain stature and 
        authority. However, they are also bound by numerous 
        governmental requirements. Commissions can be useful for areas 
        where there exist many diverse constituencies to be represented 
        or a strong governmental partner. For example, the Erie 
        Canalway National Heritage Area has a close partnership with 
        the New York Thruway Authority who provides day-to-day 
        management of the 500-mile Erie Barge Canal's $50 million 
        annual budget. A federal commission was seen as essential to 
        offer fair representation and to place the two organizations on 
        a more equal footing.
  <bullet> State Agency Management.--In some cases, a branch of state 
        government manages the heritage area and the state program 
        relies on local leadership to manage individual heritage sites. 
        State agencies can provide the necessary staffing and support 
        to get a new NHA underway. Other specialized agencies such as 
        state authorities or state universities are successful when 
        they embrace and involve local leaders.

    As in so many principles of heritage area success, management 
entities need to keep leadership on the local level while at the same 
time focusing on the larger goals of the heritage area. They must 
consider their fiduciary responsibility to regional needs ahead of any 
one local project or state area of emphasis.
    As indicated on the attached chart, NHAs have a variety of 
management entities. For areas managed by state agencies, the 
management entity is not made up of individual members. For NHAs 
managed by nonprofits, the NPS does not record how many members serve 
on the board of the nonprofit, how they are selected or how long they 
can serve on the board of the organization.
    For Federal commissions, the number of members, selection and 
length of service, and other requirements are defined by the 
legislation that established the NHA. Below is a summary:

------------------------------------------------------------------------
                                   No. of      Term
              Name                Members    (Years)     Reappointment
------------------------------------------------------------------------
Blackstone River Valley NHC....         19          3  May be
                                                        reappointed.
Cane River NHA.................         19          3  May be
                                                        reappointed.
Delaware and Lehigh NHA........         21          3  May be
                                                        reappointed.
Erie Canalway..................         27          3  May be
                                                        reappointed.
Gullah/Geechee NHC.............         15          3  No provision.
Ohio and Erie NHC..............         21          3  May be
                                                        reappointed.
Southwest PA Heritage Comm.....         21          3  May be
                                                        reappointed.
------------------------------------------------------------------------

    The Secretary of Interior appoints members to Federal commissions 
who serve as the management entity for NHAs.
    As for compensation to members of Federal commissions, the 
legislation establishing a Federal commission for the management of a 
NHA usually contains a provision authorizing reimbursement of actual 
expenses incurred in attending commission meetings. Usually the 
legislation contains this provision or similar language: ``Members of 
the Commission shall receive no compensation for their services on the 
commission. While away from their homes or regular places of business 
in the performance of services for the commission, members shall be 
allowed travel expenses, including per diem in lieu of subsistence, in 
the same manner as persons employed intermittently in Government 
service are allowed expenses under section 5703 of title 5, United 
States Code.'' However, not every NHA provides for travel expenses. For 
example, the Ohio and Erie Canalway legislation specifically states 
that members shall serve without compensation for their service.

      MANAGEMENT ENTITIES IN NATIONAL HISTORIC AREAS--OCTOBER 2006
------------------------------------------------------------------------
                                       Year of      Type of Management
           Heritage Areas            Designation          Entity
------------------------------------------------------------------------
American's Agricultural Heritage/          1996   Non-profit
 Silos and Smokestacks.                            corporation.
Arabia Mountain National Heritage          2006   Non-profit
 Area.                                             corporation.
Atchafalaya National Heritage Area.        2006   State commission.
Augusta Canal National Heritage            1996   Municipal authority.
 Area.
Blue Ridge National Heritage Area..        2003   Non-profit board.
Cache La Poudre River Corridor.....        1996   None.
Cane River National Heritage Area..        1994   Federal commission.
Champlain Valley National Heritage         2006   Federal commission.
 Partnership.
Crossroads of the American                 2006   Non-profit
 Revolution National Heritage Area.                corporation.
Delaware & Lehigh National Heritage        1988   Federal commission.
 Corridor.
Erie Canalway National Heritage            2000   Federal commission.
 Corridor.
Essex National Heritage Area.......        1996   Non-profit
                                                   corporation.
Freedom's Frontier National                2006   Non-profit
 Heritage Area (Bleeding Kansas).                  corporation.
Great Basin National Heritage Route        2006   Non-profit
                                                   corporation.
Gullah/Geechee Heritage Corridor...        2006   Federal commission
                                                   (pending).
Hudson River Valley National               1996   Jointly managed by
 Heritage Area.                                    State agency and non-
                                                   profit corporation.
Illinois and Michigan Canal                1984   Non-profit
 National Heritage Corridor.                       corporation.
John H. Chafee Blackstone River            1986   Federal commission.
 Valley National Heritage Corridor.
Lackawanna Heritage Valley.........        2000   Municipal authority.
Mississippi Gulf National Heritage         2004   State agency.
 Area.
Mormon Pioneer National Heritage           2006   Non-profit board.
 Area.
Motor Cities-Automobile National           2000   Non-profit
 Heritage Area.                                    corporation.
National Aviation Heritage Area....        2004   Non-profit
                                                   corporation.
National Coal Heritage Area........        1996   State authority.
Northern Rio Grande National               2006   Non-profit
 Heritage Area.                                    corporation.
Ohio and Erie National Heritage            1996   Federal commission
 Canalway.                                         assisted by non-
                                                   profit corporation.
Oil Region National Heritage Area..        2004   Non-profit
                                                   corporation.
Quinebaug-Shetucket Rivers Valley          1994   Non-profit
 National Heritage Corridor.                       corporation.
Rivers of Steel National Heritage          1996   Non-profit
 Area.                                             corporation.
Schuylkill National Heritage Area..        2000   Non-profit
                                                   corporation.
Shenandoah Valley Battlefields             1996   Non-profit
 National Historic District.                       corporation.
South Carolina National Heritage           1996   State agency.
 Corridor.
Southwestern Pennsylvania/Path of          1988   Federal commission.
 Progress National Heritage Tour
 Route.
Tennessee Civil War Heritage Area..        1996   Center for Historic
                                                   Preservation (MTSU)
                                                   (state university/
                                                   ``agency'').
Upper Housatonic Valley National           2006   Non-profit
 Heritage Area.                                    corporation.
Wheeling National Heritage Area....        2000   Non-profit
                                                   corporation.
Yuma Crossing National Heritage            2000   Non-profit
 Area.                                             corporation.
------------------------------------------------------------------------

    Question 272. Which National Heritage Areas use federal funds to 
pay for salaries, office supplies, travel, and other administrative 
expenses? Provide a list that includes the name of the Heritage Area, 
location by state, number of employees receiving federal funds, amount 
received, amount of federal funds used for travel, and amount of 
federal funds used for other administrative expenses.
    Answer. At this time, only the Blackstone River Valley National 
Heritage Corridor and the Erie Canalway National Corridor have staff 
that is funded directly by the Federal government. In the past, all of 
the early heritage areas had NPS staff including the Illinois and 
Michigan Canal Corridor, Delaware and Lehigh Canal Corridor, and the 
Southwest Pennsylvania Heritage Preservation Commission, but this is no 
longer the case.
    Blackstone River Valley National Heritage Corridor.--Personnel: 
$702,500, 10 employees; Travel: $29,000; Administration: $68,500.
    Erie Canalway National Heritage Corridor.--Personnel: $183,232, 2 
employees; Travel: $10,691; Administration: $10,800.
    All other NHAs receive funding based on implementing the goals and 
objectives identified in the approved management plan. In most cases 
funding is made available through a cooperative agreement with NPS 
regional offices or related park units. Hence, funding is program and 
project based and annual reporting and requests for reimbursements are 
based on programs or projects that have been completed.
    Question 273. What is the status of the management plan for each 
National Heritage Area? What was the cost to prepare each plan, the 
source of funding (e.g., federal, state, private), amount of time 
required completing each plan, and the average cost per plan? Provide a 
general narrative of the planning process along with this response.
    Answer. Attached is a chart* titled ``National Heritage Areas 
Management Planning Status,'' which shows the status of management 
planning in each of the NHAs. The NPS does not maintain records on the 
cost per management plan for each of the areas. Costs vary depending on 
such factors as the use of consultants versus in-house staff, size and 
scale of the NHA, and the region of the country. The NPS estimates for 
NHA management planning range from $200,000 to $350,000 based on the 
factors identified above and similar efforts undertaken by NPS planning 
staff.
---------------------------------------------------------------------------
    * Graphic has been retained in committee files.
---------------------------------------------------------------------------
    NHA management planning is an important step in creating awareness 
of the heritage area and building consensus around shared goals and a 
mission. The plan should be founded on initiatives that are community 
based and tailored to the conditions of each area. The essential 
elements of a management plan are a vision statement, goals and 
objectives, and an action agenda or framework to achieve the vision. 
Many plans also identify potential roles and opportunities for partner 
participation, identify key resources, and identify how the plan 
complements similar efforts and programs in the region. Some of the 
more recent NHA plans also include a section on potential sources of 
funding and/or a business plan.
    As documents that will implement federally funded actions, NHAs are 
required to meet the requirements of the National Environmental Policy 
Act (NEPA). Depending on the impact of the planned actions, NHAs 
complete an environmental assessment or an environmental impact 
statement. Most areas are required to complete a management plan within 
three years of the date after the management entity receives federal 
funding. The Secretary of the Interior is required to review and 
approve the plan to ensure that it meets the legislative purposes for 
which the area was designated.
    Question 274. Which National Heritage Areas provide loans for 
historic preservation, business start-up, or cultural activities that 
promote tourism? Provide a list of all areas that allow such use of 
funds, the amount of federal money involved and the amount of non-
federal share. If the funds are provided as a loan, what is the average 
interest rate and repayment period? Provide a specific list of any 
loans that have defaulted and the amount of money involved in each 
case.
    Answer. Although only a few National Heritage Areas have the 
authority to make loans, only one NHA, the Southwest Pennsylvania 
Heritage Preservation Commission, has made loans in furtherance of the 
area's management plan.
    NHAs with direct authority to make loans and status: Hudson River 
Valley Heritage Area--No loans made; Illinois and Michigan Canal 
Corridor--No loans made; Ohio and Erie National Heritage Corridor--No 
loans made; Rivers of Steel National Heritage Area--No loans made; 
Southwest Pennsylvania Heritage Preservation Comm.--Report being 
prepared.
    In the case of the South Carolina National Heritage Corridor, the 
Secretary of Interior is authorized to make loans in consultation with 
the management entity. However, no loans have been made under this 
authority.

                  WOLVES IN YELLOWSTONE NATIONAL PARK

    Question 275a. The Northern Rocky Mountain Wolf Recovery plan 
proposed reintroduction of Canis lupus (gray wolf) to Yellowstone 
National Park and central Idaho as part of a wolf restoration plan for 
the northern Rocky Mountains of the United States. Strong opposition 
from some groups within the region forestalled the action for two 
decades. An environmental impact statement, conducted in 1992-1994 with 
extensive public input, culminated in a proposal to reintroduce wolves 
designated as ``non-essential--experimental'' under Section 10(j) of 
the federal Endangered Species Act. This approach, approved by the 
Secretary of the Interior in 1994, provided for wolf restoration while 
allowing management flexibility to deal with concerns of the local 
public. A reintroduction plan was developed in the summer and fall of 
1994. The reintroduction effort in Yellowstone National Park began in 
January 1995 with the capture of 14 wolves in Alberta, Canada, and 
release into Yellowstone in March of that year. Subsequent releases 
have been made since that time.
    Question 275b. What is the history of the wolf population in 
Yellowstone prior to 1995?
    Answer. Wolves occurred in low densities in Yellowstone National 
Park in the late 19th and early 20th centuries. Intensive control of 
wolves by the National Park Service from 1914-1926 removed at least 136 
wolves, including about 80 pups. Some wolves survived the control era, 
but resident wolf packs were eliminated from Yellowstone by the 1930's. 
Gray wolf populations were also eliminated from Montana, Idaho, and 
Wyoming, as well as adjacent southwestern Canada, by the 1930s. After 
human-caused mortality of wolves in southwestern Canada was regulated 
in the 1960s, populations expanded southward. Dispersing individuals 
occasionally reached the northern Rocky Mountains of the United States, 
but lacked legal protection there until 1974 when they were listed as 
endangered under the Act.
    Question 276. Describe the reintroduction effort including the 
planning process, federal, state, and non-government organizations 
involved and the role of each; date and size of each reintroduction, 
and number of offspring and mortality for each pack each year since the 
effort began.
    Answer. In 1974, wolves in Montana and Wyoming became protected 
under the new federal Endangered Species Act, and the U.S. Fish and 
Wildlife Service (USFWS) was mandated to achieve wolf recovery. In 
1974, the State of Montana led a USFWS recovery team that recommended 
wolf restoration in the area stretching from Yellowstone National Park 
to the Canadian border. The Greater Yellowstone Area's 19,000 square 
miles of public land, wilderness, abundant wildlife, and Yellowstone 
National Park core came to the top of every list of potential wolf 
reintroduction sites. As wolf restoration continued to gain public 
support and momentum, Yellowstone became synonymous with wolf recovery. 
Biologist John Weaver concluded his 1978 report, The Wolves of 
Yellowstone, by recommending a transplant of wolves from British 
Columbia or Alberta to Yellowstone. In 1980, the first northern Rocky 
Mountain wolf recovery plan was signed. In 1987, a revised recovery 
plan recommended that wolves be reintroduced to the Yellowstone area as 
an experimental population, which allowed extra management flexibility 
to address the concerns of the park's neighbors. The idea of wolf 
reintroduction to Yellowstone continued to gather steam. In 1988, 
Congress mandated the National Park Service's Wolves for Yellowstone? 
studies to investigate the possible impacts of wolf reintroduction. In 
1990, Congress established a Wolf Management Committee in an attempt to 
reduce public controversy over wolf reintroduction, and funded another 
round of Wolves for Yellowstone? studies.
    In 1991, Congress directed the USFWS to prepare an Environmental 
Impact Statement (EIS) on reintroduction of gray wolves to Yellowstone 
National Park and central Idaho. Extensive public involvement (130 open 
houses and hearings) throughout the process included affected states, 
tribes, and organizations. The Record of Decision for reintroduction of 
the gray wolf into Yellowstone National Park was signed by the 
Secretaries of Interior and Agriculture on November 22, 1994. 
Reintroduction of wolves at Yellowstone National Park began in the 
winter of 1994-1995 and was completed in the winter of 1995-1996. A 
total of 41 wolves in 7 packs were released after 10 weeks of penned 
acclimation. Unexpectedly, four of seven packs bred inside the pens and 
gave birth to their pups in the wild after release, hastening initial 
wolf population growth.
    About 254 documented wolf deaths have occurred in the Greater 
Yellowstone Area (GYA) since the initial reintroduction. Typically, 1-5 
wolves per pack disperse or die in a year. Over half of the mortalities 
are human caused with the rest classified as natural or unknown deaths. 
The leading natural cause of mortality is wolves killing other wolves. 
At least eleven wolves have also been killed while chasing prey species 
(e.g., elk, moose, bison) during hunts.
    Average litter size in Yellowstone National Park is 5 pups/female 
with typically 3-4 surviving until winter.
    More details about annual population size, distribution, and 
mortality can be found in annual wolf project reports from 1996-2005 at 
http://www.nps.gov/yell/naturescience/wolves.htm. Source: Ten Years of 
Yellowstone Wolves: 1995-2005. Yellowstone Science 13:1, http://
www.nps.gov/yell/planyourvisit/upload/YS13(1).pdf.
    Question 277. How much has been spent on the reintroduction effort 
including the planning process each year since October 1, 1980? How 
much has each federal, state, and non-government organization 
contributed to the total each year?
    Answer. Wolf recovery has been almost entirely funded by federal 
appropriations and private donations. Wolf recovery in the Northern 
Rocky Mountains from 1973 through 2006 cost approximately $24,119,000 
(rounded to nearest $1,000, with no adjustments for inflation and not 
including U.S. Department of Agriculture's Wildlife Services (WS) costs 
for investigating reports of suspected wolf damage and problem wolf 
control beyond the $100,000 per year provided by the FWS to WS from 
1992-2004) and the approximately $200,000 per year spent on wolf 
monitoring and research in the National Parks since 1995.
    Defenders of Wildlife (DOW) provided a compensation program for 
livestock killed by wolves, with expenditures of more than $500,000 
from 1987 through December 2005. During the last 5 years, DOW paid an 
average of about $84,000/year in compensation to livestock producers in 
Montana, Idaho, Wyoming, and Utah for confirmed and probable wolf-
caused damage to livestock and livestock herding and guarding animals. 
Additionally, DOW shared the cost of proactive and non-lethal methods 
to help livestock operators avoid or reduce conflicts with wolves. 
These methods included providing livestock guarding dogs, fencing, 
range riders, carcass removal, and alternative pasturing for livestock. 
Universities in Idaho, Montana and Wyoming also provided substantial 
funding and support for their graduate students conducting various wolf 
research projects.
    Additional information can be found at http://www.fws.gov/mountain-
prairie/species/mammals/wolf/annualrpt06/2006_annual_report.pdf.
    Question 278. Describe the monitoring effort since the initial 
release in March 1995. How much has been spent for monitoring each 
year, how many people have been involved, what techniques are used such 
as collaring and telemetry, aerial surveillance, and ground-based 
census, and how has the monitoring program changed since its inception? 
Describe the monitoring effort planned for 2007 including funding, 
manpower, organizations involved, and techniques used.
    Answer. Wolf distribution and population dynamics are monitored 
annually in Yellowstone National Park, primarily through aerial 
telemetry. The most effective way to obtain accurate information on 
wolves is to equip some of the wolves with radio collars that can be 
tracked during aerial and ground surveys. To be able to track each wolf 
pack, at least one wolf in the pack must be collared. However, because 
wolves wearing the collars may disperse from their pack or die, and the 
collars may malfunction or be chewed off, staff try to keep more than 
one wolf in each pack collared so that there is a backup collar in the 
pack. Each year, 25-30 wolves are captured by darting them with a 
tranquilizer from a helicopter so that they can be collared. Whenever a 
wolf is captured, staff take the opportunity to measure and weigh the 
wolf, and obtain a blood sample for genetic and disease analysis. At 
the end of 2005, 39 (33%) of the 118 wolves that reside primarily in 
Yellowstone National Park were collared. Monitoring flights are 
conducted weekly, weather permitting, to locate as many wolves as 
possible. Wolves are counted in early and late winter, and radio 
collars are tracked year-round. Pups are counted at dens and again in 
early winter to determine over-summer pup mortality. Staff follow up on 
all wolf mortalities to determine cause of death.
    Wolf-prey relationships are documented by observing wolf predation 
directly during monitoring flights and ground observations and by 
evidence available at kill sites. Data is recorded on behavioral 
interactions between wolves and prey, predation rates, the total time 
wolves fed on their kills, percent consumption of kills by wolves and 
scavengers, characteristics of wolf prey (e.g., sex, species, 
nutritional condition), and characteristics of kill sites. Studies of 
winter and summer predation patterns enhance understanding of seasonal 
variations, interactions with other wolf packs and other carnivores, 
movements with respect to dens during pup-rearing, and territory size, 
use, and overlap. To determine kill rate and prey selection, the wolves 
are intensively tracked during two 30-day winter study periods in March 
and November-December, in addition to the regular weekly monitoring 
flights. This monitoring program has been in effect since 1997 and 
similar effort is expected in 2007.
    The Yellowstone wolf project has 2 permanent employees, an annual 
average of 6 seasonal employees and an annual average of 13 volunteers 
(volunteers contribute approximately 5,600 hours annually).
    Annual funding for the Yellowstone Wolf Project is represented in 
the chart below:

             ANNUAL FUNDING FOR THE YELLOWSTONE WOLF PROJECT
------------------------------------------------------------------------
                                        Total                   Private
             Fiscal Year               Funding   Appropriated  Donations
------------------------------------------------------------------------
1994................................   $360,000     $360,000
1995................................    399,300      399,300
1996................................    327,881      263,600     $64,281
1998................................    409,469      221,000     188,469
1999................................    311,867      228,000      83,067
2000................................    330,755      235,500      95,255
2001................................    321,005      223,700      97,305
2002................................    354,474      222,600     131,874
2003................................    397,394      212,700     184,694
2004................................    479,336      209,300     270,036
2005................................    454,500      174,500     280,000
2006................................    446,200      166,200     280,000
------------------------------------------------------------------------

    We estimate that approximately 80 percent of the funding for this 
project is spent on monitoring efforts, with remaining 20 percent going 
toward management.
    Question 279. What is the status of the wolf reintroduction, 
management, and monitoring effort in Yellowstone National Park?
    Answer. There were about 381 free-ranging wolves in at least 48 
packs in the greater Yellowstone recovery area (GYA) as of December 31, 
2006. Approximately 31 greater Yellowstone packs are currently counted 
as breeding pairs toward delisting criteria. Within Yellowstone Park, 
there were about 136 free-ranging wolves in 13 packs as of December 31, 
2006.
    Since 2000, the Northern Rocky Mountain Recovery Area met 
biological recovery criteria for delisting with more than 30 breeding 
pairs each year across the three recovery areas. This completes the 
three-successive-year criteria needed to start the delisting process. 
Idaho and Montana have approved wolf management plans and day-to-day 
management of wolves has been transferred to them. The protections of 
the ESA will not be removed in biologically significant portions of 
Wyoming outside of the national parks until the State's law and plan 
are approved.

                             FRANCHISE FEES

    Question 280. There seems to be a trend of rising franchise fees 
for the concessioners who operate in the National Park units.
    How are these trends justified in keeping with the intent of the 
1998 National Parks Omnibus Management Act which states that the 
franchise fee revenue ``shall be subordinate to the objectives of 
protecting, conserving, and preserving, resources of the unit of the 
National Park System and of providing necessary and appropriate 
facilities to the public at reasonable rates?''
    Answer. Franchise fees as a percentage of total gross revenue has 
increased from 1.8 percent in 1999 to an estimated 3.4 percent in 2005. 
The larger percentage of franchise fee revenue reflects higher average 
franchise fees on contracts issued in recent years, partly due to 
increased competition for contracts. However, the trend toward larger 
fees is not inconsistent with the legislative mandate of subordinating 
franchise fee revenue to protecting resources and providing services at 
reasonable rates. Minimum franchise fees are set in a prospectus only 
after planning is done to ensure that the services are necessary and 
appropriate for the visiting public and consistent with the 
preservation and protection of park resources. Only when these 
objectives are met are the financial aspects of the operation analyzed 
to determine a minimum franchise fee that will still allow for a 
reasonable profit for the prospective operation, given the investment 
requirements and risk.
    Question 281. Since passage of the 1998 Act, how many concessions 
contracts have been negotiated and at which park units? Of those, how 
many prospectuses have been prepared which have not raised the 
franchise fee from what was in the previous contract, how many have 
raised the franchise fee, and how many have lowered the franchise fee?
    Answer. The NPS has awarded approximately 450 contracts based on 
the 1998 law. We will provide a list of the contracts, and the 
franchise fees for them, separately. However, the business opportunity 
in many of the new contracts is different than under the old contract, 
so a contract-by-contract comparison is difficult to do fairly.
    That said, the NPS did a franchise fee analysis of 160 concession 
contracts issued since 1998 (smaller contracts, on average). The 
analysis showed that franchise fees increased in 81 of the 160 
contracts, from an average of approximately 3.4 percent of revenue to 
and average of approximately 4.8 percent. Franchise fees decreased in 
23 of the contracts, and remained the same in 56.
    Question 282. How have visitor services changed (i.e., improved or 
declines) in each park unit where the franchise fees have increased?
    Answer. Most prospectuses and resulting contracts have resulted in 
significant, non-monetary improvements, most notably in the areas of 
resource protection and higher quality visitor services. For example, 
the new transportation contract at Denali National Park requires buses 
to meet California Air Resource Board standards and to use low sulfur 
diesel fuel several years prior to adoption of nationwide standards, 
and the new contract for merchandise at Mount Rushmore National Park 
emphasizes natural and cultural resources, geology, and unique local 
area attributes.
    Question 283. How has the reasonable opportunity for the 
concessioner to gain a net profit in relation to the capital invested 
and the obligations of the contract been changed (e.g., reduced or 
increased) because of higher franchise fees?
    Answer. The minimum franchise fee set in a prospectus takes into 
consideration the reasonable opportunity for net profit in relation to 
capital invested and the obligations of the contract, as required by 
law. If a franchise fee is set too high for a business to make a 
profit, no one will submit an offer on the contract.

                         CONCESSIONS CONTRACTS

    Question 284. In some recent concessions contracts or prospectuses, 
services that were previously provided by the concessioner, have not 
been part of those contracts or prospectuses, and have been turned over 
to non-profit groups to operate.
    Why have certain services been turned over to non-profit groups to 
operate?
    Answer. We are only aware of two situations where services 
previously provided by the concessioner were assumed by a cooperating 
association: at Fort Sumter National Monument and at the Statue of 
Liberty National Monument. In the case of Fort Sumter, a small 
bookstore was being operated by the concessioner. A commercial services 
plan was conducted, and the final conclusion was that the best way to 
provide those services was through a non-profit cooperating 
association. The book store was not included in the analysis of the 
probable value for the new contract at Fort Sumter. In the case of 
Statue of Liberty, the not-for profit park ``friends'' group will be 
developing an audio tour, which will be sold wholesale to the 
concessioners for resale. The parks determined that the non-profit 
group was in the best position to research and develop a historically 
accurate tour.
    Question 285. How does the Federal government benefit when services 
performed by a for-profit concessioner are turned over to a non-profit 
group to perform?
    Answer. Determinations about which entity should provide which 
services at national park units are made in accordance with applicable 
laws and for the benefit of the visitor, not for the benefit of the 
Federal government. Visitors are best served when the entity that is 
best suited to provide a service is chosen to do so. In general, the 
NPS has found that visitors are well-served when concessioners provide 
food, lodging, gas, and other travel necessities, while cooperating 
associations provide educational and interpretive materials and 
programs that enable visitors to become more knowledgeable about the 
park's resources. Visitors benefit from both concessions and 
cooperating associations--through the franchise fees paid to the 
National Park Service by concessioners to support facilities and 
programs, and through the various benefits that cooperating 
associations provide to parks.
    Question 286. We are aware of situations at Ft. Sumter and Statue 
of Liberty where a gift shop and audio tour, respectively, were 
recently turned over to non-profit groups. Please provide a listing of 
park units and a description of the services previously performed by 
for-profit operations that are now performed by non-profit groups since 
October 1998?
    Answer. We are unaware of any other situations within the National 
Park System where specific operations that had previously been run by a 
concessioner were turned over to a cooperating association.
    Question 287. How does removing a viable and business opportunity 
to concessioners help them achieve a reasonable opportunity for net 
profit that is required by law?
    Answer. Business opportunities are rarely removed from 
concessioners and when they are, they are usually minor with respect to 
the operation as a whole. In cases of a new contract, the financial 
analysis performed to ensure that there is a reasonable opportunity for 
net profit takes into account the new operating circumstances. If such 
changes were made during the contract and of significant impact to the 
operation as a whole, the removal would require an amendment that may 
include a change in the franchise fee to reflect the new probable value 
of the contract.

                          PARK SPECIFIC ISSUES

    Question 288. Senator Thomas visited various parks during his 
tenure with the Subcommittee on National Parks. The following issues 
were discussed during the visits and an update would be appreciated.
    What is the status of major repairs/restoration for the Going to 
the Sun Road in Glacier National Park? How much has bee spent on the 
effort each year since October 1, 2001? What is the estimated cost and 
timeline to complete the effort?
    Answer. From FY 2001 through February 2007, the NPS has spent a 
total of $14 million dollars on the Going-to-the-Sun Road. In April 
2007, the Western Federal Lands Highway Division of the Department of 
Transportation will award Phase VI for $16.5 million. Project 
development, construction management, and the contract award for 
construction for Phases VII through IX will expend $62 million dollars 
by 2010. The remaining work of Phases IX through XIII is not funded at 
this time. Work could be completed by 2014 pending funding 
availability.
    Question 289. What is the status of major repairs/restoration for 
the Many Glacier Lodge at Glacier National Park? How much has bee spent 
on the effort each year since October 1, 2001? What is the estimated 
cost and timeline to complete the effort?
    Answer. From FY 2001 through February 2007, the NPS has spent a 
total of $10.6 million dollars on the rehabilitation of the Many 
Glacier Hotel. The next phase for $8 million is programmed to begin in 
FY 2011 through the Line item Construction Program.
    Question 290. Since October 1, 1996, what has the National Park 
Service spent for control and eradication of the hemlock woolly adelgid 
(Adelges tsugae)? Provide a list of park units affected by the species, 
approximate number of acres infested within each unit, and amount of 
funds spent toward the effort at each unit. How much progress has been 
made toward reducing the spread of the invasive species and toward 
recovery of the host plant population?
    Answer. We are aware of infestations in at least 14 park units, 
including Great Smoky Mountains National Park, which received a park 
base increase of $476,000 in FY 2005 specifically for hemlock woolly 
adelgid monitoring and mitigating activities. Chemical treatments have 
proven to be effective in controlling the adelgid but can only be used 
in certain circumstances and must be reapplied on a yearly basis so 
they are typically used only on small stands or individual trees. 
Biological controls are being tried at several parks and may prove to 
be the most promising method for survival of the eastern hemlock in 
parks but their effectiveness over large landscapes has yet to be 
determined. We do not have cost and acreage figures readily available 
at this time. They will be compiled and provided at a later date.

                             ENERGY ISSUES

    Question 291. The Department's Budget Request contains a proposal 
to repeal parts of Section 365 in the 2005 Energy Policy Act. Removing 
this provision would cause serious harm to the Pilot Program 
established by Section 365. I understand your Department wants to 
create a new fee for drilling permits as well. I am opposed to all of 
these things.
    Is the request for a repeal accompanied by a departmental 
willingness to re-assume the costs associated with archeological 
inventories, wildlife studies and other environmental work that is 
supposed to be paid for by BLM but has been picked up by the energy 
industry for some time now?
    Answer. The Federal government utilizes cost recovery authority to 
require identifiable users, rather than the general taxpayer, to pay 
for costs incurred by the Federal government on their behalf. The 
calculated cost recovery fees for APDs only include costs incurred by 
BLM and do not take into consideration costs related to other 
activities such as surveys or studies that are incurred by the energy 
industry.
    Question 292. Are you aware of the Cambridge Energy Research 
Associates study, released this week that found the price of 
exploration and production has risen 53% in the last two years alone?
    We are in the midst of an era during which the production of more 
energy here at home is of paramount importance. In the context of the 
aforementioned report, please justify your request to repeal portions 
of EPACT Section 365 and provide a detailed analysis of the impacts 
your proposal would have on domestic production.
    Answer. The number of APDs received has risen steadily over the 
past ten years. We expect that trend would continue even if BLM began 
recovering it costs from industry to process the applications.

                           PUBLIC LAND ISSUES

    Question 293. I was disappointed to see your proposed cuts to the 
Payment in Lieu of Taxes program. This is an important program for the 
counties in a state like Wyoming where the federal government owns such 
a large percentage of the land. The counties are required to provide 
vital services on the federal land, but cannot collect taxes on the 
land. This program deserves greater funding. Please justify why you are 
proposing to cut funding by almost 20%?
    Answer. Although the $190 million budget request is below the 2006 
record high level, it is above historical funding levels. In FY 2000, 
PILT was funded at just under $134 million. As part of the President's 
effort to constrain spending and reduce the budget deficit while 
funding key Departmental priorities, the 2008 budget for the Department 
makes difficult choices, and this was one of them.
    Question 294. One of your proposals is to zero out the BLM Range 
Improvement Fund, and amend the Federal Land Policy Management Act 
(FLPMA) so that all grazing fee receipts will be deposited in the 
Federal Treasury rather than go directly to fund range improvements. 
Why did you propose this approach again after it was defeated last 
year?
    Answer. The elimination of the Range Improvement Fund will move 
more responsibility for the construction and maintenance of public land 
projects to public land users and public land advocacy groups, state 
agencies, as well as other BLM programs. We will continue on the ground 
efforts through our partnerships and cost sharing arrangements.

     Responses of the Department of the Interior to Questions From 
                           Senator Murkowski

                                  ANWR

    Question 295. Mr. Secretary, since this is your first budget 
hearing before us, I wanted to seek your views on the importance of oil 
development in the coastal plain of the Arctic National Wildlife 
Refuge. Oil production from Alaska unfortunately is on the decline. 
Where we once pumped nearly 2 million barrels a day south during the 
first Persian Gulf War, today we produce just 40% of that level. We in 
the Alaska Delegation will certainly try to convince others in Congress 
of the importance of opening a small part of ANWR to oil and gas 
development. Since you are including the receipts of half of the $7 
billion from ANWR oil leases in your budget, I assume that you also 
feel it is important for ANWR development to proceed. What is your view 
of ANWR development's importance to the national energy picture?
    Answer. I believe that we must improve America's energy security by 
increasing domestic production of fossil fuels, promoting increased 
energy conservation, and stimulating the development of alternative 
fuels. ANWR's coastal plain is the Nation's single greatest onshore 
prospect for future oil, and this resource can be developed in ways 
that protect the environment. We can require that exploration take 
place only in winter, when the landscape is covered with ice and snow. 
We can limit the footprint to 2,000 acres on federal land, an area the 
size of a regional airport in an area the size of the entire state of 
South Carolina. Advanced technology could limit the impact on the 
environment and its wildlife. For these reasons, ANWR must remain an 
important option.

                   OCS NORTH ALEUTIAN BASIN QUESTION

    Question 296. The Administration last month lifted the Presidential 
moratoria that covered the North Aleutian Shelf, presumably to permit 
OCS oil development to occur in the next several years near the mouth 
of Bristol Bay. Alaska fishermen are concerned that OCS development in 
that area will endanger the world's largest sockeye salmon fishery and 
also potentially harm nearby crab, cod and Pollock fisheries. A lot of 
that concern could be mitigated if the Department would take the 
unusual step of imposing tough environmental stipulations earlier in 
the sale process. Would you be willing to work with us to make sure 
that local OCS concerns are fully addressed early in the process in the 
North Aleutian Basin?
    Answer. Yes, the Department has been soliciting input from interest 
parties throughout the development of the Outer Continental Shelf 5-
year oil and gas leasing program. We will continue to work with you, 
the State of Alaska, and the local communities to address any concerns 
raised and to develop mitigation measures in the sale process. In our 
5-Year Program proposal, we have already reduced the area to that 
requested by the State and the local boroughs, the former Sale 92 area 
which is distant from the mouth of Bristol Bay. We understand the 
importance of the fisheries to the economy of Alaska and will work to 
ensure it will be safeguarded.

                   OCS BEAUFORT/CHUKCHI SEAS QUESTION

    Question 297. For the past three decades the Minerals Management 
Service has striven to address the concerns of Inupiaq Eskimos engaged 
in traditional subsistence whaling in formulating Outer Continental 
Shelf lease sale proposals offshore northern and northwest Alaska and 
in regulating pre-lease, preliminary, exploration, development and 
production activities under Outer Continental Shelf oil and gas leases 
in those areas. Will you ensure that the Minerals Management Service 
continues to keep protection of subsistence whaling in the forefront of 
its mind as it plans future oil and gas leasing offshore northern and 
northwest Alaska?
    Answer. We will continue to work with the Inupiaq Eskimos and our 
leaseholders with regard to subsistence whaling. We have deferred from 
leasing hunt areas used by Barrow and Kaktovik in the Beaufort Sea and 
continue to include measures to ensure that oil and gas industry 
activities are coordinated with all bowhead subsistence hunting. These 
measures have worked in the past. For the upcoming proposed Chukchi Sea 
Sale 193 (scheduled for February 2007), we are not including the 
nearshore polynya zone in which the bowhead and other subsistence 
resources migrate north in the spring. This zone is used by Chukchi 
village hunters. We have signed an MOU with the Native Village of 
Kaktovik, the village that is closest to the proposed exploration 
program off the Canning River, and are discussing with them a further 
role in monitoring the activity.

                      POLAR BEAR LISTING PROPOSAL

    Question 298. Mr. Secretary, the Fish and Wildlife Service has 
proposed to list the polar bear as a threatened species. The agency 
states that the future status of Polar Bears depends on models 
projecting sea ice change and their effect on the species. I understand 
that these models are in need of further refinements, testing and 
enhancement. Given this and the quantity of new information on climate 
change that is entering the literature, do you feel that you will have 
sufficient scientific evidence to make a listing decision in 12 months?
    Answer. The Endangered Species Act statutorily requires the 
Secretary to promulgate a final regulation within one year of 
publication of the proposed regulation, with an option to extend this 
period by six months if he finds that there is substantial disagreement 
regarding the sufficiency or accuracy of the available data. We are 
committed to working with our colleagues in other federal agencies to 
carefully and thoroughly evaluate all available commercial and 
scientific data within this time frame, and we will make the 
appropriate final determination on the proposed rule in accordance with 
the statutory guidance.
    Question 299. Polar Bears have survived through other warming 
periods, including a substantial warming period that occurred 7,000-
10,000 years ago. Why does the Department believe the species may be 
threatened, given their ability to survive the past?
    Answer. While there have been warming periods in the past in which 
the species has survived, available data suggests the most recent 
warming trend is more acute than in the past and its impacts that much 
more severe on not only the formation of winter sea ice, but its 
lasting impacts in the foreseeable future on the older and thicker 
perennial sea ice that is critical to the overall Arctic system. Polar 
bears are entirely dependent on sea ice as a platform for harvesting 
food from the sea. The detrimental effects of prolonged periods without 
food are demonstrated in the declining Hudson Bay polar bear 
population, which has experienced longer ice-free periods and 
associated food deprivation over recent years. The anticipated net 
reduction in spatial and temporal arctic ice cover will likely 
translate to a commensurate reduction in carrying capacity for polar 
bears. However, over the next few months we will continue to evaluate 
this issue.
    Question 300. Is there scientific consensus that an ice-free Arctic 
ocean will occur in the foreseeable future? If not, how do you 
reconcile the different climate models that give you different 
outcomes?
    Answer. Whether or not the Arctic will be ``ice-free'' within the 
foreseeable future is not absolute; however, there is a consensus 
within the climatological community that significant reductions of sea 
ice will continue to occur into the foreseeable future. Some of the 
most recent and up to date models indicate an ice-free or nearly ice-
free state within the foreseeable future. Available data suggests the 
most recent warming trend affects the formation of winter sea ice, 
which has lasting impacts in the foreseeable future on the older and 
thicker perennial sea ice that is critical to the overall Arctic 
system. Observations have shown a decline in late summer Arctic sea ice 
to the extent of 7.7 percent per decade and in the perennial sea ice 
area of 9.8 percent per decade since 1978. Observations have likewise 
shown a thinning of the Arctic sea ice of 32 percent from the 1960s and 
1970s to the 1990s in some local areas. The end result is a positive 
heat balance resulting in an accelerated loss of sea.
    Question 301. Your department acknowledges that a final listing for 
Polar Bears will not have a direct effect on the loss of sea ice. Given 
that premise, what activities would the agency focus on to mitigate 
impacts on the Polar Bears habitat?
    Answer. Should FWS in its final analysis determine that the 
decision to list the polar bear as threatened under the ESA is 
warranted, Federal agencies would be required, under section 7 of the 
ESA, to consult with the FWS on any actions that might affect polar 
bears within the United States. The FWS would also, as required by the 
ESA, analyze and designate critical habitat for the polar bears in 
Alaska, if it is prudent and determinable.

               INSUFFICIENT BUDGET FOR ENERGY PERMITTING

    Question 302. Our Nation's oil and gas producers can't produce 
energy from federal lands if the federal agencies in your Department 
don't have sufficient resources to complete necessary land plans, 
review and issue permits, conduct the long-term scientific and 
environmental research necessary to ensure that development has no 
harmful effects on the environment and wildlife (necessary to satisfy 
the courts to allow such development to proceed), and to assure the 
public of the safety of oil and gas developments on federal lands.
    Frankly this budget worries me that you are stretching the 
agencies, BLM, MMS and U.S. Fish and Wildlife Service so thin that it 
will hinder their ability to move projects forward in a timely manner 
and conduct the research necessary to fully support and justify 
development proposals. I frankly also would feel much better if the 
Department would give MMS, the same authority that BLM has at present, 
to accept private contributions from industry to help pay for timely 
environmental analysis. What are your views on the subject?
    Answer. Technically, the Minerals Management Service (MMS) has the 
authority to accept private contributions through the National 
Environmental Policy Act's implementing regulations and through Public 
Law 99-591 (43 USC 1473). However, the authority MMS has to accept 
contributions for environmental analysis is not as clear as BLM's 
authority. In certain instances, such as where third party preparation 
of environmental analyses is possible, MMS has entered into agreements 
directing the activities of a third party contractor but do not 
actually accept any contributions from the applicant.

                            METHANE HYDRATES

    Question 303. Mr. Secretary, coming from Alaska that holds so much 
of the nation's potential methane gas hydrate supplies I am a bit 
disappointed that there is money in your budget for specific gas 
hydrate research, especially since the Energy Policy Act of 2005, in 
its reauthorization of hydrate research, anticipated that we would be 
spending $30 million in FY '08 on basic hydrate production and 
environmental control research. I understand that the Administration is 
reluctant to support research for any fossil fuel production at current 
high oil and gas prices, but wouldn't you agree that methane hydrate 
research is fundamentally different, since we need far more basic 
research to determine whether the hydrates can be economically 
recovered, and released without significant discharges of greenhouse 
gases. Isn't this exactly the type of research the government should be 
paying for?
    Answer. Section 968 of the Energy Policy Act of 2005 directed the 
Secretary of Energy to conduct a methane hydrates research program. We 
defer to the Department of Energy regarding issues related to this 
section of the Act.
    The MMS has actively researched hydrates within its limited 
mandate, which is primarily focused on environmental and engineering 
characteristics of hydrate formations as they may relate to future MMS 
regulation of hydrate production and/or conventional oil and gas 
development. MMS is currently involved in a joint industry project to 
examine the formation of hydrates in gas pipelines during the 
reestablishment of flow after a shutdown. While conducted in support of 
production of conventional natural gas resources, this research will be 
crucial information for the development of methane gas from hydrates.
    The USGS has a number of active research projects on gas hydrates 
with a variety of partners. Most recently, USGS actively participated 
in the Department of Energy--British Petroleum Exploration Alaska--U.S. 
Geological Survey drilling project which conducted research drilling on 
the North Slope of Alaska to collect samples and gather knowledge about 
gas hydrate for its potential as a long-term unconventional gas energy 
resource. This stratigraphic test well enabled the research team to 
gather core, log, reservoir performance, and fluid data from an ice pad 
location at Milne Point. The USGS is also the science lead on the India 
Gas Hydrate research project, a collaborative effort with the Indian 
Directorate General of Hydrocarbons. The primary objective of the 
Indian Government's National Gas Hydrate Program is to study, drill, 
and sample gas hydrates along the continental margin of India in order 
to meet the long term goal of exploiting gas hydrates as a potential 
energy resource in a cost-effective and safe manner. USGS also 
participates in the Gulf of Mexico (GOM) Gas Hydrates Joint Industry 
Project (JIP), goals of which include: (1) characterizing gas hydrates 
in the deepwater GOM; (2) assessing and understanding the potential 
safety hazards associated with drilling wells through sediments 
containing gas hydrates; (3) developing a database of seismic, core, 
log, thermophysical, and biogeochemical data to identify current 
hydrate containing sistes in deepwater GOM; (4) drilling and sample 
collection field testing program to collect data and obtain cores to 
characterize the hydrate containing sediments in deepwater GOM; and (5) 
develop wellbore and seafloor stability models pertinent to hydrate 
containing sediments in the GOM. The USGS is also working with the MMS 
and the BLM to characterize, evaluate, and assess the gas hydrate 
resources underlying Federal lands. USGS also conducts a number of 
geophysical and laboratory studies related to gas hydrates. The 
geophysical studies are conducted to link the geologic framework to 
natural gas hydrate occurrence and to better interpret gas hydrate 
occurrence and characteristics in the subsurface. Laboratory studies of 
physical properties of gas hydrate-sediment mixtures and pure gas 
hydrates are essential for understanding drilling results and 
developing parameters to constrain numerical models of gas hydrate 
behavior.

                        ALASKA MINERALS PROGRAM

    Question 304. When Congress enacted the Alaska National Interest 
Lands Conservation Act, Alaskans were promised that the federal 
government would continue to make information available on mineral 
deposits which exist beneath Alaska's public lands. Alaska's public 
lands are believed to contain significant quantities of coal and 
strategic minerals. The budget proposes zero funding for the Alaska 
Minerals Program--zero funding to continue a program that was promised 
to Alaskans that accepted ANILCA with some considerable reluctance. Why 
is this justified?
    Answer. The President's FY 2008 Budget provides no funding for the 
Alaska Minerals Program because this work can be accomplished by other 
entities and because of the need to focus our limited resources on 
other priorities, such as implementation of the Energy Policy Act of 
2005.

                 ALASKA LAND TRANSFER ACCELERATION ACT

    Question 305. Mr. Secretary, in 2004 the Congress enacted the 
Alaska Land Transfer Acceleration Act. The premise of that legislation 
is that the federal government should complete the transfer of all 
lands due to the State, the Native corporations and Native allotment 
applicants by the 50th anniversary of Alaska's statehood. 2009 is right 
around the corner. I wonder how close the Department will come to 
meeting that deadline and whether the President's budget provides it 
with adequate funding to meet that mandate?
    Answer. As a result of your legislation, BLM has significantly 
improved its ability to process land conveyances in Alaska. The funding 
level requested in the FY 2008 budget will allow BLM to have 
substantively completed determining land ownership patterns by 2009, an 
important milestone that should allow us to provide for interim 
conveyances with tentative approval by 2012, greatly increasing 
certainty for all parties. Final title would await only surveys, which 
would follow in subsequent years. We will continue to look for 
opportunities to ensure that we meet our obligation to the State and 
people of Alaska.

     Responses of the Department of the Interior to Questions From 
                            Senator Salazar

           LAND AND WATER CONSERVATION FUND STATESIDE GRANTS

    Question 306. The Department of Interior proposes to eliminate 
funding for the Land and Water Conservation Fund Stateside Grants. I am 
perplexed by the elimination of funding for the LWCF stateside grant 
program. These funds are critical to states as they acquire land for 
trails, parks and recreation uses. Why are you proposing to eliminate 
this keystone of our nation's cooperative conservation efforts?
    Answer. The FY 2008 budget request does not include funding for 
Land and Water Conservation Fund State grants. As the Administration 
strives to balance the Federal budget, focusing on core Federal agency 
responsibilities is imperative. Many of these grants support State and 
local parks that have alternative sources of funding through State 
revenues or bonds.

                       PAYMENTS IN LIEU OF TAXES

    Question 307. Many rural communities in Colorado have large tracts 
of federal land from which they do not receive taxes. The Payments in 
Lieu of Taxes or PILT program is designed to compensate these 
communities. In 2006, counties like Mesa, Gunnison, Park and the other 
forty nine counties in Colorado received payments in lieu of taxes 
amounting to more than $17 million. The President's proposal asks for 
just $190 million for PILT which would represent the lowest level of 
funding since 2000, and a 20% cut from the 2006 appropriated level. 
Congress provided $236 million for PILT in 2006 (below its authorized 
level of $350 million). What is the basis for the Administration 
cutting this program?
    Answer. Although the $190 million budget request is below the 2006 
record high level, it is above historical funding levels. In FY 2000, 
PILT was funded at just under $134 million. As part of the President's 
effort to constrain spending and reduce the budget deficit while 
funding key Departmental priorities, the 2008 budget for the Department 
makes difficult choices, and this was one of them.

             NATIONAL LANDSCAPE CONSERVATION SYSTEM (NLCS)

    Question 308. We have some of the country's finest BLM lands in 
Colorado, including Canyons of the Ancients National Monument, Gunnison 
Gorge National Conservation Area, and McInnis Canyons National 
Conservation Area, to name a few. These are the crown jewels of the 
BLM-managed lands, and they are part of a system that the Department of 
the Interior created in 2000 to provide additional resources and 
protection for these lands. This National Landscape Conservation 
System, as it is called, includes the 26-million most spectacular acres 
of the 260 million acres that BLM oversees, but it has been 
consistently underfunded over the last six years. This under-funding is 
resulting in damage to resources, lawlessness, and inadequate resources 
for visitors.
    At Canyons of the Ancients National Monument, which has the highest 
density of cultural sites in America, 47 ancestral Puebloan sites were 
looted in the first half of 2006. With only one law enforcement officer 
for the entire monument--there are not nearly enough resources to 
prevent this type of vandalism.
    McInnis Canyon National Conservation Area shares its law 
enforcement officer with the rest of the BLM field office. That officer 
is responsible for overseeing 1.3 million acres of BLM land.
    Considering that at current funding levels for the National 
Landscape Conservation System the BLM is already struggling to protect 
the cultural, natural, and scenic resources on these ``crown jewel'' 
lands, how will a $10 million cut in funding for NLCS help with the 
protection of resources at places like Canyons of the Ancients and 
McInnis Canyons?
    Answer. The Department supports the National Landscape Conservation 
System (NLCS). The NLCS includes approximately 27 million acres of land 
and hosts more than one-third of the recreation on BLM-managed lands. 
The differences in the NLCS budget from FY 2006 to FY 2008 are caused 
by a number of factors. First, the NLCS completed a number of projects 
in FY 2006 and anticipates completing others in FY 2007. These 
completed projects will not need funding in FY 2008. These include the 
conclusion of the commemoration of the Lewis and Clark expedition and 
the completion of planning efforts at several NLCS areas including 
Craters of the Moon, Kasha Katuwe, and Sloan Canyon. Savings are 
estimated at over $3 million. Second, the FY 2006 figures include 
approximately $3.8 million in recreation fees that are not currently 
reflected in the FY 2008 budget. Third, almost $3.5 million in earmarks 
directed to the NLCS in FY 2006 were not included in the FY 2008 
budget.
    The budget also seeks $15 million for the new Healthy Lands 
Initiative which benefits the NLCS by expanding cooperative 
conservation and restoring nearly half a million acres of western land, 
including some NLCS units. Additionally, the President's FY 2008 Budget 
once again provides $9.4 million for the Challenge Cost Share program, 
which uses partnerships to accomplish cultural resource work, among 
other types of projects. For example, the site stewardship program at 
Spirit Cave in Nevada has leveraged $8000 Challenge Cost Share funds to 
reduce vandalism and protect important prehistoric and historic 
resources.

                          NLCS ACCOUNTABILITY

    Question 309. Congress has allocated about $56-59 million a year to 
the NLCS for the past six years. National Monuments and other areas in 
the BLM's Conservation System were established to achieve specific 
goals, such as the protection of rare wildlife and unique 
archaeological sites.
    What annual measures does BLM use to track the health and 
stewardship of the Conservation System and the agency's success at 
achieving specific resource outcomes?
    Answer. The BLM uses project and organizational codes for tracking 
accomplishments within each NLCS unit. Individual codes have been 
established for each National Monument, National Conservation Area, 
Wild and Scenic River, and National Scenic and Historic Trail. These 
codes, in combination with the Bureau's Operating Plan, are used to 
track the agency's progress in achieving outcomes. The following table 
outlines the performance expectations for the NLCS in Fiscal Year 2008. 
The variations in performance are the result of the BLM's efforts in FY 
2006 and FY 2007 to clarify definitions and standardize accomplishment 
reporting for these measures.

                                                             NATIONAL LANDSCAPE CONSERVATION SYSTEM MANAGEMENT PERFORMANCE OVERVIEW
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                   2007 President's       2007 Likely                          Change from 2007
             Measure                  2004 Actual         2005 Actual          2006 Plan          2006 Actual           Budget              Enacted            2008 Plan         Plan to 2008
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Percent of miles of National      New measure.......  New measure.......  New measure.......  New measure.......  New measure.......  56%...............  56%...............  0%
 Historic Trails, Wild and                                                                                                            4,138/7,447.......  4,171/7,447.......
 Scenic Rivers, and other linear
 Special Management Areas under
 DOI management meeting their
 heritage resource objectives
 under the authorizing
 legislation.
Percent of acres of Wilderness    New measure.......  New measure.......  New measure.......  New measure.......  New measure.......  Establish Baseline  TBD...............  TBD
 Areas and other Special
 Management Areas under DOI
 management meeting their
 heritage resource objectives
 under the authorizing
 legislation.
Percent of National Monuments     84%...............  78%...............  78%...............  100%..............  78%...............  100%..............  100%..............  0%
 and National Conservation Areas  27/32.............  25/32.............  25/32.............  32/32.............  25/32.............  32/32.............  32/32.............
 meeting resource condition
 objectives.
Cumulative percent of miles of    98%...............  99%...............  62%...............  99%...............  62%...............  99%...............  99%...............  0%
 designated wild and scenic       2,020/2,052.......  2,033/2,052.......  1,278/2,061.......  2.045/2,052.......  1,278/2,061.......  2.045/2,052.......  2.045/2,052.......
 rivers achieving wild and
 scenic river condition
 objectives.
Percent of miles of designated    56%...............  52%...............  52%...............  55%...............  52%...............  53%...............  53.7%.............  0.7%
 scenic and historic trails       3,058/5,484.......  2,804/5,386.......  2,804/5,386.......  3,266/5,979.......  2,804/5,386.......  2,860/5,386.......  2,893/5,386.......  +33 miles
 achieving trail protection.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                        NLCS BUDGET TRANSPARENCY

    Question 310. Of the various special designations which comprise 
the BLM's National Landscape Conservation System, only wilderness has 
its own budget subactivity. Since there is no line item in the 
President's budget for the Conservation System--nor have we seen 
measures of success for the System in past years or reports on 
conservation progress--it is difficult to determine what funding the 
Conservation System receives, how the funds are spent, what the funding 
achieves, and what needs are not addressed.
    Will you please provide me a detailed list of funding levels for 
each of the NLCS units in Colorado, with subaccounts identified for 
activities such as law enforcement, education, and resource protection 
in each of the units?
    Answer. Attached is a chart that indicates funding level by 
subactivity for Canyons of the Ancients National Monument and 
Colorado's two NCAs as well as the National Scenic and Historic Trails 
in Colorado. The BLM has identified an additional $823,000 for 
management of wilderness and wilderness study areas in Colorado outside 
of these specific areas.

                                        NATIONAL LANDSCAPE CONSERVATION SYSTEM FUNDING, FY 2008 PRESIDENT'S BUDGET, FOR UNITS IN COLORADO, BY SUBACTIVITY
                                                                                    [In Thousands of Dollars]
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                  Soil,Water                        Cultural              T&E                Recreation    Land       Law       Operations     Annual      2008
                 State/Unit Name                    and Air   Rangeland  Riparian  Resources  Wildlife  Species  Wilderness   Resources   Realty  Enforcement  Maintenance  Maintenance  Request
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                National Monuments and National Conservation Areas
CO: Canyons of the Ancients NM..................  ..........        34   ........        413         4  .......         18         142         5  ...........         10          102        727
CO: Gunnison Gorge NCA..........................        5           17        20           8  ........       13         53         195        15          52   ...........         29        408
CO: McInnis Canyons NCA.........................        1           32         7          59         7        6         58         152         5  ...........  ...........         33        360
                                                 -----------------------------------------------------------------------------------------------------------------------------------------------
      NM/NCA Total..............................        6           83        27         480        11       19        129         489        24          52          10          164      1,495
                                                 -----------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                        National Scenic and Historic Trails
CO: Continental Divide NST......................  ..........  .........  ........  .........  ........  .......  ..........  ..........  .......  ...........  ...........  ...........        0
CO: Old Spanish NHT.............................  ..........  .........  ........  .........  ........  .......  ..........  ..........  .......  ...........  ...........  ...........        0
                                                 -----------------------------------------------------------------------------------------------------------------------------------------------
      NSHT Total................................        0            0         0           0         0        0          0           0         0           0           0            0          0
                                                 -----------------------------------------------------------------------------------------------------------------------------------------------
      NLCS Total................................        6           83        27         480        11       19        129         489        24          52          10          164      1,495
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question 311. With the Conservation System now nearly seven years 
old, and given the System's distinct mission, it seems odd that funding 
for the System still isn't identified clearly in the budget. Is the BLM 
considering creating a line item and subactivities in the budget for 
the Conservation System's components, and if not, why not?
    Answer. The NLCS covers a wide array of activities, spanning most 
of the BLM's programs. The BLM is considering options for improving the 
tracking of budgets and accomplishments of the NLCS. These options may 
include further refinement of existing performance measures, 
establishing new measures, and the creation of one or more 
subactivities for FY 2009.

             SUPPORT FOR NATIONAL PARKS AND NPS CENTENNIAL

    Question 312. I am pleased to see the President has pledged 
additional resources to National Park Service for FY08 and has 
committed to significantly increasing investments in the National Park 
system over the coming 10 years. I look forward to hearing more of the 
details of the Park Service's budget plan at the upcoming hearing on 
this issue with Director Bomar. First, though, can you assure us that 
the increased funding for operations is not coming from other Park 
Service accounts?
    Answer. Yes.
    Question 313. I am interested in the Department's plan for 
formulating the Centennial Challenge. As I understand it, the Park 
Service will soon be assembling a list of signature projects and 
programs that it will support under the Centennial Challenge. How will 
the Park Service determine which projects it will support?
    Answer. The process of selecting signature projects will be an 
outgrowth of the Centennial Report due to the President in May 2007, 
based on input gathered from the American people through listening 
sessions across the country. This includes soliciting input from the 
parks' private partners. The Secretary will present examples of 
proposed f signature projects and programs, as well as the process for 
selecting these projects and programs, as part of the May report to the 
President as part of the Centennial Report. The list will be prepared 
by the Director of the National Park Service, drawing upon ideas 
generated through listening sessions, public engagement, and the input 
of Park Service professionals.
    Question 314. Will the public have an opportunity to provide its 
input on how to prepare the Parks for their Centennial in 2016? Will 
there be public hearings that will help shape the Centennial Challenge, 
and, if so, will you commit to hosting at least one of those hearings 
in Colorado?
    Answer. The public will have an opportunity to provide its input on 
how to prepare the Parks for the Centennial in 2016. We have set up 
listening sessions throughout the country, including a listening 
session held in Denver, Colorado, on March 21, 2007. Many individual 
parks are also holding listening sessions locally
    Question 315. Unfortunately, cuts are planned in funding for major 
maintenance and construction projects. When we have a maintenance 
backlog that is estimated at somewhere between $4.5 and $9.69 billion, 
these cuts seem short-sighted and destined to cost us more in the 
future. Can the Department find additional funds to increase the budget 
for major maintenance projects so that the National Park System can 
make inroads at addressing the maintenance backlog that is estimated to 
be up to $9.5 billion dollars?
    Answer. The FY 2008 budget request for NPS asset management--
facility and road construction and maintenance--is $978 million, $60 
million more than the FY 2007 request. Between FY 2002 and FY 2006, 
more than $4.6 billion was provided to address deferred maintenance 
needs. Over 6,600 projects within parks have been undertaken during 
that time.
    During the last five years, NPS has transformed its approach to 
managing its assets to ensure that construction and maintenance funding 
is directed to the agency's highest priority needs. The physical assets 
of the National Park System have been inventoried for the first time, 
including nearly 20,000 buildings; 4,200 housing units; 12,000 miles of 
paved and unpaved roads; more than 1,500 campgrounds and picnic areas; 
more than 2,300 road and trail bridges and tunnels; 1,200 water 
systems; 1,600 wastewater systems; 400 electrical systems; and numerous 
monuments, signs, amphitheaters, fortification, ruins, airfields, and 
other special features.
    During the last 5 years, the NPS has been implementing the initial 
phase of an innovative asset management program focused on developing, 
for the first time, a comprehensive inventory and condition assessment 
of the system's asset base. By the end of FY 2006, NPS had performed 
condition assessments on 79% of its current asset inventory, enabling 
NPS to target funds to highest priority needs. The $978 million asset 
management request for FY 2008 includes (in rounded millions):

  <bullet> $201 million--line-item construction,
  <bullet> $462 million--facility maintenance,
  <bullet> $225 million--roads (through Federal Highway program),
  <bullet> $90 million--fee receipts applied to facilities.

    Question 316. Can you explain why there is a reduction in 
investment in National Heritage Area programs, when Congress recently 
added several new units?
    Answer. Heritage Partnership Programs (National Heritage Areas) 
have been created by Congress to promote the conservation of natural, 
historic, scenic and cultural resources. In 2006, Congress authorized 
an additional 10 heritage areas, bringing the total number of heritage 
areas to 37. These areas are the management responsibility of Federal 
commissions, nonprofit groups or State agencies or authorities. The 
work of each National Heritage Area is guided by a management plan 
approved by the Secretary of the Interior. Participating areas realize 
significant benefits from this partnership strategy. These include 
resource conservation, community attention to quality of life issues, 
and help in developing a sustainable economy.
    The NPS requests an increase in funding from the FY 2007 
President's Budget to reflect the expansion of the program from 27 to 
37 National Heritage Areas. Funding for the program is limited and 
there will be an emphasis on encouraging heritage areas to become self-
sufficient. The budget request will initiate the management planning 
process for the ten new National Heritage Areas; provide increased 
funding and partnership opportunities for as many as 620 National 
Historic Properties and 16,170 National Register listings that lie 
within their legislated boundaries; support partnerships of National 
Heritage Areas with their 1,516 partners, and continue to provide 
educational opportunities for 857,083 participants nationwide.

                     YELLOWSTONE SNOWMOBILE ISSUES

    Question 317. I want to thank the DOI for endorsing the new 
National Park Service Management Policies. This Committee worked hard 
to ensure the final version of these policies strengthened, rather than 
weakened, the Park Service's commitment to conservation in our National 
Parks. Now that these management policies are in place, we need to 
ensure they are implemented properly and they provide additional 
clarity for Park Service employees and superintendents.
    Specifically, I am interested in why the DOI is spending taxpayer's 
money to conduct a fourth study on the Yellowstone snowmobile issue. It 
was my understanding that the internal recommendations from the Park 
Service and the Environmental Protection Agency in the last three 
studies were clear about how to ensure compliance with the Management 
Policies. Can DOI assure me that any new plan for our Parks, including 
the Yellowstone plan, will comply with the Management Policies which we 
all worked so hard on?
    Answer. The NPS is managing winter use in Yellowstone and Grand 
Teton national parks under the auspices of a temporary plan that ends 
at the conclusion of this winter season (mid-March 2007). Previous 
plans and decisions have been set aside by the courts. In order to have 
a winter plan in place for the 2007-2008 winter season and beyond, the 
NPS needs to complete a new plan, EIS, and rulemaking by this fall. The 
new plan will be in full compliance with NPS Management Policies that 
call for both protecting park resources and providing for visitor use 
and enjoyment.

                     MONITORING OIL AND GAS LEASES

    Question 318a. I am pleased the Department has chosen to increase 
the budget for inspection and monitoring of the rapid growth in energy 
production occurring on BLM lands. I'm not certain though that the 
increase in the budget is commensurate with the increase in energy 
production. Can you tell me how many dollars the Department received or 
expects to receive from energy production on public lands in FY2007 and 
FY2008?
    Answer.

                ONSHORE MINERAL RECEIPTS, FY 2007-FY 2008
                        [In Thousands of Dollars]
------------------------------------------------------------------------
                                               FY07            FY08
------------------------------------------------------------------------
Total Onshore Mineral Receipts..........      $3,781,797      $4,102,212
------------------------------------------------------------------------


                 OCS MINERAL RECEIPTS, FY 2007-FY 2008 *
                        [In Thousands of Dollars]
------------------------------------------------------------------------
                                               FY07            FY08
------------------------------------------------------------------------
Total OCS Mineral Receipts..............      $6,860,200      $9,194,702
------------------------------------------------------------------------
* Includes 8(g) reductions.

    Question 318b. Can you tell me how many personnel are going to be 
dedicated to the inspection and monitoring of the energy production 
occurring on BLM lands. Can you also tell me whether unannounced visits 
to drilling pads are planned?
    Answer. The BLM plans to have a staffing level of 212 Full-Time 
Equivalent (FTE) positions dedicated to inspection and enforcement and 
monitoring work. Those FTEs will be comprised of Petroleum Engineering 
Technicians (PETs), Petroleum Accountability Technicians (PATs) and 
Natural Resource Specialists (NRSs). This is an increase in the 
inspection and enforcement staffing level of 158 FTE in 1998.
    Visits to drilling pads are internally planned (as to numbers, type 
and priority), but are generally not announced in advance to the 
operators. In fact, most BLM inspection, enforcement, and monitoring 
visits are unannounced.

                LAND SALES TO REDUCE THE FEDERAL DEFICIT

    Question 319. Secretary Kempthorne and I are on record discussing 
the sale of federal lands, and the use of the proceeds to reduce the 
federal deficit. This budget proposal would return at least 70% of the 
proceeds to the Treasury. When did the Department's philosophy on land 
sales not being used for deficit reduction change? What guarantees do 
we have that these sales are in the best interest of protecting our 
country's natural resources, and that sales of valuable lands are not 
being accelerated in an effort to reduce the federal deficit?
    Answer. During the confirmation hearing last year, I stated that I 
would oppose land sales specifically for deficit reduction, but 
recognized that there were occasions in which land sales are 
appropriate, such as for reasons of creating more efficient management 
blocks of land. My position has not changed.
    Under the Federal Land Policy and Management Act of 1976 (FLPMA), 
the Bureau of Land Management (BLM) has long had authority to sell 
lands, identified through the land use planning process, that are not 
central to achieving the BLM land management mission. FLPMA sets forth 
certain criteria under which public lands may be identified for 
disposal, such as the lands are difficult and uneconomic to manage and 
are not suitable to be managed by another Federal department or agency. 
The disposal of such lands, therefore, allows BLM to achieve a more 
common sense land-use pattern and reduce administrative costs for 
Federal programs. The Administration's proposal would seek to change 
the allocation of proceeds received from such sales, but would not 
change the long-established process or existing disposal criteria 
established by FLPMA.

                           OIL SHALE LEASING

    Question 320. In a response DOI submitted to me on July 1, 2005 
(responses to questions submitted following the April 12, 2005, hearing 
on Oil Shale Development on Bureau of Land Management lands), a two-
step leasing program was described in which industry first nominates 
parcels for RD&D projects, and DOI would conduct an environmental 
review of the proposals. Upon completion of the RD&D projects, and 
prior to the conversion of any RD&D leases to commercial leases, the 
Department would conduct an Environmental Impact Assessment (EIS).
    It is my understanding that BLM issued in December 2006, five RD&D 
leases for 160-acre tracts in western Colorado. Comments were submitted 
by the Colorado Department of Public Health and Environment on the RD&D 
projects.\1\ Can the DOI provide me assurances that the concerns raised 
in these comments were addressed?
---------------------------------------------------------------------------
    \1\ September 15, 2006 letter to Jane Peterson from Colorado 
Department of Public Health and Environment on the Environmental 
Assessment CO-110-2006-117-EA; September 1, 2006 letter to Jane 
Peterson from CDPHE on the EGL Resources Inc., Environmental 
Assessment; and September 15, 2006 letter to Jane Peterson from CDPHE 
on Environmental Assessment CO-110-2006-120-EA.
---------------------------------------------------------------------------
    Answer. In preparing the Environmental Assessments (EAs) for each 
of the five RD&D leases in Colorado, the BLM carefully reviewed all 
timely received comments, including the comments you specifically 
referenced in your question, and addressed them in the Final EAs.
    Question 321. Will DOI be following the two-step leasing program 
whereby commercial leases for these tracts in Colorado will be approved 
only upon satisfactory completion of the RD&D projects, and the 
completion of an EIS?
    Answer. For the 5 RD&D leases in Colorado, the BLM will follow a 
two-step leasing process before approving conversion of the RD&D leases 
to commercial leases. No RD&D lease will be converted into a commercial 
lease until the RD&D lessee proves the technology they are using is 
commercially viable (i.e., can produce salable oil in paying, 
commercial quantities) and the Programmatic EIS is completed.
    Question 322. Also, Sec. 369(e) of the Energy Policy Act of 2005 
states ``If the Secretary finds sufficient support and interest exists 
in a State, the Secretary may conduct a lease sale in that State under 
the commercial leasing program regulations.'' Can the DOI describe how 
it will receive meaningful input from state and local governments, and 
members of the public in order to determine whether to hold a 
commercial lease sale?
    Answer. The Secretary will initiate the dialogue with the State. 
The Department will establish a deliberative process to assure that the 
State's position on commercial leasing of oil shale will be factored 
into decisions about commercial leasing.

     Responses of the Department of the Interior to Questions From 
                            Senator Domenici

                           MINERAL ROYALITES

    Question 323. The Department of the Interior estimates that New 
Mexico will receive $501 million in mineral royalties in FY2007 and 
$542 million in FY2008. In FY2006, New Mexico royalties were $573 
million.
    Do you solely attribute the projected New Mexico royalty decrease 
from FY2006 levels to oil and gas price decreases since FY2006? If not, 
what other factors have contributed to the decrease?
    Answer. The figures cited above are for actual and estimated 
mineral revenue payments to states. A number of factors, which include 
OMB's estimated forecast of oil and gas prices, may contribute to the 
total distribution a state receives in a given year. Fiscal year 
estimates for payments to states are based on revenue estimates for 
each source type, the appropriate distribution for each land category, 
and the amount of total mineral receipts disbursed to that state for 
the prior year. Mineral receipts are derived from royalties, rents, 
bonuses, and other revenues, including minimum royalties, late payment 
interest, settlement payments, gas storage fees, estimated royalty 
payments, and recoupments.

     Responses of the Department of the Interior to Questions From 
                             Senator Smith

    Question 324. I am pleased that significant progress is being made 
on the Savage Rapids Dam project on the Rogue River. I appreciate the 
good work that the Department and the Bureau have done on this project, 
and I look forward to working with all of you to finish the job. In 
that vein, I would like to thank the Administration for including 
$15,000,000 for the project in the FY08 budget request. I pledge to do 
all I can to make sure Congress provides this funding this year.
    The Oregon-based contractor, Slayden Construction, started work 
last fall. Excavation for the pumping plant has begun, and I hope the 
Bureau of Reclamation will keep the contractor working as efficiently 
and quickly as possible given the deadlines established in federal 
court. With this in mind, please explain when and how the Bureau plans 
to spend the $13,000,000 in FY07 funding for this project that was 
included in the budget request last year.
    Answer. Reclamation plans to spend available funds on construction 
of the pumping plant based on the earnings schedule provided by the 
contractor Slayden Construction. Per their approved schedule, the 
contractor currently plans on being paid approximately $11.0 million in 
FY 2007. Any remaining funding for the project will cover Reclamation's 
construction management costs and other contractual commitments to 
support the construction effort, including PacifiCorps' design and 
construction of a power takeoff structure.
    Question 325. The Umatilla Tribes and the Westlands Irrigation 
District have proposed a way forward to resolve the remaining issues in 
the Umatilla Basin. They have recently revised a proposal put forward 
by the Department. These revisions are designed to provide more 
specificity to the project and to allow for public meetings, etc. Is 
the Department going to accept these reasonable revisions?
    Answer. The Department has worked with the Tribes and the District 
to find a way forward to resolving water issues in the Umatilla Basin. 
In a letter from Michael Bogert, Counselor to the Secretary, dated 
March 19, 2007, we determined that the best process for resolving these 
matters is through the appointment of a Federal water rights assessment 
team and a concurrent appraisal-level study of water supply options 
that could potentially be used to help resolve the Tribes' water rights 
claims. Following completion of the team's assessment report, 
appointment of a negotiation team will be considered if the Tribes, 
Westland, and the State of Oregon formally request negotiations.

     Responses of the Department of the Interior to Questions From 
                             Senator Wyden

                         GULF OF MEXICO LEASES

    Question 326a. Mr. Secretary, at last count, the Department had 
successfully renegotiated only a small fraction of the 1998 and 1999 
Gulf of Mexico leases that failed to include price thresholds. When Mr. 
Allred was here, he suggested that Congress provide the Department with 
additional tools to get the rest of these leases corrected. The House 
has already proposed a legislative remedy.
    What is your plan for renegotiating the rest of these leases, and 
when are you going to get this wrapped up?
    Answer. We are continuing to actively pursue agreements with 
companies. The Assistant Secretary for Land and Minerals Management has 
adopted three basic principles to guide the Department's actions in 
seeking to resolve this matter. First, our focus is to negotiate price 
thresholds in leases prospectively; second, we will not give economic 
advantage to one company over another; and finally, we will strive to 
amend these agreements in a way that will minimize litigation risk.
    Question 326b. Do you need additional statutory authority to 
renegotiate these leases or to force the companies holding these leases 
to renegotiate?
    Answer. We have informed the Congress that we might need additional 
tools with respect to this issue and look forward to working with the 
Congress on resolving it. We must however think through any legislative 
action very carefully so that we minimize any unintended consequences 
such as potential litigation.

                        HEALTHY LANDS INITIATIVE

    Question 327a. Mr. Secretary, the Department has been on a lease-
now-deal-with-the-consequences-later bender. We have seen the Bureau of 
Land Management repeatedly criticized for its relentless push for more 
oil and gas drilling in Western states, either by federal judges or the 
Interior Board of Land Appeals. Now the Interior Department has 
announced a $22 million Healthy Lands Initiative to restore lands where 
drilling is becoming most intensive, including some in my home state of 
Oregon. It's hard to tell whether this is a real effort to try to 
mitigate the environmental damage that's been done on public lands or 
litigation-defense program. This cannot be enough money to truly 
remediate all of the damage done to our public lands from energy 
development.
    What is the total estimated acreage, cost or duration of the 
Healthy Lands Initiative for each of those areas designated for 
inclusion public lands in the FY 2008 budget?
    Answer. In addition to the requested increase of $15 million in BLM 
funding for the Healthy Lands Initiative for FY 2008, BLM will apply 
$8.2 million in existing funds to this effort. The table below reflects 
the total estimated acreage to be treated, improved, and/or reclaimed 
with these funds.

                                          2008 HEALTHY LANDS INITIATIVE
----------------------------------------------------------------------------------------------------------------
                                   Acres Planned for Treatment,                        Cost
                                  Improvement and/or Reclamation -----------------------------------------------
              Area              ---------------------------------
                                    BLM      Non-BLM     Total          HLI       Existing Funds
----------------------------------------------------------------------------------------------------------------
Southwest Wyoming..............     33,745      1,686     35,431     $ 4,500,000       $ 209,386      $4,709,386
New Mexico.....................     91,266        450     91,716      $3,500,000      $2,004,200      $5,504,200
Utah...........................     53,380  .........     53,380      $2,000,000      $1,000,000      $3,000,000
SE Oregon/SW Idaho/Northern         23,000      3,900     26,900      $1,900,000      $2,467,000      $4,367,000
 Nevada........................
Southern Idaho.................     88,300      3,460     91,760      $1,800,000      $1,743,000      $3,543,000
Colorado.......................     13,204        837     14,041      $1,300,000        $763,199      $2,063,199
----------------------------------------------------------------------------------------------------------------

    Question 327b. What is the total estimated acreage and cost of 
remediation for all lands managed by the Department requiring 
remediation, by land management agency, and by state if possible?
    Answer. The BLM does not currently track lands that would benefit 
from remediation, reclamation, and restoration due to past energy 
development practices. Under current laws, regulations, and permits, 
the BLM requires oil and gas operators to plug all wells and reclaim 
all areas disturbed by development when wells are no longer capable of 
producing in paying quantities. As a result, remediation, reclamation, 
and restoration of the surface and downhole impacts are largely borne 
by the oil and gas industry.
    Question 327c. The description of the Healthy Lands Initiative also 
indicates that it is focused primarily on preserving or reestablishing 
sage grouse habitat. Are there any other listed or candidate species 
that the Initiative is intended to protect, and if so, which ones?
    Answer. The Healthy Lands Initiative is focused on sustaining and 
restoring quality habitats on a landscape basis that include a broad 
suite of species. Efforts undertaken through this initiative will 
address habitat restoration and conservation of habitats that include a 
variety of Federal listed and candidate species, State species of 
concern, and Bureau sensitive species throughout the six geographic 
areas. Although the overall list of species in these three categories 
would number more than 200, a few examples include: lesser prairie 
chicken, sand dune lizard, Wyoming pocket gopher, bluehead sucker, 
pygmy rabbit, yellow-billed cuckoo and midget faded rattlesnake.

                    LEASING IN SENSITIVE LAND AREAS

    Question 328. Mr. Secretary, data that from the Department 
indicates that about two-thirds of the 36 million acres of federal land 
under lease for onshore oil and gas development are not in production. 
Indeed, the Bureau of Land Management processes Applications for 
Permits to Drill at a faster rate than industry spuds or completes new 
wells. Industry lags behind government. Yet BLM continues to issue 
leases on additional acreage, much of it in environmentally, 
historically or archeologically sensitive areas that have been proposed 
for wilderness designation or other protected status. Can you tell me 
why BLM continues to issue leases in sensitive areas when so much 
federal land already is under lease but not in production?
    Answer. The BLM takes an interdisciplinary approach to approving 
Applications for Permits to Drill (APDs), which includes the work of 
wildlife biologists, archaeologists, hydrologists, and botanists. 
Wildlife biologists are required to review APDs as part of their 
overall wildlife responsibilities. The BLM enlists its wildlife 
biologists during the permitting process to help complete environmental 
analyses, assess potential impacts to wildlife, and develop appropriate 
mitigation and best management practices for minimizing impacts to 
wildlife. The agency then places limits on when drilling can occur and 
takes numerous other measures to minimize the energy ``footprint'' on 
public lands.
    In addition, the President's FY2008 budget includes $3.1 million to 
address inspection and environmental issues associated with energy 
development. These funds will be used to perform an additional 1,560 
inspections to monitor the effectiveness of oil and gas lease 
stipulations at 272 locations.
    With regard to leasing outpacing production, this timeframe is 
anticipated. Each oil and gas lease is effective for 10 years and 
contemplates that production may not occur immediately, but must occur 
within the lease period or any extension granted for good cause. 
Exploration and production companies generally have significant 
inventories of leased acreage that do not have oil or gas production. 
These leased acreage inventories are normal and necessary for a 
company's efficient exploration and production program. Private 
individuals, as well as companies, often hold leases for speculation. 
Changes in corporate priorities resulting in management changes also 
sometimes lead to a company not developing a lease.

                             BLM PRIORITIES

    Question 329. Mr. Secretary, the Interior Department has pushed 
aggressively under the current Administration for the Bureau of Land 
Management to make oil and gas drilling on federal land its primary 
goal, particularly in Western states. Speaking to a House committee in 
2005, BLM Director Kathleen Clarke described her agency's energy 
policy: ``The processing of Applications for Permits to Drill and 
offering parcels of federal land for oil and gas leasing will be BLM's 
major priority.'' Critics inside and outside BLM say the agency's chief 
priority is opening more land for drilling, to the neglect of its other 
responsibilities. Numerous decisions by federal district judges and the 
Department's own Interior Board of Land Appeals have reversed BLM, 
ruling that agency managers rushed to allow drilling while ignoring 
other values of public land. BLM ``violated the National Environmental 
Policy Act and abused their discretion,'' a judge in Alaska ruled last 
year, blocking BLM plans to allow drilling in more than 400,000 acres 
of wetlands. BLM ``arbitrarily ignored new information--information 
produced by the agency itself--in an effort to approve oil and gas 
leasing and ultimately development of these lands,'' a judge in Utah 
ruled last year, reversing BLM's sale of 16 leases in federally 
recognized wilderness. How does this aggressive push to drill, above 
and beyond other considerations, not violate BLM's multiple-use 
management mandate, which is supposed to give environmental stewardship 
over our public lands just as much weight as energy production?
    Answer. BLM recognizes its multiple-use mandate. The FY 2008 
President's Budget request includes an increase of $3.1 million to 
support increased oil and gas inspections and monitoring to better 
ensure that oil and gas operations are conducted in an environmentally-
sensitive manner and that leasing permit terms are enforced. This 
increase is necessary so that the BLM's oversight capabilities can 
match the pace of industry's on-the-ground operations.
    The BLM's land use planning process also seeks to ensure that oil 
and gas development on public lands is done in a way that protects the 
environment. For example, the BLM recently issued an innovative 
Resource Management Plan (RMP) for limited, environmentally-sensitive 
oil and gas development on public lands in Otero and Sierra Counties in 
New Mexico. It is one of the most restrictive plans ever developed for 
oil and gas leasing on Federal lands. The plan will allow strictly 
regulated and carefully monitored activity, leading to a maximum 
surface disturbance of only 1,589 acres from well pads, roads and 
pipelines--less than one-tenth of one percent of the total surface area 
of 2 million acres. At most, there will be 141 exploratory wells 
drilled, resulting in up to 84 producing wells. Almost 36,000 acres of 
grasslands with the highest potential as habitat for the endangered 
Aplomado falcon will be closed to leasing and permanently protected. In 
addition, leasing will not be allowed in six existing and eight 
proposed Areas of Critical Environmental Concern and four Wilderness 
Study Areas--bringing the total number of protected acres to 124,000.

                       BLM INSTRUCTION MEMORANDA

    Question 330a. BLM Headquarters has showered field offices with 
Instruction Memos ordering them to change their permit processing 
procedures to allow more drilling (7/28/03 and 2/23/04); to issue 
permits to drill even as resource-management plans are being drawn up 
that might produce a reason to prohibit drilling in sensitive areas (8/
3/01); to put drilling projects on the fast track for approval (2/4/
02); to offer more generous waivers for land-use restrictions to 
facilitate drilling (7/28/03); and to require BLM employees to justify 
in writing any act that could adversely impact drilling and submit that 
justification, with an explanation of the lost drilling opportunity and 
their signature, to their state BLM directors, who then forward the 
justification to BLM headquarters in Washington (12/12/01).
    Please explain how are these specific Instructions are consistent 
with BLM's multiple-use mandates and the obligation of its employees to 
carry out those mandates.
    Answer. Directives within BLM (including Instruction Memoranda) are 
written under a tiered hierarchy, as are resource management plans. 
Directives support Federal regulations and BLM's multiple-use mandate 
as provided through the Federal Land Policy and Management Act (FLPMA). 
Directives may provide more specific, local guidance, but never 
contradict higher authority. Resource Management Plans also tier to all 
pertinent Federal regulations, including FLPMA. BLM employees at all 
levels are responsible for carrying out their day-to-day 
responsibilities in accordance with applicable directives, regulations, 
and statutes.
    Question 330b. Referring to the Instruction Memo of 12/12/01, which 
requires BLM employees to justify in writing any act that could 
adversely impact drilling, please tell me how many Statements of 
Adverse Energy Impact have been filed since 12/12/01, and from which 
field offices? In how many of those instances has the originally 
planned action (as stated in the ``Description of Action/Decision'' 
section of the Statement) been changed or stopped?
    Answer. The Instruction Memorandum to which you refer expired on 
September 30, 2003, was not renewed, and Statements of Adverse Energy 
Impact (SAEI's) are no longer prepared or used by the BLM. The SAEI's 
were ``post-decisional'' documents, which means they were never 
intended to be used to change decisions regarding resource use or 
development; they did not direct managers to make a particular decision 
or assure a certain outcome.
    A basic purpose for preparing SAEI's was to document decisions that 
adversely impacted development of energy resources and to explain the 
rationale why energy production and transmission could not coexist 
under Federal Land Policy and Management Act (FLPMA) multiple-use 
principles. Although the BLM did not keep files to track the SAEI's, we 
estimate that fewer than 100 SAEI's were prepared Bureau-wide. The BLM 
did not track them by field office.
    Question 330c. How is compliance with the Instruction Memoranda--
such as denial of energy projects, withdrawals, road closures, historic 
trails designations, scenic buffers, no-leasing zones, no surface 
occupancy and denial of access to mineral materials and the requirement 
to submit Statements of Adverse Energy Impact, factored into the 
performance reviews of BLM personnel? Are such Statements of Adverse 
Energy Impact entered or recorded in the employee's personnel file?
    Answer. Compliance with particular Instruction Memoranda is not a 
rating criteria included in the BLM's employee performance appraisal 
process. As noted in the prior answer, the IM regarding Statements of 
Adverse Energy Impact is no longer in effect, and such statements are 
no longer prepared. Nonetheless, it has not been, nor is it now, the 
BLM policy to keep a record of Statements of Adverse Energy Impact in 
employee personnel files.

                                 FRIMA

    Question 331. As you may remember from your years as Governor of 
Idaho, Congress established a program in 2000 to help local irrigation 
districts install fish screens and diversions to prevent fish from 
entering these systems--the Fisheries Restoration and Irrigation 
Mitigation Act of 2000, P.L. 106-502. The Fish and Wildlife Service 
even has a quote from you, as governor, endorsing this program in their 
report on the program's accomplishments, ``(t)he FRIMA program serves 
as an excellent example of government and private land owners working 
together to promote conservation. The screening of irrigation 
diversions plays a key role in Idaho's efforts to restore salmon 
populations while protecting rural economies.'' Millions of dollars are 
spent in the Northwest to restore fish runs and this is one small way 
to protect that investment. Unfortunately, the Department has never 
requested a single dollar to fund this program. Congress has 
appropriated some $12 million and we have a number of successful 
programs, but not because the Administration asked for those funds.
    Given FRIMA's track-record of successful projects, why doesn't the 
Department's U.S. Fish and Wildlife Service request funding for the 
program?
    Why doesn't the Department support allowing the Bonneville Power 
Administration to contribute funding to FRIMA projects?
    What is the Department's position on legislative reauthorization of 
FRIMA?
    Answer. Last September, in the 109th Congress, the Department 
submitted a statement for the record at a hearing on reauthorization of 
FRIMA that supported the program's principles, as they promote 
sustainable agriculture and sustainable fisheries and work toward 
restoring depleted, native fish stocks. I am pleased to say that the 
President's FY 2008 budget provides increases in the FWS's accounts 
that carry out much of this work. For example, the fish passage program 
was increased $6.0 million, allowing FWS to participate in the Open 
Rivers Initiative, which will work to remove small, obsolete dams that 
are a barrier to fish movement. Another $2.3 million increase will 
support implementation of the National Fish Habitat Action Plan, which 
fosters geographically-focused, locally driven, and scientifically 
based partnerships that will work together to protect, restore, and 
enhance aquatic habitats and reverse the decline of fish and aquatic 
species. Regarding the use of Bonneville Power Administration funds, 
the Department supports the use of Bonneville funding to projects that 
support these principles. There have been questions as to whether 
Bonneville's ratepayer funds should be used as the non-federal match in 
this program or whether doing so could result in less leveraging of 
limited federal funding, result in fewer funds being spent on these 
types of activities, and possibly slow efforts to restore salmon 
populations.

                  WATER RESOURCES RESEARCH INSTITUTES

    Question 332. Section 104 of the Water Resources Act of 1984, as 
amended, established a system of State Water Resources Research 
Institutes at land grant colleges and universities through a matching 
grant program funded by the U.S. Geological Survey. There are currently 
54 such institutes, one for each state, the District of Columbia and 
U.S. territories at a cost to U.S.G.S. of roughly $6.4 million per 
year. The program provides valuable, state-specific applied research on 
water resources issues as well as education and training opportunities. 
The USGS grants are highly leveraged with more non-USGS dollars 
supplementing every USGS grant dollar. In a extreme example of the old 
adage of ``no good deed goes unpunished,'' the Administration is now 
arguing that because the program is so successful, it is no longer 
deserving of Federal support and for the second year in a row, the 
Administration has proposed to terminate the Water Resources Institutes 
program outright. Again, as a former governor whose state benefited 
directly from this program, please explain why this important research 
partnership should be terminated.
    Answer. The limited amount of funding available for all programs 
requires the Department to make difficult decisions about priorities. 
The State Water Resources Research Institutes have been highly 
successful in leveraging the USGS grants under the Water Resources 
Research Act Program with other Federal and non-Federal funding. Due to 
the successful partnerships that the Institutes have been able to make 
with others, the Department anticipates that the majority of these 
Institutes will be able to continue operations without Federal grant 
funding.

                       SAVAGE RAPIDS DAM REMOVAL

    Question 333. I am pleased that progress is being made on the 
Savage Rapids Dam project on the Rogue River. Excavation for the 
pumping plant has begun, and I hope the Bureau of Reclamation will keep 
the contractor working as efficiently and quickly as possible given the 
deadlines established in federal court. The President's budget included 
$13 million in FY 07 for this purpose, although a specific 
appropriation for the Savage Rapids Dam was not enacted. With this in 
mind, please explain how much money the Bureau will actually spend on 
the project in FY 07.
    Answer. Reclamation plans to spend available funds on construction 
of the pumping plant based on the earnings schedule provided by the 
contractor Slayden Construction. Per their approved schedule, the 
contractor currently plans on being paid approximately $11.0 million in 
FY 2007. Any remaining funding for the project will cover Reclamation's 
construction management costs and other contractual commitments to 
support the construction effort, including PacifiCorps' design and 
construction of a power takeoff structure.

                          PILT/COUNTY PAYMENTS

    Question 334. The Administration's budget proposal includes an 18% 
cut to PILT and huge cuts and phase out of Forest County Safety Net. As 
discussed during the hearing, it does not appear that Interior or OMB 
did any analysis of what will happen to the public lands counties in 
this and the next few fiscal years as a result of these cuts. Because 
of the enormous importance of these payments to local governments 
throughout the country, please provide an analysis of the impact the 
proposed reductions will have on the level of funding the counties can 
expect given the current PILT formula.
    Answer. We appreciate the importance of PILT payments to local 
governments across the county. However, because of the complexity of 
the PILT formula we do not have the data necessary to perform an 
analysis of this magnitude.

     Responses of the Department of the Interior to Questions From 
                            Senator Cantwell

    Question 335. Secretary Kempthorne, the President's Department of 
the Interior budget proposal for 2008 has once again proposed to end 
federal support for local and state public parks and recreation by 
terminating the Land and Water Conservation Fund (LWCF) state 
assistance program. I believe the LWCF is one of this country's most 
important conservation laws and sources of funding for habitat and open 
space protection and that federal land acquisition can protect our 
existing public lands from the rapid pace of development and to protect 
habitat of endangered species, providing a relief valve for private 
lands. What impact will zeroing out stateside LWCF have in ongoing 
local acquisition efforts? Please provide a list of lands in Washington 
state that have utilized the stateside LWCF program since its 
inception. Do you know of any current proposals in Washington state 
that would be effected by the elimination of this program?
    Answer. It is unclear how changes in LWCF state grants affect local 
acquisition efforts, since State and local governments have alternative 
sources of funding. A complete list of lands that have utilized LWCF 
grant assistance in Washington since its inception in 1965 is not 
available. A list of the more than 550 projects that have been approved 
for funding in Washington since 1965 can be provided upon request. The 
following is a partial list of current proposals that potentially would 
be affected, subject to final selections at the State level, if the 
program is eliminated.

------------------------------------------------------------------------
              Sponsor                   Project Name       LWCF Request
------------------------------------------------------------------------
Evergeen Rotary Park Expansion....  Bremerton Parks &        $100,000.00
                                     Rec Dept.
Boeing Creek Park Renovation......  Shoreline City of...     $500,000.00
Wanapum Recreation Area Expansion.  State Parks.........     $500,000.00
Columbia Hills State Park           State Parks.........     $500,000.00
 Improvements.
Roger Malfait Community Park......  Skamania Co Comm         $108,000.00
                                     Events & Rec.
Cedar Grove Park Development--      Bothell City of.....     $268,000.00
 Phase II.
Upper Woodway Reserve.............  Woodway Town of.....     $218,500.00
Strawberry Athletic Fields........  Poulsbo City of.....     $201,306.00
West Hill Park....................  Pacific City of.....     $137,680.00
Redmond Spur Trail................  King County.........     $132,704.00
Discovery Park Capehart inholding   City of Seattle.....     $500,000.00
 acquisition.
------------------------------------------------------------------------

    Question 336. The National Park Service budget proposes only a 
single acquisition in its FY 2008 budget. Please provide the Park 
Service's priority list for projects that were not chosen for inclusion 
in the President's budget request.
    Answer. In FY 2008 the NPS is requesting $5,000,000 for Flight 93 
National Memorial and $4,000,000 for Civil War Battlefield Preservation 
Grants. There are currently over 11,600 acquisition projects in the 
National Park Service portfolio which may be considered for 
prioritization. The FY 2008 land acquisition priority list began with 
national consideration of 240 projects which represented the highest 
regional priorities for completion. Items on the list below (the top 60 
of 240), were prioritized during the FY 2008 budget formulation 
process. The top 11 priorities on the list and the $4 million for civil 
war battlefields have been funded in the FY 2007 operating plan.
    The priority projects are as follows:

----------------------------------------------------------------------------------------------------------------
                  Priority                                Project                  Cost        Tracts    Acres
----------------------------------------------------------------------------------------------------------------
1                                             Flight 93 NM..................      $5,000,000       20      1,556
2                                             Petrified Forest NP...........         135,000      N/A        N/A
3                                             Lewis and Clark NHP...........       2,500,000        1        200
4                                             Big Thicket NPres.............       2,000,000       10      1,037
5                                             Cape Cod NS...................       2,000,000        1         19
6                                             Acadia NP.....................         900,000        1         69
7                                             Gauley River NRA..............         550,000        3        178
8                                             Great Smoky Mountains NP......         250,000  ( \1\ )    ( \1\ )
9                                             Cuyahoga Valley NP............         300,000        2          2
10                                            Cumberland Gap NHP............         900,000        1        948
11                                            Chickamauga & Chattanooga NMP.       1,000,000        1         79
12                                            Mt. Rainier NP................       3,700,000        5        622
13                                            Carter G. Woodson Home NHS....         900,000        1       0.02
14                                            Golden Gate NRA...............       3,100,000        1        815
15                                            Cape Cod NS...................       3,000,000        1          8
16                                            Prince William Forest Park....         325,000        1       7.85
17                                            Ebey's Landing NHR............         500,000        1         39
18                                            Acadia NP.....................       1,600,000        2         40
19                                            Petrified Forest NP...........       2,750,000      150     10,000
20                                            Wrangell-St. Elias NP&P.......       1,500,000       10         20
21                                            Guilford Courthouse NMP.......         710,000        4          2
22                                            Grand Teton NP................       7,300,000        1         35
23 *                                          Virgin Islands NP.............       1,600,000        1         36
24                                            Klondike Gold Rush NHP........         600,000        3       0.49
25                                            Wilson's Creek NB.............       1,600,000        2         82
26                                            Cumberland Gap NHP............       1,900,000        1      1,897
27                                            Blue Ridge Parkway............         660,000        4        137
28                                            Guilford Courthouse NMP.......         750,000        3          5
29                                            Harry S Truman NHS............       1,000,000        2          5
30                                            Acadia NP.....................       1,000,000        1        138
31                                            Blue Ridge Parkway............       1,520,000        7        110
32                                            Gettysburg NMP................       1,225,000        1         80
33                                            Mojave NPres..................       1,000,000        8        846
34                                            Mt. Rainier NP................       2,150,000        1        155
35                                            Big Thicket NPres.............       6,000,000       39      5,787
36 *                                          Prince William Forest Park....       6,000,000        1        162
37                                            Cape Cod NS...................       1,100,000        1         11
38                                            Manassas NBP..................       1,800,000        3          9
39                                            Home of FDR NHS...............       2,200,000        1        334
40                                            Chickamauga & Chattanooga NMP.       3,000,000        1        140
41                                            Niobrara NSR..................         400,000        1         20
42                                            Wind Cave NP..................       6,700,000        1      5,555
43                                            Ft. Smith NHS.................         350,000        4          3
44                                            Alaska Region Administrative         1,500,000        4         12
                                               Sites.
45                                            Point Reyes NS................       1,500,000        6         42
46                                            Shenandoah Valley Battlefield        2,000,000        6        200
                                               NHD.
47                                            Mojave NPres..................       1,000,000       90      2,400
48                                            Natchez NHP...................         600,000        5          6
49                                            Olympic NP....................       1,550,000        2          3
50                                            Santa Monica Mtns. NRA........       3,000,000        3        277
51                                            Wilson's Creek NB.............         875,000        2         65
52                                            Nez Perce NHP.................         445,000        3        480
53 *                                          Fredericksburg & Spotsylvania        1,900,000        1         79
                                               NMP.
54                                            Virgin Islands NP.............       3,000,000        5         24
55                                            Obed Wild & Scenic River......         500,000        5        152
56                                            Olympic NP....................       2,000,000        4          4
57                                            Santa Monica Mtns. NRA........       6,000,000        6        244
58                                            Ebey's Landing NHR............       2,000,000       10        200
59                                            Timucuan EHPres...............       9,130,000        9        263
60                                            Grand Teton NP................       7,700,000        1         35
                                             -------------------------------------------------------------------
TOTAL.......................................  129,175,000...................             413   29,923
----------------------------------------------------------------------------------------------------------------
* Note.--As project dollars would increase, additional resources are needed in Acquisition Administration to
  obligate the funds and complete acquisition projects. Approximately $1 million Acquisition Administration
  funds, on top of the FY 2008 request, for each additional $25-$30 million of project funds.
 
\1\ Not applicable.

    Question 337. Secretary Kempthorne the President's proposed 
Department of Interior budget for 2008 proposes cutting more than $5.65 
million from the Federal Land budget in new budget authority. Despite 
the fact that the President's FY 2007 budget request included no funds 
for the Lewis and Clark National Historic Park, I understand that the 
National Park Service has identified this park among its top three 
priorities nation wide. How much does this budget allocate to land 
acquisition for the Lewis and Clark NHP? Please explain how this budget 
is consistent with NPS stated priority of securing land for the Lewis 
and Clark NHP.
    Answer. In 2004, Congress established the Lewis and Clark National 
Historical Park, an Administration proposal, as an expansion of Fort 
Clatsop National Memorial in Oregon. The new park includes three sites 
in Washington State. Since 2004, the National Park Service (NPS) has 
been working to acquire land to complete the park. Through extensive 
partnerships with federal, state, and local agencies, private 
businesses and private philanthropy, visitor facilities are being 
developed in the expanded park.
    Since FY 2002, $7.122 million in federal land acquisition funds 
have been made available. With these funds 1,413 acres have been 
purchased or are under contract. An additional 1,200 acres at Cape 
Disappointment in Washington are in the process of being transferred 
from the Army Corps of Engineers and Bureau of Land Management to NPS 
jurisdiction. In addition, the State of Oregon has spent approximately 
$1 million to acquire approximately 160 acres within the park boundary 
and for the park's Fort To Sea Trail and the State of Washington is 
spending approximately $5.5 million to purchase land and construct a 14 
acre park at the Station Camp unit of the park (where the Lewis and 
Clark Expedition completed their westward journey). Once the project is 
completed, the State will donate the park to the NPS to manage.
    In addition to the new lands and facilities in Washington, the 
park, with its partners have completed the new 6.5 mile Fort To Sea 
Trail and associated trailheads, a 1 mile Netul River trail and a new 
day use area at Netul Landing.
    The 2007 NPS operating plan includes $2,500,000 for the Lewis and 
Clark National Historical Park to acquire an easement on 200 acres to 
protect the viewshed at Station Camp.
    Question 338. Secretary Kempthorne, as you know, the Pacific 
Northwest is home to some of the nation's most spectacular parks, Mount 
Rainier, Olympic, the North Cascades, Crater Lake and Oregon Caves. 
However, there are areas outside the system that are just as deserving 
of park protection. Currently, bills to create new parks such as the 
Ice Age Floods National Geologic Trail, the Bainbridge Island Japanese 
Internment Memorial and the Columbia Heritage Area. All enjoy broad 
bipartisan Congressional and community support and would benefit the 
NW's environment and economy. What is the administration's current 
position on these bills? Besides the three bills currently working 
there way through Congress, do you believe there are other areas in the 
Washington and Oregon worthy of inclusion in the system, and if so 
please describe them?
    Answer. During the 109th Congress, the Department testified in 
opposition to H.R. 383, a bill to designate the Ice Age Floods National 
Geologic Trail. The Department opposed establishing the geologic trail, 
a new program, urging instead that the NPS increase the interpretation 
of the Ice Age Floods based at Lake Roosevelt National Recreation Area.
    The Department testified during the 109th Congress in support of 
H.R. 5817, a bill to authorize the addition of the Nidoto Nai Yoni 
Memorial located on Bainbridge Island, Washington to the boundary of 
the Minidoka Internment National Monument located in the State of 
Idaho. H.R. 5817 would have implemented the recommendation of the study 
that the NPS conducted in accordance with Public Law 107-363, the 
Bainbridge Island Japanese Memorial Study Act of 2002.
    The Department also testified during the 109th Congress in support 
of H.R. 5485, a bill to authorize the Secretary of the Interior to 
conduct a study to determine the feasibility of establishing the 
Columbia-Pacific National Heritage Area in the states of Washington and 
Oregon. The study would cover four counties close to the confluence of 
the Columbia River and the Pacific Oceans where there is a wealth of 
cultural, natural, and scenic resources as well as strong, broad-based 
local support for protecting and promoting these resources. In 
addition, the study requirements specified in H.R. 5485 were consistent 
with the criteria for National Heritage Area studies that are included 
in the Administration legislative proposal for a National Heritage Area 
program that was transmitted to Congress.
    The Department does not recommend areas to be included in the 
National Park system until a special resource study has been completed.
    Question 339. Secretary Kempthorne, parks such as Mount Rainier, 
Olympic and the North Cascades are critical to Washington's 
environment, economy and way of life. As you are well aware, these 
parks were hammered by recent winter storms. The Park Service's repair 
estimate is roughly $50 million. It seems large floods are becoming 
more common. In the past ten years at the North Cascades alone, the 
Stehekin River had ten floods that exceeded 10,000 cubic/feet/second. 
This is compared to only three floods of this magnitude between 1976 to 
1986. Our most recent November floods had flow rates of more than 
19,000 cfs. The third largest flood of record. Normal flow rates during 
this time are roughly 500 cfs. Does the Department of Interior have a 
theory as to why we are seeing more floods?
    Answer. This question suggests that the increased incidence of 
flooding could be related to global climate change. This possibility 
cannot be ruled out but we have not analyzed the data in order to reach 
a scientific conclusion regarding the causes of the floods described. 
At any spot on the globe, the climate is affected by local, regional, 
and global-scale influences. Thus, the significance of changes observed 
at any location depends on how large an area the site is able to 
represent for a specific climate change measurement. Sites located in 
regions of complex terrain (mountains, coastal zones) tend to have very 
large local climate effects and relatively short ``correlation 
lengths'' (e.g. changes in San Francisco may not correlate with changes 
only 50 km inland). It is very difficult to make inferences about 
global-scale climate change with data from a single site in such areas 
for most climate change measurements. However, an understanding of the 
local climate system does enable one to say whether the local changes 
are at least consistent with regional and global-scale climate changes.


</pre></body></html>
